<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-187]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-187
 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2010

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   on

                               H.R. 2847

   AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENTS OF COMMERCE AND 
   JUSTICE, SCIENCE, AND RELATED AGENCIES FOR THE FISCAL YEAR ENDING 
               SEPTEMBER 30, 2010, AND FOR OTHER PURPOSES

                               __________


                        Department of Commerce
                         Department of Justice
             National Aeronautics and Space Administration
                       Nondepartmental Witnesses

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
48-287                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
ROBERT C. BYRD, West Virginia        THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 JUDD GREGG, New Hampshire
PATTY MURRAY, Washington             ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
DIANNE FEINSTEIN, California         SAM BROWNBACK, Kansas
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN COLLINS, Maine
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
FRANK R. LAUTENBERG, New Jersey
BEN NELSON, Nebraska
MARK PRYOR, Arkansas
JON TESTER, Montana
ARLEN SPECTER, Pennsylvania

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

    Subcommittee on Commerce, Justice, Science, and Related Agencies

                BARBARA A. MIKULSKI, Maryland, Chairman
DANIEL K. INOUYE, Hawaii             RICHARD C. SHELBY, Alabama
PATRICK J. LEAHY, Vermont            JUDD GREGG, New Hampshire
HERB KOHL, Wisconsin                 MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
DIANNE FEINSTEIN, California         LAMAR ALEXANDER, Tennessee
JACK REED, Rhode Island              GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      LISA MURKOWSKI, Alaska
BEN NELSON, Nebraska                 THAD COCHRAN, Mississippi (ex 
MARK PRYOR, Arkansas                     officio)

                           Professional Staff

                            Gabrielle Batkin
                            Jessica M. Berry
                             Jeremy Weirich
                         Art Cameron (Minority)
                        Allen Cutler (Minority)
                       Goodloe Sutton (Minority)

                         Administrative Support

                              Michael Bain
                         Katie Batte (Minority)


                            C O N T E N T S

                              ----------                              

                        Thursday, April 23, 2009

                                                                   Page

Department of Commerce: Secretary of Commerce....................     1

                         Thursday, May 7, 2009

Department of Justice: Attorney General..........................    51

                         Thursday, May 21, 2009

National Aeronautics and Space Administration....................   105

                         Thursday, June 4, 2009

Department of Justice: Federal Bureau of Investigation...........   175
Nondepartmental Witnesses........................................   203

 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2010

                              ----------                              


                        THURSDAY, APRIL 23, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senators Mikulski, Reed, Pryor, Shelby, Alexander, 
and Murkowski.

                         DEPARTMENT OF COMMERCE

                         Secretary of Commerce

STATEMENT OF HON. GARY F. LOCKE, SECRETARY


            opening statement of senator barbara a. mikulski


    Senator Mikulski. The Subcommittee on Commerce, Justice, 
and Science of the Senate Appropriations Committee will come to 
order.
    This is our first hearing on the fiscal year 2010 
appropriations for this subcommittee and for the 111th 
Congress.
    Today, we are beginning with the Commerce Secretary, Gary 
Locke. Secretary Locke brings an incredible background and has 
an incredible agency to do it.
    First of all, I believe that President Obama made a very 
good pick. Secretary Locke was formally the Governor of the 
State of Washington. He is well known for his commitment to 
innovation in his own State, to being a stickler for far-
reaching management, and really comes with a commitment to 
innovation and experience in dealing with the Pacific Rim where 
so much of the future of the economy is tied.
    He has a compelling personal narrative as well, and we are 
just glad to have him.
    The Commerce Department itself is a very unique agency, and 
it was created to promote commerce, but the commerce of the old 
century is not the commerce of the new century. This is why the 
Secretary, bringing a very forward-looking viewpoint and a 
President who has put the resources in, put the people in, 
really wants to have that commitment.
    This should be the innovation agency. It should be the 
agency that really fosters the idea of an innovation-friendly 
Government, whether it is ensuring that people do not stand 
forever in order to get a patent, or that we protect our 
intellectual property and we view it as part of our homeland 
security. Additionally, agencies like the National Institute of 
Standards and Technology develop the standards for the new 
ideas and the new technologies so that our private sector can 
invent the new products to create jobs here and compete in the 
world.
    We also know that the agency is being called upon in the 
area of NOAA, which is so important to providing jobs to us in 
the coastal States--not providing jobs, but overseeing those 
things that impact on jobs. And we all know every single 
Senator depends on NOAA, whether it is to warn us of tornadoes, 
hurricanes, or to provide the information that farmers, 
factories, and people need. We also know that it is all part of 
green science which President Obama is advocating.
    Last but not at all least, it also has the important Census 
Bureau, and we in this committee believe that everybody counts 
in this country and everybody should be counted. So these are 
the big jobs of this agency.
    But we have had unrealistic funding for science programs, 
very little funding for technology and manufacturing 
partnerships, and then there have been really incredible 
management and cost overrun issues in terms of the NOAA 
satellites and also the census.
    This hearing today will be reviewing both the 
appropriations request and also what this Secretary wants to do 
with accountability.
    We know that the Department of Commerce was allocated 
sufficient funds for the stimulus package. We will be asking 
both today and in the days ahead how is the stimulus really 
promoting commerce in our country on issues like broadband and 
increased funding.
    But we also want to see increased accountability on the 
management issues facing the Commerce Department. The primary 
one that has such an immediate urgency is the 2010 census. The 
other has been the poor oversight of NOAA's satellite programs, 
and then both with this Secretary and his predecessor, our 
ongoing conversation about the need to reform the patent and 
trademark process. While our friends in Judiciary oversee 
patent law, we have to make sure there is a Patent Office 
infrastructure so that we have an innovation-friendly 
Government.
    Once again this year, I am pleased to say my ranking member 
will be Senator Richard Shelby. Senator Shelby and I have 
served in both the House and the Senate together. We have 
worked on this subcommittee now for more than 4 years, and we 
bring a spirit of bipartisanship, absolute civility and 
cooperation and consultation, and we intend to continue that. 
We believe that when we work together, we govern best.
    I would like to just say a few words now about the census. 
We take our constitutional obligation very seriously to have an 
accurate census. In 2009, we provided $3.14 billion to do it, 
$2.4 billion through the regular appropriations process and $1 
billion in the American Recovery Act. Senator Shelby and I have 
deep, deep concerns about the census management. We are 
concerned about the techno-boondoggle that has occurred, the 
tremendous loss of money, and the tremendous loss of 
opportunity. We learned that handheld computers could not be 
fully implemented. Census had to go back to pen and paper. 
Well, we might as well go back to the stylus and papyrus. I 
mean, this is the United States of America. It is being 
conducted under the Commerce Department, which is supposed to 
be the innovation agency, and we cannot get a handheld computer 
to work right to go knock on a door and ``say are you the 
person that really lives here?'' So we are really cranky about 
this.
    Moving beyond cranky into really absolute frustration is 
the accountability at the Patent and Trademark Office. We know 
that we have to have a well functioning Patent Office. My State 
is not only home to so much of our biotech innovation, the home 
to NIH and FDA, but a vibrant private sector that develops 
biotech companies as well.
    If we had our biotech executives here, they would say we 
stand in two lines in order to move our research into the 
clinical area. We stand in the FDA line for safety and 
efficacy. We want to be able to do that. But we also stand on 
the PTO, the Patent Office, and while we are standing in line, 
waiting sometimes 5 years, other people are in line overlooking 
our shoulder stealing our ideas. We cannot have that. The 
biggest intellectual theft in the world is going on, and it is 
because we have a stagnant operation there.
    So we have talked about reform. The talk is over. Now it is 
time for action.
    Then we have the NOAA satellite situation. Satellites at 
NOAA account for 25 percent of their total funding. Satellites 
are critical to predicting and warning about weather and 
observing changes in the Earth's climate. With an expected $1.3 
billion request, we want to get value for our dollar. We have 
now triggered a Nunn-McCurdy-like process to get our satellites 
under some type of fiscal discipline, and we need to know how 
is the Department going to handle the independent 
recommendations that have been made to put it back on track.
    We know you have a commitment to these. We know, Mr. 
Secretary, you have a commitment to it. We know that the 
President has a commitment to it. You bring a great deal of 
management know-how. We want to make sure we put the money in 
the checkbook in order to be able to accomplish these goals of 
ensuring jobs in America and saving our planet and also 
counting the people that are in our country so we know who we 
are, where we are and where we need to go.
    I would like to now turn to my able colleague, Senator 
Shelby, for his opening statement.


                 STATEMENT OF SENATOR RICHARD C. SHELBY


    Senator Shelby. Thank you, Madam Chairwoman. Welcome, Mr. 
Secretary.
    As Senator Mikulski has said, we have worked extremely well 
together on this subcommittee sharing many of the same goals 
and expectations for the agencies that this committee oversees. 
Senator Mikulski, I am pleased to serve beside you once again, 
and I look forward to working with you in a bipartisan fashion.
    Mr. Secretary, as I just said, welcome to the committee. I 
look forward to learning more about the soon-to-be-released 
2010 budget request and look forward to working with you in the 
years ahead.
    The Nation relies heavily on the Department of Commerce to 
maintain America's competitiveness within the markets around 
the world. The Department provides revenues to promote the 
products and services of U.S. businesses and then helps to 
level the playing field by expanding, strengthening, and 
enforcing our international trade agreements. Through the 
Department of Commerce, our country is able to maintain high 
technical standards as well as staying on the cutting edge of 
scientific research, all of which, Mr. Secretary, as you know 
well, are fundamental to our Nation's leadership in the global 
market.
    The Department of Commerce plays a vital role in our 
Federal Government and is in dire need of a leader to oversee 
the programs and agencies that are in distress. I believe they 
have found one. Within the past year alone, we have learned of 
failures at the Census, cost and schedule overruns within 
NOAA's satellite acquisition programs, insufficient fee 
collections at the Patent and Trademark Office, as well as 
numerous IT failures and mismanagement cues.
    The most serious looming crisis is the census crisis, which 
Senator Mikulski alluded to. Time is running out and there is 
great uncertainty for what was predicted to be the most modern 
and accurate census ever conducted. Census managers, Mr. 
Secretary, spent 8 years struggling to automate the information 
collection process by implementing the use of handheld devices 
that would produce more accurate data to save time and tax 
dollars. Managerial failures and incompetence have caused those 
plans to be scrapped and the census will once again be taken, 
it is my understanding, with paper and pencil. The price tag 
for this ineptitude raises the cost of the 2010 census.
    I am also concerned with the potential for political 
mischief in the execution of the 2010 census. The 
administration's announcement that the census would receive 
direct oversight by the White House staff is troubling. 
Statistics collected by the census play a critical role in how 
important decisions are made, including how over $300 billion 
in Federal funds are distributed annually. Mr. Secretary, given 
the broad reach of the data and how it influences the direction 
of these funds, the 2010 census must remain free of political 
tampering.
    The nominee for Census Director previously advocated the 
use of mathematical estimates, known as sampling, to lazily 
back-fill and inaccurately represent the count of our Nation's 
residents. This approach was reviewed by the Supreme Court 
during the 2000 Census, and if advocated again for use in the 
future, a political party could disproportionately steer 
Federal funding to areas dominated by its own members. This 
could shift billions of Federal dollars over the next years 
from some parts of the country to others because of population-
driven spending formulas.
    By allowing sampling, some States could also potentially 
end up with more Members of Congress at the expense of others. 
By overcounting in one State and undercounting in another, 
manipulation could take place solely for political gain.
    The census should be conducted in a fair and accurate 
manner for all political parties and people using the best 
methods to determine the outcome. The 2010 census is not an 
estimate, but a constitutionally mandated count of the entire 
population.
    Mr. Secretary, one of the more important agencies under the 
Department of Commerce to my home State of Alabama is NOAA, 
which Senator Mikulski has also referenced. The gulf coast 
still lacks the infrastructure, research, and support from NOAA 
that other regions of the country have perpetually received. 
Just this past Sunday, at least 10 tornadoes touched down in my 
State of Alabama, killing two people.
    You see the chart here, showing billion-dollar climate and 
weather disasters across the United States from 1980 to 2008. 
Look where most of them were. In the Southeast.
    This NOAA chart--and that is their chart--shows the 
vulnerability of the southeastern United States to weather-
related disasters. It plots the largest instances of billion 
dollar weather-related catastrophes that have occurred in the 
United States since 1980. The loss of life and the destruction 
of property from hurricanes and tropical storms account for 
more than half of all damages, $367 billion. If we add the cost 
of other weather events, such as heat waves, droughts, and 
flooding, the cost nearly doubles to $652 billion.
    While not all of these events, Mr. Secretary, are limited 
to the Southeast, NOAA's own research shows that the Southeast 
experiences more severe weather events than any other part of 
the country. Yet, federally funded climate and weather research 
in the region has lagged.
    To start to balance this, last year, working with the 
chairwoman, I provided funding for NOAA to work with the 
Southeastern universities to establish the Cooperative 
Institute for Southeast Weather and Hydrology. I am hopeful 
this will be the beginning of a coordinated effort to better 
understand the dynamics of weather and hydrology in the region 
and bring the citizens of the Southeast a semblance of balance 
in emergency forecasting and research services equal to those 
provided by NOAA in the Midwest.
    Mr. Secretary, I am also disappointed in the Department's 
lack of oversight on NOAA's satellite programs. NOAA is 
spending billions of dollars to develop two satellite systems 
that provide critical weather and environmental data, the 
National Polar-Orbiting Operational Environmental Satellite 
system, NPOESS, and Geostationary Operational Environmental 
Satellite-R series, GOES-R.
    The NPOESS satellite system was supposed to cost $6.5 
billion for six satellites. I know you were not here then. It 
is now estimated that taxpayers will be handed a bill for $13.9 
billion for only four satellites that are less capable than 
originally planned. Something is amiss. This program is a 
complete failure for NOAA and an even bigger failure for the 
taxpayers.
    It is also my understanding, Mr. Secretary, that there are 
internal deliberations at the Department of Commerce to reward 
the contractor with the option to build two additional NPOESS 
satellites. My question to you to consider is how can you 
reward a contractor that has blatantly failed in its mission 
and cost the taxpayer billions in cost overruns. In other 
words, how do you evaluate that and how do you reward failure? 
If you choose to go forward with this effort, I believe that I 
will oppose it.
    The second satellite program is also a grave failure. The 
GOES-R satellite procurement was a $6.9 billion program for 
four satellites which has now ballooned into a $7.7 billion 
program for only two satellites with a delivery date 6 years 
behind schedule.
    The acquisition history of these two satellite systems, as 
well as the failed acquisition of the census handhelds, 
demonstrates that management and acquisition oversight does not 
exist at the Department of Commerce. I want to work with you to 
ensure that you have the tools necessary to perform contract 
oversight so that the Department can correct the agencies it 
manages and avoid the mistakes in the future.
    Finally, Mr. Secretary, no NOAA construction funding was 
provided to the Gulf of Mexico within the stimulus spending 
bill, while the Pacific Coast received more than $262 million 
in construction funds. While I am happy for the Pacific Coast 
communities, I want to know how and why the gulf coast was 
neglected and look forward to hearing your explanation.
    I am also looking forward to hearing your thoughts on the 
Department of Commerce's budget request and look forward to 
working with you as the committee crafts the 2010 budget.
    Thank you, Madam Chairman.
    Senator Mikulski. The committee wants to acknowledge that 
Senator Alexander from Tennessee is here. Senator, if you would 
be kind enough to withhold your statement until Secretary Locke 
makes his, then we will give you extra time to say a few words 
and go into your questions. Is that agreeable to you, Senator?
    Senator Alexander. Yes. I am going to have to leave 
shortly. But Senator Pryor is here----
    Senator Mikulski. Yes, but you came before Senator Pryor. 
We also want to note that Senator Pryor is here, our newest 
member to the committee. You are way down there, but you are 
moving up pretty fast.
    Senator Pryor. Thank you.
    Senator Shelby. But we have all been down there, have we 
not?
    Senator Mikulski. We have all been down there. And when we 
hear from Secretary Locke, we all know we have been down that 
road before too.
    Secretary Locke, why don't you present the President's 
request to us and then we will jump right in with our 
questions?


                  STATEMENT OF SECRETARY GARY F. LOCKE


    Secretary Locke. Chairman Mikulski, Ranking Member Shelby, 
and distinguished members of the subcommittee, Senator 
Alexander and Senator Pryor, I am pleased to join you today to 
talk about the Department of Commerce. I would like to make 
just a very brief opening statement while also submitting more 
comprehensive written testimony for the record.
    It is my top priority to make certain that the Department 
of Commerce plays an integral role in President Obama's efforts 
to help America reboot, retool, and reinvent. The President's 
budget reflects the Department's broad mandate to strengthen 
the Nation's economy, promote innovation and environmental 
stewardship.
    More than that, I have challenged our employees to 
establish the Department of Commerce in the eyes of the Nation 
as a voice for main street businesses and family wage jobs and 
to work to grow local economies by fostering innovation and 
opening markets to U.S. products and services.
    To that end, the President's 2010 budget for the Department 
includes some $13.8 billion in discretionary funds. This is an 
increase of $4.5 billion over the 2009 fiscal year 
appropriation of $9.3 billion, not counting Recovery Act 
appropriations. The large increase is due primarily to the 
decennial census, with extra funding of $4.1 billion.
    While most of the details of the 2010 request are still 
under development, I am happy to share some highlights, and of 
course, I look forward to providing the rest in the near 
future.
    This budget contains the resources necessary to complete 
the 2010 census effectively and on time, counting everyone 
once, only once, and in the right place. The allocation 
combined with the $1 billion that the Congress provided in the 
Recovery Act will enable us to hire nearly 1.5 million 
temporary workers over the next year. And I want to assure you 
that we have instituted numerous management and oversight 
changes in response to findings by the Government 
Accountability Office and our Inspector General and the 
concerns of the Congress.
    And I want to indicate to Senator Shelby that we have 
absolutely no intention, no plans whatsoever to use any type of 
statistical sampling in the reapportionment issues or the 
apportionment for the Congress. We will follow the Supreme 
Court ruling that statistical sampling is not allowed and that 
we will have a physical hard count of people.
    The request includes more than $1.3 billion for the 
National Oceanic and Atmospheric Administration satellite 
programs that capture key weather forecasting and climate data, 
as well as resources to advance climate and ocean research and 
support implementation of the Magnuson-Stevens Act.
    Our weather satellite programs, as have been noted by the 
chair and by the ranking member, have been the focus of much 
concern by the Congress and oversight committees. Progress is 
being made to implement the recommendations of the GAO and the 
Inspector General and lessons especially from the NPOESS 
program have been incorporated with respect to the GOES-R 
program, but we still have challenges and much more work to be 
done.
    The President's plan includes doubling the funding over 10 
years for the National Institute of Standards and Technology's 
research activities that are critical to the Nation's 
technology infrastructure, as well as $125 million for the 
Hollings Manufacturing Extension Partnership program and $70 
million for the Technology Innovation Program.
    The Economic Development Administration will provide $50 
million in grants to support the creation of regional 
innovation clusters and also $50 million to create a nationwide 
network of public-private business incubators to promote 
entrepreneurial activities in distressed areas.
    The President's budget also supports the International 
Trade Administration's efforts to promote exports and eliminate 
barriers to the sale of U.S. products and services and to 
continue to give the U.S. Patent and Trademark Office full 
access to its fee collections.
    I want to indicate that I have met with labor 
representatives of two of the major employee organizations 
representing POPA, as well as the unit that represents the 
trademark employees. We simply must work together with the 
employees and management and the stakeholders to drastically 
reduce the time it takes to process patents and to have patents 
issued. Otherwise, we are denying a key part of our economic 
recovery. It is important to get these innovations 
commercialized as soon as possible and to allow the American 
people to benefit from a lot of these technologies, whether 
drugs or innovations or products.
    I want to thank you for entrusting the Department with 
nearly $8 billion in Recovery Act funds. We have provided our 
proposed spend plans and will keep you informed of our 
progress.
    The National Telecommunications and Information 
Administration, NTIA, will have the biggest challenge: 
implementing the $4.7 billion to improve broadband deployment.
    Besides planning for the next year and making sure that we 
use current resources effectively, I am focused on addressing 
the key management issues facing the Department, and these 
include conducting a successful 2010 census, improving and 
shortening the patent process, managing our satellite 
deployment and acquisition program, and strengthening our 
overall information technology infrastructure within the 
Department of Commerce.


                           PREPARED STATEMENT


    Your support has been and will be critical to our efforts, 
and I appreciate the chance to hear your views on these 
subjects.
    Thank you again for the opportunity to come before you 
today, and I look forward to your comments and your questions. 
Thank you very much.
    [The statement follows:]

                  Prepared Statement of Gary F. Locke

    Chairwoman Mikulski, Ranking Member Shelby, and distinguished 
Members of the Subcommittee, I am pleased to join you today to talk 
about the Department of Commerce. It is a privilege to serve the 
American people and I am grateful for the confidence President Obama 
has in my ability to lead this great agency. While this is my first 
opportunity to work with you as Secretary, I realize that the 
subcommittee has a critical role in achieving the Department's mission.
    The Commerce Department has a broad mandate to strengthen the 
Nation's economy, and promote innovation and environmental stewardship. 
The means by which we achieve these goals are vast and varied, and the 
37,000 public servants under my watch work daily to achieve them. As 
announced in February, the fiscal year 2010 President's Budget includes 
$13.8 billion in discretionary funds for the Department, a major 
increase over fiscal year 2009 due primarily to the Decennial Census. 
We look forward to announcing the full details of the President's 
Budget in the near future.
    This budget contains the resources necessary to complete the 2010 
Census effectively and on time, with an increase of more than $4 
billion. Combined with the $1 billion Congress provided in the American 
Recovery and Reinvestment Act (ARRA), these resources will enable us to 
conduct the Nation's largest peacetime mobilization by hiring nearly 
one and a half million temporary workers. The Census Bureau will also 
focus extensive advertising and partnership activities on hard-to-reach 
populations, to encourage a high response rate. All of this will be 
done with the goal of the most complete and accurate count of the 
Nation's population to date.
    The request provides more than $1.3 billion for satellites that are 
essential to the National Oceanic and Atmospheric Administration's 
(NOAA) ability to capture weather forecasting and climate data. 
Resources are also provided to advance climate and ocean research, and 
support implementation of the Magnuson-Stevens Act and its requirement 
to end overfishing by 2011. These resources build upon the $830 million 
provided in the ARRA and will enable NOAA to meet critical mission 
needs.
    This budget supports the National Institute of Standards and 
Technology's (NIST) advanced measurement and standards activities that 
are critical to the Nation's technology infrastructure. The President's 
plan for investments in science includes doubling research funding 
within NIST over 10 years. The request includes $125 million for the 
Hollings Manufacturing Extension Partnership program to enhance the 
competitiveness of manufacturers by facilitating the adoption of 
efficient manufacturing processes. The Technology Innovation Program 
will receive $70 million to invest in high-impact research that will 
tackle critical national needs and advance innovation. These two 
programs had been proposed for termination in the fiscal year 2009 
President's Budget. In addition, the ARRA includes $220 million for 
NIST's scientific research activities and lab equipment and $180 
million for construction of NIST facilities.
    The Economic Development Administration (EDA) will support 
economically distressed communities in their efforts to develop 
strategies for long-term growth with higher-skilled and higher-wage 
jobs. EDA will provide $50 million in regional planning and matching 
grants to support the creation of regional innovation clusters. EDA 
will also use $50 million to create a nationwide network of public-
private business incubators to promote entrepreneurial activities in 
distressed areas. Oversight of the $150 million provided to EDA in the 
ARRA for economic adjustment assistance and infrastructure funding, 
with priority for areas experiencing severe job losses, will remain 
active during fiscal year 2010.
    In fiscal year 2010, the National Telecommunications and 
Information Administration (NTIA) will continue its important work of 
managing the Federal use of spectrum and performing cutting-edge 
telecommunications research and engineering, including resolving 
technical telecommunications issues for the Federal Government and 
private sector. In addition, NTIA will be administering the $4.7 
billion provided in the ARRA to expand broadband deployment and 
adoption, and will soon have completed the coupon program for the 
transition to digital television funded in the ARRA and the Digital 
Television Transition and Public Safety Act.
    The President's Budget will also fully support the International 
Trade Administration's efforts to promote exports from small businesses 
and eliminate barriers to sales of U.S. products, and give the U.S. 
Patent and Trademark Office full access to its fee collections, which 
will provide resources to strengthen the Office's ability to encourage 
innovation and safeguard the value of intellectual property through 
more efficient and higher quality patent and trademark examinations.
    While most of the details of the fiscal year 2010 request are still 
under development, I would also like to discuss and listen to your 
perspectives on the key management challenges facing the Department. 
Our Inspector General has identified several issues for my immediate 
attention, including overcoming the setbacks experienced in 
reengineering the 2010 Census, better positioning the Department to 
address information security risks, effectively managing the 
development and acquisition of NOAA's environmental satellites, 
establishing a safety culture at NIST, and ensuring NTIA effectively 
carries out its responsibilities for the digital transition. I'm 
pleased to report some progress in those areas, as the Census has 
entered its address canvassing phase using handheld computers, and NTIA 
has eliminated its coupon backlog since receiving ARRA funds, for 
example.
    Some challenges are unique to Commerce, and some are common in the 
Federal Government and the Nation as a whole. The Department has to 
upgrade its aging infrastructure, and effective management is critical 
to these efforts. We are very pleased that the administration plans to 
use ARRA funds appropriated to the General Services Administration for 
the next stages in the multi-year renovation of our headquarters, the 
Herbert C. Hoover Building.
    In closing, since its creation the Department of Commerce has 
played a pivotal role in a wide range of efforts important to the 
Nation. While we are currently facing challenging economic times 
domestically and internationally, to quote President Obama ``the time 
has come to usher in a new era of responsibility that lays a new 
foundation of growth on which we can renew the promise of America.'' I 
am excited about leading the Department into that era.
    Thank you for the opportunity to come before you today, and for 
your continuing support of the Department of Commerce and its programs. 
I look forward to your questions.

    Senator Mikulski. Thank you, Secretary Locke.
    We want to acknowledge that our colleague, Senator 
Alexander, is one of the candlelighters at the Holocaust 
Memorial remembrance that will occur very shortly. So Senator 
Shelby and I, as a courtesy, would like to turn to Senator 
Alexander. We know you have a very poignant job to do in a few 
minutes. So why do you not go first and then it will come back 
to us.
    Senator Alexander. That is a great courtesy, Madam 
Chairman. Senator Shelby, I thank you. I will only make two 
comments and then turn it back to the chairman.
    Well, first, I thank Governor Locke for coming by to visit. 
I told him, Madam Chairman, that I always welcome the addition 
of Governors to the Senate and to the administration. I think 
it brings a can-do spirit to the Nation's capital that we 
always like to see.
    And I look forward to working with you. This is a very 
important subcommittee. It works well together, focuses on our 
competitiveness and the implementation of the America Competes 
Act, which we all worked on and passed in 2007, which has 
received some additional funding this year. But we would like 
to keep the parts of that that belong in the Department of 
Commerce moving at a good rate. There is a very bipartisan 
focus on that and strong support out in the country for those 
efforts.
    In that line, I am very supportive of NOAA's recent 
decision to locate its supercomputer for climate change 
research at the Oak Ridge National Laboratory. Governor Locke 
is well aware of Oak Ridge and of our national laboratory 
system since he comes from Washington State. I would say 
publicly what I said to him privately. I would invite you to 
visit Oak Ridge and see the computer operation there and see 
other activities that might fit within the Department's 
mission.
    Finally, I would like to encourage you and the 
administration to support the Colombia Trade Promotion 
Agreement and let us get that settled and behind us. I was glad 
to see the President in Latin America last week. Some of those 
countries are better friends of ours than others right now, and 
Colombia is one of our best friends. The Colombia Trade 
Promotion Agreement would end a one-way benefit for Colombia 
because most Colombian goods already enter the U.S. duty-free. 
We would like for ours to do the same. It tends to isolate us 
from them and forces them toward other countries in the world 
when we want to encourage a friendship.
    So it is good for American business, good for American 
farmers, good for our State, good for Washington State, all 
States. So I would hope that the President and you, working 
with the Congress, could find a way to make the Colombia Trade 
Promotion Agreement something that the Congress can agree to.
    So welcome to Washington. I look forward to working with 
you.
    I thank the chairman for her courtesy.

              REFOCUSING ON DEPARTMENT OF COMMERCE MISSION

    Senator Mikulski. We will be seeing you shortly, Senator.
    Secretary Locke, the first thing that I want to just 
acknowledge is that I am very proud of the fact that a 
substantial number of agencies within the Commerce Department 
portfolio are headquartered in my State. They are NOAA, NIST, 
and Census. And I had the opportunity to interact with the 
leadership there as well as the staff. I want you to know that 
throughout your agency, there are what I call the worker bees, 
those wonderful people that under the old pay scale were the 
GS-5s through the 15s. They really have kept our Government 
going. In some instances, they have had good leadership and in 
some instances not.
    In our hearings, we tend to focus on ``the problem 
agencies'' but I hope we also take a look at all of the 
agencies and acknowledge the tremendous assets that we have in 
our Civil Service population. When you go over to NIST, which I 
hope we will have a chance to go together, you will see a civil 
servant that is a Nobel Prize winner. A civil servant is a 
Nobel Prize winner, and he is on the job right now today not 
only winning prizes but thinking the thoughts to win the 
markets.
    That is why I was so pleased that you met with the Patent 
Office staff. We have to look at the fact that our workers are 
not problems, but they are part of the solution. I believe that 
some of the issues around contracting out, lack of resources 
and so on, were at times very demoralizing to our staffs.
    So, therefore, what I am saying to you, as we look at it, 
what we need to do is look at the mission of the agency, what 
it is that the President wants to do, but also we need to look 
at the three R's, which is to reinvigorate our Civil Service, 
and we do it by the right leadership, respect and resources. 
This is not hard to do but it takes a real commitment to do it.
    Then I think we need to refocus on the mission of the 
agency while we dig our way out of the problems, but also where 
it is working like at NIST and other agencies, we really need 
to keep the momentum going.
    So I just want to thank you for it. It was refreshing to 
hear that you met with the Patent Office workers there. So we 
are going to work with you on this.

                      CENSUS MANAGEMENT CHALLENGES

    But having said those sweet things, I have got to get to a 
problem child which is the census. We are very concerned about 
the census. My first question goes to the fact that we put 
money, working with Secretary Gutierrez and in the stimulus, to 
right the wrong. But what we would like to know now is what are 
the resources that it is going to take for you to be able to do 
the census. We have two issues: the short term, which is to 
make sure we get the census done, and then the step of 
procurement reform and what are we going to do about this 
contractor that had this cost-plus contract and which we are 
out billions of dollars.
    So can you tell us if we have the assurance that the census 
is going to be done right? What do we need to do to be able to 
help you do that?

                           COMMERCE EMPLOYEES

    Secretary Locke. Thank you very much, Madam Chair.
    With respect to your overall comments about reinvigorating 
and respecting our employees, as well as refocusing our 
mission, I first want to indicate that I have already been out 
to NIST and met with the employees and toured the facility and 
met with the great scientists that are there. I have also been 
out to the Census Bureau already and met with all the employees 
there and toured their facilities. I have not yet been to NOAA.
    But I do want to say that, first of all, the Secretaries 
come and go and the political leadership of these agencies come 
and go. They know that we come and go. And we know that they 
are there for many, many years and do outstanding work. I 
believe it is absolutely vital that in all of the challenges 
that we have and all the programs that we have, that we need to 
rely on the expertise, the sense of pride and professionalism 
of the employees to help us become more efficient, more 
effective, and to deliver these programs that are so badly 
needed in the heartland of America.
    Throughout the rest of America, it is story after story of 
local governments, State governments and businesses furloughing 
people, cutting benefits, eliminating jobs, laying people off, 
and people are very, very worried about their future. And we 
here in the Federal Government have an opportunity, a 
responsibility to execute our mission as efficiently and 
effectively as possible, as quickly as possible, and to get the 
economy going again providing good family-wage jobs throughout 
all of America.
    I am really proud of the great professionals that we have, 
career people throughout all the agencies of the Department of 
Commerce, and it is my mission, one of my goals, as you say, to 
reinvigorate them, to provide them the respect so that they can 
say with great pride that they are an employee of the 
Department of Commerce, whether it is Census, whether it is 
NOAA, whether it is NIST, whether it is EDA, that they can say 
with pride that they work at the Department of Commerce.

                      CENSUS MANAGEMENT CHALLENGES

    With respect to the Census, we have made a lot of changes 
with respect to management, with respect to oversight functions 
and programs at the Census, following the debacle over the 
handheld computers. The handheld computers were to have done 
two things: to provide automation as they verify addresses--and 
that is ongoing right now, and they still are using those 
handheld computers for that particular function, and it appears 
to be working well.
    The other function of the handheld computers was to do the 
actual knocking on the doors, the enumeration, to get to the 
folks that did not mail in the census questionnaire after April 
1, 2010. Because of problems there, that entire project was 
canceled, but costing us several millions of dollars of wasted 
funds.
    That to me is completely unacceptable. Throughout all of 
the contract programs and technology programs that we have in 
the Department of Commerce, I believe that we should not be 
paying people unless they have actually performed, and until 
they have actually performed, they should not get most of their 
payment. So I believe that we need to completely change our 
contracting procurement processes, whether it is for satellites 
or for handheld computers for census or whether it is just 
mainframe computers and technology within the Department of 
Commerce for everyday functions.
    We have also followed up on the suggestions and the 
recommendations of the Government Accountability Office, as 
well as our Inspector General. There are now monthly status 
reports that are given to the Secretary's Office, as well as 
OMB, but within the Census Bureau, they now have weekly reports 
focusing on high-risk areas with milestones and metrics so that 
senior management can see what is happening and to respond 
immediately.
    They also have a chief testing officer to oversee the 
testing efforts of these new programs and activities that have 
not yet been done before. Especially now that we are going back 
to paper and pencil, we have a whole bunch of processes that 
need to be evaluated----

                        ACCOMPLISHING THE CENSUS

    Senator Mikulski. Mr. Secretary, are you confident that, 
number one, the census is going to happen? Number two, you have 
to hire lots of people. This is going to take money. It is 
going to stretch the FBI. Tell us what is required because this 
is an appropriations hearing as well. It sounds like you have 
really been standing sentry over the GAO and other 
recommendations. What is it going to take to do it? Do you have 
adequate resources to do this? Do you need resources? What 
about this in terms of the security clearances needed?
    Secretary Locke. Well, with respect to the resources, we 
believe----
    Senator Mikulski. My time is running out on these 
questions. So I get 5 minutes to cover the whole Commerce 
Department.
    Secretary Locke. I believe that we do have the funds 
sufficient to conduct the census and we are monitoring it very, 
very aggressively. We feel that the President's proposal is 
sufficient.
    With respect to the security clearances, what has been 
happening so far is that the FBI has been able to provide us 
the FBI fingerprint checks and the criminal background checks 
in an expeditious manner without interfering with other 
functions of the FBI.
    It is a pilot right now. We will find out what is happening 
at the end of this current hiring process to make any 
recommendations with respect to the other million people that 
we will hire in the spring.

                         FBI BACKGROUND CHECKS

    Senator Mikulski. This subcommittee also funds the FBI, and 
we know that our FBI is really tremendously stretched. They are 
fighting organized crime. They are fighting terrorism. We have 
now asked them to take on the mortgage fraud area, et cetera. 
And at the same time, they have got to do all these security 
clearances.
    We are very firm that we must guard vulnerable populations 
against any potential predators that could be coming into their 
homes or their communities. So we want the background 
screening. We want the background checks. How that is defined 
we want to know about and then also about the resources. So if 
you are old, if you are a child, et cetera, we need to protect 
access to vulnerable populations. That is our job.
    How many people are you going to hire?
    Secretary Locke. Over a million people.
    Senator Mikulski. A million people. That is a lot to put on 
the FBI, the database, et cetera.
    Now, the FBI does not have a great technology record. This 
whole committee has been through a boondoggle with them to the 
loss of billions. They are now working with a private sector 
firm where their own data system and case management is 
tremendously improved, but they do not have an A-plus record. 
Okay? So let us not be in la-la land that all this is going to 
work.
    I believe in what President Reagan said, trust but verify. 
I trust that what the FBI told you is so, but we really want 
verification.
    And then second, if you are going to bring a million people 
on line and the FBI is not just sitting around waiting for its 
database to be used, we wonder then, as they come into the 
system, will this crash the system? What is this going to cost 
the system, et cetera? So we really need to be up on this now 
since now taking the census is going to be so much more labor-
intensive. The FBI has a spotty record on its own technology 
functionality.
    And number three, you cannot be screening a million people 
in a short period of time and not have issues. So we would like 
you to keep us abreast of both cost and operation.
    I have used my time. I would like to now turn to Senator 
Shelby.

                          CENSUS PARTNERSHIPS

    Senator Shelby. Thank you, Madam Chairman.
    Mr. Secretary, a lot of us were alarmed when it was 
discovered that the Census had plans for using ACORN as a 
partner in the 2010 census. ACORN employees, as you probably 
know, were found to be fraudulently registering voters for 
elections. Given ACORN's political history, a lot of us feel 
that the Census Bureau should not partner with organizations 
that have shown systemic problems with both accuracy and 
legitimacy.
    It leads me to this. What is the Department of Commerce and 
the Census Bureau, under your leadership, doing to ensure that 
groups such as ACORN are adequately investigated prior to their 
involvement in something as important as the 2010 census? And 
the next question, is the Census in desperate need of support 
as to be willing to take anyone and everyone who applies? Could 
that not be a dangerous path?
    Secretary Locke. Thank you very much, Senator Shelby.
    First of all, the Census will not be hiring anyone from 
ACORN. We use these so-called partners to get the word out and 
to spread the word about the need for people to respond and 
answer the questionnaires.
    Senator Shelby. How will that work? Just reassure me.
    Secretary Locke. Well, for instance, we have a maximum--I 
believe $2,999 that we are willing to spend to help 
organizations get the word out. We will not make any payments 
to those partnership organizations. We pay the bills whether it 
is to pay the rent of a hall for a town meeting or to print, 
using our materials, materials that they can pass out.
    Senator Shelby. But they will not be taking the census, 
will they?
    Secretary Locke. No. We control the hiring. We do not use 
any Government funds to subcontract with any organization to do 
any activity----
    Senator Shelby. You are not going to delegate it, in other 
words.
    Secretary Locke. We are not delegating anything to ACORN.
    Senator Shelby. To anybody.
    Secretary Locke. Or anybody.
    Senator Shelby. I like that.

                            NOAA SATELLITES

    NOAA satellites. What degree of confidence do you have in 
the new cost and schedule estimates? And if you are confident, 
tell us why since every other estimate has turned out to be 
grossly exaggerated. And what is the level of risk of 
continuity of weather and our climate data and what contingency 
plans are being considered? If you do not have this, you can do 
this for the record.
    Secretary Locke. I think we will have to give you a more 
detailed response.
    [The information follows:]
                               Satellites
    For the polar-orbiting satellites, the on-orbit and recently 
launched satellites are performing well and there is no immediate risk 
to data continuity for NOAA's weather and climate missions. We are 
concerned about the fragility of the constellation that begins to occur 
in 2013. This risk to data continuity occurs in the 2013 timeframe due 
to the schedule delays that the National Polar-orbiting Operational 
Environmental Satellite System (NPOESS) is facing.
    NOAA is placing highest priority on the acquisition of this system 
to mitigate this risk. NOAA will use data from NASA's NPOESS 
Preparatory Project (NPP) sensors to produce data that meet or exceed 
the data from NOAA-19 (our current operational satellite). We have 
plans in place to make operational use of the data from the NPP 
spacecraft by increasing the number of products NOAA had planned to 
generate from the NPP system as a risk reduction mission.
    NOAA has a contingency plan in the event there is a failure of any 
of its operational systems. This plan depends on using existing NOAA 
satellite assets, leveraging data from NASA and Department of Defense 
environmental satellites, and forging partnerships with international 
space agencies to acquire data needed to support NOAA's operational 
weather and climate mission. NOAA is also investigating opportunities 
to fly a mission with the legacy imager Advanced Very High Resolution 
Radiometer (AVHRR) in the event VIIRS continues to experience 
developmental challenges

    Senator Shelby. I know you are new there, and I believe 
from your background, you want to do a good job and you will do 
a good job. But you are going to have to get your arms around 
those costs there because ultimately, as Senator Mikulski has 
pointed out, you come back up here to the committee and we have 
trouble finding money if the costs keep going up and up in not 
just your agency, but the FBI, everywhere else because we will 
be allocated a finite amount of money to deal with this. You 
know? You spent two terms as Governor, so you can understand 
what we----
    Secretary Locke. There are very limited funds, and cost 
overruns in satellite programs only eat up into the dollars 
available for other programs.
    Senator Shelby. Great overruns, gross overruns. But you 
will get back with us on that.
    Secretary Locke. I will. And let me just say that the GAO 
has already done a progress report in April 2009 saying that, 
for instance, the GOES-R program has incorporated a lot of the 
lessons learned from the NPOESS program. Still a ways to go, 
but they have revised cost estimates. But the GAO still points 
out some concerns and has made some recommendations that we 
intend to follow to try to get a better handle on the satellite 
acquisition program.

                   DEVELOPMENT OF SUSTAINABLE SEAFOOD

    Senator Shelby. Mr. Secretary, you know very well about our 
fisheries and seafood, coming from Washington State and serving 
two terms as Governor there. Safe and sustainable seafood is 
vital to the U.S. economy, food security, and our livelihood. 
The development of a sustainable marine aquaculture industry 
will provide jobs for the commercial fishing industry, severely 
depressed by competition from imported seafood products.
    What research extension and marketing programs will the 
Department of Commerce provide to foster development in this 
area?
    Secretary Locke. Thank you very much.
    As our wild fishery stocks decline, it is very important 
that we are able to complement the wild stocks with 
aquaculture. NOAA really needs to engage in a program of 
research and setting up criteria and rules by which safe, 
environmentally sustainable aquaculture can operate, and right 
now we do not have any such rules, regulations, or guidelines. 
And that is something that must be done, given the fact that 
Americans want safe----
    Senator Shelby. Are you going to provide leadership there? 
Will you work with us on that?
    Secretary Locke. Yes. We intend to pursue this and to help 
develop those guidelines.

                          INTERNATIONAL TRADE

    Senator Shelby. Touching on international trade, Mr. 
Secretary, our long-term economic growth--and this is an area 
you have done a lot of work in--and job creation must include, 
I believe, an exporting component. In recent years, exports 
have only accounted--listen to this--for 12 percent of our GDP. 
In fact, we export less than many other of the major G-20 
nations.
    What can the Department and ITA do to help more United 
States firms begin exporting, realizing there is a big market 
in the world, and to further expand our Nation's exporting 
capabilities? I think that is crucial for the Department of 
Commerce.
    Secretary Locke. I think we really need to break down some 
of the silos that exist between some of the bureaus within the 
Department of Commerce. Trade, exports is not simply a function 
of the International Trade Administration, but also should be 
part of our Economic Development Administration working with 
companies, employers, large and small, on those opportunities 
for export and trade.
    Senator Shelby. Good. Thank you. I am through.
    Senator Mikulski. I hope you feel better.
    Senator Pryor, our newest member?

                          BUSINESS INCUBATORS

    Senator Pryor. Thank you, Madam Chairman. It is great to be 
here, and thank you for doing this today. I understand the time 
sensitivity, so I am going to keep my questions brief and 
really just focus on two areas.
    But first, let me thank you for coming to Arkansas last 
week. It was great to have you. Madam Chair, I think the first 
trip he made outside of the District was to Maryland to some of 
those facilities there, but the first trip out of the D.C. 
area, he came to Arkansas last week and we really appreciate 
it. Thank you for being there.
    Let me ask, if I may, about a comment you made about--I 
think you said $50 million for public-private partnerships and 
business incubators. I have a bill on science parks or 
technology parks or business incubators. Tell me how you 
think--is it $50 million a year? Is that what it is?
    Secretary Locke. Yes, it is.
    Senator Pryor. And tell me how you think the Department 
will use that money and what your criteria will be for that.
    Secretary Locke. Well, we are going to be developing the 
criteria, but really it is going to be looking at proposals 
from local communities where we would partner with those local 
organizations, economic development organizations, nonprofits, 
colleges, universities. Obviously, we want to help leverage our 
funds and be a complement to those local efforts. Obviously, if 
it is a science park, if people want to create a science park 
and use that as part of an incubator, that could be a very 
strong proposal.
    So we have no template, no cookie cutter approach, but 
general policies that we will draft, along with the grants that 
we now use, for instance, in the Economic Development 
Administration, competitive grants, but obviously, the more 
partnership at the local-State level that there are, then the 
stronger that proposal will be. Obviously, it is incumbent 
upon--even with regional clusters, that regions and 
municipalities and parts of the country focus on what their 
strengths are, what their dreams and aspirations are, and using 
the Federal dollars to help them achieve that mission.
    Senator Pryor. I am glad you are focused on that. In fact, 
the building you were in at the University of Arkansas at 
Little Rock on that campus where you did your town hall meeting 
actually has a component of it that is a business incubator, 
and it is exactly what you have talked about. It is a great 
example of a success story.

                BROADBAND TECHNOLOGY OPPORTUNITY PROGRAM

    Let me change gears, if I may, and ask about broadband, the 
BTOP, the Broadband Technology Opportunities Program. Can you 
give us a status report on that? Particularly I am wondering if 
you are working with States to try to find the right way to 
implement that and what your schedule might be on that.
    Secretary Locke. We have just closed the public comment 
period on how governments and the private sector and academia 
and policy people feel those broadband dollars should be 
distributed. It is roughly $4.7 billion out of NTIA, and then 
there are significant funds through the Department of 
Agriculture. Both Agriculture, Commerce, and FCC have been 
coordinating and trying to develop these policies with all the 
stakeholder input, over thousands and thousands of comments and 
ideas on how to distribute these dollars, ranging from direct 
distribution to the Governors and to the States, to a 
combination of direct distribution to the States, as well as 
grant proposals coming into the Federal agencies.
    We hope within a few months to announce the final criteria 
after receiving all of this stakeholder input, digesting all of 
that, and there will be, I do not believe, one-size-fits-all 
criteria. The unserved vary from State to State. So we need to 
figure out a program that has maximum flexibility but, I 
believe, accomplishes significant national purpose or national 
goals so that at the end of the day, people will look back and 
say that with the broadband funds, limited as they are, that we 
were able to accomplish some very significant milestones or 
achievements with respect to high-speed Internet service all 
across America.
    Senator Pryor. Thank you, Madam Chair.
    Senator Mikulski. But following up on Senator Pryor's 
question, when do you think you will issue the guidelines to 
apply for grants?
    Secretary Locke. We have submitted the spend plans to the 
Congress. It is our intent to have the guidelines finalized, 
made public to America sometime in the early summer of----
    Senator Mikulski. So if you are from Arkansas--like we in 
Maryland have the Maryland Broadband Cooperative, which is like 
a little TVA for broadband in our rural communities--when would 
they be able to apply for grants?
    Secretary Locke. It is our intent--we are all shooting for 
early summer 2009, and with the grants actually going out the 
door beginning in the fall 2009.
    Senator Mikulski. Okay, thank you.
    I am going to ask a few more questions. I just want to 
apprise my colleagues the Holocaust Memorial starts at 11 
o'clock. So we are going to want to move expeditiously.
    I would like to thank Senator Pryor for raising EDA and 
broadband. These were two issues I was going to cover.

             DIGITAL TO ANALOG CONVERTER BOX COUPON PROGRAM

    While Senator Reed is getting himself together from 
Banking, I want to go to the digital coupon program. We are 
very concerned about whether this is really going to work. 
Could you bring us up to date on where you are on the digital 
coupon? Again, we were short on money. Everybody did this 
famous countdown so we knew it was changing, but then nobody 
knew that in addition to a converter box, they needed an 
antenna and so on.
    Are you looking at this program related to the digital 
coupons not only to help our people be able to afford the 
conversion, but at the same time, get them what they need to 
conduct the conversion in a proper way and not just by buying 
every gizmo that they think is going to help them?
    Secretary Locke. We have transferred from NTIA within the 
Department of Commerce some almost $66 million to the FCC to 
help us get the word out for a smooth transition, public 
service announcements especially in targeted populations and 
targeted parts of the country.
    Senator Mikulski. We got the announcements.
    Secretary Locke. Yes.
    Senator Mikulski. What we need to know is if the content in 
the announcements is worth anything, and number two, do you 
have enough money for really dong the coupons?
    Secretary Locke. We believe that we do have the funds 
necessary to get the coupons out. We noticed that not all the 
coupons that have been distributed have actually been redeemed, 
but we have ample supply of coupons and funds for coupons that 
will go out even after the conversion on June 12.
    We have already had some test markets and data from all the 
major media markets shows that around 95 to 97 percent of the 
households are ready for the conversion.
    Now, we can only get the information out to people. I still 
have some concerns about the quality of the information, 
whether people truly understand these public service 
announcements. Some of these are funded by the private sector, 
but do they really understand what is happening and what they 
are about to face on June 12? So we are looking at upgrading 
the quality of the content of the public service announcements 
and the commercials.
    Second of all, the data shows that most of the top 50 media 
markets around the country--some 95 to 97 percent of the 
households are equipped for the change.
    Senator Mikulski. Well, Mr. Secretary, this is terrific 
because, number one, I am glad you are taking it so seriously 
and are so hands-on on it.
    First, in terms of the quality of the content, people 
really need know to buy the right technology.
    Second, I believe that there is a portion of the population 
that will not focus until they go to turn on the TV and it does 
not work. Therefore, I presume that this program will have to 
exist for another year after the date of conversion when people 
get their wake-up call, if you will, to that. We want to 
continue to work with you to make sure it is happening.
    I will come back to satellites quickly and another quick 
one on the census. But let us turn to Senator Reed, a brother 
coastal Senator. We have been through it with the fisheries, 
have we not, Senator Reed, and our fishermen and watermen 
facing disasters and then at times dealing with Commerce was a 
disaster?

                    ECONOMIC ASSISTANCE TO FISHERIES

    Senator Reed. Well, Madam Chairman, thank you.
    Senator Mikulski. It is a little prickly point.
    Senator Reed. It is. But I want to thank you for your not 
only interest but your effective support because you ensured 
there were $10 million in the last budget for New England 
ground fisheries, and this is just absolutely critical to my 
fishing industry. Without your leadership, it would not have 
happened, and I thank you.
    I want to welcome the Secretary. As we said yesterday, Mr. 
Secretary, I think Dr. Lubchenco, the new NOAA Administrator is 
doing a very good job in her first few days as the point person 
for your Department on these issues.
    As you know and as Senator Mikulski alluded to, in the 
Northeast we are transforming the management of the ground 
fishery to a quota-based catch share system. It is a process 
that works well elsewhere. But we need to ensure that there is 
a continued investment in that activity. As I mentioned, 
Chairman Mikulski was extraordinarily helpful in securing $10 
million for New England's fisheries and Dr. Lubchenco's recent 
announcement of a $16 million investment in groundfish was 
welcome news.
    So the question is, can we assume that you will continue 
this transition by adequately funding it as we go forward and 
prioritizing this support going forward?
    Secretary Locke. Senator Reed, we know that for these new 
fishing regimes to be effective, there has to be economic 
assistance to those affected in the fishing industry, as well 
as having the funds to do the research, to set up the data 
management systems, and to comply with other Federal laws, and 
not to have the fishermen and the fishing industry pay for some 
of these costs. So it is our intent to continue to move forward 
and provide this economic assistance to the fishing industry.
    Senator Reed. Thank you very much, Mr. Secretary.
    Then there is another aspect of this, and that is the 
cooperative research which goes on between the fishing industry 
and the National Marine Fisheries Service and NOAA. It helps 
provide not only support for the fishing industry, but also 
developing new gear and more accurate stock assessments. I hope 
that you would also include this cooperative research as a 
priority in your budget.
    Secretary Locke. We are assuming that. We know that we need 
that type of research to be effective.
    Senator Reed. Well, thank you very much. Thank you, Madam 
Chairman, and thank you, Mr. Secretary. I look forward to 
working with you.
    Senator Mikulski. Mr. Secretary, because of the memorial, 
we are going to conclude this hearing. I have additional 
questions about NOAA. I think what you will observe is that we 
have a great admiration for NOAA, but it needs a lot of reform. 
We believe that the President has picked the right person in 
Dr. Lubchenco and look forward to working with her on this.

                  RECRUITING FOR TEMPORARY CENSUS JOBS

    One final question on the census. These 1 million people. 
We are getting a lot of questions from ethnic heritage groups. 
How and when will people be able to apply for those 1 million 
jobs?
    Secretary Locke. We anticipate receiving the applications 
in the early winter, shortly after 2010, and the hiring and the 
interviewing process will be probably in March so that they are 
up and running in April, receiving some training so that they 
can hit the field. But we know that to have a successful 
census, we need to have outreach to populations that typically 
do not trust government or do not speak English very well. So 
that is going to be the cornerstone of a successful census. 
Outreach, public service announcements, paid advertisements, 
and enumerators that go door to door from those hard-to-reach, 
hard-to-count populations so that those whose doors they knock 
on feel more comfortable seeing a person of their own ethnicity 
or background at the door.
    Senator Mikulski. That is exactly right. We are already 
getting these requests, as I said. The heritage groups in the 
Latino community are well known, but I have a substantial Asian 
community as well. And people are really eager to participate 
and believe that they have the people to recommend for these 
jobs who would love to be able to do them. I believe there is a 
cornucopia of opportunity in our great American mosaic. We have 
these vibrant heritage organizations that can help us recruit 
and do outreach with the personnel that are multilingual and 
would meet the security test.
    The other area for us to give consideration is realtors. As 
you know, so many people in the real estate community are small 
business people--in many instances, primarily women--women and 
men who know their communities cold. Well, they have not been 
as busy as they once were. And the reason I say that is perhaps 
for Census to also look, during this economic downturn--for 
those who not only work in the community--but know the 
community. They know the people. They are familiar with it. 
They are not running around with a GPS saying ``where is 
Montford Avenue?'' and, ``am I in Fells Point?'' which is in 
Baltimore, or Horn Port, which is out on the Chesapeake Bay.
    So I would also consider that this could be an opportunity 
for recruitment with people who are versed with talking with 
people, know the community, are paperwork-oriented, and could 
get the job done. There might be some who were in that field. 
But again, I would discuss it with the National Association of 
Realtors.
    Secretary Locke. Thank you. We could always use more 
partners.
    Senator Mikulski. Senator Murkowski, we were just getting 
ready to wrap up to go to the Holocaust Memorial.
    Senator Murkowski. Madam Chair, if I may just very, very 
briefly ask a question about fisheries and the Denali 
Commission.
    Senator Mikulski. Go ahead.

                   FUNDING FOR THE DENALI COMMISSION

    Senator Murkowski. Thank you, Madam Chairman.
    Thank you, Mr. Secretary. It is a privilege to have another 
westerner sitting in this very important seat as Secretary of 
Commerce and I welcome the opportunity to be working with you 
in these coming-up years.
    Two issues that I want to touch on this morning, and I 
appreciate the consideration of the chairman in giving me a 
couple minutes this morning.
    The Denali Commission, very, very important to us in the 
State of Alaska in terms of how we address some of our very 
critical needs, whether it is water and sewer, whether it is 
bulk fuel infrastructure projects, education, and certainly 
when it comes to health care. It has been a critically 
important partnership between the Federal Government, the State 
of Alaska and tribal organizations with really the chief goal 
being to improve the standard of living in rural Alaska through 
investments in transportation, in infrastructure, rural power 
systems, alternative energy projects, bulk fuel, health 
clinics, teacher housing. It really runs the gamut, and I 
believe it has become a prime example of how Government should 
operate.
    The Commission traditionally has been funded by Congress 
through the annual appropriations process, but I would like to 
work with you to see, as we move forward, if we can get that 
funding for the Commission included in the President's budget. 
I would just ask for your assistance in working with me on this 
important initiative.
    Secretary Locke. I would be delighted to work with you and 
explore funding issues on that.
    Senator Murkowski. Great. I appreciate it. The Commission 
is set to be reauthorized this year, and I am going to be 
working with my colleague, Senator Begich, on this. But we will 
look forward to working directly with you.

                  SUSTAINABLE MANAGEMENT OF FISHERIES

    On fisheries, so critically important not only to my State 
of Alaska, certainly your home State of Washington. But our 
fisheries are truly the lifeblood of coastal Alaska. Very 
substantial interest in making sure that we have the best 
scientific information to continue the management of our 
fisheries in a sustainable way. And I believe that the Federal 
funding that we have seen for fisheries science, at least in 
Alaska, has been inadequate for a number of years.
    There has been discussion and you have indicated that 
funding the full implementation of the Magnuson-Stevens Act and 
its requirements to end overfishing will be key to you. Well, 
we do not have any overfished ground stocks in Alaska. We want 
to keep it that way.
    We have got some fundamental stock assessment surveys, such 
as the Gulf of Alaska pollock survey, that are in danger of not 
being performed due to lack of funding. If NMFS is unable to do 
the survey because they do not have adequate funding, the 
implications on a huge industry can be quite sizable, having a 
negative effect that are far greater than the cost of any 
survey there.
    I guess my question to you this morning, Mr. Secretary, is 
whether or not you agree that funding basic fisheries science 
such as these surveys should be prioritized, and do you intend 
to increase funding for this type of research within the 
budget?
    Secretary Locke. I would have to get back to you with 
respect to the President's proposal on the funding for that 
specific scientific activity, but obviously, we cannot be 
successful in having sustainable harvests, having sustainable 
fisheries if we do not have the science and the scientific data 
to drive those policy decisions. So science is the key. It has 
to be a priority, and without the science, everything else is 
for naught.
    [The information follows:]

                        Basic Fisheries Science

    Assessment of fish stocks is a high priority for the administration 
in order to maintain sustainable fisheries and protect their ecosystem. 
Implementation of Annual Catch Limits and other provisions of the 
Magnuson-Stevens Reauthorization Act must to be based on the best 
scientific information available. The Administration recognizes that 
high quality fish surveys, fishery monitoring, and stock assessments 
are necessary to attain optimum yield while confidently preventing 
overfishing.
    The Alaska Fisheries Science Center conducts fishery surveys to 
measure the distribution and abundance of fish and crab stocks in the 
Aleutian Islands, eastern Bering Sea and the Gulf of Alaska. The 
research surveys use a range of sampling techniques, measurement 
equipment (including acoustic instruments), and fishing gear (trawls 
and longlines). Survey data derived are analyzed by Center scientists 
and supplied to fishery management agencies and to the commercial 
fishing industry.
    The Expand Annual Stock Assessment--Improve Data Collection (EASA) 
and the Survey and Monitoring budget lines fund survey, monitoring, and 
stock assessment activities. Funded at $1.7 million in fiscal year 
2001, the EASA budget line has grown to provide NMFS with increased 
funding and capacity to conduct fish surveys, fishery monitoring and 
stock assessments nationwide. Of the $40.5 million for EASA in fiscal 
year 2009, $2.7 million is used for these activities in Alaska. The 
Survey and Monitoring budget line for fiscal year 2009 is $17.0 
million, of which $4.0 is provided to the Center for survey activities 
in Alaska.
    NMFS continues to increase the number of stock assessments needs in 
Alaska and elsewhere. In fiscal year 2010 we are requesting an 
additional $9.9 million in EASA and an additional $6.3 million for 
survey and monitoring.

                          OCEAN ACIDIFICATION

    Senator Murkowski. Well, I would agree with you. That is 
another area that we would like to be working together with you 
to make sure that we have got the resources to advance that 
science.
    On the ocean acidification----
    Senator Mikulski. Senator, we are really going to have to--
--
    Senator Murkowski. I am going to wrap up right now, Madam 
Chairman, and I appreciate it. I just wanted to mention we all 
recognize, as we are talking about climate change, what we are 
seeing with the ocean acidification as one of the greatest 
threats to climate change. And we do not have any funding for 
that. So, again, areas of science and research that I would 
hope that we could be working on.
    Madam Chairman, I have got a couple other questions about 
Arctic issues and endangered species.
    Senator Mikulski. Yes. I want to just again pledge our 
support. It is just this very poignant ceremony and we need to 
be rather prompt in our----
    Senator Murkowski. And I appreciate your additional time. I 
will submit my additional questions to the Secretary for his 
comments.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Mikulski. We both have a big investment in NOAA. So 
we look forward to working with you.
    Senator Murkowski. We look forward to working with you.
    Senator Mikulski. Mr. Secretary, as you can see, there is 
no end to the topics that we could discuss with you. This is 
the first of what we would hope would be many conversations, 
both formal and informal. But the committee extends its hand to 
you in partnership and ongoing conversation.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

           Questions Submitted by Senator Barbara A. Mikulski

                                 USPTO

    Question. Patent and Trademark Office's (PTO) budget authority is 
based on the amount of fees the agency expects to collect each year. 
For fiscal year 2009, Congress gave PTO authority to spend $1.9 
billion. Yet, due to the downturn in the economy, businesses are filing 
less applications, which means PTO is collecting less fees. As of March 
13, PTO collected $100 million less fees than predicted. Yet, PTO needs 
$1.9 billion to operate in order to continue processing applications 
and to hire additional examiners to reduce backlog. What is the plan to 
address this short fall in fee collections?
    Answer. The budget is built based on the necessary requirements and 
resources needed to accomplish the goals and objectives detailed in the 
USPTO strategic plan. Like any business, if projected fee collections 
are insufficient to fully meet the resource requirements for the year, 
the agency strives to prioritize critical activities (i.e., patent and 
trademark examination).
    Due to current economic conditions, the agency anticipates end of 
year fee collections will be approximately equal to actual collections 
in 2009. In response, USPTO management has made decisions to implement 
cost-saving measures, which include:
  --Fiscal year 2009 Patent Hires Frozen at 600 attrition replacements
  --Instituted an exception hiring process to limit hiring to critical 
        vacant positions or areas of need.
  --Eliminated Discretionary Awards and essentially stopped Non-Revenue 
        Generating Overtime
  --Curtailed Revenue Generating Overtime
  --Significantly curtailed Training Expenditures not required to 
        sustain job-critical qualifications or that was already 
        obligated.
  --Suspended the Law School Reimbursement Program
  --Reduced spending IT System Development/Improvement Efforts
  --Reduced spending Patent Workload-based Contracts
  --Reduced spending Non-IT Contracts/Services
  --Reduced global IP training programs and conferences, and reduced 
        international travel
  --Reduced domestic Travel and Supply Purchases
    Question. What steps will PTO take if fee collections continue to 
decline?
    Answer. Should the economy continue to decline resulting in further 
reductions to USPTO resources, several options still exist to reduce 
funding requirements including:
  --Suspending all patent examiner recruitment & retention bonuses
  --Suspending all production and revenue generating overtime
  --Further reducing spending on IT infrastructure strengthening and 
        replacement projects
  --Further reducing global IP training programs and conferences, and 
        reducing international mission travel
  --Reducing IT and non-IT operational support functions
    The USPTO is working with my staff and the Office of Management and 
Budget to improve the current operating model so that it can 
responsibly accommodate both positive and negative changes in the 
economic landscape. We look forward to engaging Congress to develop the 
optimal model to ensure continued USPTO success.
    Question. How will this affect the current backlog?
    Answer. The USPTO had planned to hire 1,200 patent examiners in 
fiscal year 2009. In an effort to address the short fall in fee 
collections, the office now plans to hire only 600 patent examiners. 
The agency would have expected the additional 600 examiners to process 
approximately 6,000 applications in fiscal year 2009. However, given 
the decline in patent application filings, USPTO's current projections 
of average wait times, which are contained in the 2010 Budget are lower 
than the same projections made in the 2009 Budget.
    Question. The Commerce Inspector General concluded PTO is one of 
the top management challenges facing the Department. The patent backlog 
continues to grow, and is on track to have a backlog of 800,000 cases 
this year with the average time to process an application is almost 3 
years. In the past, PTO blamed funding shortages for the problem, yet 
even with increased funding, the problem seems to be getting worse. 
What steps will the new Secretary take to reduce the backlog?
    Answer. For clarification, the USPTO anticipates the backlog at the 
end of the year will be approximately 740,000. This estimate reflects 
that the USPTO anticipates a decrease in its backlog by approximately 
10,000 cases this year.
    Hiring--while not the sole answer to reducing the backlog--remains 
an important means for examining record numbers of new patent 
applications. In 2005, when the USPTO set a strategic goal of hiring 
1,000 new examiners per year, many in the public said that it couldn't 
be done. Yet, the USPTO successfully hired and trained these new 
employees, and then went on to hire and train over 1,200 new patent 
examiners in fiscal year 2007 and fiscal year 2008. These new patent 
examiners have helped cut into the patent backlog, by decreasing the 
rate at which the backlog was increasing.
    In addition to hiring, providing patent examiners with training, 
mentoring, better electronic search and examination tools, and 
reviewing ways to improve the quality of patent applications are 
reforms the USPTO is pursuing to help it reduce the backlog. 
Additionally, the Accelerated Examination option introduced in August 
2006, allows any applicant to obtain a patent decision within 12 
months. To date, over 3,060 of patent applications have been filed 
under the Accelerated Examination program.
    Question. In 2008, GAO report found that PTO hiring efforts were 
not sufficient to reduce the backlog of patent applications. For every 
patent examiner PTO hired, the agency lost two patent examiners. Patent 
examiners leave because cost of living in DC is high, they want more 
hands on experience, and the private sector offers better 
opportunities. GAO found bonuses; special pay rate and opportunities to 
work remotely would greatly increase retention. The GAO in June 2005 
recommended 2 steps to improve hiring and retention of examiners, which 
included improving communications between management, patent examiners 
and union officials. Fostering greater collaboration will resolve 
issues underlying the quota system and the need for continuous 
technical training. What is the current staff retention rate?
    Answer. To clarify a misstatement in the question, for every two 
patent examiners hired, the USPTO loses one patent examiner. The USPTO 
does not lose two examiners for every one hired. The attrition rate is 
an overall rate based on the entire examiner population.
    The current patent examiner overall attrition rate, as of April 
2009, is 6.8 percent. This figure translates to a 93.2 percent 
retention rate.
    Since the GAO released a report on USPTO hiring efforts in 
September 2007, the USPTO has experienced improvement in patent 
examiner attrition rates. At the time of the GAO report, the overall 
patent examiner attrition rate was 8.5 percent, and first year 
attrition rate was 15.6 percent. In the fiscal year 2008, this dropped 
to 12.9 percent, which represents a 30 percent decline. The average 
attrition rate for patent examiners with less than 3 years experience 
was 15.5 percent when the GAO report was released. Currently, the rate 
has dropped nearly 21 percent to 12.3 percent. Notably, the average 
attrition rate for patent examiners with greater than 3 years 
experience is currently 2.2 percent. Overall, the USPTO attrition rate 
is lower than the average rate for Federal workers (8.5 percent vs. 
11.2 percent).
    We believe this improvement in attrition is attributable to the 
economy along with a strong work life quality program and a number of 
targeted initiatives including:
  --Flexible work schedules;
  --Expansive teleworking programs;
  --Recruitment bonuses;
  --Part-time employment;
  --Lap top computers available for overtime work away from the office;
  --Productivity award programs
  --Increased training opportunities tailored to examiners' needs;
  --Focused training for new examiners; and
  --Movement toward a nationwide workforce.
    To date, however, several of these initiatives have been suspended 
due to reduced fee collections.
  --Reimbursement for advanced technical education and law school;
  --Annual adjustment to examiner special pay.
    Question. What steps will you take as the new Secretary to ensure 
these recommendations are implemented to continue to reduce attrition 
and retain employees?
    Answer. Since the June 2005 GAO report, the USPTO has taken steps 
to strengthen communications between management, patent examiners, and 
union officials. These steps include instituting weekly work group 
meetings and larger bi-weekly meetings between managers and employees; 
establishing a policy that first-line supervisors hold regular 
meetings; holding regular monthly meetings with union officials and the 
Patent Office Professional Association; and working to institute a 
quarterly Joint Labor Management meeting with all unions.
    As noted in the response above, the USPTO has also instituted a 
number of retention initiatives. The USPTO recognizes that a qualified 
corps of patent examiners is essential to effectively handle its 
important responsibilities. Attracting and retaining those highly 
qualified employees through a range and incentives and a positive work 
environment are absolutely necessary. I intend to review all 
initiatives currently in place with the emphasis of expanding and 
improving them.

                               ITA US&FCS

    Question. Created under the Foreign Service Act, the United States 
& Foreign Commercial Service is the trade promotion arm of the 
International Trade Administration. They represent U.S. business 
interests internationally, and small-and-medium-sized businesses rely 
on this service to promote the export of goods and services from the 
United States. In recent years, management trends at the Department of 
Commerce suggest that the number of commercial officers overseas is 
diminishing, while officers serving in domestic locations in non-
commercial roles grow. This trend has the potential to seriously 
jeopardize the support of expanding U.S. businesses overseas.
    How many Foreign Service officers did the Commercial Service have 
in fiscal year 2004 versus what the Department expects in fiscal year 
2010?
    Answer. In fiscal year 2004, US&FCS had 246 officers. In fiscal 
year 2010, US&FCS expects to have 237 officers.
    Question. How many current officers serve in domestic positions?
    Answer. A total of 49 officers are currently serving in domestic 
positions.
    Question. What is the attrition annual rate of Foreign Service 
officers?
    Answer. The annual attrition rate for the Foreign Service officers 
for each of fiscal year 2005, 2006 and 2007 was 7 percent. In fiscal 
year 2008, it was 5 percent and in fiscal year 2009, it is expected to 
be 3 percent.
    Question. How many overseas posts did the Commercial Service have 
in fiscal year 2004 versus fiscal year 2010?
    Answer. In 2004, US&FCS had 153 overseas posts in 82 countries. It 
is expected that US&FCS will have 131 overseas posts in 80 countries in 
fiscal year 2010.
    Question. How many of those positions are not currently filled?
    Answer. We currently have 13 vacant Foreign Service Officer 
overseas positions in fiscal year 2009.
    Question. Explain how the fiscal year 2010 budget request 
adequately supports the mission of the U.S. Commercial Service and that 
of the Foreign Service Officers.
    Answer. The fiscal year 2010 budget provides adjustments for 
inflationary expenses in personnel and US&FCS fixed costs related to 
the provision of support services to both international and domestic 
offices and the headquarters. In addition, the request includes $5.2 
million to expand ITA presence in emerging markets in Asia, Africa and 
Eastern Europe.
                                 ______
                                 

            Questions Submitted by Senator Patrick J. Leahy

                    NTIA--BTOP/TARGETING RURAL AREAS

    Question. Secretary Locke, I wanted to ask you about the Department 
of Commerce's plans to deploy the more than $4 billion in American 
Recovery and Reinvestment Act broadband deployment funding Congress and 
the Administration gave to your agency. I am especially concerned about 
ensuring that this funding reaches rural America, the Department of 
Commerce's definitions of underserved and unserved, the Department of 
Commerce's anticipated timeline for distributing these funds, and the 
agency's intent to consult with States about pre-existing broadband 
deployment plans.
    The digital divide runs deeply through rural America--and 
especially through rural Vermont. I firmly believe that places like the 
Northeast Kingdom of Vermont--the three most Northeastern counties of 
Vermont, areas in southern Vermont isolated by the Green Mountain 
National Forest and vast numbers of ``digitally disconnected'' 
Vermonters living in between these two areas receive priority when it 
comes to distributing funding for your Broadband Technology 
Opportunities Program. This will mean carefully defining unserved and 
underserved. Preference for funding must be given to Americans with no 
access to broadband. However, communities where the private sector has 
``cherry picked'' profitable customers and left their rural neighbors 
offline must be afforded funding opportunities through the ARRA 
broadband programs.
    I commend you, and Secretary Vilsack of the Department of 
Agriculture, for adopting aggressive timelines to formulate plans for 
the distribution of these broadband funds. I believe that the NTIA must 
continue this aggressive posture to deploy these funds in time for the 
2009 construction season, a short window in Northern climates like 
Vermont. A 100 million broadband project in east central Vermont, East 
Central Vermont Fiber, is shovel ready right now--a victim of the 
financial collapse. Dozens of wireless projects are on hold, from 
companies like Great Auk (AWK) Wireless and Cloud Alliance in Vermont, 
ready for construction if Federal funding can be identified. The 
Vermont Telecommunications Authority has $40 million in State bonding 
authority waiting for a matching Federal investment. North-Link, a 
fiber project in northwestern Vermont, is under construction already--
but awaiting a final investment to finish construction. These projects 
can deliver broadband access to Vermonters by the end of the summer--
but it will depend on you and your agency pushing to get this money out 
the door as quickly as possible.
    And finally, I want to bring your attention to the work the Vermont 
Congressional Delegation and Vermont's Economic Stimulus and Recovery 
Office have undertaken since Congress passed the recovery act. We began 
aggregating broadband infrastructure grant proposals throughout Vermont 
in an attempt to offer NTIA and RUS a comprehensive strategy towards 
building broadband infrastructure to every Vermonter. This effort has 
brought together private, public and non-profit providers who have 
shared their proposals and plans with our offices and State officials. 
As ARRA requires NTIA to consult with States, I hope you and your team 
will take such comprehensive approaches into consideration when making 
decisions on broadband funding applications. Should the Department of 
Commerce decide to provide block grants to States, I also ask that you 
not base your decisions on population, but instead on a State's true 
build out needs. For years private telecom providers have chosen to 
deliver services first to high population areas and second to rural 
Americans. This strategy has left America's largest digital divide in 
low population, rural States like Vermont. At a minimum, any block 
grant should include an all-State-minimum of no less than three-
quarters-of-one-percent of all ARRA broadband funds.
    Given the rural paradox of telecommunications, where those most 
isolated and who benefit the most from telecommunications 
infrastructure are the last to receive such access, does the Department 
of Commerce plan to specifically target rural and underserved areas 
such as Vermont through the Broadband Technology Opportunities Program.
    Answer. The Broadband Technology Opportunities Program (BTOP), as 
set forth in the American Recovery and Reinvestment Act of 2009 
(Recovery Act), has many important goals. One of these is to ensure 
access to broadband service for consumers living in ``unserved'' areas 
of the United States. The Recovery Act also provides funding to improve 
broadband access in ``underserved'' areas--whether they are in rural, 
suburban, or urban settings. Within the Department of Commerce, the 
National Telecommunications and Information Administration is in the 
process of defining these and other statutory terms in order to 
establish funding eligibility criteria. While the final criteria have 
yet to be established, I am confident that they will ensure that 
applicants seeking to serve rural and underserved areas of Vermont will 
be able to compete effectively for BTOP funding.
    Question. I understand the Department has already suggested a 
tentative timeline for issuing solicitations for BTOP funding. Does the 
Department of Commerce plan to stick to that timeline?
    Answer. NTIA is working as expeditiously as possible to implement 
the BTOP. On March 12, 2009, NTIA and the Department of Agriculture's 
Rural Utilities Service (RUS) issued a joint Request for Information 
(RFI), inviting public comment on implementation of BTOP. NTIA is 
currently in the process of reviewing the public comments filed in 
response to the RFI and plans to issue a Notice of Funds Availability 
(NOFA) this summer to allow eligible entities to apply for BTOP funds. 
NTIA plans to issue two subsequent NOFAs, inviting additional grant 
applications, which will be timed to ensure that all grants are made 
before the statutory deadline of September 30, 2010.
    Question. Would you consider a more aggressive timeline that might 
get all of the funding to States this construction season?
    Answer. The Recovery Act requires that all funds be obligated by 
September 30, 2010. In order to meet this requirement and to provide 
all participants a reasonable opportunity to apply, NTIA is considering 
giving applicants three opportunities, or rounds, to apply for BTOP 
funds over the life of the Program. The agency's current plan is to 
publish a NOFA this summer and to hold workshops in a number of 
locations across the country, soon thereafter, to answer questions 
about the application process. This process would be repeated in late 
calendar year 2009 and again in spring 2010, so that prospective 
applicants who are not ready this summer can prepare to apply for BTOP 
funds during the second or third rounds. The three rounds would also 
allow NTIA to make program adjustments based on the experience from the 
earlier rounds. NTIA believes that having several opportunities for 
organizations to apply is equitable and effective--especially for 
smaller organizations that have fewer resources and may need more time 
to prepare their applications and will help ensure that the funds are 
used in the most efficient manner possible. Futhermore, multiple rounds 
will also help organizations in States like Vermont apply for funds in 
time for their respective construction seasons.
    Question. Will States like Vermont, where a coordinated effort is 
already underway to provide NTIA with a comprehensive and consolidated 
broadband grant application, be more competitive than States that 
submit piece-meal applications?
    Answer. In the Recovery Act, Congress wisely directed that NTIA 
consult with the States with respect to the best ways to identify areas 
to which broadband grant funds should be directed and the proper 
allocation of grant funds. NTIA has already begun meeting with 
officials from the States and has been actively soliciting input with 
regard to best practices. I expect different States to adopt different 
approaches to the BTOP program, but we will not be able to assess the 
relative merits of any particular approach until all the applications 
have been filed.
    Question. Would you support including additional appropriations to 
the Broadband Technology Opportunities Program into the annual 
appropriations process?
    Answer. The Recovery Act provides NTIA with $4.7 billion for the 
purposes of increasing broadband deployment and adoption in unserved 
and underserved areas of the United States, and the statute requires 
that these funds be obligated by September 2010. Accordingly, NTIA is 
working to implement the program and to issue grants quickly and 
efficiently to qualified recipients. I will be working closely with the 
Assistant Secretary of NTIA, the Office of Management and Budget, and 
Members of Congress as the program develops in order to assess whether 
it is fulfilling its objectives within existing appropriations. 
Decisions about future appropriation requests will be made in the 
context of program performance and the Administration's budget process.
                                 ______
                                 

                Questions Submitted by Senator Jack Reed

                     NTIA--COMPETING FOR BTOP FUNDS

    Question. The Recovery Act provides $4.7 billion to establish a 
national broadband service development and expansion program, known as 
the Broadband Technology Opportunities Program or BTOP. This program 
will provide competitive grants to improve broadband access in 
``unserved'' and ``underserved'' areas.
    Can you provide any assurance that agency guidance related to 
``unserved'' and ``underserved'' areas will be defined in a way that 
ensures that States that do not contain mainly rural areas, like Rhode 
Island, will be able to effectively compete for this important funding?
    Answer. Yes. The Broadband Technology Opportunities Program (BTOP), 
as set forth in the American Recovery and Reinvestment Act of 2009 
(Recovery Act), has many important goals. One of these is to ensure 
access to broadband service for consumers living in ``unserved'' areas 
of the United States. The Recovery Act also provides funding to improve 
broadband access in ``underserved'' areas--whether they are in rural, 
suburban, or urban settings. In addition, the Recovery Act contemplates 
grants being awarded in every State and directs NTIA to provide support 
for an array of initiatives, including broadband education, awareness, 
training, access, and equipment for strategic institutions, such as 
schools, job-creating facilities, libraries, and healthcare providers. 
In view of these statutory objectives, I am confident that applicants 
from Rhode Island will be able to compete effectively for BTOP funding.

                    EDA--TRADE ADJUSTMENT ASSISTANCE

    Question. The American Recovery and Reinvestment Act reauthorized 
the Trade Adjustment Assistance (TAA) for Firms and tasked the program 
with covering service industry firms.
    Can you provide an update on Economic Development Administration's 
progress in expanding its cover of serving service firms?
    Answer. On May 5, 2009, EDA published a proposed rule in the 
Federal Register that implements the provisions of the reauthorization 
statute, including inclusion of service sector firms.
    On May 18, 2009, EDA sent comprehensive guidance to the Trade 
Adjustment Assistance Centers addressing the addition of service sector 
firms. EDA directed the Centers to accept applications from service 
sector firms immediately.
    The guidance package included worksheets and templates that augment 
the existing application form (ED-840P) to provide the additional 
information required for service sector firm certification and to 
comply with the performance data collection requirements of the 
reauthorization statute.
    EDA will conduct teleconference training with Trade Adjustment 
Assistance Center personnel to update them and provide ongoing support 
for both the Centers and applicant firms.
    EDA will engage the Centers in the development of the revised 
certification form and other documentation prior to seeking Paperwork 
Act Reduction approval of any new forms.
    Question. Do you believe EDA will have sufficient resources to meet 
its new responsibilities without reducing assistance to manufacturers?
    Answer. EDA can meet its new responsibilities while still assisting 
manufacturers. The Recovery Act authorized EDA to use $350,000 of its 
appropriations each fiscal year on full-time administrative positions 
for the TAA for Firms program. The majority of the EDA FTE 
administering the TAA for Firms program evaluate and certify firm 
eligibility. EDA is required to conduct both a programmatic and a legal 
review of each certification petition. EDA anticipates that service 
sector firm certifications will be approximately equal to the existing 
number of manufacturer certifications. As a result, overall 
certifications are expected to double.
    With respect to the eleven Trade Adjustment Assistance Centers, EDA 
anticipates significant transition issues because the Centers' existing 
staff is geared almost exclusively to the manufacturing and producing 
firms that have been the focus of the program for over 25 years.
    EDA is exploring policy options that will allow the TAA for Firms 
program to effectively assist more firms, in both the manufacturing and 
service sectors, without the need for additional funding or increased 
overhead.
                                 ______
                                 

               Questions Submitted by Senator Ben Nelson

                    NTIA--BTOP/TARGETING RURAL AREAS

    Question. It is critical that the broadband stimulus funds are 
spent in a way that targets them where they are needed most. Is it your 
intent to make unserved areas, those areas where broadband has not 
previously been deployed, as the number one priority at NTIA?
    Answer. The Recovery Act charges the Department of Commerce with 
the responsibility of addressing the broadband needs of both 
``unserved'' and ``underserved'' populations, facilitating greater use 
of broadband services, increasing broadband speeds, and increasing 
broadband access to community institutions, among other objectives. 
While I expect NTIA to pursue all of these objectives, I agree with you 
that the Broadband Technology Opportunities Program provides a unique 
opportunity to expand broadband access to communities that desperately 
need it, particularly those areas of the United States that are 
currently unserved.
    Question. The Recovery Act does not define the terms ``unserved,'' 
``underserved,'' or frankly, even for that matter, ``broadband.'' The 
House-Senate conferees provided some guidance, but ultimately, the 
definitions are up to the agencies.
    I believe that it is important that we do not establish definitions 
for broadband that are so high that they would end up actually leaving 
rural areas behind. If our goal is to build broadband infrastructure, 
if we set speed thresholds too high, the digital divide between rural 
and urban areas could be further exacerbated. Demanding the fastest 
possible speeds--in areas that don't even support basic broadband 
today--as a condition of awarding a grant seems like a recipe for 
deterring any investments in these areas, depriving them of jobs in 
building out broadband and perpetuating the lack of broadband service 
there.
    How do you plan to implement the definition of broadband in a way 
that will result in deployment of broadband at advanced speeds?
    Answer. Among other things, the Recovery Act directs NTIA to 
provide the greatest broadband speed possible to the greatest 
population of users. To help implement these requirements, NTIA and the 
Department of Agriculture's Rural Utilities Service (RUS) published a 
joint Request for Information (RFI) on March 12, 2009, seeking the 
public's input on these definitions, as well as a number of other 
policy and procedural issues. NTIA received over 1,000 comments in 
response to the RFI by the April 13, 2009 deadline. NTIA is in the 
process of reviewing the public comments filed in response to the RFI 
and plans to issue a Notice of Funds Availability (NOFA) this summer to 
allow eligible entities to apply for BTOP funds and setting forth 
eligibility criteria. I am confident that these criteria will be 
consistent with the statutory directive to maximize the number of 
consumers with access to broadband, while at the same time increasing 
the speed of broadband service that is available.
                                 ______
                                 

            Questions Submitted by Senator Richard C. Shelby

                                  NOAA
             ELECTRONIC LOG BOOKS ON THE GULF SHRIMP FLEET

    Question. In January 2008, NMFS promulgated regulations 
implementing the red snapper rebuilding plan requiring the shrimp fleet 
to reduce fishing effort and by-catch in juvenile red snapper habitat 
areas by 74 percent. Failure to achieve this target reduction triggers 
the closure of those areas to the shrimp fleet. This program is the 
principal means to monitor the level of shrimp fishing effort and by-
catch in the red snapper habitat areas as required by these 
regulations.
    What is NMFS doing to assist the shrimp industry with their efforts 
to install Electronic Logbooks on the Gulf shrimp fleet in order to 
monitor shrimp fishing effort?
    Answer. NMFS is funding a contract to support acquisition and 
installation of Electronic Logbooks on shrimp vessels, and collection 
and analysis of the data gathered by the devices for use to estimate 
effort in the shrimp fleet. In fiscal year 2009 NMFS is applying 
$200,000 to the contract. NOAA has not requested funds for this in 
fiscal year 2010.
    Question. Are the log books effective in assisting NOAA in 
determining by bycatch levels?
    Answer. Yes, the data obtained from this program assists us in 
estimating levels of sea turtle and red snapper bycatch mortality in 
the shrimp trawl fishery, as well as bycatch levels for other species 
such as blacknose sharks. This program has improved the accuracy of 
shrimp fishing effort estimates. Since inception, 538 Electronic Log 
Books (ELBs) have been installed in a representative sample of the Gulf 
of Mexico shrimp vessels (about one-third of the active fishing fleet 
covering the entire Gulf of Mexico from south Florida to south Texas) 
and 470 of these units are still deployed and functioning.
    Question. If so, why is NOAA not assisting the boat captains with 
the cost to implement these regulations?
    Answer. Currently, there are no costs to the boat captains for 
implementation of the ELB program, other than providing the information 
through the ELB.
    Question. Installing electronic logbooks on shrimp boats is the 
only means available for NMFS to accurately measure shrimp fishing 
effort and, thus, to prevent the closure of this fishery and the loss 
of thousands of jobs. If NMFS is going to require that shrimp fishermen 
reduce their fishing effort by 74 percent in some of their best fishing 
areas in order to support your red snapper plan, don't you think it 
makes sense for NOAA to assist in funding the purchase and installation 
of these electronic logbooks--and fund the collection and analysis of 
the data?
    Answer. Currently, there are no costs to the boat captains for 
implementation of the ELB program, other than providing the information 
through the ELB. All ELB installation, data collection, and data 
analysis, are covered by a NMFS funded contract.
    Question. NOAA has created a funding disparity between the 
Northeast, Northwest, and the Gulf of Mexico. Despite the fact that 
some of the largest river systems in the Nation pour into the North 
Central Gulf of Mexico and the existence of well-respected research 
facilities along the Gulf Coast, NOAA has consistently focused its 
resources in other parts of the country. The ecosystems of Mobile River 
(America's 4th largest river system) and Bay along with Alabama's 
coastal communities support tourism, commercial and recreational 
fishing, and important habitats for fish and wildlife. What will you do 
Mr. Secretary to ensure that the Gulf of Mexico is treated more 
equitably in the distribution of NOAA research and weather dollars?
    Answer. The Department agrees that NOAA has an important role to 
play in supporting the Gulf of Mexico. NOAA continues to work to 
address the unique and critical needs of all regions of the country, 
including the significant needs of the Gulf of Mexico region. NOAA is 
committed to addressing the needs of the Gulf region and continues to 
implement a number of activities to assist the region. Despite the 
fiscal constraints of the fiscal year 2010 budget, it includes 
continued support and increases for NOAA activities in the Gulf of 
Mexico. Additional details and examples of activities supporting the 
Gulf are included below.
    NOAA Fisheries budget includes $20.5 million specifically for Gulf 
of Mexico activities, an increase of $8.0 million or 64 percent over 
2009. This increase includes $2.5 million to collect and analyze data 
to improve our understanding of the fishery impacts of hurricanes, our 
efforts to mitigate those impacts, and our ability to minimize the 
impacts of future storms. The funding will support time on ships and 
other platforms for surveys of fish, shrimp, other living marine 
resources as well as social and economic surveys of the fishing 
industry and fishing communities. This program provides the data and 
core assessments needed to support fisheries management in the 
hurricane-prone areas. The budget requests an additional $1.1 million 
to support economic surveys of commercial fishing fleets and 
recreational anglers, and development of decision support tools for 
assessing catch shares, fish stock rebuilding plans, community impact 
analysis, and other management measures. Additional economic surveys 
that will be conducted include a series of marine protected area 
surveys and protected species valuation surveys.
    The budget provides additional resources for observer coverage in 
the Gulf. An increase of $1.1 million for observer coverage of pelagic 
longline fishery of Atlantic Bluefin tuna in the Gulf of Mexico will 
allow NMFS increase the observer coverage required for the Gulf of 
Mexico pelagic longline fleet and an additional $0.1 million will 
augment observer program coverage in the Gulf of Mexico reef fish 
fishery. This observer program monitors the catch and discard of reef 
fish species and other finfish and ESA species in the Gulf of Mexico 
reef fish fishery.
    The fiscal year 2010 budget also provided additional resources to 
support the implementation of Annual Catch Limits. An increase of $1.4 
million will support fishery independent surveys in the Gulf of Mexico 
to produce the best technical advice to the Fishery Management Councils 
and support the implementation of Annual Catch Limits. An inshore trawl 
survey to support the assessment of gag and other snapper-groupers also 
will be implemented. In addition, an increase of $0.5 million for the 
Gulf Regional Council provide it with important resources to set, 
evaluate, and revise annual catch limits (ACLs) and accountability 
measures (AMs) to end overfishing on stocks subject to overfishing by 
2010 and for all other stocks by 2011 and to develop amendments to 
their Fishery Management Plans (FMPs) that implement ACLs and AMs. An 
additional $0.4 million will support the improvement and enhancement of 
the independent peer-review process for scientific data required to 
appropriately set the annual catch limits for managed fisheries in the 
Gulf of Mexico.
    The budget also provides additional resources to gather more 
accurate data on fisheries landings. It includes an increase of $0.3 
million for commercial fisheries biological sampling and to support 
more timely reporting of commercial fisheries landings through the 
development and implementation of electronic reporting technologies. It 
also includes $0.6 million to support work by State agencies to provide 
more complete and timely information on marine recreational fishing 
participants (anglers and for-hire vessels) for inclusion in the 
National Saltwater Angler Registry. More complete and up-to-date 
registries can be used for more efficient and precise telephone surveys 
of fishing effort in both State and Federal waters.
    In addition to NMFS activities, the National Ocean Service (NOS) 
continues to support activities to address the critical needs of Gulf 
of Mexico communities and ecosystems, including an increase of $1 
million in fiscal year 2010 for the Gulf of Mexico Alliance. Highlights 
of NOS activities in the Gulf include:
  --Since 2008, NOS has conducted a competitive grant program to 
        address priority activities of the Gulf of Mexico Alliance: 
        create hazard resilient coastal communities; ensure healthy 
        beaches and shellfish beds; support habitat conservation and 
        restoration; increase environmental education; promote 
        ecosystem integration and assessment; and reduce nutrient 
        inputs to coastal ecosystems. The fiscal year 2010 Presidents 
        Request includes $5 million for this grant program, an increase 
        of $1 million over fiscal year 2009 appropriation.
  --All five Gulf of Mexico States participate in the State-Federal 
        coastal zone management partnership created under the Coastal 
        Zone Management Act of 1972 (CZMA). Gulf States receive annual 
        grants from NOAA ranging from $1-2 million, matched 
        approximately 1 to 1 by State and local resources. In fiscal 
        year 2008 the five States received a total of $10.3 million to 
        implement their programs, and the fiscal year 2010 President's 
        Request includes this level of funding for the States as well 
        (estimates pending final appropriations). The Gulf of Mexico 
        State coastal zone management programs focus on a range of 
        issues important to the region: coastal habitat protection, 
        mitigation, and restoration; managing coastal development to 
        protect lives and property and enhance community resiliency; 
        and engaging in outreach and education about the importance of 
        the region's tremendous coastal resources.
  --NOS distributes water level information from a network of 
        approximately 70 Federal and partner monitoring stations in the 
        Gulf, including 4 new stations built in 2008 to withstand a 
        Category 4 Hurricane. These hardened stations were designed 
        following the devastating 2005 hurricane season to provide 
        critical oceanographic and meteorological information 
        throughout storm events. The water level information provided 
        by NOS supports marine navigation, storm surge warning systems, 
        coastal restoration activities, and climate monitoring.
    NOS continues to support other activities in the region including 
hydrographic surveys for nautical charts, accurate positioning, oil 
spill response, tides and currents data for marine transportation and 
other uses (including 8 Physical Oceanographic Real-Time Systems 
(PORTS) in the Gulf of Mexico region by the end of fiscal year 2009), 
regional coastal ocean observing systems, resource protection through 
four National Estuarine Research Reserves and one National Marine 
Sanctuary, coastal and estuarine land conservation, coastal zone 
management and coastal storms capacity building, status and trends of 
chemical contamination of U.S. coastal waters, Harmful Algal Bloom 
Forecasts, and other efforts to support the region.
    Question. This Administration contends that global warming poses a 
serious risk to the country's ecosystems. In Mobile Bay, for instance, 
many contend that global warming and saltwater intrusion will 
fundamentally alter the ecosystems that many of Alabama's citizens 
depend on for their livelihoods. What is NOAA doing to research the 
effects of global warming, specifically in important estuary systems 
like Mobile Bay?
    Answer. Estuaries are biologically and ecologically important 
ecosystems that provide important services to the surrounding 
communities and ecosystems. Through the National Estuarine Research 
Reserve System (NERRS), NOAA is working to understand and protect 
valuable estuarine ecosystems around the country. These sites also 
serve as important ``living laboratories'' for research, including 
studies to improve understanding of how ecosystems respond to climate 
change. There are four NERR sites in the Gulf of Mexico (including 
Weeks Bay in Alabama) and a total of 27 sites around the country.
    NERRS is a network of protected areas established for long-term 
research, education and stewardship. This partnership program between 
NOAA and the coastal States protects more than one million acres of 
estuarine land and water, which provides essential habitat for 
wildlife; offers educational opportunities for students, teachers and 
the public; and serves as living laboratories for scientists.
    NOAA is supporting interdisciplinary, multi-year competitive 
research programs investigating how oceanic and coastal ecosystems 
respond to climate variability and change. The goal is to provide 
managers with the scientific knowledge and tools, including ecological 
models, to prepare for climate change impacts with more certainty in 
scale, timing and local detail. This research, supported through the 
National Centers for Coastal Ocean Science (NCCOS), focuses on three 
issue areas in particular: fisheries, protected resource impacts and 
sea level rise.

                         LARVAE SAMPLE ANALYSIS

    Question. Is it true that the National Marine Fisheries Service 
routinely sends its larvae samples all the way to Poland for analysis? 
I understand that this is a critical piece of the process for 
researching ecosystems, the health of fish stocks, and other scientific 
questions. I also understand that by sending these samples to Poland, 
we are forcing our research community to wait as much as a year for 
results and pay enormous amounts of money to a foreign entity.
    Shouldn't NOAA be focused on building this capability in this 
country, putting Americans to work, and improving the ability of our 
research facilities to do timely work?
    Answer. The National Marine Fisheries Service (NMFS) and the Morski 
Institute Rybacki (Sea Fisheries Institute) of Poland have a 35-year 
bilateral agreement to conduct joint research on fisheries ecology. 
This cooperative research effort began in 1974 as a way for Poland to 
repay its debt to the United States for financial assistance after 
World War II. In the early years, NMFS plankton specialists trained the 
Polish marine scientists in the detailed methods of identifying fish 
larvae from all U.S. waters. Although the war debt was repaid in the 
mid-1980s, this highly successful scientific collaboration has 
continued, because it is beneficial to both sides.
    The Polish Sorting Center is the most economical, accurate, and 
timely way to accomplish the detail-oriented work of sorting and 
identifying the contents of plankton samples. For example, the Alaska 
Fisheries Science Center spends $180,000 per year for the sorting and 
identification of their 2,000 samples by the Polish Sorting Center. To 
accomplish this same level of effort in-house, the Alaska Fisheries 
Science Center recently estimated that they would incur personnel costs 
of approximately $900,000 annually, as well as additional costs for 
supplies, equipment, and modifications to their laboratory space. The 
Polish Sorting Center's turn-around time for NMFS' samples is typically 
3-10 months. Their staff has been doing this work for 35 years, and 
they are experts in the identification of larval fish and zooplankton 
from at least seven of the Large Marine Ecosystems (LMEs) managed by 
NMFS. This depth of experience enables them to maintain high standards 
of quality control, and to provide consistent data year after year.
    At present, three NMFS science centers (Northeast, Alaska, and 
Southeast) and the Dauphin Island Sea Lab are participants in this 
agreement. If NMFS were to lose this relationship, we would need an 
immediate qualified partner to accomplish the ongoing work and avoid a 
multi-year delay in providing data to our stakeholders. At this time 
there is only one other sorting center that could process NMFS' samples 
from multiple LMEs. However, that center is also outside of the United 
States. The time necessary to establish a sorting and identification 
center and train staff is approximately 3-5 years. Loss of continuity 
in standardized identifications, especially for problematic species 
groups such as tunas, mackerels and snappers, would put data integrity 
at risk. A disruption of this magnitude would jeopardize NMFS' ability 
to meet our fishery-management mandates, including the requirement to 
provide fishery-independent indices from plankton surveys for the 
federally managed species in the Gulf of Mexico.
    Question. We have seen an appalling decline in interest among young 
people in science and research. There are many worthwhile programs 
around the country that try to get kids interested in science. For 
instance, the Dauphin Island Sea Lab in Alabama brings school groups 
from all over the State and Southeast United States to the Lab for 
educational programs designed to help them better understand and 
appreciate the world they live in. What can NOAA do to increase young 
peoples' interest in natural science and help programs like those 
sponsored by the sea labs?
    Answer. In the America COMPETES Act of 2007, Congress provided NOAA 
with a broad mandate to ``conduct, develop, support, promote, and 
coordinate formal and informal educational activities at all levels.'' 
As the lead agency in ocean and atmospheric sciences, NOAA is in a 
unique position to motivate and connect the younger generation to the 
world they live in. NOAA has many well-established national and 
regional programs that provide meaningful educational opportunities to 
the younger generation. NOAA will continue to support NOAA's education 
activities to increase students' interest in natural science and 
provide teachers the tools needed to nurture and encourage that 
interest through Competitive Education Grants, that allows NOAA to 
expand our partnerships with capable education institutions such as the 
Dauphin Island Sea Lab. Below are just a few examples of education 
programs and activities across NOAA:
    Competitive Education Grants.--NOAA's Office of Education offers 
several grant programs that are intended to provide K-12 students with 
instructional materials and/or experiences within or outside of the 
classroom that will encourage their interest in science and the 
application of that knowledge to real-world problems. The Competitive 
Education Grants program supports regional to national scale projects 
in both formal and informal education and is intended to reach a wide 
variety of audiences. These grants support teacher professional 
development, instructional materials development and publication, 
citizen science programs, science camps, and exhibits related programs 
at science centers, aquariums and natural history museums around the 
Nation. As an example, this program supported the installation of 
Science on a Sphere (SOS) at the McWane Science Center in Birmingham, 
AL. Institutions such as the Dauphin Island Sea Lab are eligible for 
funding support from Competitive Education Grants and B-WET (see 
below). NOAA is requesting an increase of $4 million for a total of $5 
million in fiscal year 2010 to expand this program.
    Bay-Watershed Education and Training (BWET) Program.--The B-WET 
program supports local and regional projects that offer meaningful 
watershed educational experiences to K-12 students. The B-WET program 
currently serves Chesapeake Bay, California, Hawaii, Pacific Northwest, 
New England and Gulf of Mexico regions.
    NOAA's National Sea Grant Program.--Sea Grant's innovative and 
effective marine and aquatic education programs have been a cornerstone 
of the Agency's education portfolio and have produced a record of 
successes spanning three decades. An established network of Sea Grant 
educators, located at universities across the Nation, is committed to 
NOAA's goal of advancing environmental literacy and educating future 
environmental professionals and leaders. Sea Grant educators tailor 
their K-12 marine and aquatic education offerings to meet the needs of 
their regions, developing relevant science-based educational programs 
for schools, professional education opportunities for teachers, and 
workforce training. Last year, Mississippi-Alabama Sea Grant education 
efforts alone reached more than 11,000 elementary, middle and high 
school students and nearly 300 educators (attending professional 
development seminars). Nearly 28,000 attendees participated in programs 
for children and families in Mississippi and Alabama.
    National Estuarine Research Reserve System.--The National Estuarine 
Research Reserve System is a network of protected areas established for 
long-term research, education and stewardship. This partnership program 
between NOAA and the coastal States offers educational opportunities 
for students, teachers and the public. In Alabama, the Weeks Bay 
Reserve offers programs that encourage student interest in science and 
research. For example, The Baldwin County Grasses in Classes Program 
involves approximately 1,000 new students each school year in habitat 
restoration. Not only do the students take an active role in growing 
the plants for restoration, but they work side by side with 
environmental professionals from U.S. Fish and Wildlife, the Alabama 
Dept. of Conservation and Natural Resources, and Weeks Bay Reserve to 
implement the restoration projects. It is the hands-on, ``real 
science'' experience part of this program that excites the students. 
Each school year, over 3,500 K-12 students come to the Reserve for 
fieldtrips where they participate in a wide variety of grade specific 
hands-on activities outside.
    NOAA's Ocean Exploration and Research Program.--The Ocean 
Exploration and Research Program (OER) has a formal Exploration 
Education Alliance Partnership with Dauphin Island Sea Lab, supporting 
the professional development of Alabama educators of Grades 5-12. This 
curriculum is designed to bring the science of NOAA's deep ocean 
exploration and discovery, including the STEM (science, technology, 
engineering, and mathematics) disciplines that comprise it, into 
classrooms throughout the country.
    National Marine Sanctuaries Program.--The Office of National Marine 
Sanctuaries (ONMS) works with partner organizations, on location and in 
classrooms, to increase the interest of students and their teachers in 
natural science through field studies and hands-on environmental 
monitoring activities, such as Ocean for Life and LiMPETS, as well as 
workshops and in-class presentations (Rivers to Reefs, Coral Reef 
Classroom, Down Under Out Yonder, and MERITO (Multi-cultural Education 
for Resource Issues Threatening the Ocean)). ONMS also reaches out to 
classrooms across the United States to engage students through 
innovative use of the world-wide web (Encyclopedia of the Sanctuaries, 
ONMS Media Library, social media, ACES: Animals in Curriculum-based 
Ecosystem Studies and other online curricula) and telepresence 
(OceansLive!, MONITOR and Thunder Bay National Marine Sanctuaries 
telepresence centers, and theme missions), bringing the ocean and its 
sciences into their classroom.
    NOAA's Teacher at Sea Program.--The Teacher at Sea Program provides 
a unique environment for learning and teaching by sending kindergarten 
through college-level teachers to sea aboard NOAA research and survey 
ships to work under the tutelage of scientists and crew. The valuable 
skills and knowledge that teachers acquire are then brought to the 
classroom. NOAA's Teacher at Sea Program has supported 52 teachers from 
the Gulf States and 2 from Alabama. As an example, on June 9, 2009, 
Alabama middle school teacher, Ruth Meadows, will sail on NOAA Ship 
HENRY B. BIGELOW for two weeks. Opelika Middle School students will 
follow her adventure live on the web. Ms. Meadows will write weekly 
logs, take photos and video, and answer questions while on board the 
vessel. When she returns, she will create lesson plans about the 
science and teach her students and others in her local community.
    Educational Partnership Program (EPP).--The EPP program operates 
summer science training workshops for K-12 teachers to reach 
underserved student and teacher populations. Established under the 
auspices of five Minority Serving Institutions (MSIs), NOAA's 
Cooperative Science Centers (CSCs) are located around the country, 
including the southeastern portion of the United States. These CSCs act 
as educational change agents in their training and outreach activities 
for K-12 teachers and students with science content workshops for 
teachers and weather camps for students. EPP provides financial 
assistance, through competitive processes, to students and Minority 
Serving Institutions that support the training of students and research 
in NOAA mission sciences.
    National Ocean Science Bowl.--NOAA supports this national program 
that offers opportunities to encourage and engage students in learning 
more about science and scientific research. The National Ocean Sciences 
Bowl (NOSB) is an academic competition for high school students 
focusing on ocean science, technology and maritime history and policy. 
The program has 25 regional events around the country including the 
Hurricane Bowl, which includes schools from panhandle of Florida, 
Alabama, Mississippi and Louisiana.
    JASON Project.--The JASON Project is a program that uses technology 
to engage students in learning about science and technology by 
connecting them to explorers and explorations of our planet. The JASON 
Project engages students and their teachers through a variety of media 
and online experiences. NOAA works closely with the JASON Project to 
involve NOAA scientists in missions that explore aspects of Earth. 
JASON offers professional development to teachers who want to integrate 
this program into their classroom teaching.
    National Science Teachers Association Partnership.--NOAA has 
maintained a strong partnership with the National Science Teachers 
Association (NSTA), the world's largest science education organization. 
Through that partnership, opportunities are provided for teachers to 
have face-to-face learning as well as online seminars and resources. 
NOAA partnered with NSTA at the recent national conference in New 
Orleans in March 2009, providing science education updates and teaching 
materials to many teachers from coastal States.
    Other NOAA Education Efforts.--That NOAA also has several centers 
around the country that engage with the public, local schools and 
educational institutions. NOAA's Weather Forecast Office in Huntsville, 
Alabama developed a series of weather educational presentations using 
the NASA Digital learning network. The presentations were delivered via 
teleconferencing to 20 schools across the United States, training 
around 600 elementary and middle school students and teachers in the 
NWS Jetstream and Professor Weather curriculum.
    NOAA also manages several education websites, widely used by 
audiences across the country, containing tutorials, lesson plans, 
interactive activities and games, and a wealth of information about 
coastal ecology, weather, pollution, hurricanes, sea level, global 
positioning, tides and currents that teachers can incorporate into 
their classrooms. The Lesson Plan Library includes over 50 lessons that 
middle and high school teachers can use to supplement their mathematics 
and science curricula.
    Question. In December the NPOESS total life cycle cost estimate 
increased by $1 billion to $13.6 billion. The updated estimate 
reflected additional costs for the development of the Visible Infrared 
Imager. What degree of confidence do you have in the new cost and 
schedule estimates?
    Answer. The December 2008 life cycle cost estimate of $13.6 billion 
reflects an updated Acquisition Program Baseline (APB) signed in 2008. 
The cost estimate included an update to the operations and support 
costs of approximately $1.1 billion that was not part of the 2006 Nunn-
McCurdy certification. The estimate also included an increase of 
approximately $300 million of additional development costs due to 
program development challenges with Visible Infrared Imaging Radiometer 
Suite (VIIRS) and Cross-track Infrared Sensor (CrIS) sensors 
encountered to that point.
    Cost estimation for the NPOESS Program has followed the standard 
Department of Defense acquisition processes of estimating near the 50 
percent confidence level. This means the program has approximately a 50 
percent chance of successfully executing within budget. This confidence 
level has a higher level of risk of future cost growth than is now 
standard with NOAA programs and it is an issue we are exploring. NOAA 
policy now requires that budgets reflect estimates with a confidence of 
80 percent, which helps to ensure that a program has a high probability 
of remaining within its budget through the life of the program.
    Because of the importance of accurate budget planning, I have 
directed NOAA to work with the other NPOESS Executive Committee 
agencies, DOD and NASA, to develop an estimate at the 80 percent 
confidence level.
    Question. If you are confident tell us why since every other 
estimate has turned out to be grossly exaggerated.
    Answer. We recognize the importance of ensuring cost stability to 
the NPOESS program and are working with NASA and DOD to produce and 
evaluate alternative cost estimates. As noted, because of the 
importance of accurate budget planning, I have directed NOAA to work 
with the other NPOESS Executive Committee agencies, DOD and NASA, to 
develop an estimate at the 80 percent confidence level.
    Question. What is the level of risk to continuity of weather and/or 
climate data and what contingency plans are being considered?
    Answer. For the polar-orbiting satellites, the on-orbit and 
recently launched satellites are performing well and there is no 
immediate risk to data continuity for NOAA's weather and climate 
missions. We are concerned about the fragility of the constellation 
that begins to occur in 2013. This risk to data continuity occurs in 
the 2013 timeframe due to the schedule delays that the National Polar-
orbiting Operational Environmental Satellite System (NPOESS) is facing.
    NOAA is placing highest priority on the acquisition of this system 
to mitigate this risk. NOAA will use data from NASA's NPOESS 
Preparatory Project (NPP) sensors to produce data that meet or exceed 
the data from NOAA-19 (our current operational satellite). We have 
plans in place to make operational use of the data from the NPP 
spacecraft by increasing the number of products NOAA had planned to 
generate from the NPP system as a risk reduction mission.
    NOAA has a contingency plan in the event there is a failure of any 
of its operational systems. This plan depends on using existing NOAA 
satellite assets, leveraging data from NASA and Department of Defense 
environmental satellites, and forging partnerships with international 
space agencies to acquire data needed to support NOAA's operational 
weather and climate mission. NOAA is also investigating opportunities 
to fly a mission with the legacy imager Advanced Very High Resolution 
Radiometer (AVHRR) in the event VIIRS continues to experience 
developmental challenges
    Question. Safe and sustainable seafood is vital to the U.S. economy 
and food security. The development of a sustainable marine aquaculture 
industry will provide jobs to a commercial fishing industry severely 
depressed by competition from imported seafood products. Our Nation 
should work to reduce seafood imports and ensure the viability of 
economically and culturally important water dependent communities. 
Realizing the potential benefits of marine aquaculture will address the 
environmental, engineering and production needs of the fledgling 
offshore marine aquaculture sector.
    What research, extension, and marketing programs will the 
Department of Commerce provide to foster development of a sustainable 
and diverse marine aquaculture industry while also protecting and 
strengthening independent and family-owned fishing operations?
    Answer. Research.--The Department of Commerce, through NOAA, has a 
number of competitive external grants programs available to fund marine 
aquaculture research, including the National Marine Aquaculture 
Initiative, the Small Business Innovation Research Program, and the 
Saltonstall-Kennedy Grant Program. NOAA funds internal marine 
aquaculture research at NMFS, OAR, and NOS science centers.
    NOAA's external and internal research funding supports a wide range 
of research topics, including: development of environmentally sound 
aquaculture practices for both finfish and shellfish, development of 
alternative feeds (e.g., substituting plant-based proteins for fish 
meal and fish oil), surveys to inform decisions on where to site 
aquaculture operations, stock enhancement to rebuild overfished and 
depleted species, and genetics and disease research.
    Extension.--NOAA's Sea Grant program combines research and 
outreach/extension efforts for marine aquaculture that have contributed 
to the creation of several new aquaculture-based industries. These 
industries include the Gulf of Mexico and South Atlantic soft shell 
crab industry, the Pacific Northwest oyster and clam industry, the 
hybrid striped bass industry, and the Mid-Atlantic hard clam industry. 
In addition, Sea Grant investments have helped to establish new 
businesses throughout the United States, and have provided improved 
technologies to these businesses. The combined impact of Sea Grant-
developed technology amounts to at least $100 million annually and 
supports thousands of jobs in the United States.
    Marketing.--The National Marine Fisheries Service operates the 
voluntary Seafood Inspection Program. This program is an outgrowth of 
the Agricultural Marketing Act of 1946 that provides voluntary 
inspection and certification program on a fee-for-service basis. This 
program offers a variety of professional inspection services which 
assure compliance with all applicable food regulations. In addition, 
product quality evaluation, grading and certification services on a 
product lot basis are also provided. Benefits include the ability to 
apply official marks, such as the U.S. Grade A, Processed Under Federal 
Inspection (PUFI) and Lot Inspection.
    In addition, some funding for marine aquaculture marketing programs 
has been provided through competitive grants programs.
    Question. Two Federal agencies have historically played significant 
roles in aquaculture, USDA and NOAA. What are the Department's plans to 
increase interagency collaborations among USDA, NOAA, EPA, NSF and 
others to provide a greater level of support to aquaculture?
    Answer. The primary nexus for inter-agency collaboration on marine 
aquaculture issues is the Joint Subcommittee on Aquaculture (JSA). The 
JSA was created by the National Aquaculture Act of 1980 and is chaired 
by the Secretary of Agriculture. The JSA operates under the auspices of 
the Executive Office of the President, Office of Science and Technology 
Policy. The JSA serves as the Federal interagency coordinating body to 
increase the overall effectiveness and productivity of Federal 
research, technology transfer, and assistance programs in support of a 
globally competitive, technologically advanced, and environmentally 
sound aquaculture industry in the United States. The JSA has three 
active working groups/task forces--the Working Group on Aquaculture 
Drugs, Vaccines and Pesticides; the National Aquatic Animal Health Plan 
Task Force; and the National Aquaculture Research and Technology Task 
Force. NOAA is active on the National Aquaculture Research and 
Technology Task Force and the National Aquatic Animal Health Plan Task 
Force, and represents the Department of Commerce on the JSA's Executive 
Committee.
    EPA and the Army Corps of Engineers (COE) both issue permit for 
marine aquaculture projects. NOAA, through both NMFS and OAR, works 
with both EPA and COE to provide technical review and advice on a range 
of marine aquaculture permitting issues. If NOAA is granted authority 
to issue permits for aquaculture operations in Federal waters (e.g., 
through national legislation or under existing mandates such as the 
Magnuson-Stevens Fishery Conservation and Management Act), NOAA will 
work with EPA and COE to coordinate regulatory roles and permit 
reviews.
    Question. According to NOAA data, the Southeast United States has 
experienced over 50 weather-related disasters over the past 28 years 
that resulted in losses of $1 billion or more. That's more than any 
other region of the country. In Alabama, severe weather has resulted in 
148 deaths, 1,723 injuries, and property losses of almost $5 billion 
over the past 18 years. Even a small reduction in the impact of severe 
weather could save many lives and billions of dollars.
    Are the current NOAA assets and infrastructure in the Southeast 
adequate to address the death, injuries and destruction caused by 
severe weather there?
    Answer. We agree the Southeast United States experiences a 
significant number of destructive severe weather events each year: and 
more than any of the other five NWS regions across the Nation. However, 
the United States in total experiences more severe weather events than 
any other country in the world. As such, severe weather is a national 
and not a regional issue. We believe current NOAA assets and 
infrastructure across the Southeast are adequate to address the severe 
weather regime. NOAA's severe weather statistics show NWS forecasts and 
warnings are meeting or exceeding the national GPRA goals.
    Currently, NOAA operates 122 Weather Forecast Offices (WFO) and 13 
River Forecast Centers (RFC). The Southeast (Mississippi, Louisiana, 
Alabama, Florida, Georgia, and South Carolina,) is home to 16 of the 
122 WFO's and 3 of the 13 RFC's (West Gulf RFC, Lower Mississippi RFC, 
and the Southeast RFC). NOAA's National Hurricane Center and its sister 
research lab (AOML/Hurricane Research Division) are physically located 
in the Southeast (Miami, Florida).
    To improve services for the southeast and elsewhere across the 
Nation, NOAA has begun the Hurricane Forecast Improvement Project to 
improve our forecasts of hurricane track, intensity and storm surge. We 
are also implementing dual polarization of our Doppler radars, which 
will improve the detection of severe weather and improve our warning 
accuracy. We are also engaged with the university research community 
and conduct our own research projects to improve our understanding of 
severe weather events to improve our warnings.
    Question. Although the Southeast experiences the worst weather in 
the Nation, NOAA labs and cooperative research programs are 
concentrated in other areas of the country. How can NOAA justify this 
misallocation of resources when it's clear the Southeast is the region 
most at risk?
    Answer. While our data shows the most severe storms and hurricanes 
impact the southeast, the Alaska region might argue they have 
consistently some of the worst weather in the Nation. NOAA labs are 
concentrated in areas with similar interests and to leverage expertise 
in the Federal, academic, and private sectors. The NOAA Severe Storms 
Research Laboratory and the Storm Prediction Center, with national 
forecast responsibility for severe storms, are collocated with the 
Norman Forecast office and the University of Oklahoma to leverage the 
synergy, capability, research, and knowledge that each component 
offers. NOAA's National Hurricane Center is located on the campus of 
the Florida International University and near its sister research lab 
(AOML/Hurricane Research Division) in Miami, Florida. Here, too, NOAA 
leverages expertise and synergy to improve understanding of the weather 
phenomena and improve services. NOAA has a Cooperative Institute for 
Marine and Atmospheric Studies (CIMAS) in association with the 
University of Miami and the NOAA facilities in Miami Florida. CIMAS 
focuses on Marine, ecosystem, and atmospheric research. In 2006, NOAA 
established the Northern Gulf Institute (NGI) at Stennis Space Center, 
Mississippi, in partnership with Mississippi State University.
    Question. Severe weather develops differently in the humid 
Southeast than in other areas. Would you agree that there is much more 
that can be done by NOAA in terms of research and planning focused on 
the unique weather of the Southeast that can help address these issues?
    Answer. As a science agency striving to constantly improve 
services, we agree more research can aid our understanding and 
prediction of severe weather events in the southeast and across the 
rest of the Nation as well. To help address this, the President's 
fiscal year 2010 Budget increases funding for research to improve 
severe weather forecasts, including funding to accelerate improvements 
in hurricane intensity and track forecasts.
    Question. Will NOAA support a long-term commitment to improve the 
infrastructure related to weather, climate and hydrology in the 
Southeast in order to reduce the number of deaths and injuries and the 
multi-billion dollar losses in the Southeast due to severe weather?
    Answer. NOAA has a long-term commitment to improve the 
infrastructure related to forecasting weather, climate and hydrology in 
the Southeast and elsewhere across the Nation to help protect life and 
property and enhance the economy. It is our mission and we look forward 
to working with Congress to attain our goals.
    Question. Can you provide an update on a proposal to NOAA by the 
University of Alabama in Huntsville to establish a NOAA Cooperative 
Institute for Remote Sensing on that campus? I know UAH has been 
working with NOAA for some time now on this proposed institute. This 
institute would take advantage of the world-class atmospheric research 
programs at UAH using satellite remote sensing.
    Answer. NOAA has been impressed by the University of Alabama in 
Huntsville (UAH) research programs, particularly its work in the area 
of air quality and remote sensing. NOAA's Cooperative Institute policy 
requires that each Cooperative Institute must be competed in a group 
competition. NOAA will continue to work with UAH as it plans its 
competition for new Cooperative Institutes.
    Question. What needs to be accomplished in order to make this 
institute a reality?
    Answer. NOAA has encouraged UAH to submit an application to any of 
NOAA's calls for Cooperative Institute competitions, either as the 
primary institute or in partnership with a primary institute. NOAA 
intends to issue a Federal Register notice in the summer 2009 
soliciting proposals for Cooperative Institutes.
    Question. Can you give me a timeline in which you think this 
institute could be accomplished?
    Answer. Establishment of a Cooperative Institute from the summer 
2009 request for proposals could occur as early as July 1, 2010.

                                  NIST

    Question. The Federal Information Security Management Act charges 
NIST with creating mandatory security standards for all non-classified 
Federal information systems. Our Nation's cyber infrastructure is 
facing a growing threat from Russian and Chinese hackers. Recent news 
accounts have brought up the real possibility of our Nation's power 
grid being brought down by these hackers. Given the seriousness of this 
threat, is the annual appropriation of approximately $25 million 
provided to NIST enough to address these threats?
    Answer. Cybersecurity is a major concern, and NIST plays a vital 
role in ensuring that our Federal systems are secure. NIST will support 
the research necessary to enable and to provide the cybersecurity 
specifications, standards, assurance processes, training and technical 
expertise needed to secure U.S. Government and critical infrastructure 
information systems. NIST must continue to work freely and openly with 
industry and internationally. NIST cybersecurity activities also need 
to be closely coordinated with national security and both domestic and 
international private sector cybersecurity programs. As NIST formulates 
future budgets, it will continue to place a high priority in the area 
of cybersecurity, consistent with NIST's mission and role.
    Question. The Administration has recently conducted a ``60-Day 
Review'' of all Federal cyber security systems. It was stated that this 
``review will develop a strategic framework to ensure that U.S. 
Government cyber security initiatives are appropriately integrated, 
resourced and coordinated with Congress and the private sector''. 
Because the Department of Commerce is responsible for several key 
aspects of Federal cyber security, can you share your thoughts on the 
review?
    Answer. The content of the Administration's ``60-Day Review'' has 
not yet been released.
    Question. The Smart Grid integrates digital information technology 
to transform the Nation's electric system into a dynamic system with 
improved reliability, security and efficiency. NIST is responsible for 
developing the standards framework associated with a future smart grid. 
As part of this effort you recently announced that you would chair a 
meeting with CEO's to begin the process for reaching agreement on smart 
grid standards. How else is NIST engaged with the private sector in its 
efforts to develop this framework?
    Answer. In addition to the CEO meeting, attended by 74 CEO's and 
public sector leaders from around the country, NIST, through its 
contract with Electric Power Research Institute, has organized a series 
of public workshops to engage the private sector in developing the 
framework. Approximately 430 representatives of electric utilities, 
electric industry manufacturers, IT and telecom providers, industry 
associations, standards development organizations, and universities 
participated in the April workshop. Over 680 Smart Grid representatives 
attended the May 19-20 workshop, and hundreds more are expected at the 
July 2009 workshop. A web-based collaboration tool is also being used 
to allow individuals and organizations who cannot attend the workshops 
to be informed of progress and submit comments.
    Question. NOAA and NIST play key roles in climate change. Mr. 
Secretary, there is a lot of talk about the need for a ``cap and 
trade'' program to reduce the growth in emission of green house gases. 
A ``cap and trade'' system is not the answer, but we do need to develop 
technologies that allow industries to produce with fewer emissions.
    As the Department charged with overseeing American industry, what 
are your plans for developing and adopting these technologies?
    Answer. NIST partners with U.S. industry in many ways to support 
and help it adopt technologies and other processes which lead to 
reduced energy consumption or the use of alternative energy sources to 
reduce carbon emissions. As an example, NIST works with manufacturers 
of continuous emission monitoring equipment to ensure measurement 
accuracy at the source. Such information enables the user to make more 
informed decisions about energy consumption, which can lead to reduced 
energy consumption.
    Further, NIST performs critical measurements and standards work in 
a variety of areas such as:
  --Smart Grid.--NIST is partnering with industry and other Federal 
        agencies to guide the standards development process which will 
        ensure interoperability of the Smart Grid and associated 
        devices. For example, smart meters, to which NIST measurement 
        science is fundamentally important, can have a positive impact 
        on consumption by informing consumers on the best time to use 
        energy.
  --Green Buildings.--NIST is working to provide the measurement 
        science that will enable the development, deployment, and use 
        of energy technologies useful to the building sector. For 
        example, the use of solid-state lighting, advanced building 
        materials and smart heating and air conditioning systems will 
        lead to more energy efficient buildings.
  --Alternative Energy.--NIST is working with industry to provide 
        metrology tools, techniques, and standards to enable the 
        evolution of energy technologies from pilot projects to full 
        commercial applications through the development of technical 
        infrastructure. For example, decreasing the cost of and 
        increasing the efficiency of solar energy will enable the shift 
        toward a larger U.S. share of the solar marketplace.
    The Hollings Manufacturing Extension Partnership (MEP) program 
works directly with small manufacturers to:
  --Reduce demand for electricity and fuel, reduce waste and 
        contaminants in the production process, and incorporate green 
        design in manufactured parts;
  --Help companies to identify opportunities for reducing the energy 
        footprint at all tiers of the production process;
  --Assist manufacturing companies (especially auto suppliers) in 
        market diversification efforts, to transition from supplying 
        declining industries to making components for growing 
        industries such as renewable energy providers and medical 
        devices;
  --Collaborate with renewable energy providers to identify new 
        technologies from Federal labs and universities (technology 
        scouting) and new suppliers (supplier scouting) to assist them 
        with increased production demands; and
  --Work with the Department of Labor to support the training needs of 
        workers and employers in ``green job training'' and in support 
        of the emerging energy efficiency sector.
    Question. Mr. Secretary, this Committee, as well as others, have 
dedicated billions of dollars over the last several years to improve 
radio interoperability for first responders. One of my priorities has 
been to ensure that a process exists that will make sure that these 
radio systems being purchased will work together, regardless of the 
manufacturer. I know that NIST has been one of the leaders in putting 
this program in place. Can you tell the Committee where we stand in the 
development of this program?
    Answer. The NIST Office of Law Enforcement Standards (OLES) and 
DHS' Office for Interoperability and Compatibility has built a 
coalition of public safety users and communications equipment 
manufacturers to create the independent Compliance Assessment Program 
(CAP), which allows Project 25 (P25) equipment suppliers to formally 
demonstrate their products' compliance with a select group of 
requirements by testing it in recognized labs.
    Test laboratories demonstrate their competence through a rigorous 
and objective assessment process, conducted by NIST/OLES and based on 
internationally accepted standards. The first batch of laboratory 
assessments began in December 2008 and continued through April 2009. 
During the ssessment, the NIST/OLES laboratory assessment team examined 
equipment, facilities, test reports, and the management system; 
observed demonstrations of testing; reviewed quality and technical 
records; and reviewed the credentials of staff to determine their 
competency in particular areas of expertise.
    On May 6, 2009, DHS/OIC recognized eight laboratories to conduct 
this equipment testing. P25 manufacturers will soon begin to submit 
their equipment through the testing process, and will release 
standardized summary test reports from these recognized laboratories, 
along with declarations of compliance. This documentation will be 
available on a publicly accessible website to help equipment purchasers 
make informed decisions. The response community will be able to select 
from multiple vendors that build innovative products according to the 
same standards. This documentation will serve to increase the public's 
confidence in the performance, conformance, and interoperability of P25 
equipment.
    Additional laboratories may continue to apply to the program and 
will continue to be assessed, further expanding the pool of 
laboratories that manufacturers may choose to test their equipment.
    Question. Also, how is the program being used by the various 
Federal grant agencies providing funds for interoperable communications 
equipment?
    Answer. A 6-month grace period provides equipment manufacturers and 
laboratories time to perform the necessary interoperability tests on 
equipment. After 6 months, equipment delivered to grantees receiving 
funds following SAFECOM grant guidance, which includes numerous Federal 
grant programs, will be required to have the supporting documentation.
    At this time, the following Federal grant programs are leveraging 
the P25 CAP:
  --DHS Interoperability Grants
  --NTIA PSIC Grants
  --COPS Interoperable Communications Grant Program
    In addition, NIST has been informed that all Department of Defense 
radio procurements will require compliance to the P25 CAP. This 
program, through grant guidance, provides a means of verifying that 
Federal grant dollars are being invested in standardized solutions and 
equipment that promote interoperability for the public safety 
community.
    Question. Mr. Secretary, we have been hearing that some first 
responders, especially firefighters, are having some issues with the 
new digital radio systems. Apparently, these new digital radios don't 
work as well as the older systems when there is loud background noise. 
As I understand it, your people at the Public Safety Communications 
Research program in Boulder are working on this issue. Can you tell me 
what you have found to date and what is being done to address the 
issue?
    Answer. When a firefighter's life is in danger, the ability to 
communicate a call for help and to warn others is essential. However, 
some background noises created by firefighting equipment, such as 
chainsaws and personal alert safety systems (PASS), can interfere with 
digital communication. Sometimes this interference is so severe that it 
can prevent a firefighter and the person talking with them from 
understanding each other at the most critical moments. To understand 
how background noise affects voice communications and to determine what 
technology improvements are needed to overcome any background noise 
issues, NIST/OLES has worked with practitioners to develop and 
implement tests that measure how digital radios operate in the presence 
of loud background noise.
    NIST designed and conducted subjective listening experiments that 
enabled quantification of the performance issues being reported in the 
field. Disseminating this information will ensure that voice 
implementations by manufacturers will meet the operational needs of 
public safety officials. NIST worked directly with fire departments to 
obtain high-quality recordings of typical firefighting noise and 
partnered with practitioners from various agencies to conduct numerous 
tests with three different communications systems in nine different 
noise environments. NIST has identified immediate behavioral, 
procedural, and technical steps agencies can take to avoid or minimize 
emergency response background noise.
    A technical report was published in June 2008 describing the 
testing and results. The report, which is available at 
ww.its.bldrdoc.gov/pub/ntia-rpt/08-453/, notes that in some 
environments analog radios performed better than digital radios and 
explains that in some environments no radios performed well. This 
report is supplemented by a July 2008 report from the International 
Association of Fire Chiefs, which recommends operational changes for 
fire agencies using digital radios. The IAFC report is available at 
www.iafc.org.
    Since issuing the June 2008 report, NIST/OLES has begun a second 
round of audio quality testing with practitioners that will continue to 
inform our understanding of this audio quality problem. Additionally, 
this second round of testing will identify potential areas that could 
be improved in order to mitigate the problems being reporting by 
firefighters.
    Question. Mr. Secretary, the recent National Academies of Science 
(NAS) report was a sobering assessment of the state of forensic science 
in this country. There is no doubt we have to make some serious 
improvements. Looking at the report, it is obvious that the authors see 
your Department, especially NIST, as a key element in forging 
improvements in forensic science in the United States. What steps is 
the Department of Commerce taking to fulfill the leadership role NIST 
is being called upon to provide to the government to help improve 
forensic science in this country?
    Answer. In anticipation of the publication of the NAS report 
entitled Strengthening Forensic Science in the United States--A Path 
Forward, NIST undertook plans to engage other Federal agencies with 
forensic science programs. Also, a NIST scientist was a member of the 
NAS Committee that worked on this report. The NIST Office of Law 
Enforcement Standards Forensic Science Program is already working with 
other forensic science agencies to address the NAS recommendations: to 
develop standards and validate forensic science protocols; to conduct 
research and development of improved forensic science technologies; to 
develop interoperability of automated fingerprint identification 
systems; and to identify strategies to mitigate contextual bias in 
impression evidence analysis.
    Further, in collaboration with the National Institute of Justice, 
NIST has begun a working group focused on Human Factors in Latent Print 
Analysis to study human errors in latent fingerprint testing. NIST has 
impaneled several dozen experts from Federal, State and local crime 
laboratories, and statisticians and psychologists from academia, to 
evaluate and reduce contextual bias in fingerprint analysis. Finally, 
NIST is working closely with OSTP to address the NAS recommendations at 
the Federal level, and maintains frequent dialog with State and local 
crime laboratories, academia and the private sector to implement 
improvements in forensic science in the United States.

        CENSUS--CHANGES TO DECENNIAL CENSUS IN FISCAL YEAR 2009

    Question. Over the past year we have witnessed the decision by the 
Census to revert to a paper census, rather than continue forward with 
using handheld computers for non-response follow up. This has raised 
the total cost of the 2010 Census to $15 billion. There is still time 
for further issues to emerge that could drive this cost even higher. 
This is an effort that gets highlighted to the public once every 10 
years, but has been almost a decade in planning with less than 
spectacular execution of cost saving improvements. Please provide what, 
if any, significant changes have occurred to plans for the Decennial 
since the beginning of the fiscal year?
    Answer. Other than the expansion from the American Recovery and 
Reinvestment Act (ARRA) for program enhancements to our partnership and 
outreach/advertising efforts and the Coverage Follow-Up activities 
(designed to help find and resolve situations where respondents were 
unsure who to include on their questionnaire), no significant changes 
to plans have occurred since the beginning of the current fiscal year. 
As to issues or unexpected events that might yet emerge and have a 
large cost impact on the census, such as a much lower than anticipated 
mail response rate, or a major natural disaster, we have included 
contingency funding in both the fiscal year 2009 amended budget and the 
fiscal year 2010 President's Budget Request. These contingency funds 
are part of the estimated lifecycle total of $14.7 billion.
    Question. Have the budget and schedule estimates that Census has 
been using for the 2010 Census been an adequate forecast of the actual 
costs we now see for the Census?
    Answer. We have made changes to our budget and schedule estimates 
over the decade as a result of testing results, program decisions, 
revised operational plans, and the like. Given that our actual plans 
for 2010 Census operations must be finalized, and funding requests 
made, nearly 2 years in advance of operations, it is always difficult 
to predict how external events and conditions might affect things 
during implementation. For example, when we prepared our staffing, 
budget, and schedules for the Address Canvassing operation now 
underway, we could not have forecast the current economic conditions, 
or how those conditions might affect such things as our ability to 
recruit and retain the workforce needed for that operation. We will now 
examine the results of the Address Canvassing operation to determine 
whether we might need to make changes to budget and schedule 
assumptions for future field operations. At this time, we believe we 
have the funds necessary to conduct the 2010 Census.
    Question. How have the funds provided in the stimulus been used to 
mitigate problems that have emerged as we move toward the 2010 Census?
    Answer. $250 million of the funding from the ARRA is being used for 
program enhancements to our partnership and outreach/advertising 
efforts to minority communities and hard-to-reach populations, and to 
enhance our Coverage Follow-Up activities (designed to help find and 
resolve situations where respondents were unsure who to include on 
their questionnaire). The increased funding for partnership and 
advertising will help us maximize the mail response rate next year, and 
thereby reduce the need to conduct expensive personal visit follow-up 
to non-responding households. One of our largest risks for the 2010 
Census is a mail response rate lower than our budgeted rate of 64 
percent--we estimate that each 1 percentage point change in the mail 
response rate will require an additional $80 $90 million in costs to 
visit the non-responding addresses, and there also are numerous 
logistical challenges if we must recruit and train a significantly 
larger workforce than planned.
    Question. For the activities related to the 2010 Census, the bureau 
will hire hundreds of thousands of temporary workers in a short period 
of time. The Census initially relies on the FBI to screen potential 
employees and then the Census Bureau conducts further follow up 
reviews. In the last Census, 930,000 applicants, around 25 percent of 
the total, were flagged by the FBI. Many of these jobs require going 
door to door in order to get the information required for the 2010 
Census. I am concerned about the safety of the public as they are asked 
to open their doors by representatives of the government. How can the 
public be assured of their safety when, according to the 2000 Census 
data, there is a 1 in 6 chance that the person at the door has a record 
that has been flagged by the FBI?
    Answer. The Census Bureau has no data to support the assertion that 
1 in 6 enumerators may have a criminal history record. The Census 2000 
Census Hiring and Employment Check (CHEC) System data does show that 25 
percent of applicants were identified through the FBI's name-based 
screening process as having a potential criminal record. However, after 
manual review, 312,544 applicants (approximately 8.6 percent of 
applicants) were determined to be potential matches to criminal history 
records that showed significant arrests.
    These applicants were not hired. Rather, these applicants were 
notified by letter and advised that if they wanted to be considered for 
employment they must either provide fingerprints to allow a fingerprint 
search of FBI records, or provide court records indicating that the 
criminal history noted was resolved. Approximately 93 percent of those 
applicants with potential matches did not respond to this letter and 
were listed as unavailable for hire.
    For Address Canvassing and other 2009 field operations, the Census 
Bureau is fingerprinting all hires at their first day of training, as 
an additional security check. Their fingerprints are electronically 
submitted to the FBI for identification and the results are returned to 
the Census Bureau electronically. So far, the turnaround time for this 
process has been approximately 24 hours. The Census Bureau will use 
this experience to determine whether fingerprinting will be carried out 
for 2010 field operations.
    If there is no match to the submitted identifiers, these employees 
are cleared for field work. If the submission results in a match, the 
CHEC Office will flag the case for manual review, and the employee's 
work will be suspended until a final decision is made. If after review 
the employee is deemed to be a potential risk, they will be offered the 
opportunity to provide mitigating information. If after manual review 
the employee is determined suitable for continued employment, they will 
be placed back in active status and will be given additional work.
    Question. What criteria does the Census use to determine if an 
applicant's past criminal history disqualifies them for employment?
    Answer. The criteria for the CHEC program are designed to identify 
those applicants who, based on their criminal history background, 
present an unacceptable risk to the process of gathering information 
for the Decennial Census. In the course of making determinations on 
applicants based upon the criteria established for this purpose, the 
Census Bureau is mindful of the delicate balance between hiring persons 
of the highest integrity to represent the government and the need to 
hire quickly an unusually large workforce for positions to perform 
limited information gathering duties for periods of 6 weeks or less.
    At the same time, the Census Bureau realizes that those who are 
hired will, even if for a limited period, represent the Census Bureau 
and the government and, in that capacity, will be invited into private 
homes and communities for the purpose of collecting information. Thus, 
we follow the general guidelines below to ensure that each applicant is 
an acceptable risk to collect census information from residents of a 
community as a representative of our government.
    Most FBI rapsheets do not list the final criminal justice 
dispositions; therefore, applicants will be asked for official court 
documentation showing the final outcome of any arrest(s) that contain 
the following:
  --manufacturing/sale of any controlled substance
  --breaking & entering
  --burglary
  --robbery
  --embezzlement
  --grand theft
  --violent crimes against person or property (includes assault, 
        battery, kidnapping, manslaughter, vehicular manslaughter, 
        murder, arson)
  --crimes against children
  --sexual offense (includes sexual harassment, sexual misconduct, 
        sexual assault, rape, statutory rape)
  --weapons charge (includes carrying concealed weapon, possession of 
        illegal weapon, sale of firearms)
  --terrorism
  --any pattern of arrests (3 or more arrests in the last 15 years)
  --any arrest within the last 36 months
    A conviction for the above offenses will likely disqualify an 
applicant for employment. However, this list is not all-inclusive; 
there may be additional types of offenses for which a conviction 
depending on the date, severity, and nature of the offense, may render 
an individual unsuitable for hire.
    Question. What qualifications do those that screen potential hires 
have for making evaluations about the safety of the public?
    Answer. Census Hiring and Employment Check (CHEC) Office senior 
staff worked on the 2000 Census, and since that time they have been 
responsible for the suitability reviews of low-risk fulltime FTEs at 
the Census Bureau's Headquarters and Regional Offices. The USDA 
Graduate School trains all staff in Office of Personnel Management 
Suitability Standards.
    Temporary staff are comprised of experienced law enforcement 
professionals, such as retired police officers, and are familiar with 
suitability evaluations. Additionally, all adjudicators were given 
extensive in-house system training and completed an FBI training course 
on criminal history records and adjudication procedures.
    Question. Address canvassing is one of the most critical operations 
for the success of the Decennial Census. It is the process by which the 
Census identifies all of the potential places of residence for sending 
2010 Census forms. The canvassing will also include the use of hand-
held computers to set GPS markers for each address that will further 
inform States as they begin the process of redistricting for their 
representation in the House of Representatives. In light of the 
management challenges facing the 2010 Census, did AdCan operations 
begin on schedule?
    Answer. Yes. Moreover, the field listing for the Address Canvassing 
operation began in eight offices on March 30, one week ahead of 
schedule. Some listings were completed prior to March 30 as part of 
training sessions.
    Question. What have the early results been with the hand-held units 
and when will Census complete its quality assessment of Address 
Canvassing operations?
    Answer. The handheld computers are generally working well. We have 
experienced several issues that required immediate resolution. 
Corrective steps were put in place, and work is continuing on or ahead 
of schedule.
    The Address Canvassing Quality Profile, which reports on results 
from the Quality Check operation, is scheduled to be completed by the 
end of November 2010. The Address Canvassing Assessment, which is a 
broad review on the entire Address Canvassing operation, is scheduled 
for completion in August of 2010 and an assessment of the Address 
Canvassing automation is scheduled for February 2011.
    Question. During these field operations, are census workers 
collecting significantly more addresses than initially identified by 
the Geography Division at the start of address canvassing?
    Answer. Early indications based on preliminary review and 
processing of the Address Canvassing results have not shown anything 
significantly beyond our expectations. Until the Address Canvassing 
operation is complete and all data processed, it will be difficult to 
assess what the final address count will be.
    Question. Based on your current collection progress, how accurate 
and complete will the results of address canvassing be?
    Answer. We do not have any mechanism to independently measure the 
accuracy of the address list following address canvassing. However, as 
part of our overall address list development program (which also 
includes updates from the U.S. Postal Service and from local, State, 
and tribal governments), we are confident the Address Canvassing 
operation is helping us ensure the most complete address file possible 
for the 2010 Census. For Address Canvassing, we have a quality control 
(QC) operation in place to check the quality of each lister's work to 
ensure they are following procedures (and to re-train them, or re-do 
their work, if necessary). We also conduct a quality check for each 
assignment area to ensure the overall canvassing results are of 
acceptable accuracy. It would be prohibitively expensive to conduct a 
QC check large enough to ensure 100 percent accuracy for all 
assignments--the QC operation we have in place is designed to ensure 
that the average critical error rate does not exceed 8.1 percent.
    Question. At this time, is address canvassing running on schedule, 
behind schedule, or ahead of schedule?
    Answer. Overall, Address Canvassing work throughout the country 
continues on or ahead of schedule. As of May 27, 96 percent of 
Assignment Areas (AAs) have completed all phases of the Address 
Canvassing operation, including the Quality Check, as compared to the 
established goal of 65 percent.
    Question. Are there specific areas that will finish earlier than 
expected?
    Answer. Yes, at this time, it appears that some Local Census Office 
areas will finish earlier than scheduled.
    Question. If significant national or local problems are identified 
as this activity progresses, what are the contingency plans for 
correcting the problems and has the Census estimated the range of costs 
for ensuring this activity is properly carried out?
    Answer. Given how well the operation has gone to-date, our 
contingency planning efforts have shifted focus from plans to replace 
the Address Canvassing operation now underway, to focus on a county-
level review of the Address Canvassing results to determine if special 
efforts are needed in selected areas. Until the completion of Address 
Canvassing and the county-level review, we won't know if contingency 
efforts will be necessary, and if so, their scope. However, contingency 
planning efforts are ongoing. As part of that effort, we are assessing 
the potential cost impacts but do not have estimates available at this 
time.
    Question. As I mentioned in my opening remarks, I am concerned 
about the potential for politicizing the 2010 Census. Our citizens do 
not deserve to be shortchanged because of manipulation of the results 
from the Census. Provide a detailed description of what role the White 
House is playing in the execution of the 2010 Census, including the 
person at the White House the Census must report to, and that person's 
role in directing Census activities?
    Answer. Secretary Locke has made explicit his commitment to the 
need for independence of the Census Bureau Director, that the Director 
will report to him, and that the White House has assured him that they 
have no interest in politicizing the census.
    Question. How is the Census ensuring that the integrity of the 2010 
Census data is not manipulated for political gain?
    Answer. The Census Bureau and its leadership have long recognized, 
and insisted upon, the need for statistical information of all types to 
be independent of partisan politics. If the information we produce is 
in any way considered to be manipulated by such influences, the 
credibility of the data, and of the Census Bureau, will be lost, and 
difficult (if not impossible) to restore. A key to ensuring this 
integrity is, and always has been, the Census Bureau's commitment to 
openly sharing its plans, methods, findings, and decision criteria with 
all stakeholders.
    Question. I was alarmed when I discovered that the Census had plans 
for using ACORN as a partner in the 2010 Census. ACORN employees have 
been found to be fraudulently registering voters for elections. Given 
ACORN's political history, I feel that the Census Bureau should not 
partner with organizations that have shown systemic problems with both 
accuracy and legitimacy. What is the Department of Commerce and Census 
Bureau doing to ensure that groups, such as ACORN, are adequately 
investigated prior to their involvement in something as important as 
the 2010 Census?
    Answer. The goal of the Census Bureau's partnership program is to 
combine the strengths of State, local, and tribal governments, 
community-based organizations, faith-based organizations, schools, 
media, businesses and others to ensure an accurate 2010 Census. These 
governmental and private sector businesses and organizations know their 
local conditions and circumstances better than the Census Bureau and 
have the connections in the local community to encourage and mobilize 
participation in the census. Partners are not Census Bureau employees 
and have no responsibility for counting, collecting, or processing 
census data.
    The selection of 2010 Census partners is extremely important. While 
not Census Bureau employees, partners are advocates for census 
cooperation and participation. During partnership training, detailed 
information is given to partnership specialists about the type of 
partners the Census Bureau should and should not seek partnership 
agreements with. Prior to obtaining a formal partnership agreement, 
partnership specialists also research potential partners and meet with 
them to learn more about the support and outreach activities the 
organizations can provide to help ensure an accurate count of their 
constituents.
    Census Bureau staff at the regional and national level use the 
following guidelines and criteria when identifying potential 2010 
Census partners.
    Select partner organizations that:
  --Promote the goals of the Integrated Communications Campaign to:
    --Increase mail response,
    --Improve accuracy and reduce the differential undercount, and
    --Improve cooperation with enumerators.
  --Reach and motivate households and individuals, particularly those 
        who live in hard-to-count areas.
  --Have communications vehicles designed to reach their members and/or 
        constituents.
  --Agree to take ownership of the outreach process to their members 
        and/or constituents.
  --Have influence and respect in their community.
  --Are viewed as ``trusted voices'' by their community.
    Do not select partner organizations that:
  --Are not trusted or are viewed negatively within the community, such 
        as a company or organization located within an African American 
        community that has a negative reputation for mistreatment of 
        African Americans or other population groups.
  --Produce products that may create a negative connotation for the 
        Census Bureau, such as sexually related products.
  --Could distract from the Census Bureau's mission.
  --May make people fearful of participating in the census, such as 
        groups that espouse violence or hate-crimes or extreme anti-
        immigrant views.
    Partnership specialists are trained to consult with management if 
they are in doubt about the choice of an organization or corporation as 
a 2010 Census partner. When expressing concerns to management about a 
potential partner, the staff member outlines the concerns that caused 
them to doubt the validity of a potential partner organization choice. 
We fully utilize the expertise and experience of regional management 
staff and Regional Directors during this process, since they know best 
the organizations that will or will not resonate with the hard-to-count 
populations in their regions.

                      ITA EXPANDING U.S. EXPORTING

    Question. Our long-term economic growth and job creation must 
include an exporting component. In recent years, exports have only 
accounted for 12 percent of our GDP. In fact, we export less than many 
of the major G-20 nations. Yet I hear that there are often long wait 
times for U.S. businesses who have asked the International Trade 
Administration for help breaking into new markets or for help to get 
started in exporting. I also understand that the number of people you 
have in ITA has been declining and it appears as if your budget is 
relatively flat for export promotion activities. What can the 
Department and ITA do to help more U.S. firms begin exporting and to 
further expand our Nation's exporting capabilities?
    Answer. ITA plays an important role in creating and sustaining 
high-paying jobs through export assistance, especially for small and 
medium-sized businesses, and market access and advocacy support to 
ensure fair trade. ITA's efforts are focused on increasing the number 
of American exporters and on increasing the number of markets to which 
American firms export. The Commerce Department, as the chair of the 
interagency Trade Promotion Coordinating Committee (TPCC), also has the 
lead role in ensuring that all U.S. export promotion programs and 
resources are deployed in a strategic and effective manner. I will work 
to ensure that the Department's export promotion programs, and those of 
the TPCC member agencies, maximize the competitiveness of U.S. 
businesses in the global marketplace. In the months ahead, I will be 
consulting with other TPCC agencies to develop a strong set of national 
priorities for boosting U.S. exports.
    Question. Mr. Secretary is there currently a hiring freeze at the 
Foreign Commercial Service (FCS)?
    Answer. No, but US&FCS has implemented hiring restrictions to 
ensure that budgetary resources go where they are most needed.
    Question. Can you tell us how long this has been in effect and what 
is the amount of their estimated budget shortfall?
    Answer. These hiring restrictions have been in effect since October 
2008. We anticipate that ITA will be able to manage effectively within 
its budgetary resources.

                              NTIA--ICANN

    Question. Mr. Secretary, the responsibility for managing the ever 
expanding universe of Internet domain names used to be handled by the 
Department of Commerce, but is now handled by the Internet Corporation 
for Assigned Names and Numbers (ICANN) under a memorandum of 
understanding with the Department called the Joint Partnership 
Agreement, or ``JPA.'' ICANN has been very open about its desires to 
terminate the JPA, which would effectively sever its ties to the U.S. 
Government.
    Do you believe ICANN is ready to manage its responsibilities for 
global Internet protocol address allocation and root zone management 
for the Domain Name System (DNS) on its own?
    Answer. The Department of Commerce remains committed to preserving 
the security and stability of the Internet's domain name and addressing 
system (DNS), and any decision with respect to the future of the JPA 
will be consistent with that goal. NTIA released on April 24 a Notice 
of Inquiry (NOI) seeking comments on these issues. The public record 
developed through this process will inform any decision made about the 
JPA's future, and the Department looks forward to working with Congress 
on this important issue.
    Question. If ICANN is allowed to completely sever its ties to the 
U.S. government, how will we ensure that the voices of U.S. businesses 
(and the U.S. government, for that matter) are heeded in ICANN decision 
making?
    Answer. It is very important for U.S. business to have a voice in 
ICANN decision making. Regardless of whether the JPA is terminated, 
modified, or extended, NTIA will continue to be an active participant 
in ICANN by representing the United States government in ICANN's 
Governmental Advisory Committee (GAC) as well as filing comments, as 
needed, in ICANN's various public consultation processes. In addition, 
the Department's relationship with ICANN will continue, as ICANN 
currently performs the Internet Assigned Names Authority (IANA) 
functions under contract to the Department.
    Question. Who would ICANN then answer to?
    Answer. ICANN is a United States not-for-profit organization that 
coordinates the Internet DNS. As such, it answers to its Board of 
Directors and the stakeholders that participate in its bottom-up policy 
making process, including the GAC on which NTIA represents the United 
States government.
    Question. What evidence is there that ICANN will take U.S. 
interests and concerns seriously, since there is some question as to 
whether they have done this even while operating under the auspices of 
the JPA?
    Answer. NTIA recently released a NOI soliciting comment on these 
issues, specifically on whether there are sufficient safeguards in 
place to ensure that all stakeholder interests are adequately taken 
into account in ICANN's decision-making processes. The Department 
expects to work with Congress to ensure that these important issues are 
satisfactorily addressed.
    Question. Are you aware that ICANN's budget--which is funded 
through fees set entirely by ICANN--has grown at an annual compound 
rate of 34 percent since 1999? (In stark contrast, the budget of the 
Department of Commerce which grew at about 4 percent annually during 
that same period).
    Answer. Under the terms of the JPA, the Department of Commerce 
reviews ICANN's performance to ensure completion of the JPA tasks. The 
Department of Commerce also provides expertise and advice on certain 
discrete issues (such as processes for making the root server system 
more robust and secure). The Department does not exercise oversight in 
the traditional context of regulation and plays no role in the internal 
governance or day-to-day operations of the organization or its budget.
    Question. Do you know why ICANN has required such dramatic funding 
increases year after year?
    Answer. The continual growth of the domain name market (i.e., 
increases each year in the number of domain names registered) has 
resulted in an increase in ICANN's budget, because a significant 
portion of the budget is comprised of fees paid by registry operators 
to ICANN.
    Question. Are you aware that its Executive Director made close to 
$1 million, including benefits, in 2007?
    Answer. The Department is aware. However, under the terms of the 
JPA, the Department of Commerce's role is limited to reviewing ICANN's 
performance to ensure completion of the JPA tasks. The Department also 
provides expertise and advice on certain discrete issues (such as 
processes for making the root server system more robust and secure). 
The Department of Commerce does not exercise oversight in the 
traditional context of regulation and plays no role in the internal 
governance or day-to-day operations of the organization, including 
issues such as executive compensation.
                                 ______
                                 

           Questions Submitted by Senator George V. Voinovich

                 EDA--PEER REVIEWED EVALUATION PROCESS

    Question. In 1998, Congress established a peer review, performance 
evaluation system for the allocation of funds under EDA's University 
Center Economic Development Program. However, in 2004, EDA imposed a 
regular competition for resources distributed through the program. The 
frequent competitions have resulted in unpredictable funding levels, 
making it difficult for universities to make long-term commitments.
    What are your views on the peer-reviewed evaluation process for 
this program versus a competition?
    Answer. Section 506 of the Public Works and Economic Development 
Act requires EDA to evaluate performance: ``To determine which 
university centers are performing well and are worthy of continued 
grant assistance under this act, and which should not receive continued 
assistance, so that university centers that have not previously 
received assistance may receive assistance.''
    We believe the Congress' insight into the program was visionary and 
this requirement for competition has made the program a much stronger 
economic development resource for America's distressed communities. 
Judging by the robust competition that occurs annually, we believe the 
section has served its purpose well and helps ensure that additional 
institutions of higher education do indeed obtain the opportunity to 
compete (this year's competition is being conducted in the Atlanta and 
Seattle regional offices). This section already requires EDA to include 
peer review in its evaluation of the university centers. We think the 
requirement to include at least one other university center in the 
evaluation strikes the right balance of ensuring input by a peer into 
the evaluation, but at the same time ensuring that the final evaluation 
is conducted by career EDA professionals responsible for oversight of 
the program.
    It is important to note that university centers that wish to 
undertake larger or longer-term projects may apply and compete for 
traditional Economic Adjustment Assistance grants.
    Question. The EDA has a local match requirement of 50 percent for 
its grants. This requirement helps ensure local commitment to projects, 
and I certainly support it. However, current regulations allow EDA to 
reduce the local match in some cases. Given the current economy, would 
you support giving the Assistant Secretary broad flexibility to reduce 
matching requirements?
    Answer. As you have stated, current regulations allow EDA to reduce 
the local match requirement. Any decision to reduce the matching 
requirement is based on the relative needs of the area in which the 
project will be located and is assessed on a case by case basis. This 
process has been very effective and the current regulations allow the 
flexibility needed to make these determinations.
    Question. As part of its fiscal year 2009 appropriations, EDA was 
directed to increase its efforts to hire staff at both the regional and 
local levels. Can you please provide details on the agency's staff 
levels in its six regional offices, including field-based economic 
development representatives?
    Answer. EDA's regions have 3 vacancies out of their 122 permanent 
positions. One of these vacancies is due to a recent retirement in the 
Philadelphia Regional Office, and the position is in the process of 
being advertised. For the remaining two vacancies in the Seattle 
Regional Office, offers have been made to candidates. All 19 field-
based economic development representative positions have been filled.

                        USPTO--STOP! INITIATIVE

    Question. I have long been a champion of strong intellectual 
property rights enforcement and outreach. President Bush established 
the Strategy Targeting Organized Piracy (STOP!) initiative, a good deal 
of which was coordinated with and operated out of the Department of 
Commerce. I worked with my colleagues to give this initiative a 
permanent structure as part of the PRO-IP Act (Public Law 110-403). 
More recently, I joined Senators Leahy, Bayh, and Specter in a letter 
to President Obama urging him to appoint the Intellectual Property 
Enforcement Coordinator (IP Coordinator).
    Can you describe what steps the Department of Commerce is taking to 
transition the institutional knowledge related to the STOP! initiative 
to the office of the IP Coordinator?
    Answer. The USPTO, through its Office of Intellectual Property 
Policy and Enforcement (OIPPE), worked very closely with Mr. Chris 
Israel, the former U.S. Coordinator for International Intellectual 
Property Enforcement. As an important part of the interagency team 
charged with implementing STOP, the USPTO was instrumental in 
spearheading three separate programs that fall under the general STOP 
initiative: (1) establishing the STOP toll free hotline; (2) posting IP 
experts in U.S. embassies in countries/regions where intellectual 
property protection and enforcement remain a challenge; (3) IP public 
awareness and outreach programs targeting small and medium sized 
companies (for full description of these initiatives, see response to 
question no. 71). All of these initiatives are fully established and 
have become important components of the STOP initiative. The USPTO is 
drafting briefing materials providing background on the development, 
maintenance and continuation of these programs, which will be provided 
to the new IP Coordinator, at his/her request. In addition, the USPTO 
is considering new ways to gauge and improve the effectiveness of these 
programs, and looks forward to sharing these thoughts with the IP 
Coordinator. The USPTO looks forward to being an integral part of the 
IP Coordinator's efforts, and to closely working with the IP 
Coordinator to fulfill his/her duties.
    Question. What specific efforts does the Commerce Department intend 
to undertake related to IP enforcement, and educating American 
companies about the need to protect intellectual property when 
conducting business abroad?
    Answer. The Department of Commerce is taking a wide variety of 
actions related to IP enforcement and educating American companies 
about the crucial importance of protecting their intellectual property 
rights when conducting business abroad.
    To avoid an overly voluminous response here, the following is 
merely a listing by category of the types of IP enforcement efforts and 
educational outreach efforts that the Department is already 
undertaking:

Capacity Building/Technical Assistance
    Year-round IP enforcement training programs--for foreign and 
domestic judges, prosecutors, police, IP-Office officials and others--
at the USPTO's Global Intellectual Property Academy (GIPA), located in 
Alexandria, Virginia. In 2008 alone, GIPA provided training to more 
than 4,100 officials from 127 countries on a variety of topics, 
including IP protection and enforcement, and technology transfer.
  --Programs customized to the needs of a particular country.
  --Regional programs, such ashosting an APEC/ASEAN enforcement 
        conference in June in Malaysia, and is co-sponsoring a 
        companion APEC/ASEAN enforcement conference in July, in Hawaii.

IPR Attaches
    A key IP enforcement effort over the past several years has been 
the placement of IPR Attaches in key regions around the world. The 
USPTO, FCS, and State have worked cooperatively to post six attorney-
advisor intellectual property experts in: Bangkok, Thailand; New Delhi, 
India; Beijing and Guangzhou, China; Moscow, Russia; and, Sao Paulo, 
Brazil.
    These IP attaches provide expertise to U.S. embassies and 
consulates on IPR issues, advocate U.S. intellectual property policies, 
coordinate training on IPR matters, and assist U.S. businesses that 
rely on IPR protection abroad
Promoting Strong IPR Enforcement In and Through International 
        Agreements
    The Department, through the USPTO, ITA and other bureaus, provides 
support to the State Department and USTR, assisting in rafting, 
negotiating and implementing the intellectual property provisions of 
free trade and other international agreements. These provisions 
generally require U.S. trading partners to provide stronger, more 
effective protection for intellectual property than is required under 
the World Trade Organization's Trade Related Aspects of Intellectual 
Property Rights (``TRIPs'') Agreement.
    In 2008, the Department participated in post Free Trade Agreement 
(FTA) implementation discussions and/or follow-up talks with several 
countries, including Peru and Costa Rica.
    The Department also supports USTR efforts for Trade and Investment 
Framework Agreements (TIFA) negotiations in various countries such as 
Nigeria and Indonesia, as well as in negotiating the Anti-
Counterfeiting Trade Agreement (ACTA), where the objective is to 
negotiate a new, state-of-the art agreement to combat counterfeiting 
and piracy.

Public Awareness Efforts
            STOP
    Through the USPTO, the Department manages a hotline (1-866-999-
HALT) that helps small-and medium-sized businesses (SMEs) leverage U.S. 
government resources to protect their intellectual property rights in 
the United States and abroad. In fiscal year 2008, the Hotline received 
1,289 calls, including calls regarding counterfeiting and piracy 
concerns with respect to China and other countries.
    The Department also maintains the www.stopfakes.gov website, which 
provides in-depth information about the STOP initiative. A key feature 
of the website is the country-specific ``toolkits'' that have been 
created by our overseas embassies to assist SMEs to understand the 
business environment and how to protect and enforce their rights in a 
particular country. There are now 16 toolkits, including toolkits for 
the BRIC countries.
    The USPTO also established the www.stopfakes.com/smallbusiness 
after a study revealed that only 15 percent of 1,000 small businesses 
that do business overseas are aware that a U.S. patent or trademark 
provides protection only in the United States.

Public Outreach
    The Inventor's Assistance Program, run by the USPTO, reaches out to 
inventors and entrepreneurs to educate the public about the importance 
of intellectual property by hosting educational conferences, creating 
and posting computer based training modules, and posting pod casts on 
I-tunes. In addition the Office conducts live on-line chats, has 
established a mailbox for inventor questions, and has an 800 number to 
answer questions. There is also an Inventors Resource page within the 
USPTO web site that has ``plain language'' content for the public.
    The Department, through the USPTO, offers ``IP Basics'' conferences 
throughout the U.S., targeting SMEs where participants learn what 
intellectual property rights are, why they are important, and how to 
identify, protect and enforce these rights.
    Separately, the Department, through the USPTO also offers China 
intellectual property-focused programs in various cities throughout the 
United States. These programs are directed to SMEs that either are in 
China or are thinking about going to China or, for that matter, any 
SME--because many are not aware of the threat of IP theft from other 
countries and how surreptitiously it can occur.
    In 2009, the USPTO is expanding its China-related event to include 
intellectual property issues in India.
    The U.S. Export Assistance Center (USEAC) programs, run by the 
Department's U.S. & Foreign and Commercial Service (US&FCS), provide 
personalized assistance to small and medium-sized businesses in various 
cities throughout the United States.
    In fiscal year 2008, the USPTO entered into a Memorandum of 
Understanding (MOU) with the U.S. Minority Business Development Agency 
to provide education to the minority businesses as well as the 
directors for the MBDA offices and business centers. The USPTO also 
works closely with the U.S. Department of Interior, specifically, the 
Indian Arts and Crafts Board (IACB) and the Bureau of Indian Affairs 
(BIA), to help educate Native American artists and craftspeople on 
intellectual property issues as well as intellectual property theft 
from other countries. Starting in fiscal year 2007, the USPTO began to 
operate its USPTO STOP Booth, an information booth, at the 
International Music Products Association (NAMM) bi-annual trade shows 
to wide acclaim by both the NAMM Board and music product manufacturers.

                      ITA--PROMOTING U.S. EXPORTS

    Question. Exports are an important part of Ohio's manufacturing 
economy. As governor of Ohio, I led nine Ohio trade missions abroad, 
which were designed to open markets for Ohio products. I know that the 
U.S. Commercial Service serves as a resource to many small and medium-
sized companies that want to export.
    Can you describe the Department's strategic plan on how the 
Commercial Service resources will be used to promote U.S. exports given 
the constraints on existing personnel?
    Answer. The U.S. & Foreign Commercial Service (US&FCS) is a 
critical part of the International Trade Administration. US&FCS will 
continue to ensure that U.S. companies, particularly small and medium-
sized businesses, benefit from global trade. Through US&FCS's current 
global network of trade professionals in 109 U.S. locations and in 127 
offices located in 77 countries, US&FCS staff will continue to work 
with U.S. companies, providing counseling and advocacy, market 
research, trade events, and identification of potential international 
buyers or partners. US&FCS will maintain its program focus on three 
priorities: increasing the number of U.S. companies that export; 
helping smaller companies expand to new export markets; and helping 
exporters overcome hurdles in foreign markets.
                                 ______
                                 

              Questions Submitted by Senator Patty Murray

                                  NOAA

    Question. Secretary Locke, the President's budget request 
eliminates the Pacific Coastal Salmon Recovery Fund, and proposes a new 
nationwide competitive grants program to recover all endangered and 
threatened marine species. But as you know from your time as Governor 
of the State of Washington, salmon recovery is a complex issue.
    Can you tell me about NOAA's plans moving forward to ensure 
adequate funding for recovery of Pacific Coast salmon?
    Answer. On May 21st, the Administration sent a budget amendment to 
the hill that contains language that allocates $50 million to the 
Pacific Coastal Salmon Recovery Fund. In fiscal year 2010, program 
increases are provided to implement the Pacific Salmon Treaty (+$16.5 
million) and develop advanced tools for managing salmon (+$7 million), 
amounting to a total of $159 million in NOAA to support Pacific salmon. 
Also, nearly $170 million was provided in the Recovery Act to restore 
coastal habitat, particularly in locations where there are listed 
species. Areas with Pacific salmon are competing for those grants.
    Question. Mr. Secretary, the Mitchell Act hatchery program was 
created in 1938 and funds hatchery activities in the Lower Columbia 
River. As you may be aware, the Hatchery Scientific Review Group 
recently released a report calling for hatchery reform efforts in the 
Columbia Basin. A key part of these reforms would be centered around 
Mitchell Act hatcheries, which have been flat funded for several years.
    What plans do you have to move forward on the much-needed 
modernization and reform of Mitchell Act hatcheries?
    Answer. I am familiar with the important contribution made by the 
Mitchell Act to recreational, commercial, and tribal fisheries in the 
Northwest, as well as to fulfilling expectations under our Pacific 
Salmon Treaty with Canada. It is critical that the hatchery facilities 
supported by the Mitchell Act sustain fisheries in a manner that is 
consistent with the Endangered Species Act (ESA). The Hatchery 
Scientific Review Group recently called for measures that would 
accomplish our joint goals of maintaining fisheries while meeting ESA 
objectives.
    NOAA Fisheries is working with the Washington Department of Fish 
and Wildlife, the Oregon Department of Fish and Wildlife, the Yakama 
Indian Nation and the Fish and Wildlife Service (the operators of the 
facilities) to manage funding opportunities in order to implement many 
of these recommendations. More implementation measures are planned for 
the future. The fiscal year 2010 funding request for Mitchell Act 
hatcheries is $ 16.5 million, within which further hatchery reform 
measures will be implemented.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. This subcommittee stands in recess, 
subject to the call of the Chair.
    [Whereupon, at 11:08 a.m., Thursday, April 23, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2010

                              ----------                              


                         THURSDAY, MAY 7, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:08 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senators Mikulski, Leahy, Lautenberg, Pryor, 
Shelby, and Alexander.

                         DEPARTMENT OF JUSTICE

                            Attorney General

STATEMENT OF HON. ERIC H. HOLDER, JR., ATTORNEY GENERAL

            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Good morning. The Subcommittee on 
Commerce, Justice, Science of the Senate Appropriations 
Committee will come to order.
    The subcommittee this morning wants to give a very warm and 
cordial welcome to our Attorney General, Eric Holder. This is 
his first appearance before the Senate Appropriations 
Committee, and we welcome him. We want to hear the President's 
priorities, his agenda for essentially rebuilding and 
recapitalizing the Department of Justice.
    The American people rely on the Department of Justice, and 
we are passionate about restoring it to what its original 
mission is. We know that you bring a great deal of experience 
as a career prosecutor, as a judge, and as someone who has been 
dedicated to protecting the American people from all kinds of 
crime.
    As the Chair of the Commerce, Justice, Science 
Subcommittee, I want to look to you to be able to carry out the 
mandate. First of all, restoring the honor and integrity of the 
Justice Department. There are so many people who work at the 
Justice Department every day. Not only our gifted and talented 
legal teams, but all those who support them and then those who 
work in the field of Federal law enforcement, as well as those 
who administer those grant programs designed to deal with 
prevention and intervention.
    They need to know that the Department of Justice is free 
from politics and ideology. And whether it has been what has 
happened at the U.S. Attorneys Office, whether it has been the 
politics involved in giving out the juvenile justice grants, 
and, of course, the issues related to torture, we are going to 
hear from you how you want to restore that trust. And then what 
are the resources you need to be able to begin enforcing those 
laws that need to be enforced, as well as those that might have 
been overlooked as we fought other wars, particularly in the 
area of civil rights?
    We are also concerned that in addition to fighting the 
global war against terrorism, we need to continue to protect 
our neighborhoods. We will be reviewing the budget for cops on 
the beat; the Byrne grants to make sure that they have 
resources that they need to fight local crime, and also, again, 
those very important grant programs that make such a difference 
in the lives of people in the local police departments. As you 
know, people interact with Justice at many different levels.
    There are also new threats, particularly in the area of 
mortgage fraud, predatory lending, identity theft, cyber 
crime--all kinds of new, emerging things that were not pressing 
when you worked in Government more than a decade ago. The 
Internet seemed nothing more than an expensive toy for a few, 
and now it is an essential tool for law enforcement. But we now 
find the criminals are as good at using the Net as we are, and 
we don't want them to escape the net of justice.
    There is also the issue of terrorism. During the last 
decade, with America under attack and our desire to protect the 
homeland, our law enforcement agencies have had to assume a new 
role, particularly the FBI. We will want to hear about that. 
And we will also want to hear about the President's plan for 
the closing of Guantanamo Bay.
    I support the President's agenda for closing Guantanamo 
Bay, and at the same time, as a United States Senator, I want 
to make sure that we protect our neighborhoods and communities 
as we look at what is the honorable and right way to deal with 
the prisoners that are there.
    We need to enforce the law. We need to respect 
international law. But we have to make sure that streets and 
neighborhoods are not going to be the repository of Guantanamo 
prisoners. So we are going to be asking questions about the 
President's policies.
    We would like to hear from you today, as you present your 
budget. We know that the President has given us kind of the top 
line on the appropriations. We don't have the kinds of details 
we normally would have for this hearing, but we are pleased at 
the direction that he is going in.
    We are also particularly pleased that he understands the 
role of our Federal law enforcement, not only our FBI, but also 
the Marshals Service, DEA, and ATF. We note the President has 
increased funding in those--the Marshals Service by an increase 
of $198 million, DEA by close to $100 million, et cetera.
    For the cops on the beat, which goes to neighborhood 
initiatives, we know that the President has increased this by 
$300 million. But we are deeply troubled that the Office of 
Justice Programs has been reduced by $594 million just at the 
time when local communities are facing great stress, 
particularly those marvelous prevention programs. So we will go 
into this in more detail.
    But I will save more focused comments for my questions. I 
would like to turn now to Senator Shelby for any comments that 
he might have.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you, Madam Chairwoman.
    Attorney General Holder, welcome to the committee, and 
thank you for joining us to discuss the Department of Justice 
and its 2010 budget request.
    First, I want to recognize and extend my appreciation and 
support to the men and women of the Department of Justice who 
protect the country from crime and terrorism. We owe them all a 
debt of gratitude.
    The fiscal year 2010 budget request for the Department of 
Justice is $24 billion. This is a $950 million, or 4 percent 
increase over the 2009 request.
    In keeping pace with the last administration, the 
Department continues to be, some people think, satisfied 
playing second fiddle to the Department of Homeland Security--I 
hope that is not true--whether it is drugs, gun tracing, 
explosive, jurisdiction, or the border war. During the last 
administration, the Department of Homeland Security's request 
grew 7 to 10 percent each year, while the Justice Department 
request decreased or remained flat until this year.
    While the overall numbers for the Department appear to have 
improved, there is a disturbing theme throughout the request 
that advocates hugs for criminals, some people think, instead 
of catching and punishing them. I am specifically, Mr. Attorney 
General, referring to the Second Chance Act.
    The DOJ 2010 budget press release sent out by your office 
highlights the Second Chance Act. Now that is not a bad thing, 
but there is no mention of Adam Walsh funding, for example. The 
welfare of terrorists, pedophiles, and career criminals is 
prioritized, some people believe, at the expense of child 
safety, crime victims, and law enforcement. I hope this is not 
the case.
    Once again, this administration, like the previous one, has 
requested such an inadequate level of funding for the Adam 
Walsh enforcement that it essentially ensures the act's 
failure, which is disturbing. In a perfect world flush with 
resources, I would be supportive of funding the Second Chance 
Act, period. But the very idea of taking money from victims and 
law enforcement officers to educate and comfort terrorists, 
pedophiles, and career criminals I think is an abomination.
    Let me say this again. The Department of Justice is 
requesting funds to educate and to mentor terrorists, 
pedophiles, and career criminals while requesting no funds for 
tracking the kinds of people that abducted and sexually 
assaulted Adam Walsh, Elizabeth Smart, Drew Sjodin, Polly 
Klaas, and Jessica Lunsford and others like them.
    How can we look into the eyes of the parents of these 
children and tell them the Department of Justice and the 
administration are prioritizing criminals while being 
overfunding of the Adam Walsh Act?
    Mr. Attorney General, the administration recently announced 
its intention to close the military detention facility at 
Guantanamo Bay, where 241 detainees are still being held. This 
will be a difficult and expensive undertaking for the 
Department.
    The Los Angeles Times recently reported that the 
administration plans to possibly release the detainees into the 
United States. The Director of National Intelligence, Dennis 
Blair, went so far as to suggest that the administration is 
even considering providing these terrorists with taxpayer-
funded subsidies to establish and supplement their new life in 
America. Gosh, I hope they don't come to my community.
    I look forward to hearing whether this administration 
really intends to release these terrorist-trained detainees 
into our communities and give them public assistance and under 
what circumstances.
    Last, Mr. Attorney General, I would like an explanation of 
the cost and burdens the department will have to undertake to 
begin the closure process. We want to work with you to ensure 
that the personnel under your direction involved in this 
process have the resources necessary to complete their mission 
safely.
    And I do thank you again for appearing before the 
committee.
    Senator Mikulski. Mr. Attorney General

                    STATEMENT OF ERIC H. HOLDER, JR.

    Attorney General Holder. Good morning, Chairwoman Mikulski, 
Ranking Member Shelby, Senator Alexander. It is good to see 
you.
    And I guess happy birthday, Senator Shelby. I understand 
you had a birthday yesterday?
    Senator Shelby. Thank you. I did, and I hope I have many 
more. Thank you.
    Attorney General Holder. I am sure you will.
    Senator Mikulski. I didn't know that. You really are a good 
detective.
    Attorney General Holder. The FBI works for me. Due to the 
Presidential transition, the fiscal year 2010 budget request is 
being released in two parts. In February, the administration 
announced the top-line request for each agency, including the 
Department of Justice. Today, the President will transmit the 
fiscal year 2010 budget, which includes $26.7 billion for the 
Department of Justice.
    I appreciate the opportunity to appear before you today to 
highlight certain aspects of the budget and further discuss key 
priorities for the Department of Justice.
    The President promised that from the day that he took 
office; America will have a Justice Department that is truly 
dedicated to exactly that: justice. As I mentioned, the fiscal 
year 2010 budget that will be transmitted today supports this 
vital task by investing a total of $26.7 billion in our 
critical law enforcement mission, including protecting America 
from terrorism, fighting financial and mortgage fraud, getting 
more cops on the beat, reinvigorating civil rights enforcement, 
and providing essential resources for our prisons.
    As I testified during my confirmation hearing earlier this 
year, I will also pursue a very specific set of priorities. 
First, I will work to strengthen the activities of the Federal 
Government to protect the American people from terrorism. I 
will use every available tactic to defeat our adversaries, and 
I will do so within the letter and the spirit of our 
Constitution.
    Adherence to the rule of law strengthens security by 
depriving terrorist organizations of their prime recruiting 
tools. America must be a beacon to the world. We will lead by 
strength. We will lead by wisdom, and we will lead by example.
    Second, I will ensure that law enforcement decisions and 
personnel actions in the Justice Department are untainted by 
partisanship.
    Third, I will revive the traditional missions of the 
Department. Without ever relaxing our guard against the fight 
against global terrorism, the Department must also embrace its 
historic mission in fighting crime, protecting civil rights, 
protecting the environment, and ensuring fairness in the 
marketplace.

                   PRESIDENT OBAMA'S EXECUTIVE ORDERS

    The Department's work does not end with those priorities. 
On January 22, President Obama issued three Executive orders 
and a Presidential memorandum that gave significant 
responsibility to the Department. These orders require 
immediate interagency action regarding Guantanamo Bay 
detainees, specifically to: review the appropriate disposition 
of individuals who are currently detained there; to develop 
policies for handling individuals captured or apprehended in 
connection with armed conflicts and terrorist activities; and 
evaluate current interrogation practices and make 
recommendations as is necessary.
    Now while implementing these orders, the Department will 
take necessary precautions to ensure decisions regarding 
Guantanamo Bay detainees account for safety concerns for all 
Americans. Executing these orders will have a significant 
workload and cost impact on the Department, and this budget 
reflects that need.
    Last month, I, along with other U.S. Government officials, 
attended the Mexico-United States arms trafficking conference 
in Mexico. This was my first foreign trip as Attorney General. 
My attendance at this conference reflects my commitment to 
continuing the fight against the drug cartels. The United 
States shares the responsibility to find solutions to this 
problem, and we will join our Mexican counterparts in every 
step of the fight.
    Now, $26.7 billion is a significant amount of money that 
comes with a commensurate amount of responsibility. We will use 
these funds wisely and with transparency. Our internal efforts, 
which range from implementing the Department's new Unified 
Financial Management System to establishing internal controls 
to ensure that proper expenditure of Recovery Act funds, will 
demonstrate our commitment to accountability at the highest 
level.

                           PREPARED STATEMENT

    Chairwoman Mikulski, Senator Shelby, and members of the 
subcommittee, I want to thank you for this opportunity to 
discuss the Department's priorities and for your support of our 
programs. I appreciate your recognition of the Department's 
mission and the important work that we do.
    I look forward to working in partnership with this 
subcommittee and with Congress as a whole. I will be pleased to 
answer any questions that you might have.
    [The statement follows:]

               Prepared Statement of Eric H. Holder, Jr.

    Good morning Chairwoman Mikulski, Ranking Member Shelby, and 
Members of the Subcommittee. Thank you for the opportunity to appear 
before you today to highlight areas of the President's fiscal year 2010 
Budget for the U.S. Department of Justice and further discuss key 
priorities for the Department. I would also like to thank you for your 
support of the American Recovery and Reinvestment Act and the fiscal 
year 2009 Omnibus Appropriations Act. I look forward to your continued 
support and appreciate your recognition of the Department's mission and 
the important work that we do.
    The Department is responsible for defending the interests of the 
United States according to the law; ensuring public safety against 
threats both foreign and domestic; seeking just punishment for 
individuals who break the law; assisting our State and local partners; 
and ensuring fair and impartial administration of justice for all 
Americans. The Department's ability to meet its mission is dependent on 
funding that supports our operations and allows us to enhance our 
efforts in identified areas of need.
    Today the President released the fiscal year 2010 Budget which 
includes $26.7 billion for the Department of Justice. This is a 3.8 
percent increase over the fiscal year 2009 appropriation. The 
Department's budget includes enhanced funding for: strengthening 
national security and intelligence programs; combating financial fraud; 
hiring additional police officers; enforcing civil rights; securing our 
Nation's borders; and expanding Federal detention and incarceration 
programs. More specifically, the President's fiscal year 2010 Budget 
request:
  --Counters the Threat of Terrorism and Strengthens National 
        Security.--The request provides $7.9 billion for the Federal 
        Bureau of Investigation (FBI), including $480 million in 
        enhancements and $101 million for continued support of overseas 
        contingency operations and $88 million for the National 
        Security Division (NSD), to address the President's highest 
        priority: protecting the American people from terrorist acts. 
        Funding supports the detection and disruption of terrorists, 
        counterintelligence, cyber security, and other threats against 
        our National Security.
  --Provides Funding to Begin to put 50,000 More Cops on the Street.--
        The request expands the COPS Hiring Grants, and includes 
        funding to begin hiring 50,000 additional police officers. 
        Supporting the hiring of police officers nationwide will help 
        States and communities prevent the growth of crime during the 
        economic downturn.
  --Combats Financial Fraud.--The request includes resources for 
        additional FBI agents to investigate mortgage fraud and white 
        collar crime and for additional Federal prosecutors, civil 
        litigators and bankruptcy attorneys to protect investors, the 
        market, the Federal Government's investment of resources in the 
        financial crisis, and the American public.
  --Reinvigorates Federal Civil Rights Enforcement.--The request 
        provides a total of $145 million for the Civil Rights Division 
        to strengthen civil rights enforcement against racial, ethnic, 
        sexual preference, religious, gender, and other forms of 
        discrimination.
  --Strengthens Immigration Enforcement and Border Security.--The 
        request supports resources for a comprehensive approach to 
        enforcement along our borders that combines law enforcement and 
        prosecutorial efforts to investigate, arrest, detain, and 
        prosecute illegal immigrants and other criminals. This 
        initiative also enhances the Department's ability to track 
        fugitives from justice, combat gunrunners and shut down illegal 
        drug traffickers.
  --Supports Federal Detention and Incarceration Programs.--The request 
        provides $6.1 billion for the Bureau of Prisons and $1.4 
        billion for the Office of the Detention Trustee to ensure that 
        sentenced criminals and detainees are housed in facilities that 
        are safe, humane, cost-efficient, and appropriately secure.
  --Expands Prisoner Reentry Programs.--The request includes $114 
        million for prisoner reentry programs, including an additional 
        $75 million for the Office of Justice Programs to expand grant 
        programs authorized by the Second Chance Act that provide 
        counseling, job training, drug treatment, and other 
        transitional assistance to former prisoners.
    As I testified during my confirmation hearing earlier this year, I 
will pursue a very specific set of goals:
    First, I will work to strengthen the activities of the Federal 
Government that protect the American people from terrorism. I will use 
every available tactic to defeat our adversaries, and I will do so 
within the letter and spirit of the Constitution. Adherence to the rule 
of law strengthens security by depriving terrorist organizations of 
their prime recruiting tools. America must be a beacon to the world. We 
will lead by strength, we will lead by wisdom, and we will lead by 
example.
    Second, I will work to restore the credibility of a Department 
badly shaken by allegations of improper political interference. Law 
enforcement decisions and personnel actions must be untainted by 
partisanship. Under my stewardship, the Department of Justice will 
serve justice, not the fleeting interests of any political party.
    Third, I will reinvigorate the traditional missions of the 
Department. Without ever relaxing our guard in the fight against global 
terrorism, the Department must also embrace its historic role in 
fighting crime, protecting civil rights, preserving the environment, 
and ensuring fairness in the market place.
    In addressing these priorities over the next several years, I look 
to the continued support of this subcommittee and Congress, as a whole, 
to ensure a systematic approach is implemented to target each one of 
the priorities outlined.

        NATIONAL SECURITY: COUNTER-TERRORISM EFFORTS SINCE 9/11

    Since the attacks of September 11, 2001, the highest priority of 
the Department has been to protect America against acts of terrorism. 
Despite repeated and sustained efforts by terrorists, there has not 
been another attack on American soil. The Department has improved 
significantly its ability to identify, penetrate, and dismantle 
terrorist plots as a result of a series of structural reforms, the 
development of new intelligence and law enforcement tools, and a new 
mindset that values information sharing, communication and prevention. 
Working with its Federal, State, and local partners, as well as 
international counterparts, the Department has tirelessly worked to 
safeguard America.
    The FBI has transformed its operations to better detect and 
dismantle terrorist enterprises--part of the FBI's larger emphasis on 
threat-driven intelligence. As part of this strategic shift, the FBI 
has overhauled its counterterrorism operations, expanded intelligence 
capabilities, modernized business practices and technology, and 
improved coordination with its partners.
    All of the Department's law enforcement components, especially 
those involved in national security efforts need reliable wireless 
communication capabilities. The ability of law enforcement to 
adequately communicate is vital in emergency situations and for day-to-
day operations. Inadequate radio systems put our agents' lives, as well 
as those of the public, at risk. On average, the current Department 
radio systems are between 15 and 20 years old. The Integrated Wireless 
Network (IWN) Program is an interagency effort to provide secure, 
interoperable wireless communications that support the missions of the 
Federal agencies involved in this initiative. IWN will provide a range 
of secure and reliable wireless communications services, including 
voice, data and multimedia, to support Federal law enforcement, 
homeland security, and first responder operations. IWN will implement 
solutions to provide Federal agency interoperability with appropriate 
links to State, local and tribal public safety and homeland security 
entities. IWN will be deployed incrementally across the country by 
2014.

                       SOUTHWEST BORDER VIOLENCE

    Several weeks ago, this subcommittee held hearings with Special 
Agents in Charge of the Drug Enforcement Administration (DEA) and the 
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF); and then 
with Acting DEA Administrator Michele Leonhart. These hearings provided 
you critical information on the Department's efforts to address this 
issue. I will not attempt to summarize what took place during the 
previous hearings regarding this matter, but I will highlight some of 
the work the Department has engaged in recently to address southwest 
border violence.
    Illegal immigration and border security continue to be paramount 
concerns for the United States and the Department. The Southwest Border 
in particular is a vulnerable area for illegal immigration, drug 
trafficking, and the smuggling of illegal firearms. Implementing a 
comprehensive strategy involves collaboration and coordination at 
various levels of the government. Late last month, the Department 
announced increased efforts to be used in the fight against Mexican 
Drug Cartels. The Department, along with the Department of Homeland 
Security (DHS) and the Department of State, will invest $700 million 
this year to enhance Mexican law enforcement and judicial capacity and 
work closely to coordinate efforts against the cartels through the 
Merida Initiative. The Department's coordination will include the FBI, 
DEA, ATF, U.S. Marshals Service (USMS) and the Criminal Division, who 
will work to investigate and prosecute cartel members for their illegal 
activities in the United States and with law enforcement colleagues to 
disrupt the illegal flow of weapons and bulk cash to Mexico.
    The Mexican Cartel Strategy will allow the Department to commit 100 
ATF personnel to the Southwest Border to supplement our ongoing Project 
Gunrunner, DEA will add 16 new positions on the border, as well as 
newly reconstituted Mobile Enforcement Teams, and the FBI is creating a 
new intelligence group that will focus on kidnapping and extortion. DHS 
is making similar commitments regarding southwest border resources. In 
addition, I have met with Secretary Napolitano to discuss increased 
coordination on various matters between the Department of Justice and 
DHS.
    The Mexican Cartel Strategy is being led by Deputy Attorney General 
David Ogden. This strategy uses Federal prosecutor-led task forces that 
bring together Federal, State and local law enforcement agencies to 
identify, disrupt and dismantle the Mexican drug cartels through 
investigation, prosecution, and extradition of their key leaders and 
facilitators, and seizure and forfeiture of their assets. The 
Department is increasing its focus on investigations and prosecutions 
of the southbound smuggling of guns and cash that fuel the violence and 
corruption and attacking the cartels in Mexico itself, in partnership 
with the Mexican Attorney General's Office and the Secretariat of 
Public Security.
    Earlier this month I, along with other U.S. government officials, 
attended the Mexico/United States Arms Trafficking Conference in 
Cuernavaca, Mexico. This was my first foreign trip as Attorney General. 
My attendance at this conference reflects my commitment to continuing 
this fight against the drug cartels. The United States shares the 
responsibility to find solutions to this problem and we will join our 
Mexican counterparts in every step of this fight.

   IMPLEMENTING THE PRESIDENT'S EXECUTIVE ORDERS TO CLOSE GUANTANAMO

    On January 22, President Obama issued three Executive Orders and a 
Presidential Memorandum that gave significant responsibility to the 
Department. These Orders, which are clearly important Presidential 
initiatives, require immediate interagency action to:
  --review and effect the appropriate disposition of individuals 
        currently detained by the Department of Defense at the 
        Guantanamo Bay Naval Base;
  --develop policies for the detention, trial transfer, release, or 
        other disposition of individuals captured or apprehended in 
        connection with armed conflicts and counterterrorism 
        operations;
  --study and evaluate current interrogation practices and techniques 
        and, if warranted, recommend additional or different guidance;
  --and review the detention of Ali Saleh Kahlah al-Marri.
    The Department has begun implementing these Orders and the 
Memorandum. I have appointed an Executive Director to lead the Task 
Force on Review of Guantanamo Bay Detainees. I have also named two 
officials to lead the Task Force Reviews on Interrogation and Detention 
Policy.
    The Guantanamo Detainee Review Task Force is responsible for 
assembling and examining relevant information and making 
recommendations regarding the proper disposition of each individual 
currently detained at Guantanamo Bay. The Task Force will consider 
whether it is possible to transfer or release detained individuals 
consistent with the national security and foreign policy interests of 
the United States; evaluate whether the government should seek to 
prosecute detained individuals for crimes they may have committed; and, 
if none of those options are possible, the Task Force will recommend 
other lawful means for disposition of the detained individuals.
    The Special Task Force on Interrogation and Transfer Policies is 
charged with conducting a review to determine whether the Army Field 
Manual interrogation guidelines, when employed by departments or 
agencies outside the military, provide an appropriate means of 
acquiring the intelligence to protect the Nation, and whether different 
or additional interrogation guidance is necessary. This task force is 
also responsible for examining the transfer of individuals to other 
nations to ensure that such practices comply with all domestic and 
international legal obligations and are sufficient to ensure that such 
individuals do not face torture or inhumane treatment.
    The Special Task Force on Detention Policy is charged with 
conducting a review of the lawful options available to the Federal 
Government for the apprehension, detention, trial, transfer, release or 
other disposition of individuals captured or apprehended in connection 
with armed conflicts and counterterrorism operations.
    The Presidential Orders and the Memorandum require me to coordinate 
or co-chair each of these interagency activities. These task forces 
also involve other Departments and agencies, including the Secretaries 
of Defense, State, Homeland Security, the Director of National 
Intelligence, the Director of the Central Intelligence Agency, the 
Chairman of the Joint Chiefs of Staff and other officials.
    While implementing these Orders the Department will take necessary 
precautions to ensure decisions regarding Guantanamo detainees account 
for safety concerns of all Americans. Executing these orders will have 
a significant workload and cost impact on the Department and this 
budget reflects that need.

  FEDERAL AND STATE PARTNERSHIPS TARGETING FORECLOSURE SCAMS AND LOAN 
                           MODIFICATION FRAUD

    As many Americans face the adverse affects of a devastating economy 
and an unstable housing market, the administration announced a new 
coordinated effort across Federal and State government and the private 
sector to target mortgage loan modification fraud and foreclosure 
rescue scams. These fraudulent activities threaten to hurt American 
homeowners and prevent them from getting the help they need during 
these challenging times. The new effort aligns responses from Federal 
law enforcement agencies, State investigators and prosecutors, civil 
enforcement authorities, and the private sector to protect homeowners 
seeking assistance under the administration's Making Home Affordable 
Program from criminals looking to perpetrate predatory schemes.
    The Department, in partnership with the U.S. Department of 
Treasury, the Department of Housing and Urban Development (HUD), the 
Federal Trade Commission (FTC) and the Attorney General of Illinois, 
will coordinate information and resources across agencies to maximize 
targeting and efficiency in fraud investigations, alert financial 
institutions to emerging schemes and step up enforcement actions. As 
part of this multi-agency effort, the Department has outlined ways to 
crack down on mortgage fraud schemes. The FBI is investigating more 
than 2,100 mortgage fraud cases. This number is up almost 400 percent 
from 5 years ago. The Bureau has more than doubled the number of agents 
investigating mortgage scams, created a National Mortgage Fraud Team at 
Headquarters, and is working hand-in-hand with other partnering 
agencies.
    In addition to focusing on fraudulent scams, I am committed to 
ensuring that homeowners who may be having difficulty making their 
mortgage payments do not experience discrimination and can benefit in 
equal measure from legitimate loan modification programs and other 
Federal programs to provide mortgage assistance and stabilize home 
prices. Lending discrimination prevents those who are discriminated 
against from enjoying the benefits of access to credit, including 
reasonable mortgage payments, so they can stay in their homes and 
provide much needed stability for their neighborhoods.
    Discrimination in lending on the basis of race, national origin, or 
other prohibited factors is destructive, morally repugnant, and against 
the law. We will use the full range of our enforcement authority to 
investigate and prosecute this type of unacceptable lending 
discrimination.

                  UNIFIED FINANCIAL MANAGEMENT SYSTEM

    Lastly, the Department continues to address ways to improve work 
efficiency and productivity. One important and complex effort in the 
Department's management arena is the implementation of the Unified 
Financial Management System (UFMS). Once fully implemented, UFMS will 
result in more accurate, timely and useful financial information that 
can better support management decisions and actions. UFMS will also 
enhance the Department's accountability, accuracy, and transparency as 
it relates to financial performance, internal controls, and standard 
business practices. Significant achievements and progress have been 
made on UFMS, and details of our future plans are provided in our 
Congressional request.
    UFMS is a critical element in the long-term health of the 
Department's financial operations and we look forward to working with 
the subcommittee as we move forward with UFMS implementation.

                               CONCLUSION

    Chairwoman Mikulski, Senator Shelby, and Members of the 
Subcommittee, I want to thank you for this opportunity to discuss my 
priorities for the Department.
    Today I have highlighted critical areas that require attention and 
resources so that the Department can fulfill its mission to enforce the 
Nation's laws and help protect national security. I hope you will 
support me in these worthy investments. As always, we are aware that 
there are tough decisions and challenges ahead and I look forward to 
working with you as we move forward.
    Once again, thank you for inviting me here today. I am pleased to 
answer any questions you might have.

    Senator Mikulski. Well, first, Mr. Attorney General, we 
want to salute you on these priorities and believe that in your 
official statement, too, where you say you want to counter the 
threat of terrorism and strengthen national security; make sure 
we are providing cops on the beat, 50,000 of them; strengthen 
the Southwest border initiatives, both dealing with the Mexican 
cartels as well as others; and combating financial fraud--we 
believe these are very important priorities.
    Let me get, though, right to what is a headline topic, 
which is the Guantanamo Bay closing. We on the committee 
attended this time last week a hearing on the supplemental, and 
we heard the outstanding testimony of Secretaries Gates and 
Clinton, where we listened to the Departments of Defense and 
State. But a significant part of what needs to happen will be 
at Justice. So we are going to ask a little bit about the 
supplemental as well as this, what is in the fiscal year 2010 
budget request.
    As we understand for Guantanamo, the Justice Department is 
asking for $30 million to begin the closing of Guantanamo Bay 
and then has a placeholder for fiscal 2010 for additional funds 
related to the closing of Guantanamo Bay. Could you tell me--I 
mean, you have got $30 million here, and what it says is you 
have got three task forces. That just strikes the committee as 
an awful lot of money to pay for bureaucracy, three task 
forces.
    We do not minimize the role of these task forces, which are 
detention review, interrogation policy, et cetera. But what 
would this $30 million do, and is this laying the groundwork 
for the dumping of terrorists into State and Federal prisons?

                        REVIEW OF DETAINEE CASES

    Attorney General Holder. Well, Madam Chairwoman, these are, 
as you indicated, not ordinary task forces. We were asked to 
set them up with short deadlines. There are, obviously, as you 
indicated, extraordinary consequences to the work that these 
task forces will do for our country and for the world, for that 
matter.
    We had to take extraordinary measures to stand up these 
full-fledged classified task forces to put in place these 
classified legal review structures utilizing dozens of 
attorneys and subject matter experts from around the country. 
Now, to be more specific, we stood up a temporary classified 
organization at the top secret SCI level.
    There are tens of thousands of pages of classified 
documents that have to be reviewed, thousands more that have to 
be translated. There are now over 80 attorneys, including 
several dozen who are detailed to Washington from our field 
offices, who are involved in this effort. We have paralegals 
with classified clearances that are needed and are involved in 
the effort.
    We have travel and lodging for those staff that is included 
in this money. And we are also having to backfill the positions 
in the field so that our traditional law enforcement work 
doesn't suffer as a result of the work the task forces have to 
do.
    Now all of this work has to be done in a secure, classified 
environment, using secure networks and classified capable 
computers, scanning devices, phones, and copiers. And as you 
know from your Intelligence Committee work, this is material 
and equipment that is very expensive. We also have secure 
electronic document handling capabilities that we need. We have 
to outfit these task forces with, in essence, the secure 
equipment that is required for the work that they are doing.
    We have also entered into an automated litigation support 
arrangement to support the massive document review effort that 
the task forces will have to do.
    Senator Mikulski. Mr. Attorney General, what you are saying 
is that though it sounds like 241 prisoners, which is not a 
large number--I mean, in Maryland I have got 600 prisoners 
awaiting Federal trial. But the highly sensitive nature of who 
these prisoners are requires that everything occur in highly 
classified situations because of the nature of the information 
involved. Is that correct?
    Attorney General Holder. Yes. That is correct.
    Senator Mikulski. So it is just not an inventory about a 
person and what did he do and how bad he is and what we should 
do. So the cost and expense, particularly with them being off 
the coast of Cuba and our coast, require a great deal of 
expenditure just to maintain the security and the 
classification of this and that we do it in an appropriate way. 
Is that correct?
    Attorney General Holder. That is correct.
    Senator Mikulski. Now when will these task forces be done?
    Attorney General Holder. The task force that is making the 
individualized determinations on the detainees is supposed to 
be done by January of next year. The other two task forces are 
supposed to be finished by July of this year.
    Senator Mikulski. When would you anticipate that this be 
done and that prisoners would begin to leave Guantanamo to 
places yet to be determined?
    Attorney General Holder. I am not sure. We are still in the 
process of making those individualized determinations, and we 
haven't come to a conclusion yet as to when we will be in a 
position to actually ask specific countries if they would take 
specific detainees. We are doing this on a rolling basis, and 
we have not gotten to that point yet.
    I would expect in the next few months, though, that we 
would probably start that process.
    Senator Mikulski. But Mr. Attorney General, are you saying 
that there is no immediate or imminent release of prisoners who 
would be placed on the shores of the United States of America?
    Attorney General Holder. No. As I said, we are still in the 
process of making individualized determinations as to where 
these people should go. And paramount in our concern is the 
safety of the American people. We are not going to put at risk 
the safety of the people of this country in any determination 
we make with regard to the disposition of any of these 
individuals.
    Senator Mikulski. Well, I am glad to hear that safety of 
our people is the number one concern. Could you tell us what 
would be the general policy and consultation that you would 
have? Because I think the fear that many have, whether they are 
Governors or those of us who are elected national officials, is 
that we don't wake up one day and we hear that there are 100 
people coming, and they are just going to be--I don't mean 
dropped off. We would be very concerned about not proper 
consultation. Do you anticipate them going to Federal 
facilities? What is your process?
    We understand that the President and you can't go to 
another country and say, ``Please, take some of these 
prisoners,'' unless we, ourselves, also evaluate our 
responsibility. But what would be your timetable? What is your 
role and the President's in consultation so that we are aware 
of this? These are not just any old prisoners.

                        DISPOSITION OF DETAINEES

    Attorney General Holder. Yes. With regard to the 
disposition of all of these detainees, we will be consulting. 
And that is, in fact, what I was in Europe doing last week, 
talking to our allies about the possibility of making transfers 
to some of those countries. We are talking to our allies in the 
Middle East as well for the disposition of possible transfer.
    Senator Mikulski. But who are you going to talk to in the 
United States?
    Attorney General Holder. Well, if the decision is made to 
have people come to the United States. And I say ``if.'' That 
determination has not been made yet. We would obviously be 
consulting with State and local officials, and Federal 
officials to do that in the way that we would want and make 
sure, as you say, that surprises did not occur.
    But I really want to emphasize that determinations have not 
been made yet with regard to any individuals about where any 
specific people are going.
    Senator Mikulski. Well, let me tell you what I worry about. 
First of all, of course, the safety of our communities. One of 
the things that happened to me during the Bush administration 
was when I woke up to a headline coming from the Department of 
Justice and the Bureau of Prisons that they were going to put a 
prison, a 1,700-person detention facility, in Maryland. And 
they chose two African-American communities as their site, and 
nobody had talked to me. No one had talked to Governor Ehrlich, 
a Republican Governor.
    And all of a sudden, we were facing this, and it was going 
to hold everything from Federal prisoners awaiting trial to 
potentially holding terrorists. I launched like Sally Ride 
going into orbit about this, as did also Governor Ehrlich.
    It is not that we don't understand Federal responsibility, 
but wow. And also, it was going to be a privately operated 
prison by a Mississippi company. So we can't have that.
    Can I have your assurances that nothing would be done in 
States and local communities without consultation with us and 
also consultation with Governors?
    Attorney General Holder. Well, Madam Chairwoman, I give you 
that promise with regard to all that the Justice Department and 
all of the components that we have will do. We want to have a 
good relationship with this committee, and with other Members 
of Congress. We want to work in partnership, and I truly mean 
that--in partnership--so that we establish priorities to carry 
out the work that we think is important, but also what Members 
of Congress, and this committee think is important. We are 
looking to work together to solve the common problems that we 
all face.
    Senator Mikulski. Well, thank you.
    I know we are going to have a lot to talk about, but I 
thank you for your candor. What you are saying is that right 
now you are doing an inventory of who is there at Guantanomo 
Bay and what is the right way to dispose of them, as well as 
also doing a real evaluation about what are the best 
interrogation policies that get the best information under the 
rule of law. Is that correct?
    Attorney General Holder. That is correct.
    Senator Mikulski. Senator Shelby.
    Senator Shelby. Thank you, Madam Chairman.
    Attorney General Holder, about more than a month ago, my 
colleague from Alabama, Senator Sessions, who is now the 
ranking or top Republican on the Judiciary Committee that you 
will deal with a lot, he wrote you a letter dated April 2 
regarding, among other things, the legal authority of the 
United States of America through the Justice Department, asking 
whether the Federal Government has the current legal authority 
to admit any prisoner held at the military detention facility 
in Guantanamo Bay who participated in terrorist-related 
activities into the United States. He sent a follow-up letter 
on May 4 to you.
    My question to you, in view of the statutes, as you are 
very familiar with, and the Court of Appeals for the District 
of Columbia decision, does the U.S. Government have the 
authority to admit these terrorists into the United States if 
you move them from Guantanamo Bay into some of our communities? 
And if you think they do, could you provide for the committee a 
written response as to the authority of that?
    First, do you think you have the authority to do that?
    Attorney General Holder. Well, I think----
    Senator Shelby. To bring terrorists into the communities?

                  DETERMINATIONS TO TRANSFER DETAINEES

    Attorney General Holder. Well, as I indicated in my opening 
statement, the purpose of this review is to make individualized 
determinations as to what should happen to the detainees, and 
the paramount consideration that we will have is the safety of 
the American people. Transfer or release of these detainees 
will only happen in those instances where we are convinced that 
that can be done in a way that the communities that receive 
them--overseas, with our allies--will not have any impact on 
the safety of the place that is receiving them.
    Senator Shelby. Excuse me a minute. Excuse me.
    Are you saying that, one, you believe you have the legal 
authority to bring terrorists into this country and disperse 
them around the country in the communities? Do you believe you 
have that?
    Attorney General Holder. The underlying premise I don't 
agree with. We don't have any plans to release terrorists.
    Senator Shelby. No, I asked if you have the authority 
first. Do you have the authority under the law to do this? To 
bring terrorists into this country and bring them into the 
community?
    Attorney General Holder. And what I am saying is that with 
regard to those who you would describe as terrorists, we would 
not bring them into this country and release them. Anybody who 
we consider to be a terrorist, as I think you are using the 
word.
    Senator Shelby. A terrorist or a former terrorist or 
whatever, or terrorist trained, all of that.
    Attorney General Holder. And again, as I said, with regard 
to the release decisions that we will make, we will look at 
these cases on an individualized basis and make determinations 
as to where they can appropriately be placed.
    Senator Shelby. Isn't that a dicey thing to do? Do you know 
of any community in the United States of America that would 
welcome terrorists, former terrorists, would-be terrorists, 
people trained as terrorists that have been incarcerated at 
Guantanamo Bay?
    Attorney General Holder. Well, again, it will not be the 
intention of this task force review, the intention of this 
administration or this Attorney General to place anybody in any 
part of this world who is a risk to the community, to the 
country that is receiving these individuals.
    You have to understand that we are going to be making 
decisions with regard to these people. Some are going to be 
released. Some are going to be tried. Some will be detained on 
a fairly extended basis. And so, those who will be released are 
those who we think can be released and be released on a safe 
basis.
    Senator Shelby. Of course, as the Attorney General, you are 
familiar with a number of terrorists that have been released to 
their various countries and have wound up as leaders in 
terrorist activities, killing our soldiers, our allies, and 
everything else. You are aware of what the track record is 
there, where people have been released, and most of them have 
come back as some of the top terrorists of the world?
    Attorney General Holder. I am not sure if I would say 
``most.'' I know that with regard to the Saudi program, for 
instance, that re-education program that they have used, about 
10 percent of those apparently have returned to the 
battlefield, a not insignificant number. But we will do all 
that we can in those release determinations that we make to 
ensure that those people who we think will pose a danger if 
released, in fact, do not get released.
    Senator Shelby. Could you say here today that the top 
priority of your office as the Attorney General of the United 
States would be to protect the American people from terrorist 
activity at any cost?
    Attorney General Holder. I spend every waking moment of my 
life now thinking about how I can ensure the safety of the 
American people. The responsibilities of this job are enormous, 
and they have become more enormous since September 11.
    In talking to my predecessors, Attorneys General Ashcroft, 
Gonzalez, and Mukasey, I understand in a way that I did not 
before I had this job the heavy responsibility that being 
Attorney General now is.
    Senator Shelby. If I could shift a little bit to the 
explosives trafficking in Mexico that you alluded to earlier? 
In April, the Associated Press reported that Mexico has seized 
more than 2,702 grenades since the start of the new president's 
term in December 2006. There has been a lot of focusing from 
your office, too, on the trafficking of firearms to Mexico and 
tracing the origins of firearms recovered at crime scenes.
    But we have heard little in regard to the serious threat 
from explosives trafficking. Does the Department of Justice 
have adequate resources in Mexico in identifying these 
recovered explosives, one? Does the Department of Justice have 
adequate resources at the U.S. Bomb Data Center to trace the 
enormous increase in grenades recovered in Mexico and analyze 
the data from these traces?
    And what efforts, Mr. Attorney General, has the Department 
of Justice taken to provide explosive training to Mexican 
military and law enforcement authorities? And I guess, last, 
how can we help you in this regard in the funding of these 
activities that I think are very important?

              ARMS TRAFFICKING ACROSS THE SOUTHWEST BORDER

    Attorney General Holder. We think we have been helpful to 
our Mexican counterparts by moving resources to the Southwest 
border--ATF agents, DEA agents, FBI agents--as well as 
increasing our presence within Mexico to deal with the arms 
trafficking that is going on there and also with the issue that 
you raised regarding explosive devices that are found there.
    We have in our budget additional resource requests in that 
regard. I think the facility that is located in Alabama can be 
a critical part in helping our Mexican counterparts in focusing 
there. More generally, the facility will be critical in the 
work that the Justice Department should have the responsibility 
for dealing with explosives and the crime that can be committed 
using explosive devices.
    Senator Shelby. I agree.
    Attorney General Holder. That is a very, very important----
    Senator Shelby. I am glad to hear that because there is a 
tug-of-war for appropriations going on up here, wittingly or 
unwittingly, between the Department of Homeland Security and 
the Justice Department. But I believe that a lot of this 
responsibility lies with the Justice Department.
    Thank you, Madam Chair.
    Senator Mikulski. Thank you.
    Senator Lautenberg, ordinarily we would be alternating 
party. But I am taking people in their order of arrival. I am 
going to turn to Senator Alexander now.
    Senator Alexander? And then we will come right over to you, 
Senator Lautenberg.
    Senator Alexander. Thank you, Madam Chairman.
    Thank you, Senator Lautenberg. I appreciate that.
    Mr. Attorney General, welcome. Thank you for being here.
    Attorney General Holder. Good morning.
    Senator Alexander. And thank you for your service.
    I have a few questions about the interrogation of enemy 
combatants. I thought President Obama's first instinct was a 
good one when he said that we should look forward. But 
apparently, not everyone agrees with that. I notice a Member of 
the House of Representatives yesterday said that she wanted a 
full top-to-bottom criminal investigation.
    So these are my questions. Number one, what directions or 
guidance have you received from the President or his 
representatives or anyone at the White House concerning an 
investigation of the interrogation of enemy combatants?

                    INVESTIGATION OF INTERROGATIONS

    Attorney General Holder. Well, as we have indicated, for 
those people who were involved in the interrogation and who 
relied upon, in good faith, and adhered to the memoranda 
created by the Justice Department's Office of Legal Counsel, it 
is our intention not to prosecute and not to investigate those 
people.
    I have also indicated that we will follow the law and the 
facts and let that take us wherever it may. I think a good 
prosecutor can only say that. But so I think those are the 
general ways in which we view this issue.
    Senator Alexander. Thank you, Mr. Attorney General.
    Well, my second question would be should you follow these 
facts and continue in an investigation, if you are 
investigating lawyers at the Department of Justice who wrote 
legal opinions authorizing certain interrogations, wouldn't it 
also be appropriate to investigate the CIA employees or 
contractors or other people from intelligence agencies who 
asked or created the interrogation techniques or officials in 
the Bush administration who approved them?
    Or what about Members of Congress who were informed of them 
or knew about them or approved them or encouraged them? 
Wouldn't they also be appropriate parts of such an 
investigation?

             OFFICE OF PROFESSIONAL RESPONSIBILITY INQUIRY

    Attorney General Holder. Well, there is, as has been 
publicly reported, an OPR inquiry into the work of the 
attorneys who prepared those OLC memoranda. I have not reviewed 
it. It is not in final form yet. I have not reviewed that 
report.
    I will look at that report and make a determination as to 
what I want to do with the recommendations. It deals, I 
suspect, not only with the attorneys, but the people that they 
interacted with. So I think we will gain some insights by 
reviewing that report.
    Our desire is not to do anything that would be perceived as 
political, as partisan. We do want to look forward to the 
extent that we can do that. But as I said, my responsibility as 
Attorney General is to enforce the laws of this Nation. And to 
the extent that we see violations of those laws, we will take 
the appropriate action.
    Senator Alexander. So you would follow, the investigation 
could follow to the people who asked for the--I mean, if you 
are going to investigate the lawyers whose opinion was asked 
about whether this is legal or not, I would assume you could 
also go to the people who created the techniques, the officials 
who approved them, and the Members of Congress who knew about 
them and may have encouraged them?
    Attorney General Holder. Hypothetically, that might be 
true. I don't know. What I want to do is look at, in a very 
concrete way, what that OPR report says and get a better sense 
from that report what it says about the interaction of those 
lawyers with people in the administration and see from there 
whether a further action is warranted.
    Senator Alexander. My last question is once we begin this 
process, the question is where is the line drawn? According to 
former intelligence officials, renditions--and by 
``renditions,'' we mean moving captured people from our country 
to another country where they might be interrogated or even 
worse--those renditions were used by the Clinton 
administration, beginning in the mid 1990s to investigate and 
disrupt Al-Qaeda.
    That is the testimony before Congress from Michael Scheuer. 
He said it began in late summer of 1995. ``I authored it. I ran 
it. I managed it against Al-Qaeda leaders.''
    The Washington Post says that the former Director of the 
Central Intelligence Agency George Tenet said there were about 
70 renditions carried out before September 11, 2001, most of 
them during the Clinton years.
    Mr. Attorney General, you were the Deputy Attorney General 
from 1997 to 2001. Did you know about these renditions? Did you 
or anyone else at the Department of Justice approve them? What 
precautions were taken to ensure these renditions or any 
interrogations of such detainees on, by, or behalf of the 
United States Government complied with the law?

                    TREATMENT OF TERRORISM SUSPECTS

    Attorney General Holder. I think the concern that we have 
with renditions is renditions to countries that would not treat 
suspects in a way that is consistent with the treaties that we 
have signed. If there is a rendition taking a person to a place 
where the possibility is that person might be tortured, that is 
the kind of rendition I think that is inappropriate.
    Now, from my memory of my time in the Clinton 
administration, I don't believe that we had renditions where 
people were taken to places where we had any reasonable belief 
that they were going to be tortured. And that would be the 
concern that I would have.
    I wouldn't want to restrict the ability of our Government 
to use all the techniques that we can to keep the American 
people safe. But in using those tools, we have to do so in a 
way that is consistent with our treaty obligations and our 
values as a Nation.
    Senator Alexander. But I think you can see the line of my 
inquiry, which is that if we are going to ask lawyers who were 
asked to give legal opinions, we are going to investigate them. 
Jeopardize their career, second-guess them, and look back. Then 
where does that stop?
    I mean, do we not also have to look at the people who asked 
for those techniques, at people who approved those techniques, 
at Members of Congress who knew about and encouraged the 
techniques perhaps? Or in your case, in the Clinton 
administration, we don't know what the interrogations were 
then. Perhaps you do. And the question would be whether you 
approved them?
    I prefer President Obama's approach. I think it is time to 
look forward, and I hope he sticks to that point of view.
    Thank you, Madam Chair.

                         PROSECUTOR DISCRETION

    Attorney General Holder. Well, I will note that the OPR 
inquiry was begun in the prior administration and also will 
note that I am a prosecutor. I have been a career prosecutor 
and, I hope, a good one.
    And a good prosecutor uses the discretion that he or she 
has in an appropriate way and has the ability to know how far 
an inquiry needs to go to satisfy the obligations that 
prosecutor has without needlessly dragging into an 
investigation at great expense, both personal and professional, 
people who should not be there.
    And that would be the kind of judgment that I hope I would 
bring to making the determinations that you expressed concern 
about.
    Senator Alexander. Thank you, Madam Chairman.
    Thank you, Mr. Attorney General.
    Senator Mikulski. Senator Lautenberg.
    Senator Lautenberg. Thank you, Madam Chairman.
    And welcome, Mr. Attorney General. We have had the 
opportunity to work together in the past.
    As a matter of fact, nearly 10 years ago, the aftermath of 
the slaughter at Columbine--13 young people killed, 26 wounded. 
We worked to close the gun show loophole. It passed the Senate 
51-50. Vice President Gore breaking the tie. And at the time, 
you urged the House to follow the Senate's lead to close this 
loophole.
    It is 10 years later. The loophole still exists. Do you 
think it is time for Congress to try again to get this sensible 
legislation in place?

                              GUN VIOLENCE

    Attorney General Holder. Well, I think we have got to use 
our creativity. We have got to use the tools that we already 
have. We have to use the budget that we have proposed to come 
up with ways in which we arm our State and local partners with 
the tools that are necessary to combat the gun violence that I 
think still plagues our country.
    There are a variety of things that I think that we can do, 
and we want to work with this committee and other Members of 
Congress, listen to our State and local partners and try to 
determine what is it that we can do to help them with regard to 
reducing the gun violence that they still confront.
    So I think, as I said, there are a variety of things that 
we can do, and we will look at all of those possibilities and 
then, I think, make determinations on the basis of the 
interaction we have with our partners, the interaction that we 
will have in the executive branch, the consultations we will 
have with Members of Congress to decide exactly which tools are 
going to be the ones that will be the most effective.
    Senator Lautenberg. Yes, but doesn't it offend the 
sensibilities to know that guns can be bought at gun shows 
where your name isn't asked, no Social Security number is 
asked, no picture is taken, no reason for the gun purchase. Is 
it sporting? Is it hunting? None of that.
    And here, like again the Columbine massacre, a young woman 
bought these guns without question, gave them to the two 
fellows who killed all their friends. Doesn't it strike you as 
kind of an anomaly in our pursuit of law and justice, 
protecting our citizens, that this is kind of a foolish way to 
turn our back on these things? Which is what happens, Mr. 
Holder.
    I was traveling out West in a State where gun ownership is 
a matter of pride to lots of people. But the place was jammed, 
and there were unlicensed gun dealers selling weapons without 
asking questions.
    When I asked the question about sensibilities, I don't know 
whether that ever gets us to the end of line, but it sure 
sticks out like a flaw in our system as far as I am concerned. 
And I hope that you will be able to pursue this aggressively.
    The Recovery Act provides $10 million for the 
administration's Southwest border initiative, focused on 
reducing gun trade that fuels so much of the violence in 
Mexico. Can we be assured that the DOJ's efforts to stop the 
flow of guns to Mexico will not interfere with resources that 
are designed to stop domestic gun trafficking within our 
country?
    Attorney General Holder. That is actually a very legitimate 
concern, Senator. We are going to help our Mexican counterparts 
with the issues, the problems that they confront. We have drugs 
flowing from Mexico into this country, a lot of guns flowing 
from this country into Mexico.
    And the resources that we are moving to the Southwest 
border, we are doing on a temporary basis to try to help our 
Mexican counterparts with regard to their efforts and being 
mindful of the fact that as we move those resources to the 
Southwest border, that we are not doing anything that would 
weaken our efforts in other parts of the country.
    So we are trying to do it in a way that is sensitive to the 
needs of the places in which these agents and other personnel 
come from so that we can be helpful to our Mexican counterparts 
without weakening the efforts that we are making there.
    But I also think there is a collateral impact in helping 
our Mexican counterparts. To the extent that we stop the flow 
of arms into Mexico, we will necessarily confront, I suspect, 
people who are also illegally trafficking in guns in this 
country. And so, I think there is a collateral impact, a 
positive impact in helping our Mexican counterparts.
    But I think you are right to raise that concern, and I 
think it is one that we are being sensitive to.
    Senator Lautenberg. You and I had the opportunity to work 
together some years ago on the issue of racial profiling. It 
was unfortunately highlighted in our State of New Jersey, but 
across the country, we saw incidents of that nature. Now new 
leadership--how is DOJ addressing this continuing problem?

                            RACIAL PROFILING

    Attorney General Holder. Well, that is an issue that we 
focused on in the Clinton administration. It is something that 
will be a priority for this administration as well.
    Profiling is simply not good law enforcement. If you devote 
the limited resources that we have in law enforcement on the 
basis of profiling, on the basis of nontraditional techniques--
we have a good basis for predicates--you will focus on 
somebody, and the person who, in fact, you ought to be 
concerned about slips right on by.
    So I think we have learned a lot from the efforts that we 
did in the 1990s working with you and with others, and our hope 
would be to replicate those efforts. That is still something 
that is a priority for us. It has a negative impact also on the 
communities in which that is practiced and tends to breed 
disrespect for law enforcement and for the criminal justice 
system. And we have to avoid that.
    Senator Lautenberg. Thanks. The anomaly in New Jersey that 
took place was when our attorney general-to-be was stopped at a 
roadside rest place and questioned and so forth, and his--the 
only thing they could accuse him of was ``driving while 
black.'' And that is what caused that stop.
    The last question, Mr. Holder, in the last administration, 
the COPS program was nearly decimated with serious cuts in 
funding. The Recovery Act contains $1 billion for the COPS 
program, which I think is a great start.
    How do we make up for the deficit that occurred in having 
people trained and available as a result of the neglect of this 
program?

                              COPS PROGRAM

    Attorney General Holder. I think the billion dollars that 
the Recovery Act provides will give us a leg up on the efforts 
that we have to use to reinvigorate the COPS program. We have 
about $300 million in the budget for next year, and I think we 
have to keep that effort up.
    Our aim is to put 50,000 new police officers on the street. 
I think that what we have done in this first year is 
significant, but we must continue those efforts on a year-by-
year basis. I think we have to see a lot of what we are doing 
this year as really downpayments on efforts to revitalize 
programs that I think we should focus on and revitalize efforts 
that perhaps have been neglected in the recent past.
    Senator Lautenberg. And I close, Madam Chairman, with 
congratulations to the Attorney General for filling the 
positions that he has with highly capable people and for the 
zeal and the vigor with which you are pursuing your 
responsibility. And we thank you for that.
    Attorney General Holder. I look forward to working with a 
young man from New Jersey, who I think is going to be a great 
U.S. attorney.
    Senator Mikulski. Mr. Attorney General, Senator Shelby and 
I have another round.
    I would like to pick up on the Southwest border initiative 
and ask you some questions in that area. Much has been in the 
news about swine flu, H1N1. Reaction to that virus was at times 
a near panic, as we were concerned of a pandemic in the United 
States. But I believe there is another ``pandemic'' in the 
United States, and that is the insatiable demand for drugs.
    And as long as we have an insatiable demand for drugs, we 
are going to be funding the Taliban in Afghanistan and we are 
going to be emboldening and empowering the Mexican cartels. 
There is a great deal in your appropriations request about 
increased agents and the technology they need.
    First of all, let us deal with that. In other words, it 
sounds almost like a Petraeus strategy meets Mexico and our 
border, which is more troops, more gear, more technology. I 
don't dispute that. Obviously, it had an impact. But also we 
need to look at the other side of that, which is the insatiable 
demand.
    Let us talk about the actual violence and what is going on. 
This committee, meaning the Appropriations Committee, has 
already funded staff. We have provided five additional 
helicopters. We have been providing money, resources, and 
manpower.
    Could you tell us what exactly you intend to do with the 
Southwest border initiative? How many agents, how many 
attorneys are needed? What do you see, and what do you estimate 
the cost for that to be? Because we want to do that. Then I 
will come to the demand side.

                      SOUTHWEST BORDER INITIATIVE

    Attorney General Holder. Yes, in 2010, our request is for 
$231 million for the Southwest border. That is for about 1,200 
new positions--632 agents, about 110 attorneys. This would 
include 34 ATF agents, about 70 DEA agents.
    I think there is clearly a need for a balanced strategy, 
and we will talk about the other part of that in your next 
question, for us to have a strong enforcement presence to deal 
with the problem of the drugs flowing into our country. But I 
think there also has to be an effort to deal with the demand 
side as well. So with regard to the enforcement side, that is 
what we are requesting in the 2010 budget.
    Senator Mikulski. So, as I understand, essentially for 
enough manpower, you hope to deploy 632 agents and over 100 
attorneys. As well as 528 agents for the Marshals Service. Are 
those new agents, or are those agents that you are going to 
redeploy from other areas?
    Attorney General Holder. I believe these are all new 
positions. The 1,200 or so, the 1,187 are all new positions 
with regard to agents and attorneys.
    Senator Mikulski. You know, we are placing an awful lot of 
stress on the Marshals Service, and I just want to bring this 
to your attention in a spirit of cordiality. We have asked them 
to take on the Adam Walsh Act in addition to the protection of 
the judges, the transportation of prisoners, who are 
increasingly violent, and the pursuit of the fugitive warrants. 
And now they are going to be intensively involved in the 
Southwest border initiative.
    And I would hope, as we go through this process, in 
addition to looking at the FBI, DEA and ATF, that we also look 
at what we are asking the marshals to do for this initiative, 
which is much needed, in addition to what else have we have 
asked them to do regarding the Adam Walsh Act, which the 
ranking member has addressed. We want to support you in that.
    But let us go to the first line of defense, which is local 
law enforcement in the border communities, and then also the 
whole issue of the demand side. We see that the President has 
asked for more cops on the beat. But when we look at our 
stressed border communities, do you see additional funds and 
resources going into those local law enforcement agencies? 
Because crime and violence will flow back and forth across the 
borders. How do we look at how we are partners with our border 
law enforcement?

                 ASSISTANCE TO STATE AND LOCAL PARTNERS

    Attorney General Holder. Well, we have in our budget 
request a total of $2.6 billion for State and local funding, 
and that is in addition to money that is included in the 
Recovery Act of about $4 billion. And I think that is a 
recognition of the fact on the part of this administration that 
for us to be really effective in our law enforcement effort, we 
have to have good State and local partners, and to the extent 
that we can, we need to meet the needs that they have. We have 
to assist them to the extent that we can.
    The Southwest border is a place of particular attention for 
us, and we will be helping our State and local partners there, 
drawing from the pools that I have talked about. But also the 
significant amounts of money that we have asked for is a 
recognition of the fact that the attention that we devote to 
the Southwest border has to be replicated in other parts of the 
country as well.
    We need our State and local partners to have the technology 
and the resources that they need. And we have, as I said, come 
up with pretty substantial amounts of money both in terms of 
State and local funding, plus the COPS program to help our 
State and local partners.
    Senator Mikulski. Well, let me ask you this, conceptually. 
We want to support our border partners, our border communities. 
But what I don't want is for it to be at the expense of other 
States. So while I want to protect the Southwest border 
initiative, I also want to protect southwest Baltimore.
    I believe Southwest border violence is a very significant 
threat and if we don't intervene aggressively now, it will have 
horrific consequences to our security. But at the same time, we 
don't want them competing with Alabama, Utah, Arkansas, et 
cetera, for available resources.
    Is that the way you see it for your cops and your 
interventions and interdictions and preventions?
    Attorney General Holder. Yes, and that is why I think our 
requests are as large as they are. So that we will have the 
ability to do all of the things that you just talked about, 
which is to give attention to the Southwest border, but also 
not lose focus on the very important priorities that we have in 
other parts of the country.
    Senator Mikulski. Yes, but are they going to be 
sequestered, or if there is going to be funding for cops on the 
beat, will there be a focus on the Southwest border communities 
in addition to other funds for other State and local 
jurisdictions to compete? Or is it all one big pot?
    Attorney General Holder. Well, we have money that is set 
aside for the Southwest border, but we also have substantial 
amounts of money that go for other State and local efforts that 
we are making. So there is not necessarily that competition.
    I would also say that when we look at the Southwest border, 
we have to understand that the efforts that we make there will 
have residual positive impacts in other parts of the country. 
When we announced the takedown of Project Xcellerator 6 or 7 
weeks or so ago, we indicated that some of the people who were 
arrested in connection with the Mexican cartels, and we think 
Southwest border, were involved were from Maryland. And we had 
arrests in Maryland in connection with that and in a variety of 
other States.
    So that----
    Senator Mikulski. But people in Maryland, Alabama, and so 
on are using drugs. I don't want to get into semantics about 
what is sequestered. I think we have got a good picture and 
really want to support the policy. But I want to go to the 
demand side, and I really salute Secretary Clinton, when she 
went to Mexico, and took ownership for our insatiable demand 
for drugs.
    And I just want to speak about my own beloved Baltimore. We 
were on our way. We had a great renaissance momentum, and then, 
bang, in came cocaine. And we have never recovered from it. 
Cocaine really took generation after generation of young people 
in the Baltimore community, across all ethnic and class lines. 
It brought in so much money that it enabled crooks to arm 
themselves at times where they had more and better arms than 
our cops on the beat, et cetera.
    Each administration has been rather tepid, timid and uneven 
in dealing with demand. We have tried ``just say no.'' Just say 
no a little bit more. Let us do a little bit more here or 
there.
    With the Obama administration and your leadership--and I am 
looking to Secretaries Sebelius and Arne Duncan, just across 
the board, is the administration developing a comprehensive 
strategy to really work at the local level? Because it has got 
to be fought at the local level to deal with this demand side.
    Attorney General Holder. Well, I would totally agree----
    Senator Mikulski. And I am not talking about hugs for 
crooks. I am talking about the kind of juvenile justice 
prevention programs, et cetera, where we do this early 
intervention.

                       JUVENILE JUSTICE PROGRAMS

    Attorney General Holder. No, I totally agree with you. If 
you look at the request we have made on the juvenile justice 
side, we have a request for $317 million. The Drug, Mental 
Health, and Problem-Solving Courts Program, we have $59 
million.
    And there is a recognition of the fact that we have to do 
something on the demand side. As a local judge here in 
Washington, DC, I witnessed that.
    Senator Mikulski. You saw it.
    Attorney General Holder. I saw that. I sent, unfortunately, 
too many young men and women to jail because of drug problems 
that they had and the crimes that they committed as a result.
    Senator Mikulski. But let me ask a question, are you 
developing a comprehensive approach with other Cabinet members? 
Is that underway?
    Attorney General Holder. Yes, we are.
    Senator Mikulski. Good. Well, we will come back. I know 
Senator Shelby has to ask questions, and I know your time is 
very limited.
    Let me just conclude by saying some things are really 
working well. And one of the things that I know you witnessed 
as a lawyer, a resident, a judge in this town, is the way we 
all worked so well on the sniper case. And it is these local 
task forces that I am going to emphasize.
    Do you remember when Washington was gripped by the fear of 
the sniper? All games were canceled for children. We were 
afraid to get out of our car and walk into a Burger King. A 
beloved FBI employee was shot coming home from Home Depot.
    And the fact that with our local law enforcement around the 
Beltway working with the Federal officials, we were able to 
catch that sniper. That kind of cooperation continues to exist 
and what we need to build on.
    I am very proud of the kind of task forces that are being 
used in Maryland right now, and I hope that we could have the 
emphasis on task forces. One just broke up a cell phone ring in 
Maryland State prisons, where guys were sitting there ordering 
lobster, shrimp, and ordering contract killing. But thanks to 
the task force approach, we were able to intervene and stop 
them.
    And while we are doing fighting against violent, repugnant 
people, we also have now a task force against mortgage fraud, 
where another type of predator is stalking our communities, 
particularly our low-income residents. So we have got a lot to 
build on, and if we can work together, I think we can make a 
difference and also make that change that President Obama 
wants.
    So I want you to know I think all of us feel that in many 
ways at the local level it is working if we can keep that 
momentum going through these task forces.
    Senator Shelby.
    Senator Shelby. Thank you, Madam Chairman.
    Mr. Attorney General, I want to go back into the area that 
Senator Alexander was questioning you earlier on. I believe you 
went to the Department of Justice as the Deputy Attorney 
General in 1997. Is that correct?
    Attorney General Holder. That is correct.
    Senator Shelby. I remember. During that time--and you were 
there from 1997 until the Bush administration went into office, 
2001. During that time, I happen to have been the chairman of 
the Intelligence Committee from 1997 to the summer of 2001, 
after you had left. And of course, we interacted with the 
Justice Department.
    As the Deputy Attorney General, you were involved. You were 
a very active deputy, as I recall, and the Intelligence 
Committee dealt with, of course, the CIA and everything that 
goes on.
    Senator Alexander went through some chronological events 
coming from Director Tenet and others as to what happened as 
far as rendition and interrogation of would-be terrorists and 
terrorists during the period before--during the Clinton years 
when you were active there.
    I wasn't clear as to the answer a few minutes ago. So I am 
going to ask this question again. During your tenure as the 
Deputy Attorney General of the United States, 1997 to 2001, did 
you know about these renditions? And if you didn't know, why 
didn't you know because people in Justice knew?

                        INTERROGATION TECHNIQUES

    Attorney General Holder. Now I would have to look back. I 
don't know the exact numbers that Senator Alexander----
    Senator Shelby. No, did you know about them? I didn't say 
how many. That was Tenet's testimony, I believe, that has been 
in the record and in the papers that there were 70 or more. But 
did you know about them generally, and did you know about 
interrogation techniques at that time?
    Attorney General Holder. Well, I certainly knew generally 
that there were renditions that were occurring. I can't 
honestly say that I knew about specific interrogation 
techniques that were being used at that time.
    Senator Shelby. Would you check the record and furnish this 
to the committee? We think this is an important question 
because a lot of this just didn't start during the Bush 
administration is what I am saying. This interrogation, 
rendition of terrorists had been going on before the Bush 
administration.
    Attorney General Holder. I think, as a distinction, and 
that is the focus of the concern that we have with regard to 
Guantanamo and the things that preceded it is that we had 
American agents, representatives of our Government perhaps, 
involved in the use of techniques that we didn't think were 
appropriate.
    Now I will certainly look at the records----
    Senator Shelby. Will you do that, just for the record? And 
did you or the Attorney General that you were working with, day 
in, day out, or anyone else under your jurisdiction at the 
Department of Justice then approve these renditions and 
interrogations? You had to. But I will wait for your record to 
show.
    Attorney General Holder. We will review those records, and 
I will provide you with a response.
    Senator Shelby. And Mr. Attorney General, if so, what 
precautions were taken to ensure that the renditions and any 
interrogations that were going on in the intelligence 
communities regarding such detainees, what precautions were 
made? In other words, what steps did you go through to see that 
they complied with the law at that time? Can you furnish that 
for the record?
    Attorney General Holder. Sure. I will go through that----
    Senator Shelby. You might have to go back because I know it 
was a while back. But you were in a very important job, as I 
remember interacting with you.
    Attorney General Holder. We will look at those records and 
see what are the numbers, to the extent that I can provide 
those.
    Senator Shelby. Absolutely.
    Attorney General Holder. And the protections that we used. 
It may be that I have to do this in a classified way, but we 
will provide you with those.
    Senator Shelby. That is okay. We can do that.
    Attorney General Holder. That is fine.
    Senator Shelby. Okay. I would like to get into some other 
things now.
    The GAO study. In April 2009, Mr. Attorney General, a GAO 
study concluded that ICE is not participating or contributing 
to several important intelligence and coordination centers. As 
a result of this lack of cooperation, according to the 
Government Accountability Office, our Government's war on drugs 
is not as productive as it should be.
    The GAO recommended that the Secretary of DHS direct ICE to 
contribute all of its relevant drug-related information to the 
DEA Special Operations Division and ensure that if ICE fully 
participates in both SOD and in the OCD fusion center.
    My question to you, is ICE contributing all of its relevant 
drug-related information to the DEA's Special Operations 
Division? And if not, why not? And if you don't know that, if 
you could furnish that for the record?

                     DRUG INTELLIGENCE INFORMATION

    Attorney General Holder. I share the concern that you have 
expressed, and I have raised that with Secretary Napolitano, 
who I have worked with as a U.S. Attorney in the Clinton 
administration. And we are, together, trying to address that 
issue and trying to make sure that both of our agencies are 
contributing all of the intelligence information that we have. 
And given the resources, given the agencies that we have stood 
up, I think we will make progress in that regard.
    Senator Shelby. Are there other agencies that have not 
participated or refused to participate? It looks to me like you 
have got to coordinate this, and the Department of Justice 
should be right at the top of it.
    Attorney General Holder. Well, I would like to think that 
we have a special expertise in the Justice Department in that 
regard.
    Senator Shelby. Absolutely.
    Attorney General Holder. And we will work with our partners 
at DHS to ensure that ICE becomes fully involved in that 
effort.
    Senator Shelby. Ballistics, very important, I think. 
General, Secretary--I want to call him ``Secretary.'' Attorney 
General Holder, while the President recently endorsed the use 
of ballistics imaging as part of the effort to end gun violence 
along the Southwest border, the committee has been informed 
that DHS, Department of Homeland Security, is not coordinating 
their gun investigations through the ATF, which is----
    Are there any official memorandums of understanding or 
policies in place that you know about requiring the use of 
NIBIN by DHS law enforcement? And if you want to do this for 
the record, that is okay. And could you provide a copy to the 
committee, the chairman, and others, if you could?
    And what is the extent of DHS, Department of Homeland 
Security's coordination with the ATF's project Gunrunner, if 
you know? And if you don't know offhand, I know I am asking you 
a lot of questions.
    Attorney General Holder. Sure.
    Senator Shelby. But we would like to know for the record 
because we fund all these things.

                    COORDINATION BETWEEN DOJ AND DHS

    Attorney General Holder. Right. We will provide for the 
record answers to the specific questions that you have asked. 
But I will say that, generally, I think Secretary Napolitano 
and I both agree that coordination between DHS and the Justice 
Department has not necessarily been as good as it needs to be. 
That is an issue.
    [The information follows:]

            NIBIN, Project Gunrunner, and Ballistics Imaging

    The Department does not have an MOU in place with DHS that requires 
their use of NIBIN. The Department is working towards increased 
communications with DHS but is not aware if DHS has a policy that 
requires their use of NIBIN. Within the Department of Justice, ATF is 
preparing an internal directive that outlines a process for entering 
information into NIBIN. Once the directive is issued, the Department 
will furnish a copy to DHS to provide guidance so that they can 
participate in Project Gunrunner.

    Attorney General Holder. And let us be very frank about 
that, that we have not worked together in a way that is 
efficient and effective.
    Senator Shelby. But the Justice Department has got a lot of 
expertise in this area, hasn't it?
    Attorney General Holder. Oh, absolutely. And DHS brings 
things to the table as well. We need to come up with ways in 
which we coordinate our efforts so that we can be most 
effective. But the concerns that you raise are very legitimate 
ones, and we are trying to address them.
    Senator Shelby. Are you going to be assertive in this area 
to make sure that the expertise of Justice is shared and used 
in this area?
    Attorney General Holder. I wouldn't have taken this job 
unless I was here to advance the interests of an institution in 
which I grew up and which I love. I have great faith in the men 
and women who work in this department. I think we are experts 
in a whole bunch of areas and----
    Senator Shelby. But some of us on the Appropriations 
Committee, both Democrats and Republicans, we see at times 
parallel initiatives that we don't need, and it is very costly, 
in other words, to reinvent the wheel. And you have got the big 
wheel in Justice, and we want to make sure that you are well 
funded and keep it.
    Attorney General Holder. We want to be well funded. I will 
be assertive. But we also want to work with members of this 
committee to identify those areas where you think that there is 
duplication of effort so that we minimize that and that we work 
efficiently together. As I said, we want to be working in 
partnership with you all as well.
    Senator Shelby. Absolutely.
    Madam Chairman, if you would let me, one last thing? I 
mentioned in my opening statement that there are a number of 
Adam Walsh provisions that will soon expire. Does the 
Department have a legislative plan regarding these expiring 
provisions of the Adam Walsh Act, which I think and others 
thought was a good piece of legislation? And does the 
Department support reauthorization of these provisions designed 
to protect children from pedophiles and sexual predators?
    Attorney General Holder. Yes. We support the Walsh Act. We 
have asked for $381 million, which is a 5 percent increase over 
fiscal year 2009, and that would support 50 new Marshals 
Service deputies and a $16 million increase there as well. The 
Walsh Act we think is important, and it is something that we 
support.
    Senator Shelby. Thank you.
    Thank you for your indulgence, Madam Chairman.
    Senator Mikulski. Excellent questions, Senator Shelby.
    In the order of arrival, I am going to turn to Senator 
Pryor, one of our newest members and then, of course, have as 
our wrap-up hitter, the chairman of the Judiciary Committee. We 
are so fortunate to be able to have him as both the premier 
authorizer also to bring that wisdom and skill and experience 
to appropriations.
    Senator Pryor.
    Senator Pryor. I agree. Thank you, Madam Chair.
    Senator Mikulski. Go ahead.
    Senator Pryor. Thank you very much.
    General Holder, let me start with something that the last 
administration attempted to do, and that is they tried to--in 
their fiscal year 2009 budget, they tried to consolidate the 38 
Federal law enforcement assistance programs like COPS, et 
cetera, into three competitive grant programs. They also, in 
our view, were going to try to under fund those.
    But do you have any plans to do any consolidation along 
those same lines?

               GRANTMAKING TO STATE AND LOCAL GOVERNMENTS

    Attorney General Holder. I am not sure I am totally 
familiar with what the prior administration did. Our hope is to 
have sufficient amounts of money in the programs that we think 
are important, COPS being among them. Certainly Byrne and JAG 
grants.
    We want to have flexibility so that we can be responsive to 
the needs of our State and local partners and be most effective 
in using the resources that we have.
    Senator Pryor. I would encourage you, if you are thinking 
about any changes, to certainly reach out to State and local 
people because they really rely on those grants, and that is, 
in a lot of ways--in a lot of places and a lot of ways, that is 
really critical funding on a local level.
    Let me ask about--there was a story this morning in the 
Washington Post about the--it wasn't totally about the SCAAP 
program, the State Criminal Alien Assistance Program. As I 
understand it, are you going to try to eliminate that program?
    I know there has been some problems. Some of the States and 
local law enforcement have not been real pleased with some of 
the administration of it. But I think that many of them have 
said that the program is very popular, et cetera.
    Do you know the status of that and what the plan is for 
that, and why?
    Attorney General Holder. We are not asking for additional 
monies for SCAAP in the budget for next year. But one of our 
priorities is making sure that our Nation's borders are 
protected. And although we seek to eliminate funding for SCAAP, 
we have, we think, other monies in the budget. There is $3.4 
billion in DOJ resources to help curtail illegal immigration 
and combat the violence associated with border gangs.
    We think that the SCAAP program, although it has had a 
value, we think we can give greater value by dealing with the 
problem in an enforcement way as opposed to using the limited 
resources that we have to help on the detention side.
    I will say, however, that this is obviously a budget 
proposal that we have, and to the extent that you have strong 
feelings about the SCAAP program, I would be more than glad to 
interact with you, talk to you about that, and see if there are 
ways in which we can meet your concern.
    Senator Pryor. Yes, I would like to talk about that. I just 
want to make sure that we are not dropping something that we 
really need. If you think that you have really got it covered 
in other ways, other areas, I certainly would like to hear more 
about that.
    The last question I really had was about this issue where 
the--I think Congress Daily actually had a little story on it 
today about the dispute between the Department of Justice and 
the Inspector General's Office regarding the FBI's terrorist 
watch list. The IG has been critical of the FBI to the extent 
that the FBI apparently quickly adds and quickly removes people 
from the list.
    I would like to ask you about that criticism, if we can 
call it that, from the IG and how you respond to that and if 
there is any changes that need to be made?

                 IG REPORT ON THE TERRORIST WATCH LIST

    Attorney General Holder. Yes, we have a great IG, Glenn 
Fine, I have worked with and known him for a long time.
    I have not actually seen the report, but it is my 
understanding that the concerns that were raised in the report 
are serious ones. But that with regard to the issues that were 
raised by the inspector general, they have actually been met. 
Those concerns have been met by the FBI. Changes have been made 
in response to the issues that were raised by the inspector 
general.
    But I will be reviewing the report, and I will be talking 
to the director of the FBI just to make sure that that, in 
fact, is the case. But that is my understanding.
    Senator Pryor. Great. Yes, if you could--if that is not 
correct or if you check back on that and you have a concern 
there, I wish you would check back with us on that.
    Attorney General Holder. I will do that.
    Senator Pryor. Thank you very much.
    Thank you.
    Senator Mikulski. Thank you, Senator Pryor.
    I just want to comment. On June 4, we are going to hold our 
hearing on the FBI budget request, and the committee will do 
something different this year. We will hold a public hearing on 
the public programs of the FBI. But as you know, after the 
terrible attack on 9/11, we gave the FBI the responsibility of 
being an agency within an agency, with a significant national 
security responsibility.
    The committee has observed over the years that there are 
certain questions we can't ask in a public setting. One of 
which would be the greater detail of what the gentleman just 
raised that we need to pursue. So we will have a public hearing 
with the FBI and followed by a classified one on how the FBI is 
waging the global war against terrorism, and we look forward to 
your active participation.
    Now, we turn to the number one on Judiciary and number one 
advocate of all that is good about the Justice Department.
    Senator Leahy. I figure being number one at the Judiciary 
is a punishment for past sins, and you and I, Madam Chair, 
remember the good nuns explaining how that works.
    Senator Mikulski. Do you want me to sit here and remember 
past sins?
    Senator Leahy. No, no, no. I remember the good nuns telling 
us about how it catches up with us.
    Mr. Attorney General, it is good to see you. And I know you 
will also be before the Judiciary Committee, but I wanted to 
ask you about the Justice for All Act. In 2004, we passed that, 
a number of us--Republicans and Democrats together. It is a 
crucial bipartisan law, trying to improve the quality of 
justice for all Americans using DNA evidence, so forth. We 
negotiated carefully, worked it.
    Unfortunately, the past administration failed to fund some 
of the key programs created by this important law. And it was a 
consistent struggle. We had the law. We didn't have the funding 
of programs, including the Kirk Bloodsworth Post Conviction DNA 
Testing Grant Program, capital representation, capital 
prosecution improvement grants, Debbie Smith DNA Backlog Grant 
Program, and other activities.
    Will you work with me and with the committee to fully fund 
these vital programs and also to reauthorize the Justice for 
All Act?
    Attorney General Holder. Yes, Senator. I am looking around 
here, trying to find my--I have got a great answer to that 
question. I just can't put my hands on it. But, yes, we will 
work with you to ensure that that act is funded in an 
appropriate way.
    The concerns that are addressed by the act are concerns 
that this administration shares. And so, we look forward to 
working with you in that regard.
    Senator Leahy. And I would note that we had people across 
the political spectrum who came together and worked on that. 
Many of the Senators in both parties were, like yourself, 
former prosecutors. I guess you are now the prosecutor for the 
country, but you understand what I am saying.
    And I think, as every prosecutor knows, two things you 
don't want to happen. One, you don't want a guilty person to go 
free, but you also want to make sure when you are prosecuting 
somebody that you have got the right person. Because if you 
don't, aside from the miscarriage of justice, the person who 
committed the crime is still out free, and we are not as safe 
as we think we are.
    Now last week, the 9th Circuit Court of Appeals reversed 
the decision to dismiss the case Mohamed v. Jeppesen on State 
secrets grounds. You know that one. The plaintiffs are suing a 
flight company for allegedly helping the CIA transport them 
overseas, where they were tortured.
    The case had been dismissed at the pleading stage. The 
Government used State secrets, and so the trial court just cut 
it off at that point. And the appeals court said that you 
dismiss the case at the pleading stage, it would effectively 
cordon off all secret Government actions from judicial 
scrutiny, immunizing the CIA and its partners from the demands 
and limits of the law.
    I agree with the court. I have introduced the State Secrets 
Act, along with others. We have been asking for weeks for the 
Justice Department's position with respect to this bill. We 
haven't gotten an answer. So I will ask you. Do you support the 
State Secrets Protection Act?

                         STATE SECRETS DOCTRINE

    Attorney General Holder. Well, I think our administration 
shares your concern about the use of that doctrine. In fact, I 
have asked that a review be conducted of all the cases in which 
the State secrets doctrine has been invoked. We have about 20 
cases or so where it has been used. The report is just about 
complete. It is my hope to share that report, make it publicly 
available.
    What I have asked the people in the Justice Department to 
do is look at all of these cases and see if we appropriately 
are using the State secrets doctrine in each of those cases. Is 
there a way in which we can use it in those cases where we 
think it is appropriate in a more surgical way so that we don't 
have to perhaps dismiss the whole case? And so, that review is 
just about done, and I would be prepared to share that 
information.
    With regard to the piece of legislation that you have 
indicated, I want to look at that in light of the report that I 
get from the task force that we created and see if there are 
ways in which we can work together to deal with the issue that 
we do share that concern that you have.
    Senator Leahy. Attorney General, we have, you and I have 
talked a lot about the Department of Justice, and I don't begin 
to understand all of the issues that come on your desk. But 
this is an important one, and I would like, as soon as the 
review is done, as soon as it can be shared, I would appreciate 
not only that, but then a position of the department on the 
piece of legislation.
    Brought up today in committee, we put it over. I did that 
knowing I was going to be talking to you today and knowing that 
your review is underway, and it may take a while.
    We are not having a markup next Thursday, as we normally 
do. I will be in Vermont, where I will watch my closest friend 
get an honorary degree from my alma mater. We will celebrate 
our 47th wedding anniversary this year, and if I want to make 
sure we celebrate, I will be there at the graduation.
    My last question, if I might, Madam Chair? In light of what 
I consider shocking opinions by Jay Bybee and Steven Bradbury 
and others nominated by President Bush to run the Office of 
Legal Counsel, these opinions secretly authorized interrogation 
techniques. I am looking down the list here that included 
shackling naked people to the ceiling to keep them awake, sleep 
deprivation of up to 11 days at a time, forcing them into a 
small box for up to 18 hours at a time, waterboarding, and so 
on.
    I know you are looking at OLC. And for those who may be 
watching and don't understand, OLC opinions become basically de 
facto rules of law within the administration. Right now, you 
don't have a head of OLC. How critical is it for the Senate to 
confirm Dawn Johnsen as the Assistant Attorney General in 
charge of OLC?

                      CONFIRMATION OF DAWN JOHNSEN

    Attorney General Holder. That is probably my top priority 
now, Senator. OLC is, as you said, an integral part of our 
effort to protect the American people. There is a lot of 
national security work that OLC does. OLC handles a lot of 
other matters for the department.
    They are among the best and brightest in the Justice 
Department. And although we have very capable people who are 
there and a very capable acting person who is leading OLC, 
there is a certain solidity and continuity that you don't have 
unless you have a permanent person there.
    And so, I would hope that we could have Dawn Johnsen, who 
is an extremely qualified lawyer, who will be a great head of 
OLC, confirmed as soon as possible.
    Senator Leahy. Thank you very much.
    I hope so, too. We passed her out of committee. She is on 
the floor. I saw that the senior-most Republican in the Senate, 
Senator Lugar, said he will vote for her, and I just wish we 
would go forward because the OLC is so extremely important. It 
is like the Department of Justice's court, and I would like 
that to go forward.
    So, Madam Chair, thank you. I will submit my other 
questions for the record.
    Senator Mikulski. Thank you very much, Senator Leahy. And I 
note when you talked about your best friend getting an honorary 
degree, I gather it is your beloved wife, Marcelle? Is that 
correct?
    Senator Leahy. It is. It is, indeed. And so, I will take 
off.
    Senator Mikulski. Well, Senator, with all due respect, she 
shouldn't only get an honorary degree, but if we were talking 
about saints and sinners before, you know what category she is 
in.
    Senator Leahy. It will be her, not me.
    Senator Mikulski. Well, congratulations to her.
    Senator Leahy. Thank you. And I will tell Marcelle you said 
that.
    Senator Mikulski. Mr. Attorney General, that concludes our 
questions. If there are no further questions this morning, 
Senators may submit additional questions for the subcommittee's 
official record. We are going to request the Department of 
Justice response within 30 days.
    I would also like to add thank you for your testimony 
today, and I would also like to add we are lucky to have you.
    Attorney General Holder. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Mikulski. I think President Obama has made an 
excellent choice in selecting you. You come with such an 
incredible breadth of experience from working at the NAACP 
through prosecutor days, judges, Justice Department.
    But you are also at the point in this career you could be 
in private practice, in control of your own time. You have 
three wonderful children and a wife who is a physician and 
quite distinguished in her own right. The fact that you are 
willing to take on a very onerous responsibility of 
international as well as domestic responsibilities is 
heartening.
    I am already hearing about all these wonderful young people 
who want to come to work at Justice Department, and they don't 
call it the Justice Department. They say ``at Justice.'' They 
want to ``work at justice,'' and they want to work at the 
Department of Justice to achieve it. And I think your own 
reputation is also already attracting people who want to come, 
whether they are the lawyers or the backup people or those that 
are going to run the prevention and intervention programs.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Patrick J. Leahy

             VIOLENT CRIME/SUPPORT OF LOCAL LAW ENFORCEMENT

    Question. A major focus of both the Judiciary Committee and the 
Appropriations Committee so far this year has been ensuring that the 
Federal Government provides the assistance to State and local law 
enforcement that is so important to restoring our economy and keeping 
our communities safe.
    With the massive economic crisis facing us, we see conditions of 
unemployment and hopelessness which can lead to increases in crime. 
States, cities, and towns face budget shortfalls and decreases in tax 
revenues and were at risk having to abandon innovative crime prevention 
strategies and to drastically reduce police forces.
    We have taken major steps toward returning to this successful 
approach. We included nearly $4 billion for State and local law 
enforcement in the economic recovery and investment package enacted 
earlier this year. That package included funding of vital programs like 
Byrne grants, rural drug enforcement assistance, and the Community 
Oriented Policing (COPS) program, as well as funding for critical crime 
victims programs. The Judiciary Committee will be holding a hearing 
next week to look at how this funding has been used to support local 
law enforcement efforts in communities across the country.
    Answer. The administration is committed to fully funding the COPS 
program as an effective tool to combat crime and help address police 
brutality and accountability issues in local communities. The research 
available regarding COPS funding clearly validates the program as a 
crime fighting strategy. In its final report on the effectiveness of 
COPS Office grants, the Government Accountability Office (GAO) found 
that COPS funding resulted in significant increases in the number of 
sworn officers and produced significant declines in the rates of total 
index crimes, violent crimes and property crimes. Specifically, the 
declines in crimes attributable to COPS expenditures accounted for 10 
percent of the total drop in crime from 1993 to 1998 and approximately 
5 percent from 1993 to 2000. Further, for every dollar in COPS hiring 
grant expenditures per capita there was a reduction of almost 30 index 
crimes per 100,000 persons.
    In a 2007 policy brief from the Brookings Institution, Yale 
University economist John Donohue and Georgetown University economist 
Jens Ludwig state that the COPS program contributed to the drop in 
crime during the 1990s and is one of the most cost-effective options 
for fighting crime. They estimate that each $1.4 billion invested in 
the COPS program is likely to generate a benefit to society from $6 
billion to $12 billion.
    Equally important is the demand we saw for this year's COPS Hiring 
Recovery Program (CHRP). During the application period, COPS fielded 
more than 17,000 calls from agencies detailing failing local economies 
and rising crime rates. For the $1 billion in funding provided by ARRA 
to help create or save approximately 5,500 law enforcement positions 
throughout the country, the COPS Office received requests from more 
than 7,200 State, local and tribal law enforcement agencies asking for 
more than $8.3 billion for nearly 40,000 officers.
    The administration and the Department of Justice strongly support 
providing resources for crime prevention. The Department's Office of 
Justice Programs (OJP) plays a leading role in exploring new crime 
prevention strategies, evaluating their effectiveness, developing best 
practices for crime prevention, and helping State, local, and tribal 
governments implement innovative, effective crime prevention 
initiatives. Many of OJP's largest and best-known programs, such as the 
Edward Byrne Memorial Justice Assistance Grants, Byrne Competitive 
Grants, Juvenile Accountability Block Grants, Juvenile Justice Part B 
Formula Grants, Missing and Exploited Children's program and Title V 
Community Prevention Grants programs, support prevention programs. In 
fact, OJP's fiscal year 2010 President's Budget request includes 
approximately $1 billion to support crime prevention programs. This 
includes substantial increases for the Residential Substance Abuse 
Treatment and Second Chance Act/Prisoner Reentry programs as well as 
two new prevention-oriented programs, the Problem-Solving Courts and 
Community-Based Violence Prevention Initiatives. Community-Based 
Violence Prevention Initiatives, adapted from the best violence 
reduction research in the public health field over the last several 
decades, collaborates with community-based organizations and focuses on 
street-level outreach, conflict mediation, and changing community norms 
to reduce violence, particularly shootings. The Problem-Solving Courts 
Initiative builds on the success of OJP's existing Drug Courts and 
Mentally Ill Offender Act/Mental Health Courts initiative by provide 
grants, training, and technical assistance to help State, local, and 
tribal grantees develop and implement problem-solving court strategies.
    Question. At a Judiciary Committee hearing in January, police 
chiefs and policy experts testified that an infusion of Federal money 
for State and local law enforcement would quickly create jobs, bring 
money into the economy, and make neighborhoods safe for the businesses 
and homeowners essential to local economies. Do you agree that Federal 
support for State and local law enforcement is integral to our economic 
recovery?
    Answer. When President Obama signed the American Recovery and 
Reinvestment Act (ARRA), I stated that this funding is vital to keeping 
our communities strong and that as local law enforcement professionals 
struggle with the current economic crisis, we can't afford to decrease 
our commitment to fighting crime and keeping our communities safe. The 
local law enforcement grants awarded under ARRA will help ensure States 
and localities can make the concerted efforts necessary to protect our 
most vulnerable communities and populations.
    When the administration began discussions about how best to revive 
the lagging economy, creating jobs was the number one priority and the 
COPS program, according to former Associate Attorney General John 
Schmidt who testified at that January hearing, ``has obvious value in 
terms of economic stimulus.'' The funding awarded under CHRP will go 
directly to State, local and tribal law enforcement and will both 
stimulate our economy by creating jobs and keeping our citizens safe.
    The American Recovery and Reinvestment Act of 2009 provides more 
than $4 billion in assistance for State and local law enforcement in 
addition to the $2.9 billion in funding provided for State and local 
law enforcement in the Appropriations Act of 2009. The fiscal year 2010 
President's budget proposal, if enacted as submitted, would provide an 
additional $2.6 billion for State and local law enforcement assistance. 
As part of the fiscal year 2010 budget, the administration is proposing 
a substantial increase for the Second Chance Act program, which will 
combat criminal recidivism among offenders released from the Nation's 
prisons and jails.

                   INTELLECTUAL PROPERTY ENFORCEMENT

    Question. Last Congress, I introduced the Enforcement of 
Intellectual Property Rights Act, which became law in October. The law 
authorized more resources for the Computer Crime and Intellectual 
Property Section and for State and local law enforcement grants. 
Intellectual property rights promote innovation and creativity, long 
recognized as major drivers of the United States economy. Protecting 
intellectual property, in my view, is therefore both a law enforcement 
objective and an important component of our economy recovery efforts. 
How would the Department use the resources authorized by Congress last 
year to improve its effort in combating criminal intellectual property 
theft?
    Answer. The Department is committed to fulfilling the goals of the 
Prioritizing Resources and Organization for Intellectual Property 
(``PRO IP'') Act of 2008 to strengthen Federal intellectual property 
enforcement efforts and improve coordination among Federal agencies in 
meeting our intellectual property protection challenges. The PRO IP Act 
contains a number of important tools to strengthen the ability of the 
Federal Government, State and local law enforcement, and intellectual 
property owners to protect intellectual property. The Department 
appreciates Congress' decision thus far to fund Section 402(a) of the 
PRO IP Act authorizing additional FBI Special Agents dedicated to 
investigating intellectual property offenses. As appropriated, the FBI 
will be able to deploy 31 such Special Agents around the country. 
Specifically, the FBI has allocated 26 agents to support many of the 
Computer Hacking and Intellectual Property Units nationwide as well as 
assign 3 agents and two supervisors, who will be housed at the IPR 
Coordination Center, to support the Computer Crime and Intellectual 
Property Section (CCIPS) in order to administer a nationwide IP 
program.
    The PRO IP Act, Section 403, also authorizes, but Congress has not 
yet appropriated, $10 million for the FBI and $10 million to the 
Department for the Criminal Division, respectively, to hire and train 
law enforcement officers to investigate and assist in the prosecution 
of IP crime and to procure forensic resources. If the Department 
received this funding, it would increase the number of Criminal 
Division attorneys dedicated to IP prosecutions. Specifically, in order 
to meet the increased demands posed by the PRO IP Act, the Department 
would increase the number of CCIPS attorneys who are devoted solely to 
intellectual property enforcement.

                 FUNDING FOR CLOSURE OF GUANTANAMO BAY

    Question. President Obama ordered the closure of the detention 
facility at Guantanamo Bay and created task forces to determine how 
best to do so and to move forward with effective national security 
policies. In order to put this shameful chapter behind us and do the 
hard work of reinstating our legal process, it will take resources. My 
understanding is that part of the money requested will go toward the 
task forces which are responsible for coming up with these solutions. 
Recognizing that you do not yet have all the final answers on how to 
solve the difficult problem you were left with by the last 
administration, can you tell us why you believe that $30 million sum is 
necessary?
    Answer. On January 22, President Obama issued three executive 
orders and a presidential memorandum that gave significant 
responsibility to the department. These orders require immediate 
interagency action on several fronts: a comprehensive review and 
determination of the appropriate disposition with regard to each 
detainee currently held at Guantanamo Bay; the development of policies 
regarding the detention of individuals apprehended in connection with 
armed conflicts and terrorist activities; and, an evaluation of 
interrogation and transfer practices.
    With regard to the Guantanamo Review Task Force, that Task Force is 
making individualized determinations on the detainees in order to 
facilitate the closure of Guantanamo per the President's Executive 
Order by January of 2010. The other two task forces are required to 
produce reports containing their recommendations in July 2009. There 
are now more than 80 attorneys, including several dozen detailed to 
Washington from our field offices, who are involved in this effort. We 
have also detailed paralegals with classified clearances that are 
involved in the effort.
    The Department requested $30 million in the 2009 war supplemental 
for the task forces. These task forces are tasked with work that has 
extraordinary consequences for the country, and we took significant 
steps to stand up structures utilizing dozens of attorneys and subject 
matter experts from around the country in order to facilitate their 
work. Much of this work cannot be done in an ordinary work environment. 
To give you a sense of the effort involved, we have:
  --Established the Task Force reviewing and making disposition 
        determinations regarding the detainees at Guantanamo at an 
        offsite facility that enables the task force members to work at 
        the Top Secret/SCI level; they are reviewing tens of thousands 
        of pages of classified documents. Our costs for this effort 
        cover the agents, analysts and attorneys to perform those legal 
        reviews.
  --This work must be done in a classified, secure environment, using 
        secure networks, classified-capable computers, scanning 
        devices, phones, and copiers. We had to ensure we had secure 
        electronic document handling capabilities. We are carrying the 
        costs for this secure office space, for the Top Secret/SCI 
        clearances required for our detailees, and for outfitting these 
        Task Forces with the secure equipment required for their work.
  --Finally, we have entered into Automated Litigation Support 
        arrangements to facilitate the massive document review effort, 
        and also to ensure that the records of this effort are 
        maintained properly and securely.
    The costs for classified reviews of this magnitude are tangible. We 
greatly appreciate the support the Committee can give the Department in 
this extraordinary effort.

                   NEW FOIA GUIDELINES AND RESOURCES

    Question. During my 30-plus years in the Senate, I have always 
believed that the Freedom of Information Act (FOIA) is a critical 
mechanism to ensure that our tradition of open government is preserved 
for future generations. I was pleased that, as one of his first 
official acts, President Obama issued a directive to strengthen FOIA 
and that you recently issued new FOIA guidelines that restore the 
presumption of openness for government information. I commend these 
important steps to restore confidence in our government and I believe 
that they will help reverse the troubling trend of excessive government 
secrecy that we witnessed during the last administration. Does the 
Department have sufficient resources, staffing and funding to fully 
implement your new FOIA guidelines?
    Answer. Yes, we believe that the Department has sufficient 
resources to fully implement my new FOIA guidelines. The Office of 
Information Policy operates on a fully reimbursable basis to promote 
effective FOIA operations across the Executive Branch. We will of 
course monitor this situation and work with the Congress if we conclude 
that existing resources are insufficient.
    Question. If not, what can Congress do to help ensure that the 
laudable goals of the President's FOIA directive and your new FOIA 
guidelines become a reality?
    Answer. As stated in the previous response, we believe the 
Department has sufficient resources to implement our new FOIA 
Guidelines at the present time.
   patriot act reauthorization unanswered letter asking for proposals
    Question. Key parts of the Patriot Act allowing the government to 
undertake certain intelligence gathering and surveillance activities 
are set to ``sunset'' this year. The Judiciary Committee is currently 
reviewing whether and how to extend these authorities so that we can 
ensure that the intelligence community has the tools it need to keep 
the Nation safe without unduly infringing on the personal freedoms of 
Americans. I wrote to you 2 months ago asking you to provide the 
Department's legislative proposals for extending or modifying these 
Patriot Act authorities by March 31. I still await an answer to that 
letter. As you know, legislation on these matters requires careful 
attention and sufficient time for consideration without the undue 
pressure provided by pending deadlines. When can we expect the 
Department's proposals for reauthorization of the Patriot Act?
    Answer. We have received your letter and are working with the 
administration with the administration to get our views transmitted as 
quickly as possible.

       OFFICE OF LEGAL COUNSEL--OPR REPORT AND JOHNSEN NOMINATION

    Question. There has been a lot of speculation and even reporting 
about the long awaited Office of Professional Responsibility (OPR) 
report on the legal advice provided by Office of Legal Counsel 
attorneys who drafted the controversial memos giving legal cover for 
the brutal treatment of detainees. I fear there is significant 
misunderstanding of the jurisdiction of OPR and the scope of that 
report. Can you clarify what issue the OPR report is considering and 
whether it had access to on the record interviews with former Vice 
President Cheney and his staff and others in the White House or whether 
OPR's reach was limited in any way from a complete and comprehensive 
investigation?
    Answer. OPR is conducting an investigation into whether legal 
advice in several Office of Legal Counsel (OLC) memoranda regarding 
enhanced interrogation techniques was consistent with the standards of 
professional conduct that apply to Department of Justice attorneys. We 
cannot comment further on this pending investigation.
                                 ______
                                 

           Question Submitted by Senator Frank R. Lautenberg

                              COPS FUNDING

    Question. Due to actions of past administrations, the New Jersey 
cities of Camden and Newark have been banned from receiving Federal 
funds for the COPS program to hire additional police officers from the 
Economic Recovery Act. Will you commit to working with me, New Jersey's 
State Attorney General and the City of Newark to develop a plan to 
address the concerns of the Department of Justice, while allowing the 
cities of Camden and Newark to access COPS funding to hire additional 
police officers under the Economic Recovery Act?
    Answer. The Department of Justice is committed to helping local law 
enforcement during these difficult economic times; however, we must 
also remain committed to ensuring that taxpayer dollars are spent 
wisely and that all instances of waste, fraud or abuse are dealt with 
appropriately. The Department of Justice Office of Inspector General 
(OIG) found that Camden and Newark violated the grant terms and 
conditions associated with their COPS grants. Both cities chose not to 
repay the amount of the violations, but rather opted to accept the 3-
year bar from receiving COPS funds.
    The American Recovery and Reinvestment Act (ARRA) of 2009 
appropriated $1 billion for the COPS Hiring Recovery Program (CHRP) to 
create or save law enforcement positions across the country. The COPS 
Office received over 7,200 applications from law enforcement agencies 
across the country under CHRP, with requests totaling more than $8.3 
billion. COPS grants are carefully monitored and there are serious 
consequences from misuse. This is particularly important regarding ARRA 
funds.
    To remedy violations with past grants, both the City of Camden and 
the City of Newark have been barred from receiving COPS funding until 
2010. Both agencies have been in frequent contact with the COPS Office 
to discuss the options available, including repayment of funds with a 
combined total of over $1.2 million, but both declined to choose 
repayment as a remedy and opted instead for a 3-year bar.
    Camden will complete its 3-year bar period on May 30, 2010, and 
Newark will complete its 3-year bar period on December 6, 2010. The 
Department looks forward to working with both cities at that time to 
identify funding opportunities that will be available in the COPS 
Office future year budgets.
                                 ______
                                 

            Questions Submitted by Senator Richard C. Shelby

                    EXPLOSIVES TRAFFICKING IN MEXICO

    Question. The Associated Press reported in April that Mexico has 
seized more than 2,702 grenades since the start of President Felipe 
Calderon's term in December 2006, compared to 59 during the first 2 
years of the previous administration. There has been much focus of your 
Department on the trafficking of firearms to Mexico and tracing the 
origins of firearms recovered at crime scenes, but we have heard little 
in regard to the serious threat from explosives trafficking. It is only 
a matter of time before these cartels use these devices on our side of 
the border. Does DOJ have adequate resources in Mexico to assist the 
military and law enforcement in identifying recovered explosives?
    Answer. The United States Bomb Data Center (USBDC) currently 
fulfills explosive trace requests in the United States. The USBDC does 
not currently trace all explosives recovered or seized in Mexico. 
However, Mexican officials have recognized the value in tracing 
recovered explosives and have expressed interest in establishing formal 
protocols for tracing all explosives recovered or seized in Mexico.
    The USBDC currently has two employees that focus on explosives 
traces. The USBDC conducts about 140 traces a year, each of which takes 
about 3 weeks to complete, due to the extensive research required. An 
increase in trace demand from Mexico would likely slow down the trace 
processing timeline. Additionally, there is currently only one ATF 
special agent with advanced explosives training located in Mexico. At 
some point, additional resources in Mexico may be required.
    Question. Does DOJ have adequate resources at the U.S. Bomb Data 
Center to trace the enormous increase in grenades recovered in Mexico 
and analyze the data from these traces?
    Answer. Coordination Group for the Control and Arms, Ammunition and 
Explosives traffic for Mexico's law enforcement intelligence community, 
(CENAPI GC-Armas), recently reported that Mexico has recovered or 
seized 3,161 hand grenades since President Calderon took office in 
December 2006. The 940 grenades have also been turned in, over the same 
period through the Mexican military's ``Change of Arms'' program. The 
program is similar to gun buy-back programs in the United States.
    Currently, there are 16 FTEs assigned to the U.S. Bomb Data Center 
(USBDC), and 2 FTEs are assigned to perform the explosives traces. The 
Department anticipates that our law enforcement partners in Mexico will 
continue to recover grenades at the same rate as they have experienced 
in the last 2 years. Accordingly, the USBDC would need to accommodate 
an increase of approximately 1,600 grenade traces each year. Even if 
Mexico submitted requests to trace 10 percent of the aforementioned 
recoveries/seizures, the workload would more than double at the USBDC, 
significantly affecting the turnaround time for all traces--domestic 
and foreign.
    Question. Can you provide this committee with statistics on the 
recovery of grenades in the United States for the same time period for 
comparison purposes?
    Answer. According to the information reported to the U.S. Bomb Data 
Center (USBDC) by Federal, State and local agencies contributing to the 
Bomb Arson Tracking System (BATS), there have been 148 hand grenades 
seized or recovered in the United States since December 1, 2006. 
Although the Department encourages the reporting of all explosives 
incidents to the USBDC by Federal, State and local law enforcement 
agencies, there is no mandate that requires such reporting. 
Consequently, the Department can not verify that all incidents are 
reported.
    Question. Does DOJ have adequate resources for the investigation of 
the explosives related incidents involving these criminal organizations 
along the Southwest Border?
    Answer. ATF currently has a limited number of certified explosives 
specialists (CESs) assigned to Southwest Border States. Although ATF 
does solely support Southwest Border explosives investigations, the 
CESs in this region are their field divisions' primary resources for 
all explosives investigations. From the regulatory aspect, ATF's 
Industry Operations Investigators (IOIs) are required to perform 
explosives applications inspections and to inspect every explosives 
licensee/permittee at least once every 3 years in order to comply with 
the Safe Explosives Act. ATF currently has approximately 632 IOIs in 
the field, and their workload includes the performance of application 
and/or compliance inspections for approximately 107,000 Federal 
firearms licensees and 13,000 Federal explosives licensees.
    Question. Does DOJ have adequate resources for the follow-up 
investigation of explosives traces conducted by the Bomb Data Center?
    Answer. The President's budget request for fiscal year 2010 
includes 35 additional ATF agents, stationed along the Southwest 
Border. These agents will be able to assist in follow-up investigations 
of explosives traces conducted by the Bomb Data Center. It is possible 
that additional investigative resources may be required to follow up on 
explosives traces.

             EXPLOSIVES/GRENADE TRACING RESOURCES IN MEXICO

    Question. On October 11, 2008, the United States Consulate in 
Monterrey, Nuevo Leon, Mexico was attacked with assailants using small 
arms fire and a fragmentation grenade. On January 6, 2009, a television 
station located in the same Mexican city was attacked by individuals 
who fired shots at the building and threw a hand grenade over the 
perimeter wall. In light of these attacks and the increase in grenade 
recoveries, I would presume the Mexican government is requesting U.S. 
assistance in explosives related training. What efforts have you taken 
to provide explosives training to Mexican military and law enforcement 
authorities?
    Answer. Following grenade attacks in Mexico, Mexico's intelligence 
agency, the Center for Research and National Security (CISEN), was 
tasked by President Calderon to develop a cadre of agents that are 
familiar with explosives and explosives investigations. In November 
2008 the Department provided explosives identification training in 
Tucson, Arizona to 15 CISEN agents.
    CISEN and other Mexican law-enforcement and security agencies have 
asked for additional training, particularly in the area of post-blast 
investigation. While the Department has not provided additional 
training since November 2008, it is ready to continue working with the 
Department of State to identify training opportunities for Mexican law 
enforcement personnel.
    Question. Can you provide this committee with planned training 
activities for next fiscal year and where these activities will take 
place?
    Answer. The majority of explosives related training is provided to 
Federal, State, and local agencies. The Department plans to deliver a 
wide variety of explosives training courses in fiscal year 2010. No 
specific programs for Mexico have been planned yet, but the Department 
will work with the Department of State to identify any opportunities 
for such programs. Should such programs be initiated, training could be 
provided at either the National Center for Explosives Training and 
Research at Huntsville, Alabama, or elsewhere in the United States or 
Mexico.
    Question. Is this training sufficient to meet the demand from the 
Mexican government?
    Answer. The Department of Justice is working with the State 
Department to identify training opportunities and programs for Mexican 
law enforcement.

                          ATF CANINE TRAINING

    Question. How many DOJ certified explosives detection canines are 
there currently in Mexico? Has the Mexican government requested 
additional explosives detection canines from DOJ?
    Answer. There are currently 9 DOJ certified explosives detection 
canines in Mexico. The Mexican government, through the office of the 
ATF Assistant Country Attache, has requested that a total of 80 
explosives detection canines be trained and in place by fiscal year 
2013.
    Question. What is the current capacity at the DOJ canine training 
facility to train United States and foreign explosives detection 
canines?
    Answer. The capacity at the ATF National Canine Training and 
Operations Center (NCTOC) allows for the training of approximately 48 
new explosives detection canines each year.
    Question. Is this capacity adequate to meet the demand for canines? 
If not, can you provide the committee with the amount of resources and 
space needed to address any backlog of canine training?
    Answer. The demand for DOJ-certified canines is extensive and as a 
result, DOJ is experiencing backlogs at the ATF National Canine 
Training and Operations Center. The current backlog for explosives 
detection canines is 1-2 years and the wait for accelerant detection 
canines exceeds 2 years. In addition to training new canines, ATF also 
provides recertification and advanced training in support of 
approximately 3,000 explosives and accelerant detection canine teams 
currently in service with law enforcement agencies in the United 
States.

                  SUPPLEMENTAL FUNDING--GUANTANAMO BAY

    Question. The 2009 supplemental funding request includes $30 
million for the Justice Department to review the status detainees still 
held at Guantanamo to determine if they need to be tried or released. 
How will the Department spend this $30 million?
    Answer. On January 22, President Obama issued three executive 
orders and a presidential memorandum that gave significant 
responsibility to the department. These orders require immediate 
interagency action on several fronts: a comprehensive review and 
determination of the appropriate disposition with regard to each 
detainee currently held at Guantanamo Bay; the development of policies 
regarding the detention of individuals apprehended in connection with 
armed conflicts and terrorist activities; and, an evaluation of 
interrogation and transfer practices.
    With regard to the Guantanamo Review Task Force, that Task Force is 
making individualized determinations on the detainees in order to 
facilitate the closure of Guantanamo per the President's Executive 
Order by January of 2010. The other two task forces are required to 
produce reports containing their recommendations in July 2009. There 
are now more than 80 attorneys, including several dozen detailed to 
Washington from our field offices, who are involved in this effort. We 
have also detailed paralegals with classified clearances that are 
involved in the effort.
    The Department requested $30 million in the 2009 war supplemental 
for the task forces. These task forces are tasked with work that has 
extraordinary consequences for the country, and we took significant 
steps to stand up structures utilizing dozens of attorneys and subject 
matter experts from around the country in order to facilitate their 
work. Much of this work cannot be done in an ordinary work environment. 
To give you a sense of the effort involved, we have:
  --Established the Task Force reviewing and making disposition 
        determinations regarding the detainees at Guantanamo at an 
        offsite facility that enables the task force members to work at 
        the Top Secret/SCI level; they are reviewing tens of thousands 
        of pages of classified documents. Our costs for this effort 
        cover the agents, analysts and attorneys to perform those legal 
        reviews.
  --This work must be done in a classified, secure environment, using 
        secure networks, classified-capable computers, scanning 
        devices, phones, and copiers. We had to ensure we had secure 
        electronic document handling capabilities. We are carrying the 
        costs for this secure office space, for the Top Secret/SCI 
        clearances required for our detailees, and for outfitting these 
        Task Forces with the secure equipment required for their work.
  --Finally, we have entered into Automated Litigation Support 
        arrangements to facilitate the massive document review effort, 
        and also to ensure that the records of this effort are 
        maintained properly and securely.
    The costs for classified reviews of this magnitude are tangible. We 
greatly appreciate the support the Committee can give the Department in 
this extraordinary effort.
    Question. Could this be just the beginning of what some estimate to 
be a $1 billion cost to the Department?
    Answer. Beyond the fiscal year 2009 supplemental request, the 
Department has included $60 million in the 2010 budget for matters 
relating to Guantanamo detainees, including:
  --Secure detention housing, including hardening facilities during 
        trial (USMS and BOP costs) and U.S. Marshals Service security 
        command posts;
  --Secure air transport, specialized local transportation provided by 
        USMS, armored vehicles with secure communications equipment, 
        hardened cell blocks and sally ports, and overall hardening of 
        our courthouses;
  --Communication costs;
  --Linguists to communicate/facilitate instructions during trial;
  --Electronic surveillance equipment (USMS protective intelligence 
        installs counter-surveillance devices to protect the Federal 
        judiciary);
  --Litigation costs (U.S. Attorneys, NSD, and CRM); and
  --Other costs such as specialized training and fees and expenses of 
        witnesses who testify.
    Question. Can you give us some indication about the amount of 
taxpayer funds estimated to be needed to transport, imprison and 
prosecute these detainees over the next 5 years?
    Answer. Currently our planning estimates of costs do not extend 
beyond the first year. The $60 million first-year estimate we have 
developed assumes that some trial or pre-trial preparations and custody 
will be in process. The estimate includes: secure detention housing, 
secure detainee transportation, court security, communication costs, 
litigation costs, and other expenses.
    Question. Will you reimburse the State and local governments for 
their increased law enforcement costs related to the movement, 
incarceration and prosecution of these terrorists?
    Answer. Currently our planning estimates of costs do not assume 
reimbursements for State and local governments.
    Question. Will the administration send up another supplemental in 
the near future to cover these costs to the Department?
    Answer. As stated previously, our current cost estimates of $30 
million for fiscal year 2009 and $60 million for fiscal year 2010 
represent our best estimate at this time of the total costs for these 
task forces. We do not plan to seek additional supplemental funds for 
these reviews.
                          DOJ LEGAL AUTHORITY

    Question. General Holder, my colleague from Alabama, Senator 
Sessions, wrote to you over a month ago asking whether the Federal 
Government has the current legal authority to admit into the United 
States any prisoner held at the military detention facility at 
Guantanamo Bay who participated in terrorist related activities or 
training. Does the Government have the authority to admit these 
terrorists into the United States? When can we expect a written answer 
to my colleague's letter?
    Answer. On June 16, 2009 we responded to the letters from Senator 
Sessions. However, as I testified before the subcommittee with regard 
to the release decisions we will make, we will look at these cases on 
an individualized basis and make determinations as to where they can 
appropriately be placed within the spirit and letter of the law.

                               INFLUENZA

    Question. Currently the Department has thousands of agents working 
in Mexico and along the southern border. Given the recent widespread 
outbreak of H1N1 influenza can you tell us specifically what the 
Department has done to ensure the safety and health of its agents?
    Answer. The health and safety of the Department's employees is of 
utmost importance to me. DOJ has been monitoring the spread of H1N1 
since the start of the outbreak and has undertaken outreach to ensure 
that employees are aware of symptoms of H1N1, preventative measures to 
guard against infection, and HR flexibilities, such as teleworking and 
alternative work schedules. Following are some of the actions taken by 
DOJ law enforcement entities to ensure the safety of their employees.
  --The FBI purchased protective equipment, including surgical masks, 
        hand sanitizer solutions, and workspace disinfectant for wide 
        availability, including for those employees on the southern 
        border, and obtained N95 respirators for select employees whose 
        duties are most likely to bring them into close contact with 
        members of the public suffering from upper respiratory 
        infections.
  --The USMS Prisoner Operations Division issued guidance to advise 
        personnel to be vigilant in detecting symptoms in prisoners in 
        USMS custody.
  --ATF issued a broadcast to employees that provided a link to 
        Pandemic Flu Awareness training.
  --In conjunction with DHS, the Department issued a ``dual seal'' 
        document that provides instruction to law enforcement and 
        security personnel on how to prepare for and handle those they 
        encounter who exhibit H1N1 flu symptoms.

               EXPIRING PROVISIONS OF THE ADAM WALSH ACT

    Question. There are a number of Adam Walsh provisions expiring in 
fiscal year 2009. Has the Department contemplated a legislative plan 
regarding the expiring provisions of the Adam Walsh Act?
    Answer. The Adam Walsh Act is a significant and landmark piece of 
legislation. We believe any expiring provisions which serve to protect 
the public welfare and the safety of children should be extended. The 
Department is currently reviewing the provisions of the Adam Walsh 
Child Protection and Safety Act (the Adam Walsh Act) that are set to 
expire in fiscal year 2009, and looks forward to working with Congress 
to discuss these expiring provisions.
    There are two ``Authorization of Appropriations'' provisions of the 
Sex Offender Registration and Notification Act (SORNA) (Title I of the 
Adam Walsh Act) with terms from 2007 to 2009. Section 126(d) of SORNA 
(42 U.S.C. 16926(d)) authorizes ``such sums as may be necessary'' to 
the Sex Offender Management Assistance program authorized by section 
126(a) of SORNA (42 U.S.C. 16926(a)). Section 142(b) of SORNA provides 
for ``such sums as may be necessary'' to utilize Federal law 
enforcement resources to assist local jurisdictions in locating and 
apprehending sex offenders who violate their registration requirements. 
No other portion of SORNA is ``expiring'' in fiscal year 2009.
    On May 26, 2009, pursuant to his statutory authority under 42 
U.S.C. 16924(b) to grant ``two one-year extensions of the deadline,'' 
the Attorney General extended the deadline for these expiring 
provisions to July 27, 2010. States now have until that date to come 
into compliance with the requirements of SORNA.
    Question. Does the Department support reauthorization of these 
provisions designed to protect children from pedophiles and sexual 
predators?
    Answer. The Department is committed to protecting the Nation's 
children from pedophiles and sexual predators, and fully supports the 
programs outlined in the Adam Walsh Child Protection and Safety Act. We 
look forward to working with Congress to discuss reauthorization of 
expiring provisions in the Act.
    Question. What changes if any will DOJ propose?
    Answer. The Department of Justice is reviewing the Adam Walsh Act 
and looks forward to working with Congress to determine any changes 
that need to be made.
    Question. Does the Department support the requirement that sexual 
predators must register with local authorities?
    Answer. The Department of Justice believes that requiring 
registration with local authorities will aid law enforcement in 
ensuring compliance with both State and Federal laws. Since the launch 
of the Dru National Sex Offender Public Website in 2005, millions of 
parents, employers, and other concerned residents have utilized the 
Website as a safety resource, identifying location information on sex 
offenders residing, working, and going to school not only in their own 
neighborhoods but in other nearby States and communities as well.

                           NIBIN--BALLISTICS

    Question. Are there any official MOU's or policies in place 
requiring the use of NIBIN by DHS law enforcement? If not, why not? If 
so, please provide a copy for the record.
    Answer. An MOU does not currently exist between the Department of 
Justice and Homeland Security requiring the use of NIBIN by DHS law 
enforcement. We are looking at how to best facilitate DHS' use of 
NIBIN, including outlining a process for entering information into 
NIBIN.
    Question. What is the extent of DHS's coordination with ATF's 
Project Gunrunner?
    Answer. Project Gunrunner is an anti-firearms trafficking operation 
to stem the flow of illegal firearms purchased in the United States 
into Mexico. As Project Gunrunner is focused on the border, ATF 
coordinates extensively with DHS's Custom and Border Protection and 
Immigration and Customs Enforcement.
    Question. What specific initiatives does DOJ have in place to 
ensure that all firearms seized by Customs and Border Protection and 
Immigration and Customs Enforcement are being processed thru the ATF's 
NIBIN and the ballistics databases?
    Answer. The Department is looking at how best to facilitate DHS's 
use of NIBIN, including outlining a process for entering information 
into NIBIN.
    Question. How are the data from etrace and NIBIN being integrated 
and mapped along with other relevant crime data from the border?
    Answer. The El Paso Intelligence Center (EPIC), which is an 
intelligence sharing organization focusing on the Southwest Border, 
houses employees from 22 Federal, State, and local agencies, including 
ATF. By participating in EPIC, ATF is able to integrate the data 
available from NIBIN with other crime data from the border. In 
addition, ATF's Violent Crime and Analysis Branch analyzes data derived 
from traces to develop a comprehensive enforcement strategy by mapping 
the trace data to specific geographic areas. This information is used 
to form an integrated intelligence-driven policing strategy.
    Question. Are all guns seized by the Mexican authorities being 
processed by the ATF?
    Answer. The Department is only aware of the weapons that the 
Mexican authorities have submitted to ATF for tracing and processing. 
The Department has no way to ascertain whether the weapons sent to ATF 
encompass the entire universe of weapons seized by Mexican authorities. 
Mexican authorities possess the Integrated Ballistic Imaging System 
(IBIS) technology allowing them to process firearms in their 
possession. ATF recently received $3.2 million to update its IBIS 
equipment to allow ATF's technology to interact with Mexico's 
ballistics equipment.

                              BORDER CZAR

    Question. The administration recently announced the creation of a 
Border Czar. What is the Border Czar role and what actual assets will 
they control?
    Answer. I believe that the new ``border czar,'' Alan Bersin, will 
help bring a more comprehensive view of border security to the 
government. Alan brings years of vital experience working with local, 
State and international partners to help meet the challenges we face at 
our borders. As a former U.S. Attorney, Alan knows the Department of 
Justice and the entire justice system. I understand that his 
responsibilities at the Department of Homeland Security (DHS) will 
include improving relationships with the DHS's partners in the 
international community, as well as those at the State and local level 
including elected officials, law enforcement, community organizations 
and religious leaders. The DHS will determine the specifics of this 
position, including the actual assets (if any) that the Border Czar 
will control.
    Question. Can they direct any DOJ resources?
    Answer. Secretary Napolitano and I are both personally committed to 
a strong partnership between the Departments of Justice and Homeland 
Security. We understand that need for close collaboration and seamless 
cooperation between our Departments. While our specific strategic and 
operational protocols with the Border Czar have not been finalized, we 
don't expect new Border Czar to direct the allocation of DOJ resources.
    Question. Do you have to coordinate with the Czar on investigations 
or allocating DOJ resources on or near the border?
    Answer. As discussed above, Secretary Napolitano and I are both 
personally committed to a strong partnership between the Departments of 
Justice and Homeland Security. We understand that need for close 
collaboration and seamless cooperation between our Departments. Our 
respective departments routinely work together effectively in areas of 
joint concern, but given the importance of cooperation and coordination 
between our departments, there is always room for improvement. To that 
end, one of my first actions after becoming Attorney General was to 
meet with Secretary Napolitano and discuss how we might improve 
cooperation and coordination between our departments, and together we 
have established a high-level working group of agency senior staff to 
address these issues. Moreover, we continue to meet regularly to confer 
on operational and budget issues, as does our senior staff. We are 
confident that we can work together to further improve coordination 
between our departments.
    In point of fact, DOJ and DHS law enforcement agencies have worked 
successfully together for decades on investigations and prosecutions 
involving drug trafficking, money laundering, firearms trafficking, and 
border violence issues. ICE's predecessor U.S. Customs (formerly in the 
Treasury Department) and the U.S. Coast Guard (formerly in the 
Department of Transportation) have both been members of the Organized 
Crime Drug Enforcement Task Forces (OCDETF) since OCDETF's inception in 
1982, along with the Treasury Department's IRS-Criminal Investigations 
Division, and DOJ's DEA, FBI, ATF, USMS, and prosecutors in the 94 U.S. 
Attorney's Offices and Criminal Division.
    Every day agents in these OCDETF task forces across the country and 
along the Southwest Border continue to work together to disrupt and 
dismantle the most significant drug trafficking and money laundering 
cartels that operate along the Southwest Border and elsewhere. In fact, 
ICE participates in approximately 44 percent of all currently active 
OCDETF cases. CE and USCG are particularly valuable members of OCDETF' 
Co-located Strike Forces, including the Panama Express Strike Force, 
which have so far interdicted more than 850 tons of cocaine in the 
maritime transit zones between the sources in Colombia, the 
transporters in Mexico, and the end users in the United States. DOJ 
will continue to emphasize planning, coordination, and this type of 
multi-agency approach to ensure the most effective working 
relationships that will minimize jurisdictional conflicts.
    Question. Does the Border Czar have any operational control of any 
law enforcement function?
    Answer. The Deputy Attorney General directs the overall 
Departmental strategy against the Mexican cartels. In addition, the 
Assistant Attorney General for the Criminal Division will be 
coordinating extensively with Alan Bersin in his role as DHS Assistant 
Secretary for International Affairs and Special Representative for 
Border Affairs.

                               GAO STUDY

    Question. Why is ICE not participating nor contributing to these 
multi-agency efforts?
    Answer. DOJ and DHS law enforcement agencies have worked 
successfully together for decades on investigations and prosecutions 
involving drug trafficking, money laundering, firearms trafficking, and 
border violence issues. ICE's predecessor U.S. Customs (formerly in the 
Treasury Department) and the U.S. Coast Guard (formerly in the 
Department of Transportation) have both been members of the Organized 
Crime Drug Enforcement Task Forces (OCDETF) since OCDETF's inception in 
1982, along with the Treasury Department's IRS-Criminal Investigations 
Division, and DOJ's DEA, FBI, ATF, USMS, and prosecutors in the 94 U.S. 
Attorney's Offices and Criminal Division.
    Every day agents in these OCDETF task forces across the country and 
along the Southwest Border continue to work together to disrupt and 
dismantle the most significant drug trafficking and money laundering 
cartels that operate along the Southwest Border and elsewhere. In fact, 
ICE participates in approximately 44 percent of all currently active 
OCDETF cases. ICE and USCG are particularly valuable members of 
OCDETF's Co-located Strike Forces, including the Panama Express Strike 
Force, which have so far interdicted more than 850 tons of cocaine in 
the maritime transit zones between the sources in Colombia, the 
transporters in Mexico, and the end users in the United States. MOU 
between DEA and ICE, ICE agrees to fully participate at OFC and SOD, 
both in terms of staffing and information sharing, and to provide 
seizure data to EPIC, which will greatly enhance the sharing of 
intelligence between DEA and ICE.
    Question. Are there any other agencies that refuse to participate?
    Answer. The Department is not aware of other agencies refusing to 
participate.
    Question. What is the impact on drug investigations as a result of 
ICE refusing to participate with the rest of the interagency community?
    Answer. Secretary Napolitano and I are both personally committed to 
a strong partnership between the Departments of Justice and Homeland 
Security. We understand that need for close collaboration and seamless 
cooperation between our Departments. Our respective departments 
routinely work together effectively in areas of joint concern, but 
given the importance of cooperation and coordination between our 
departments, there is always room for improvement. To that end, one of 
my first actions after becoming Attorney General was to meet with 
Secretary Napolitano and discuss how we might improve cooperation and 
coordination between our departments, and together we have established 
a high-level working group of agency senior staff to address these 
issues. On June 18, 2009, DEA and ICE signed a new Memorandum of 
Understanding (MOU) that updates the previous MOU from 1994. As part of 
the recently signed agreement, ICE agrees to fully participate at OFC 
and SOD, both in terms of staffing and information sharing, and to 
provide seizure data to EPIC, which will greatly enhance the sharing of 
intelligence with the rest of interagency community.

                           SECOND CHANCE ACT

    Question. General Holder the Second Chance Act provides job 
training for convicted felons. Can you tell us how much is in your 
request for assisting felons rehabilitating them and assisting them in 
finding employment?
    Answer. For fiscal year 2010, the administration is requesting 
$13.8 million for the Bureau of Prisons (BOP) to implement a 
comprehensive reentry strategy called the Inmate Skills Development 
(ISD) initiative that has been developed on a competency-based model 
that measures success by skill acquisition. The process includes an 
assessment of an inmate's strengths and skill deficits upon admission, 
the development of an individualized plan to address skill deficits, 
and the monitoring of skill enhancements throughout incarceration. This 
framework is predicated on beginning the preparation of an inmate's 
release to the community when he or she first comes into the BOP and on 
a consistent basis throughout their incarceration, as well as 
developing partnerships and resources to assist in a successful 
transition to the community.
    Of the $100 million requested for the Office of Justice Programs 
(OJP), much of the funding will go directly to grant funds for States, 
localities and tribes, and each of these entities will submit 
applications for funding that will address a variety of reentry related 
initiatives. These initiatives may focus on substance abuse treatment, 
mental health treatment, cognitive skill development and motivational 
interviewing, as well as housing or employment. There are many 
components of successful and evidenced based reentry efforts, and thus 
we assume the majority of applicants will put forth applications that 
comprise one or more components to improve an offender's life, one that 
leads to positive behavior and contributions to the community in which 
the offender resides. We also plan to use a portion of the funds for 
research to improve the knowledge base of effective reentry strategies.
    Question. Given that the Department is working to ensure that this 
program is a success how many of the felons who in the process of being 
rehabilitated will be working at the Department?
    Answer. Funding and implementation of offender reentry programs 
that reduce recidivism and enhance public safety is an important 
priority for the Department of Justice. The Office of Justice Programs 
plans to coordinate extensively with the Department of Labor's 
Employment and Training Administration and other agencies in 
administering the programs authorized by the Second Chance Act 
including developing a program that will allow for the hiring of 
offenders who are involved in rehabilitative efforts in some of our 
community based programs.
    Question. If the Department has no initiative could you report back 
to the committee in 30 days on a suggested pilot program we could set 
up at DOJ headquarters?
    Answer. Certainly, the Department can follow-up with the Committee 
regarding the development of such a program.

                         INTELLECTUAL PROPERTY

    Question. Provide an update on the execution of this funding and 
outline what efforts the Department intends to take in the future to 
ensure that intellectual property crimes are vigorously investigated 
and prosecuted?
    Answer. The Department takes intellectual property crimes very 
seriously and I am grateful for the resources provided in the fiscal 
year 2009 Appropriation for 46 positions (31 Special Agents and 15 
Professional Staff) to support the FBI's investigations of Intellectual 
Property crimes. Of these positions, five Special Agents will be 
assigned to the Intellectual Property Rights Unit, within the Cyber 
Criminal Section at the FBI Headquarters. The remaining 26 Special 
Agents will work in coordination with the Department of Justice 
Computer Hacking and Intellectual Property Units in the following FBI 
Field Offices: Los Angeles, San Francisco, San Diego, Washington, DC, 
Seattle, San Antonio, Pittsburgh, Philadelphia, New York, Newark, 
Miami, Memphis, Kansas City, Detroit, Denver, Dallas, Chicago, Boston, 
Baltimore, and Atlanta. I will continue to work with the administration 
and Congress on resource requirements to address this issue.

                       SECOND CHANCE DUPLICATION

    Question. The Office of Justice Programs (OJP) currently 
administers more than 82 grant programs. The sponsors of the Second 
Chance act did a poor job of examining the existing programs at OJP, 
and opted for more bureaucracy and a press release. Instead of 
utilizing existing Byrne Grants, R-SAT, re-entry and other programs at 
OJP, a new battery of programs was created. It seems as though a new 
grant program is created every day. What is the Department doing to 
examine the duplication of existing programs?
    Answer. The Department is aware that some programs can be 
duplicative of past or existing reentry initiatives; however, the 
Department, through the Office of Justice Programs (OJP), makes every 
effort to avoid duplicative efforts by developing solicitations and 
other funding opportunities, where permissible within the legislation, 
that stress creation and implementation of new, innovative, and 
evidenced based initiatives that have not been initiated through 
previous funding opportunities.
    Question. What is the Department doing to find out what does and 
doesn't work?
    Answer. It is critical that the Department support new and 
innovative approaches to addressing crime that are supported by 
evidence-based practices. At OJP we are following through on this 
commitment by working to re-establish the connection between research 
and practice, and giving the field the latest information about what 
works in the field of criminal and juvenile justice. This effort is one 
of our top priorities, and is helping to restore the integrity of 
science at the Department of Justice.
    We also believe research should be integrated into, not separate 
from, our programmatic activities. OJP has started a series of internal 
working groups to figure out how we can share information with the 
field about evidence-based approaches to fighting crime. In many cases, 
the knowledge is already out there in the field and it is our job to 
facilitate the horizontal transfer of that information and advance 
programs and practices that are supported by evidence of effectiveness. 
Through these working groups, we are coming up with a strategy for 
strengthening the evidence-based nature of our programs and working to 
build a more solid research foundation for the work that we do.
    In addition, meetings and monitoring visits are held with the 
grantees to ensure that they are providing effective and efficient 
programs through the various funding opportunities. OJP has emphasized 
that the Bureau of Justice Assistance and the National Institute of 
Justice (NIJ) collaborate on the evaluation of new programs and 
initiatives. There is also an emphasis on creating meaningful and 
productive performance measures for recipients of funding.

                         DEA TITLE 21 AUTHORITY

    Question. What is your position on ICE receiving independent Title 
21 authority to investigate drug crimes, as opposed to the current 
practice of ICE relying on cross-designation by DEA?
    Answer. On June 18, 2009, DEA and ICE signed a new Memorandum of 
Understanding (MOU) that updates the previous MOU from 1994. The new 
MOU continues the use of cross-designation of ICE agents, but removes 
any cap imposed upon the number of ICE agents that can receive cross-
designation. Both Secretary Napolitano and I agree that this MOU is the 
most efficient and effective means to coordinate and deconflict drug 
enforcement investigations.
    Question. Would independent Title 21 authority for ICE cause any 
problems?
    Answer. Under the newly signed MOU, ICE will not require 
independent authority to conduct Title 21 drug investigations because 
ICE agents will be cross-designated with Title 21 authority, with no 
limitation on the number of ICE agents that may be cross-designated.
    Question. General Holder, will the new leadership for both ICE and 
DEA be able to resolve this or will it require a legislative fix?
    Answer. The recently signed MOU is the most efficient and effective 
way to address cross-designation concerns and to promote additional 
coordination. Because the issues between DEA and ICE have been resolved 
with this MOU, no legislative fix is required.
    Question. If the administration's new leadership can fix this what 
is your plan?
    Answer. I believe that with the signing of the MOU between ICE and 
DEA that any such issues related to cross-designation and coordination 
are resolved.
    Question. If ICE wants Title 21 to work narcotic cases why has ICE 
refused to participate at the OCDETF Fusion Center and EPIC? Why don't 
they play a larger role at SOD?
    Answer. Under the recently signed MOU between DEA and ICE, ICE 
commits to full participation, information sharing, and staffing at the 
OCDETF Fusion Center and SOD, and will provide seizure data to EPIC.
    Question. What intelligence do the two agencies share and how?
    Answer. DEA participates in a number of task forces and special 
initiatives with DHS agencies, including ICE, such as OCDETF, HIDTA, 
the CBP/DEA Ports Project, Border Enforcement Security Task Forces, and 
the Tunnel Task Force. These initiatives increase the flow of 
information between participating agencies regarding violent criminal 
organizations and gangs operating on both sides of the border.
    The information sharing and de-confliction processes and protocols 
established in the El Paso Intelligence Center (EPIC), the OCDETF 
Fusion Center (OFC), and the Special Operations Division (SOD) have 
proven to be effective systems for multi-agency law enforcement 
intelligence sharing. With the recently signed MOU between DEA and ICE, 
ICE agrees to fully participate at OFC and SOD, both in terms of 
staffing and information sharing, and to provide seizure data to EPIC, 
which will greatly enhance the sharing of intelligence between DEA and 
ICE.
    Question. What is DEA's plan to resolve the issue?
    Answer. ICE commits to full participation, information sharing, and 
staffing at OFC and SOD and to provide seizure data to EPIC in the 
recently signed MOU.

                LAW ENFORCEMENT WIRELESS COMMUNICATIONS

    Question. President Obama recently announced his administration's 
comprehensive response to increased violence against Mexico fight 
against the drug cartels. How effective are the tactical radio 
communications between DOJ agents and other Federal agents such as 
Customs and Border Patrol along the Southwest border and do you need 
assistance from this subcommittee to fund tactical communications?
    Answer. The Department appreciates the support the Congress has 
shown the program in fiscal year 2009, and is pleased to share our 
plans for replacing and modernizing our aging radio systems, correcting 
security deficiencies, and addressing mandated technical standards that 
directly support agents along the border. DOJ's tactical radio systems 
should be updated where appropriate with systems which are more modern, 
more reliable and more secure. DOJ is working with other Federal law 
enforcement components to increase the effectiveness of tactical 
communications.
    Due to budgetary constraints, the typical ``technical refresh'' 
investments necessary to maintain the reliable and secure operations of 
our radio systems have been postponed and/or delayed for 10-12 years. 
We have reached a point where certain aspects of our wireless systems 
are no longer supported by the original equipment vendors. Our largest 
user--the Drug Enforcement Administration--must often go to 
extraordinary lengths (Internet/eBay, cannibalization of older units, 
unreliable third party suppliers, etc.) to source replacement parts.
    Question. If this is a priority for DOJ why was LEWC not included 
in a 2009 supplement?
    Answer. We are working with the administration to develop funding 
strategies for the IWN program. The President's 2010 budget request 
would increase project funding to $205 million. These funding levels 
drastically increase our ability to invest in new wireless technology, 
reducing the costs for maintaining our legacy systems.
    Question. Follow up: The President's supplemental does not contain 
any funding for tactical communications for Federal law enforcement 
agents being deployed to the Southwest Border. If we are able to add 
funds to ensure that DOJ agents have secure digital communications 
along the SWB how quickly can DOJ respond to provide enhanced 
operational ability and security?
    Answer. The Department is prepared to immediately invest any 
additional funding to upgrade/modernize our radio systems serving the 
Southwest border. Such investments would have an immediate and 
significant impact in addressing the operational failures and security 
problems we currently face in the Southwest. Upgrade investments would 
be made in three major areas requiring attention:
  --Acquire and distribute new, modern radios (i.e., radio ``handsets'' 
        used by individuals and mobile radio systems typically 
        installed in vehicles) for our law enforcement personnel along 
        the Southwest border. This investment would immediately address 
        many of the reliability and security problems our users 
        currently encounter and we would expect to realize operational 
        benefits within approximately 90 days of investment.
  --Begin to upgrade the system infrastructure that supports our 
        tactical radios. This infrastructure includes 
        telecommunications components, computers and servers, antenna 
        towers, and related hardware. It will take approximately 9 
        months to acquire, install, test, and transition the major 
        components of this investment. Improvements in overall system 
        performance and coverage would be realized immediately upon 
        infrastructure upgrade.
  --Begin to develop and implement interoperability capabilities with 
        other Federal radio systems, including CBP. Such investments 
        would allow our users to more easily communicate with other 
        Federal law enforcement personnel. We believe that 
        interoperable capabilities can be significantly improved within 
        approximately 9 months of investment.
    Question. Will the $350,000,000 provided to DOD for 
counternarcotics activities be available for DOJ to use to help upgrade 
its law enforcement wireless communications infrastructure along the 
Southwest border?
    Answer. The Law Enforcement Wireless Communications (LEWC) Program 
has no insight to the $350 million being provided to DOD for 
counternarcotics activities, so we are not familiar with how that money 
will be used. We assume this money will be obligated in a manner 
consistent with the scope and mission originally used by DOD to justify 
the funding--and to our knowledge DOJ's IWN radio system was not 
included in that justification. No discussions have been held by the 
LEWC program and DOD regarding the use of this funding.
    Question. With regard to your fiscal year 2010 request, it is my 
understanding that DOJ requested 300 million for LEWC in 2010 and it 
has been recommended that they receive 205 million.
    Answer. With the Committee's support of the IWN program in fiscal 
year 2009, the Department received a total of $185 million, which is 
$110 million above the fiscal year 2008 enacted level. The fiscal year 
2010 request is $205 million, a $20 million increase above fiscal year 
2009 that, if enacted, will allow for further IWN deployment.
    Question. What is the plan, the schedule for completing this 
project?
    Answer. Our current implementation schedule is to design and 
develop the IWN system over a 6 year period utilizing a series of 
overlapping implementation phases. The planned 6-year upgrade and 
replacement of legacy communications systems will include regional 
design and deployment of modernized tactical communications systems and 
services focusing on urban centers. The timeframe for completion is 
dependent on the availability of funding.
    Question. Are their plans for a 2010 supplement request to help 
accelerate this program?
    Answer. At this time there are no plans to request supplemental 
funds for this program in fiscal year 2010.

                 FBI--CRIMINAL INVESTIGATIVE ABILITIES

    Question. Are you concerned over the apparent deterioration of the 
FBI's criminal investigative capabilities?
    Answer. The FBI has allocated its resources to ensure priorities 
are addressed in all its programs, including the criminal programs. We 
have established policies regarding resource allocation, we monitor 
resource use within each program to ensure that the most serious crime 
problems are addressed, and we ensure valid reasons exist for the 
diversion of resources from lower priority programs to higher 
priorities.
    Since the FBI reprioritized its mission following the terrorist 
attacks of 2001, some of the FBI's criminal program resources were 
redirected to combat the terrorism-related threats endangering our 
Nation. To alleviate any corresponding strain on other law enforcement 
agencies, the FBI has strengthened its focus and commitment to task 
force operations, which act as force multipliers. For example, the FBI 
operated approximately 50 Safe Streets Gang Task Forces before 9/11/01 
and is currently directing approximately 150 gang task forces across 
the country, consisting of approximately 650 FBI Special Agents and 
over 1,000 task force officers from other agencies. The FBI pays the 
overtime, vehicle, travel, and equipment related expenses for the 
assigned State and local agents. These task force operations maximize 
efficiency by promoting intimate collaboration and detailed information 
sharing between agencies.
    Question. Is this an area where we need to invest more agents and 
analysts?
    Answer. The fiscal year 2010 Departmental budget request to 
Congress includes a $62.6 million increase and a total of 379 positions 
(including 54 agents and 165 attorneys) to aggressively pursue mortgage 
fraud, corporate fraud, and other economic crimes. Included in this 
total are 143 positions (50 Agents) and $25.5 million for the FBI to 
combat the dramatic increase in mortgage fraud. These resources would 
enhance the FBI's field investigative capability, provide Forensic 
Accountants to aid in increasingly complex financial investigations and 
preparation of evidence for prosecution, and increase the number of 
Mortgage Fraud Task Forces.

                             FBI FORENSICS

    Question. Mr. Attorney General, the National Academy of Science 
recently issued a draft report of its findings concerning forensic 
science--a report prepared at the request of Congress. Does the 
Department agree with the findings and recommendations of the report?
    Answer. The Department agrees with many of the recommendations of 
the National Academy of Science and fully supports initiatives to 
maximize: the quality and rigor of forensic analyses; the education and 
training of forensic practitioners; rigorous quality assurance programs 
to ensure the results and interpretations of forensic analyses, and the 
conclusions drawn from them, are accurate and within acceptable 
scientific boundaries; and the proper interpretation and use of 
forensic analysis results in criminal proceedings.
    The Department also agrees that additional research is needed to 
enhance the existing body of knowledge in the forensic sciences and to 
improve efficiency and effectiveness in forensic science laboratories 
through the development of new technologies and tools. For example, we 
agree that more research is needed in the areas of human observer bias 
and other sources of human error to minimize the possibility that these 
errors will affect forensic analysis, the interpretation of forensic 
results, and the accuracy and quality of courtroom testimony. 
Specifically, the Department supports: standardizing terminology across 
the forensic science community (Recommendation 2); more research on the 
accuracy, reliability, and validity of the forensic sciences 
(Recommendation 3); more research on human observer bias and sources of 
human error in the forensic sciences (Recommendation 5); the 
development of standards, practices, and protocols for use in forensic 
sciences (Recommendation 6); lab accreditation and practitioner 
certification (Recommendation 7); stronger quality assurance and 
control procedures (Recommendation 8); the establishment of a code of 
conduct, including ethical principles (Recommendation 9); higher 
education in the forensic sciences (Recommendation 10); the improvement 
of the medico legal death investigation system (Recommendation 11); 
Automated Fingerprint Identification System interoperability 
(Recommendation 12); and the use of forensic science to aid homeland 
security (Recommendation 13).
    The Department believes two of the recommendations need further 
study: the creation of a National Institute of Forensic Science to 
oversee the nation's entire forensic science community and the removal 
of all forensic science labs from the administrative control of law 
enforcement agencies or prosecutors' offices.
    Question. Based on the report, are there areas where you could 
suggest that the Committee could start to invest funding to address 
some of the problems identified?
    Answer. The Department believes in efforts to further forensic 
science research and validation efforts and to foster optimal quality 
assurance practices in all forensic science agencies. Thus, future 
investments in NAS recommendations 1 through 13 would be a step in the 
right direction to address some of the issues identified in the study.
    Question. Do you agree with the recommendation that forensic 
laboratories should be independent of police or law enforcement 
agencies?
    Answer. Although the Department supports the location of forensic 
science practitioners in laboratory settings managed and overseen by 
scientific personnel, we do not support the removal of public 
laboratories from the administrative control of law enforcement 
agencies.

                 PEER TO PEER CHILD PORNOGRAPHY GROUPS

    Question. Attorney General Holder: The internet and innovations in 
digital technology have in many ways made life easier and made the 
world a smaller place. Much like any legitimate tool or technology, the 
criminal element always finds a way to exploit theses innovations with 
their own criminal needs.
    Currently on the internet music, books, thoughts and ideas are 
shared through ``peer to peer'' networks. These networks allow a 
computer user to connect with thousands or hundreds of thousands of 
other computers around the world and share the contents of their 
collections which are maintained on their own computer hard drives. 
Like a person in Virginia could share his thoughts or ideas on a 
particular subject freely with a person in New Mexico. These networks 
are open and for anyone to participate.
    The vile and disgusting culture involved in the production and 
distribution of child pornography also take advantage of this 
technology. In these ``peer to peer'' groups Child pornographers are 
free to post, share and download horrible images of child rape and 
exploitation. These ``peer to peer'' networks are relatively easy to 
infiltrate by law enforcement and standard Investigative procedures 
allow for the subpoenaing and identification of the origin and 
person(s) involved in distributing the child pornography.
    The internet crimes against children, ICAC, task forces along with 
other State and local law enforcement agencies are charged with 
investigating these offenses. However, because often the person sharing 
the despicable child pornography is located outside the state of the 
original investigation great cost, time and effort are needed to have 
an Investigator travel to a foreign jurisdiction to provide evidence 
and testimony to obtain a conviction.
    These ``peer to peer'' groups are relatively easy to investigate 
and these cases are ripe for picking.
    Answer. The Department of Justice is deeply committed to the fight 
against child exploitation, including the production and trade of child 
pornography. Today's technology knows no borders, so it is the rule, 
rather than the exception, for an investigation to uncover targets in 
numerous States and countries. In response to this reality, as part of 
Project Safe Childhood, the Department's Child Exploitation and 
Obscenity Section (CEOS) works with law enforcement partners, including 
the Federal Bureau of Investigation (FBI), Immigration and Customs 
Enforcement (ICE), and the Postal Inspection Service, to develop 
national and international operations which generate hundreds or even 
thousands of leads which are then disseminated to law enforcement 
agencies and United States Attorney's Offices in the appropriate 
geographic areas. CEOS also assists in the prosecution of offenders 
identified through these operations. These large-scale national and 
transnational operations leverage limited enforcement resources to 
identify high-value targets and large numbers of offenders.
    While peer-to-peer technology certainly can be used for nefarious 
purposes, it is only one of several methods of trading child 
pornography on a mass scale over the Internet. Our experience shows 
that these opportunistic offenders do not limit themselves to any 
particular technology, so our law enforcement response must be equally 
broad. For example, a Philadelphia man who had two prior convictions 
for molesting children was recently convicted in the Eastern District 
of Pennsylvania of advertising child pornography through an online 
bulletin board that he created and administered. As another example, 
fourteen individual defendants were recently convicted in the Northern 
District of Florida, seven through plea agreements and seven at trial, 
of engaging in a child exploitation enterprise. The members of the 
international illegal organization used Internet newsgroups to traffic 
in illegal images and videos depicting prepubescent children, including 
toddlers, engaged in various sexual and sadistic acts. The group, which 
included convicted sex offenders, traded over 400,000 images of 
children being sexually abused. While we are constantly trying to adapt 
to technological changes as they come--and they come quickly--we also 
note that these offenders often use traditional methods of trading 
these illegal images, such as the mail. For example, an Arizona man who 
had been identified through an undercover operation recently pled 
guilty to receiving child pornography he had ordered through the mail.
    To be sure, peer-to-peer networks offer a fertile environment for 
law enforcement action--and the Department for years has successfully 
targeted offenders using that technological platform. For its part, the 
FBI developed its first peer-to-peer operation in 2003, and later 
developed the eP2P tool in response to the use of these networks by 
child exploiters. FBI and ICE both continue to run operations to 
dismantle peer-to-peer networks, along with the work done by the 
Internet Crimes Against Children taskforces (ICACs), which have become 
very proficient in investigating these types of cases. Federal 
investigators and State and Local law enforcement agencies who 
participate on ICAC Task Forces use tools such as eP2P and Operation 
Fairplay to address peer-to-peer file sharing. In 2008, ICACs 
investigated almost 13,000 child pornography distribution cases and 
almost 10,000 child pornography possession complaints. Many of these 
cases stemmed from peer to peer investigations or from Cyber tips 
reported to the National Center for Missing and Exploited Children. 
Federal prosecutions of all child pornography offenders has increased 
in each of the last 10 years, including over 2,200 indictments filed in 
fiscal year 2008.
    Rather than emphasizing the investigation of one technology over 
another, the Department of Justice instead employs a comprehensive 
approach that includes an effort to identify peer-to-peer users, but it 
is not focused exclusively on it. In responding to the scourge of child 
exploitation, our goal through the enforcement of Federal laws is not 
to replicate the efforts of our State and local partners, but to 
complement it. This involves the identification of new technologies 
used by offenders, finding solutions to technical hurdles, and 
otherwise ensuring that we are pursuing the high-value targets wherever 
they are operating. On the last point, this often means targeting 
organized international and national networks of offenders.
    Operation Joint Hammer, announced by the Department in December of 
2008, is one such example. In that case, European law enforcement 
notified the United States of commercial website run by an Italian that 
was selling subscriptions to its members that allowed them to access 
``fresh'' images of child pornography. The U.S. received hundreds of 
leads of persons in the United States who had paid subscriptions to 
that site. The many leads were divided among the FBI, Postal Inspection 
Service and ICE, and all three Federal agencies worked in close 
association with the Department's Child Exploitation and Obscenity 
Section to investigate the leads and prosecute the offenders. By the 
end of 2008, the Operation had resulted in over 60 arrests in the 
United States. The investigation continues.

                       COMPUTER DIGITAL FORENSICS

    Question. Not since the advent of finger print evidence and later 
DNA evidence has a field of forensic sciences been so impactful in the 
area of criminal investigation as that of computer digital forensics.
    Every criminal case potentially has digital evidence within it. 
Drug deals are set up via text messaging. Murder conspirators 
communicate by way of email messages. Cell phone tracking assists in 
the location of missing or abducted persons. Massive white collar fraud 
cases are cracked due to in house email between defendants.
    State and local law enforcement around this country are not 
financially equipped nor trained effectively to investigate and 
prosecute these cases.
    Federal law enforcement agencies.
    The United States is in desperate need of training the many areas 
of cybercrime for State and local law enforcement agents, prosecutors 
and trial judges who handle over 90 percent of these cases.
    Attorney General Holder, in Alabama we have taken a major step 
forward in this area.
    Answer. More and more crimes today involve the use of digital 
devices, including terrorism, murder, child exploitation, identity 
theft, and fraud. State and local law enforcement agencies and courts 
find themselves challenged to deal with the resulting volume of digital 
evidence.
    The Department's Office of Justice Programs (OJP) is aggressively 
responding to this challenge, both with regard to providing training 
and resources and in the development of new and improved digital 
investigative and forensic tools. OJP's response is being undertaken in 
partnership with State and local practitioners.
    The Bureau of Justice Assistance's (BJA's) Electronic and Cyber 
Crime Training and Technical Assistance Program is designed to improve 
the capacity of local criminal justice systems and provide national 
support for training and technical assistance projects that 
strategically address electronic and cyber crime needs.
    The National Institute of Justice's (NIJ's) Electronic Crime 
Program is designed to improve the capability of State and local 
criminal justice agencies to acquire and process digital evidence 
effectively and efficiently. NIJ's investments in the area of 
Electronic Crime are advised by a State and local practitioner-based 
Technology Working Group to ensure it addresses the most pressing needs 
of the community. Activities sponsored under this program include:
  --Development of improved means to conduct digital forensic 
        examinations of mobile devices such as cell phones as well as 
        other digital devices
  --Provision of resources to speed the process and efficiency of 
        digital forensic examinations such as National Software 
        Reference Library (NSRL) and the Computer Tool Forensic Testing 
        Program (CFTT)
  --Publication of guides such as: ``Digital Evidence in the Courtroom: 
        A guide for Law Enforcement and Prosecutors'' and ``Forensic 
        Examination of Digital Evidence: A guide for Law Enforcement''
    OJP remains committed to this effort. In fact, since 2006, BJA and 
NIJ have provided over $2 million in grant funding to support the 
Alabama District Attorney's Association's (ADAA's) efforts to meet the 
challenge of dealing with digital forensic evidence including the 
Alabama Computer Forensic Program, which, in partnership with the 
Department of Homeland Security, United States Secret Service, created 
NCFI. The support the ADAA provides Alabama criminal justice agencies 
in this regard goes well beyond training, to include investigative 
support, prosecutorial support, and computer forensic analysis support. 
Although their efforts are focused on the needs of the State of 
Alabama, their model could well inform similar efforts by other States, 
or compacts among States.

                            METHAMPHETAMINE

    Question. In recent years many States enacted legislation that 
curtailed the access to ephedrine which is a key or vital component in 
the manufacture of crystal methamphetamine. This legislation caused a 
marked decrease in the number of meth lab seizures around the country. 
An unintended consequence of this legislation led to an increase in the 
amount of crystal methamphetamine being manufactured and imported from 
Mexico. These super labs and drug cartels have been responsible for 
much of the gang and drug violence perpetrated on our border and around 
our country. However, due to recent changes in the manufacturing 
process of meth, the amount of domestic laboratory discoveries is sky 
rocketing. This new method of cooking methamphetamine is commonly 
referred to as a ``one pot'' cook or a ``shake and bake'' cook. Early 
manufacturing methods required several stages in the manufacturing 
process. These stages might involve ingredients such as ephedrine, 
anhydrous ammonia, lithium from lithium batteries, camp fuel, ether, 
salts, drain cleaner, and other dangerous ingredients or processes. 
With this new method of a ``one pot'' cook there are no separate stages 
in the cooking process. All of the dangerous, volatile ingredients are 
combined into one container. These containers are like sticks of 
dynamite, and, once the cook has been completed, the containers are 
discarded as trash. Recently in my State of Alabama a young child 
unsuspectingly picked up a soft drink bottle and attempted to consume 
what she thought was a soft drink. It was in fact ether, acid and the 
remnants of a ``one pot'' meth cook. She received life threatening 
injuries due to this encounter.
    State and local law enforcement around the country are seeing 
greater levels of meth lab seizures than they were prior to the 
ephedrine legislation that sought to reduce the number of meth labs. In 
one jurisdiction within my State of Alabama, a local drug unit seized 
nearly 50 ``one pot'' meth labs in a single residence. Attorney General 
Holder, my question to you is: What are you and the Department of 
Justice doing to assist and train State and local law enforcement and 
prosecutors to deal with not only the influx of imported meth and its 
associated violence, but also the dramatic increase in the amount of 
local methamphetamine manufacturing, distribution and meth lab 
seizures?
    Answer. Drug and lab seizure data has historically suggested that 
roughly 80 percent of the methamphetamine used in the United States 
comes from larger labs operated by Mexican organizations that are on 
both sides of the border, with the remaining 20 percent coming from 
domestically operated Small Toxic Labs. The Department is working with 
other Federal, State, and local law enforcement counterparts to address 
both sources. More specific examples of the work undertaken by DEA and 
COPS in this area are highlighted below.
  --DEA's Mobile Enforcement Teams (METs) prioritize deployments 
        focusing on methamphetamine trafficking, which is often 
        conducted by violent Mexican cartels and gangs. In fiscal year 
        2009, DEA has 14 METs.
  --DEA continues to collaborate with its Mexican counterparts as well 
        as Customs and Border Protection. Projects such as the Long 
        Beach Ports Project, which target suspicious containerized 
        cargo, Operation All Inclusive, and Operation Ice Block, are 
        all designed to stem the flow of precursor chemicals from 
        reaching clandestine methamphetamine laboratories.
  --DEA assists State and local law enforcement by providing hazardous 
        waste contractor cleanup services and other assistance funded 
        by the Community Oriented Policing Services (COPS) program. In 
        fiscal year 2008, DEA administered 3,750 State and local 
        clandestine laboratory cleanups. Based on current data, DEA 
        expects to administer 5,600 State and local clandestine 
        laboratory cleanups in fiscal year 2009, a 49 percent increase 
        from the previous fiscal year.
  --DEA is working to expand the Hazardous Waste Container Program, 
        which reduces overall cleanup costs. The Container Program 
        allows law enforcement officers to transport properly packaged 
        hazardous waste from clandestine laboratory sites to secure 
        containers until a DEA contractor picks it up within seven 
        days. At the end of fiscal year 2008, Kentucky, Alabama, 
        Indiana, Illinois, Nebraska, and Oklahoma were participating in 
        the program. DEA Clan Lab Coordinators are also working with 
        Mississippi, Tennessee, Ohio, and Michigan on the feasibility 
        of these States joining the program. During fiscal year 2008, 
        the container programs have resulted in cost savings of 
        approximately $4 million.
  --DEA trains Federal, State, local and tribal law enforcement 
        professionals on clandestine lab enforcement operations, 
        including basic certification, officer safety and tactical 
        training. Between fiscal year 2001 and fiscal year 2008, DEA 
        provided clandestine lab training to nearly 9,000 State and 
        local law enforcement officers and plans to train 950 each year 
        in fiscal year 2009 and fiscal year 2010. Funding for these 
        activities is provided by COPS.
  --In addition to its support for DEA activities, COPS funding also 
        supports enforcement, training, and prevention nationwide, 
        concentrating in areas having the greatest need for assistance 
        in combating methamphetamine production, distribution, and use. 
        COPS encourages agencies to focus on community policing 
        approaches to methamphetamine reduction, and also works 
        directly with State, local and tribal law enforcement agencies 
        to craft innovative strategies, track and evaluate their 
        implementation, and disseminate results to other jurisdictions 
        confronting similar challenges.

                          AGENT CERTIFICATIONS

    Question. Because of Federal EPA regulations a meth lab cannot be 
legally seized or disposed of unless the law enforcement agent 
conducting the seizure has DEA Federal certifications. The waiting list 
to obtain these certifications and the costs associated are an 
impediment to many local law enforcement agencies being able to 
effectively investigate, seize and prosecute these cases. How will you 
and the Department of Justice see that the training and certification 
of these State and local law enforcement officers is expedited and made 
cost effective?
    Answer. DEA trains Federal, State, local, and tribal law 
enforcement professionals on clandestine lab enforcement operations, 
including basic certification, officer safety, and tactical training. 
Between fiscal year 2001 and fiscal year 2008, DEA provided clandestine 
lab training to nearly 9,000 State and local law enforcement officers 
and plans to train 950 each year in fiscal year 2009 and fiscal year 
2010. In December 2008, DEA opened a new clandestine lab training 
facility at the DEA Academy in Quantico, VA. DEA will use this state-
of-the-art facility to train Federal, State, local, and foreign law 
enforcement officers in meth lab techniques and how to safely enter and 
dismantle them. DEA's State and local clandestine lab training programs 
are currently funded with COPS funding provided to DEA for assistance 
to State and local law enforcement.

                        TRAINING OF PROSECUTORS

    Question. Mr. Attorney General, 95 percent of all criminal cases 
and 98 percent of all violent crime are prosecuted by our Nation's 
State and local prosecutors. However, when funding is set aside by the 
department to train prosecutors, State and local prosecutors often get 
the short end of the stick. Currently, The Hollings National Advocacy 
Center in Columbia, South Carolina is a prime example of the disparity 
between Federal and State and local prosecutors. The Federal training 
at the NAC has been well funded since its inception, however, the State 
and local program, conducted in partnership with the National District 
Attorneys Association, has struggled to provide its much needed 
programs to the Nation's 39,000 State and local prosecutors due to lack 
of funding. If we are asking State and local prosecutors to carry the 
vast majority of the burden of criminal prosecutions, what will the 
Justice Department do to ensure the guilty are brought to justice and 
the innocent protected by well-trained prosecutors?
    Answer. We value the National District Attorneys Association (NDAA) 
as a strong partner and have collaborated with NDAA on a number of 
issues including violent crime, crimes against children, capital 
litigation improvement, and motor vehicle theft. Beginning in fiscal 
year 2010, the National District Attorneys Association may apply, and 
compete, for discretionary grant funding to fund expansion of the 
current curriculum at the National Advocacy Center to provide more 
training for State and local prosecutors.

                     STUDENT LOAN REPAYMENT PROGRAM

    Question. State and local prosecutors and public defenders offices 
struggle with budgets as much, if not more as any governmental agency, 
these tight budgets make it difficult to compete against private law 
firms when recruiting and attempting to retain attorneys. Today, over 
80 percent of law school graduates enter the workforce with student 
loans that on average exceed $50,000. While many young people would 
truly like to serve their community, the sheer economics of a 
tremendous level of debt often eliminates that as an option. The Nation 
has an obligation to ensure the criminal justice system operates at the 
highest level possible. This is increasingly difficult with 
understaffed and overworked prosecutors and public defenders offices, 
which are constantly losing staff to the private sector. In part to 
address the wage disparity between the public and private sector, 
Congress passed and the President signed the John R. Justice 
Prosecutors and Defenders Incentive Act of 2008 in August. The Act 
authorizes the Justice Department to develop a student loan repayment 
program that mirrors a program already in place at the department for 
U.S. Attorney's Offices. What progress has the Department made in 
putting this program in place?
    Answer. The Department understands and appreciates the essential 
work performed by State and local prosecutors and public defenders in 
handling the large volume of cases in State court systems in this 
country. In recognition of that, through the Office of Justice 
Programs, the Department administers a number of targeted efforts to 
support the work of these attorneys in areas ranging from gun crime to 
drug cases, child abuse and neglect, and DNA evidence. In light of many 
competing priorities, however, the Department did not seek 
appropriations for student loan repayment under the John R. Justice 
Prosecutors and Defenders Incentive Act in the fiscal year 2010 budget. 
Department of Justice leadership met recently, however, with the 
Executive Director and the President of the National District Attorneys 
Association and discussed the Act and the needs that led to its 
passage. With recognition of the important work of State and local 
prosecutors and public defenders, the Department will continue to 
consider this matter.

                               NAS STUDY

    Question. The recent NAS study on Forensic Sciences raises a number 
of concerns for this subcommittee. Probably most importantly is that 
the NAS failed to follow the legislative language requesting the study. 
That being said the study is not without value and there are some 
recommendations in the study that are worth consideration and have the 
broad support of stakeholders. However, there are two proposals I find 
particularly troubling: the establishment of an independent forensics 
agency and the removal of all forensics labs from within law 
enforcement agencies. These proposals, to me, seem extremely expensive, 
ill advised, and frankly unworkable. Have you or your staff considered 
the implications of this recommendation and which agency in your 
department would be cut to cover the costs?
    Answer. The Department welcomes the report of the National Research 
Council entitled, Strengthening Forensic Science in the United States: 
A Path Forward. The report is a helpful addition to the public 
discourse on the state of the forensic science community, and it 
recommends many useful steps to strengthen the community and enable it 
to continue to contribute to an effective criminal justice system. In 
fact, many of these steps are familiar to those in the forensic science 
community, including DOJ, and have been discussed among practitioners 
for some time. In large part, it builds on previous reviews conducted 
under DOJ's auspices in 1999 and 2004 that similarly identified 
numerous areas for improvement.
    DOJ supports most of the recommendations. Many of them are directed 
toward state and local forensic entities, which is to be expected as 
around 98 percent of forensic science is performed outside the Federal 
Government. However, the Federal Government has a crucial leadership 
role to play in support of our criminal justice stakeholders and 
constituents. The Federal Government is already engaged in activities 
along the lines of many of the recommendations, but the Department 
recognizes that a significant new effort is required to appropriately 
address the issues raised by the community and in the report.
    There are two recommendations that need further study: the creation 
of a National Institute of Forensic Sciences (NIFS) ``support and 
oversee the forensic science disciplines'' nationwide and the removal 
of all forensic science labs from administrative control of law 
enforcement agencies or prosecutors' offices. The report is correct in 
observing that, currently, the Nation's forensic science community is 
somewhat fragmented given the sheer number of independent law 
enforcement agencies, prosecutorial units, and crime laboratories. 
However, there is important work in progress to unify the community 
from within, as national organizations such as the American Society of 
Crime Laboratory Directors/Laboratory Accreditation Board (ASCLD/LAB) 
and the Scientific Working Groups (SWGs) are working to standardize 
quality control and implement uniform standards. It is not clear that a 
new organization is necessary to achieve implementation of most of the 
report's recommendations. In fact, it could detract from this effort by 
refocusing energies and resources toward bureaucracy-building rather 
than substantive improvement in the field. A decision to establish a 
NIFS must be made carefully, and only after a thorough assessment of 
the strengths and weaknesses of both the concept and its proposed 
implementation.
    Along those lines, DOJ also questions whether full independence of 
laboratories from law enforcement is advisable or feasible. The report 
cites an inherent potential for conflict of interest in the operational 
function of the majority of forensic service providers as they 
currently exist. The concept of ``independence'' that the report raises 
is not new to the law enforcement or forensic science community. In 
fact, States such as Arizona and Virginia have moved in this direction. 
However, it should not be surmised that this model can or should be 
adopted Nation-wide because there is inherent value to a collaborative 
process among forensic practitioners and law enforcement in determining 
the best course of action as it relates to the analysis of forensic 
evidence. To be separated completely from interaction with 
investigative partners might well cause missteps in decision-making 
that could result in either loss and/or destruction of evidence, or 
important analyses left undone. Instead, we agree with language in the 
report stating that autonomy within law enforcement entities should be 
the goal. In fact, accredited laboratories have management requirements 
to ensure independence of their scientific work.
    The publication of Strengthening Forensic Science in the United 
States: A Path Forward provides a renewed opportunity for the forensic 
science community, the Executive Branch, Congress, and the public to 
focus on ways to improve the use of forensic science. While we have no 
plans to eliminate any DOJ agency as a result of the recommendations 
made in the NAS report, we look forward to working with Congress to 
develop and refine a comprehensive approach to address the serious 
issues raised by the report.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. So we have got a lot to do together, and 
we want to work with you to recapitalize and rebuild the 
Department of Justice so we can render justice in our country 
and have our national honor restored abroad. So we are looking 
forward to working with you and your very able staff.
    This subcommittee stands in recess until Thursday, May 21 
at 10 a.m., when we will take testimony from the Acting 
Administrator from NASA.
    The subcommittee is in recess.
    [Whereupon, at 11:38 a.m., Thursday, May 7, the 
subcommittee was recessed, to reconvene at 10 a.m. Thursday, 
May 21.]

 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2010

                              ----------                              


                         THURSDAY, MAY 21, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 11:05 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senators Mikulski, Nelson, Shelby, and Voinovich.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

STATEMENT OF CHRISTOPHER J. SCOLESE, ACTING 
            ADMINISTRATOR

            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Good morning, and welcome to the 
Subcommittee on Commerce, Justice, and Science. I'd like to 
welcome Mr. Scolese from the NASA Goddard Space Flight Center 
in my State.
    We have heard testimony from several Presidents' 
administrations, we've had Nobel Prize winners, and now we're 
actually going to have astronauts in space. As I understand it, 
it is the very first time that we will receive testimony from 
space.
    One could make jokes about it, and maybe we've heard it 
before when it's been coming from outer space, but today it 
will be the real deal.
    As we prepare for that, know that I've also asked one of 
our colleagues who is an astronaut Senator Bill Nelson, to join 
us for that part of the hearing. The Senate is a wonderful 
institution, we've actually had three astronaut Senators--John 
Glenn, Jake Garn, and Bill Nelson.
    And one today which, really, with the Hubble, Senator 
Shelby and I have been together on the Hubble for 19 years, as 
was Senator Kit Bond.
    I really want to pay tribute to both Senator Glenn--when I 
took over this subcommittee so many years ago he was a learned 
counselor and adviser to help me really understand the breadth 
and depth of the American Space Program.
    I also want to pay tribute to Senator Jake Garn, who was my 
ranking member in those days and on a bipartisan basis we 
worked together to do many sound things to achieve a balanced 
space program. And Senator Garn brought a measure of great 
civility and an enormous knowledge, and I feel that I was able 
to launch my career in trying to help the American Space 
Program because of the excellent guidance and tutelage, those 
two space astronaut Senators gave me.
    So, with that, I also, want to welcome Chris Scolese to the 
hearing. He's no stranger to us, he's served as NASA's Chief 
Engineer since 2007, and was the Deputy Director of the Goddard 
Space Flight Center.
    I want to thank Administrator Scolese for steering the NASA 
ship during this time of transition. It has indeed been in 
competent hands, and I want to thank you for your fidelity, for 
your competence, and for your stewardship. It exactly shows why 
we need a civil service, and why we need a NASA civil service. 
You truly have been part of that senior executive corps, 
providing hands-on leadership, as well as motivation of his 
staff, as we go through very difficult times.
    So, I really want to thank you, and I think, you know, I 
want to just give you a little round of applause. I'm sorry 
more colleagues are not here, they'll be here for the more 
glitzy part of it, but we think you're glitzy, too.
    Later on in the hearing, as I said, we're going to talk to 
7 of our very daring and courageous astronauts from Space 
Shuttle Atlantis.
    But let us get right to the heart of why we're here, which 
is the NASA 2010 budget request. It's for $18.7 billion--$1 
billion above the omnibus level--and also, NASA has received $1 
billion in the American recovery stimulus package. So, between 
the 2010 budget request, the Recovery Act, NASA will receive $2 
billion more than they have in the past. This is a real 
victory.
    Unfortunately, these gains don't continue into the future, 
and this is where we're deeply troubled. We're concerned that 
NASA is flat-lined after 2010.
    But there's promising news within the 2010 budget, as well. 
We're heartened that science is funded at $4.5 billion, with 
greater investments in Earth science as we study our own 
planet, and look to distant stars.
    We also note that in other areas of science, the budget 
totals of $4.5 billion, and NASA is being guided by the decadal 
reports prepared by the National Academy of Science. These are 
roadmaps for us, and we believe science at NASA saves lives, 
saves the planet, and creates jobs for the future. We're very 
heartened that we will continue to look at green science as we 
look at Planet Earth, but at the same time, to do other forms 
of science, related to planetary science, as well as solar 
science. And we're going to continue our mission development in 
telescopes, like the James Webb telescope.
    In aeronautics research, the budget request is for $507 
million, roughly the equivalent of the 2009 omnibus level. This 
is disappointing. The aeronautics budget in 1998 was $1.5 
billion, 10 years ago, aeronautics was one of the keystones of 
the NASA budget. We've got to get back to this, because we 
believe that in order to maintain U.S. leadership in 
aeronautics, we need to make those public investments in 
development of technologies that increase our competitive edge 
in aircraft and airspace for safer, better, faster 
transportation.
    The budget also reflects money for the Space Shuttle, and 
the space station, $3.2 billion for the Space Shuttle, $2.3 
billion for the space station.
    The budget calls for eight more flights to the space 
station, and we'll be discussing this in a very active way with 
the acting administrator. Eight more flights before the end of 
the fiscal year 2010.
    We know the administration is committed to these remaining 
flights, and we know that delays that can occur in the Shuttle 
schedule, and we're concerned that there's no funding in the 
budget to keep a transition going.
    As we retire the Shuttle, and we must do it with honor, we 
also have to acknowledge the wonderful workforce that has kept 
the Shuttle flying all of these years. And that this 
transitioning of the workforce is a major challenge for NASA, 
for the administration, and quite frankly for the Congress to 
work on a bipartisan basis with us.
    The United States can't afford to lose this talent. Our 
talent in science and engineering continues to be needed, so we 
need to really take a fresh, creative way of looking at this 
workforce.
    As our courageous astronauts perform amazing feats, we also 
need to know that with that Space Shuttle, safety has to be our 
number one concern, our number one priority that is a--
absolutely needs to ensure. We need to ensure their safety, no 
matter what.
    Now, this budget is a down payment on a balanced space 
program. Some years ago, a man by the name of Norm Augustine 
chaired a White House Commission for the President--a 
Republican President, I might add--and we've followed that for 
years, that we would have a commitment to human space 
exploration, a reliable and safe space transportation system 
and that we would do science, and we would do aeronautics.
    Well, here we are again, where we're asking Norm Augustine 
to chair a Commission in terms of human flight. We look forward 
to the way that the Augustine review will take place, and 
hopefully it will help us, guide us on this.
    Let me conclude, though, by saying we're deeply troubled by 
the cost overruns at NASA. Since 2006, 10 of the 12 NASA 
projects in development have exceeded baseline cost in 
schedules. This has cost credibility with NASA and the 
Congress. So, whenever they want to do something new that's 
dazzling, that's important to either our economics or to 
science, or to exploration, we wonder what we're getting into. 
And what we think we're getting into either doubles or triples 
or so on. And there is a growing concern among our colleagues 
that because of flawed estimates that there is a reluctance to 
begin what we need to do.
    I believe we need to tackle this, and we're going to look 
for your ideas on how to do that.
    But I want to conclude by saying this is a very special 
year in NASA's space history. It's the 50th anniversary of when 
NASA was created. It's the 40th anniversary, this July--July 
20--of when we landed on the Moon. It's the 25th anniversary of 
when Dr. Sally Ride was the first woman to go into space, and 
of course, the beloved, and cherished Hubble Telescope, the 
people's telescope, is celebrating its 19th year in space, and 
like a lot of us, it's had ups and downs and needed a lot of 
help.
    So, we look forward to hearing from you, we think the 
President has done a good job in making recommendations in this 
budget, but we think there's more work to be done.
    Now I'd like to turn to my ranking member, Senator Shelby.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you, Madam Chairwoman.
    Mr. Scolese, thank you for joining us today, and thank you 
for the work that you've done over the years at NASA.
    This is a sizable sum with our budget, considering the 
funding constraints that the Federal Government faces. This is 
a $903 million, or 5.1 percent increase over the 2009 funding 
level.
    This would provide--but it doesn't begin to provide enough 
for NASA to do all of the critical missions it has been asked 
to do.
    The proposed budget has welcome increases in the areas of 
science and exploration, and maintains aeronautics funding at 
an acceptable level. However, more than 21 percent of NASA's 
budget, nearly $4 billion, is being set aside as a placeholder, 
while NASA turns its manned space program over to, what will 
hopefully be an independent, and unconstrained blue-ribbon 
panel.
    While there are a few developments at NASA to be excited 
about, there are even more that are troubling.
    For starters, we are just now receiving a budget proposal 
from the administration that claimed it was able to hit the 
ground running, and was ready to lead.
    With the nominee for the Administrator's post that was 
barely announced less than a week ago, the administration, I 
believe, has chosen to let their budget proposal be the face of 
NASA until a successful nominee is confirmed, in order to 
shepherd this Nation's space priorities through Congress.
    In the case of the future for human space flight in some 
lunar science missions, the administration has made Norm 
Augustine that Chairwoman Mikulski referenced, the de facto 
interim Administrator, further delaying any plan for over $4 
billion of NASA's budget until weeks before the start of the 
fiscal year.
    Such timing will not allow for NASA to potentially re-plan 
a major component of their budget, or for Congress to review 
the inclusion of this funding in fiscal year 2010.
    Rather than rush such a monumental decision, any suggested 
changes should inform the development of the 2011 budget, once 
the ramifications of the recommendations can be fully vetted 
and authorized by Congress.
    The proposed budget--while addressing issues of climate 
change, unmanned exploration and aeronautics research--
shortchanges, I believe, our most viable and visible and 
inspiring manned space flight program. Instead of providing 
Constellation with funds to move forward, it is delaying the 
current mission, while seeking to have a do-over on plans that 
have been authorized by both a Republican and Democratic 
Congress.
    I believe it should be remembered that, while the Hubble 
Telescope has brought us amazing images, and deepened our 
understanding of the universe, this marvelous instrument would 
still be on the ground, without our manned space program.
    It is our distinct pleasure today to be able to talk to the 
crew--as Chairwoman Mikulski said--of the Atlantis, as they 
return to Earth from a successful mission. They will be the 
last, I believe, of Americans to travel farther away from the 
Earth than the Space Station for years to come.
    I believe that manned space flight is something that is 
still in the realm of Government, because despite their best 
efforts, some truly private enterprises have not been able to 
deliver on plans of launching vehicles.
    SpaceX claimed that they would be launched by 2004, and had 
a grandiose vision of manned flights launching by early this 
year. Unfortunately, the reality is that out of four attempts, 
they've only delivered a single dummy payload to space, have 
never delivered any payload to the Space Station, much less a 
human.
    However grandiose the claims of proponents for commercial 
orbital transportation services, part D, they cannot substitute 
for the painful truth of failed performance, at present. For 
all of the hype, and the hundreds of millions in taxpayer 
dollars invested in cargo-only delivery, we still await the 
first successful completion of a single mission that delivers a 
real payload, not a simulated dummy.
    I ask--is this the hope we will hitch our dreams of the 
future of manned space flight to? Will unproven cargo 
capabilities close the manned space flight gap faster than the 
work NASA has done on Ares and Orion? Are we to entertain the 
idea of placing people on a rocket that has yet to deliver a 
single real payload of any kind into space? I would have 
trouble, Madam Chairwoman, supporting a budget that is poised 
to eliminate a real manned space program, and instead maintains 
the fantasy of one.
    This course, I believe, will only extend the time we will 
have to rely on the Russians to get our astronauts to a space 
station for which we have invested billions of dollars.
    Without truly supporting and building upon the human and 
heavy-lift launch capabilities that are already under 
development, our astronauts will have no choice but to wave at 
the Russians, perhaps the Chinese, and possibly astronauts from 
India and other countries, as they pass by the Space Station on 
their way to exploring space.
    As our astronauts endlessly circle the Earth in the future, 
astronauts from other nations, perhaps, will be exploring well 
beyond the edges of Earth's atmosphere and will become the 
inspiration of America's children. Is that what we want? I hope 
not.
    We may be the leader in manned space flight today, but the 
eventual ramifications of this budget, as I understand it, has 
the potential to ensure that this lead will end, perhaps 
forever.

                           PREPARED STATEMENT

    I look forward to hearing from you today, but the reality 
is that rocket science is tough, it is not a cheap venture, and 
it is not without risk. As a former NASA Administrator recently 
said, and I'll quote, ``A fictional space program will always 
be faster, better, and cheaper than a real space program, but 
it won't be one.''
    Thank you.
    [The statement follows:]

            Prepared Statement of Senator Richard C. Shelby

    Thank you, Madam Chairwoman. Mr. Scolese, thank you for joining us 
today to discuss the fiscal year 2010 budget proposal for the National 
Aeronautics and Space Administration (NASA). NASA's proposed budget is 
$18.7 billion. This is a $903 million, or 5.1 percent, increase over 
the fiscal year 2009 funding level.
    This is a sizeable sum considering the funding constraints that the 
Federal Government faces, yet it still does not begin to provide enough 
for NASA to do all of the critical missions it has been asked to do. 
The proposed budget has welcomed increases in the areas of science and 
exploration, and maintains aeronautics funding at an acceptable level. 
However, more than 21 percent of NASA's budget, nearly $4 billion, is 
being set aside as a placeholder while NASA turns its manned space 
program over to what will hopefully be an independent and un-
constrained blue ribbon panel.
    While there are a few developments at NASA to be excited about, 
there are even more that are troubling. For starters, we are just now 
receiving a budget proposal from an administration that claimed it was 
able to hit the ground running and was ready to lead. Without even a 
nominee for Administrator, this administration has chosen to let their 
budget proposal be the face of NASA until a successful nominee is 
confirmed in order to shepherd the Nation's space priorities through 
Congress.
    In the case of the future for human space flight and some lunar 
science missions, the Administration has made Norm Augustine the de 
facto interim administrator, further delaying any plan for over $4 
billion of NASA's budget until weeks before the start of the fiscal 
year. Such timing will not allow for NASA to potentially re-plan a 
major component of their budget, or for Congress to review for 
inclusion this funding in fiscal year 2010. Rather than rush such a 
monumental decision, any suggested changes should inform the 
development of the 2011 budget once the ramifications of the 
recommendations can be fully vetted and authorized by Congress.
    The proposed budget, while addressing issues of climate change, un-
manned exploration, and aeronautics research, shortchanges our most 
visible and inspiring space program, manned space flight. Instead of 
providing Constellation with funds to move forward, it is delaying the 
current mission while seeking to have a do-over on plans that have been 
authorized by both a Republican and Democratic Congress.
    It should be remembered that while the Hubble telescope has brought 
us amazing images and deepened our understanding of the universe, this 
marvelous instrument would still be on the ground without our manned 
space program. It is our distinct pleasure today to be able to talk 
with the crew of Atlantis as they return to Earth from a successful 
mission. They will be the last Americans to travel farther away from 
Earth than the space station for years to come.
    I believe that manned space flight is something that is still in 
the realm of government because, despite their best efforts, some truly 
private enterprises have not been able to deliver on plans of launching 
vehicles. Space-X claimed that they would be launching by 2004 and had 
grandiose visions of manned flights launching by early this year. 
Unfortunately the reality is that out of four attempts, they have only 
delivered a single dummy payload to space, have never delivered any 
payload to the space station, much less a human. However grandiose the 
claims of proponents for Commercial Orbital Transportation Services 
part D (COTS-D) are, they cannot substitute for the painful truth of 
failed performance at present.
    For all the hype and the hundreds of millions in taxpayer dollars 
invested in cargo only delivery, we still await the first successful 
completion of a single mission that delivers a real payload, not a 
simulated dummy.
    I ask, is this the hope we will hitch our dreams of the future of 
manned space flight? Will these unproven cargo capabilities close the 
manned spaceflight gap faster than the work NASA has done on Ares and 
Orion? Are we to entertain the idea of placing people on a rocket that 
has yet to deliver a single, real, payload of any kind to space?
    I would have trouble supporting a budget that is poised to 
eliminate a real manned space program and instead maintains the fantasy 
of one. This course will only extend the time we will have to rely on 
the Russians to get our astronauts to a space station for which we have 
invested billions.
    Without truly supporting, and building upon the human and heavy 
lift launch capabilities that are already under development, our 
astronauts will have no choice but to wave at the Russians, the 
Chinese, and possibly astronauts from India, as they pass by the space 
station on their way to exploring space. As our astronauts endlessly 
circle the Earth, the astronauts of other nations will explore well 
beyond the edges of Earth's atmosphere and will become the inspiration 
of America's children. We may be the leader in manned space flight 
today, but the eventual ramification of this budget has the potential 
to ensure that this lead will end forever.
    The reality is that rocket science is hard. It is not a cheap 
venture, and it is not without risk. As the former NASA Administrator 
recently said, ``a fictional space program will always be faster, 
better, and cheaper than a real space program.''
    I look forward to working with NASA and the Administrator, once one 
is nominated and confirmed, to move the real space program at NASA and 
its exploration goals forward in the next fiscal year.
    Thank you.

    Senator Mikulski. Senator Voinovich, are you prepared to 
stay for the hearing, so we could go to Scolese?
    Senator Voinovich. I am, but I have a short statement.
    Senator Mikulski. Would you like to make it?
    Senator Voinovich. Yes, I would.
    Senator Mikulski. Sure.

                STATEMENT OF SENATOR GEORGE V. VOINOVICH

    Senator Voinovich. Thank you very much for having this 
hearing, and it's my first opportunity to be on this 
subcommittee, and Mr. Scolese, thank you for your participation 
here.
    I want you to know that NASA is very close to me, I'm 
wearing this watch that was given to me by the crew of the STS-
70, the all-Ohio crew that happens to have the OSU Buckeye sign 
on it.
    We're all aware of what NASA's done, and their engineering 
and scientific accomplishments. Given the complexity and 
uniqueness and variety of the missions that are managed under 
the NASA umbrella, it's of utmost importance that the Agency 
have adequate human capital framework to ensure their success, 
and I just want you to know how pleased I am with the fact that 
NASA has used the additional flexibilities that we gave them in 
2004 so that you could go out and recruit the best and 
brightest people to work for NASA.
    In addition to that, I'd like to thank you and former 
Administrator Griffin for the fact that you came up with a 
program at a very difficult time to maintain the 10 centers 
that we had throughout the United States. And I want to applaud 
you that you took back in work that was going out to other 
contractors to try and maintain the in-house capability of 
NASA.
    I am also please, Madam Chairwoman, that when there was a 
concern about whether or not you were going to continue your 
commitment to aeronautics, and I agree with you, Madam 
Chairwoman, that that budget for aeronautics ought to be 
reviewed.
    But I'm also grateful that you identified our, as Glenn, 
for the CEV and for the launch vehicle, that we now have a new 
mission.
    I think the real challenge now is to make sure that we 
allocate these resources in the places that it makes the most 
difference. And I think that Senator Shelby makes a very good 
point about dealing with some of the real-world things, and I 
think the American public is going to demand that, and I'm 
certainly hoping that Mr. Augustine takes that into 
consideration when he comes back to make his recommendations to 
NASA.
    I have to say that I was concerned about what the 
administration would do about the NASA budget. There was many 
of us that felt that because of other priorities, that the NASA 
budget would be shortchanged. That hasn't been the case--as 
Senator Shelby says, there's been an increase of 5.1 percent. 
So, somebody did a pretty good job with OMB, convincing them 
that this program was worthwhile.

                           PREPARED STATEMENT

    And I keep emphasizing--as I had when I was mayor, and 
Governor of Ohio--that too often NASA does not do a good enough 
job in letting the folks of this country know how the work that 
they're doing has so many other things that make a difference 
in people's lives. In other words, not just up in space, but 
all of these things that you're doing, do impact--remarkably--
the quality of life of people here in this country.
    And we've seen this at Cleveland Clinic. They've taken a 
lot of stuff that you guys have developed, and put it to work 
to save people's lives.
    So, I'm anxious to hear your testimony today.
    [The statement follows:]

           Prepared Statement of Senator George V. Voinovich

    Good Morning. Thank you Chairwoman Mikulski and Ranking Member 
Shelby for convening today's hearing. Thank you Mr. Scolese for 
participating. I am looking forward to hearing more about the 
administration's fiscal year 2010 budget request and what NASA has in 
store for the future.
    NASA's engineering and scientific accomplishments have long been a 
symbol of America's innovation and technological excellence.
    Given the complexity, uniqueness, and variety of missions that are 
managed under the NASA umbrella, it is of utmost importance that the 
agency have an adequate human capital framework to ensure mission 
success. That is why I have utilized my role on the Homeland Security 
and Government Affairs Subcommittee on Oversight of Government 
Management, the Federal Workforce and the District of Columbia to work 
with NASA to improve its workforce development.
    I am proud that the agency has made substantial and commendable 
strides in its human capital management since 2004, when my 
legislation, the NASA Flexibility Act, was signed into law. NASA has 
certainly done a much better job in recruiting, developing, and 
retaining the staff it needs to execute the agency's missions.
    As a former mayor of Cleveland and governor of Ohio, I have been 
concerned for many years about NASA Glenn's struggle to obtain an 
identifiable mission. When I spoke with several of NASA Glenn's 
administrators a few years ago, we were all worried about restoring 
NASA's aeronautics funding and setting NASA Glenn on a clear mission 
forward.
    In 2005, when Mike Griffin became NASA's administrator, I met with 
him to discuss the future of NASA Glenn, and he assured me he was not 
only focused on keeping NASA centers around the country functioning, 
but also that he was committed to finding a new mission for Glenn. I 
was pleased with Griffin's leadership. He did a great job managing and 
maintaining the ten NASA research centers at a time when the agency was 
going through a difficult transition.
    I am so glad he was able to work with Lockheed Martin to see NASA 
Glenn secure an identifiable mission that included testing and 
certification of the Crew Exploration Vehicle (CEV) as well as 
overseeing the development of several Crew Launch Vehicle (CLV) upper 
stage systems.
    But the staffs at NASA Glenn and at the Plum Brook facility are 
eager to do more.
    Glenn is renowned for its blend of aeronautics and space flight 
experience. Together, NASA Glenn Research Center and the Air Force 
Research Lab at Wright-Patterson Air Force Base have helped shape Ohio 
as a global leader in aerospace design and production.
    I am generally pleased with where NASA has been headed, but 
concerned that with the impending retirement of the Space Shuttle, and 
its replacement by the next generation of human space flight systems 
that shifting priorities within NASA could lead to the transfer of NASA 
Glenn Research Center's mission responsibilities to other NASA centers.
    It is my hope that the vitality of Glenn be maintained, and that 
the Obama Administration and its future nominee for NASA administrator 
would continue its commitment to the ``10 Healthy Center Concept.''
    Mr. Scolese, thank you again for joining us, I am eager to hear 
your thoughts on the future NASA.

    Senator Mikulski. Mr. Scolese, please proceed.

                  STATEMENT OF CHRISTOPHER J. SCOLESE

    Mr. Scolese. Thank you, Chairwoman Mikulski, Ranking Member 
Shelby, and members of the subcommittee. Thank you for inviting 
me here today to discuss the President's fiscal year 2010 
budget request of $18.686 billion for NASA.
    The President's request is $903.6 million above the fiscal 
year 2009 omnibus appropriation.
    First, let me note that NASA's fiscal year 2009 budget is 
$18.8 billion, or about $1.2 billion above the fiscal year 2009 
request. This reflects an increase of $168 million in the 
regular appropriations, and about $1 billion in the Recovery 
Act.
    NASA is appreciative of the support of this committee, and 
the Congress, for the full funding of the fiscal year 2009 
request, and the additional Recovery Act funds, which will 
enable NASA to meet critical priorities.
    The President's fiscal year 2010 request includes $4.5 
billion for science. In Earth Science, NASA is continuing to 
work aggressively to implement the recommendations of the 
decadal survey. The first two decadal missions--SMAP and 
ICESat-II, continue formulation. The next two DESDynI and 
CLARREO--will be accelerated and NASA will issue its first 
Venture-class announcement of opportunity this year.
    Over the next year, we plan to launch the Glory and 
Aquarius missions, the GOES-O mission for NOAA, and complete 
the development of the NPOESS Preparatory Project.
    We will continue development of the foundational missions, 
including the global precipitation mission, the landsat data 
continuity mission, and initiate work on a thermal infrared 
sensor.
    NASA is currently assessing options to recover from the 
disappointing loss of the Orbiting Carbon Observatory, and we 
will keep you informed of our findings and plans.
    In planetary science, we are continuing the exploration of 
the solar system with the Juno mission to Jupiter, the Mars 
Science Laboratory, and the MAVEN Scout mission to Mars.
    In astrophysics, I'm pleased to report that the final 
Hubble servicing mission EVA was completed on Monday, and 
earlier this week, the Space Shuttle successfully released a 
revitalized Hubble Space Telescope. We look forward to many 
more years of discoveries from Hubble. Development continues on 
the James Webb Space Telescope, which passed its confirmation 
review last year, and has an Agency commitment to launch in 
2014.
    NASA's fleet of heliophysics missions located throughout 
the solar system is providing researchers the first ever 
comprehensive view of solar influences on the Earth and other 
planets.
    The fiscal year 2010 budget request of $507 million renews 
NASA's commitment to a strong program in aeronautics, that will 
continue to contribute to the economic well-being and quality 
of life of Americans through its partnerships with industry, 
academia, and other government agencies.
    Our Airspace Systems Program continues to collaborate with 
the Joint Planning Development Office to enhance the capacity, 
efficiency, and flexibility of the National Airspace System.
    In exploration, the President's fiscal year 2010 budget 
request of $3.963 billion is an increase of $457 million above 
the fiscal year 2009 omnibus appropriations level, and $225.4 
million above last year's plan. This increased budget will 
support continued progress to advance the development of the 
next-generation human spaceflight system to carry American 
crews and supplies to space and return Americans to the Moon. 
Specifically, the Lunar Reconnaissance Orbiter and the Lunar 
Crater Observation Sensing Satellite spacecraft are ready for 
launch next month. Later this year, two major test flights will 
be conducted: the Ares 1-X developmental test flight from KSC, 
and the Orion Pad Abort I test at the White Sands Missile 
Range.
    At the request of the Director of the Office of Science and 
Technology Policy, NASA is initiating an independent review of 
U.S. human space flight plans, conducted by a panel of outside 
experts, chaired by Norm Augustine. The review will examine 
ongoing and planned NASA human spaceflight development 
activities and potential alternatives, and present options for 
advancing a safe, innovative, sustainable, and affordable human 
spaceflight program in the years following Shuttle retirement. 
It will also evaluate options for extending ISS operations 
beyond 2016. The panel will present its results by August 2009. 
During the review, the NASA workforce will continue to work on 
all current exploration projects, including the Ares I and 
Orion.
    The President's fiscal year 2010 budget request includes 
$6.176 billion for Space Operations, which funds the safe 
flight of the Space Shuttle to complete the eight remaining 
scheduled flights to the ISS and then retire the Shuttle. We 
believe these flights can be accomplished by the end of 2010. 
This month, the ISS will host its first six-person crew, and 
next month, the STS-127 mission will deliver the third and 
final component of the Japanese Kibo laboratory, setting the 
stage for full research utilization of the ISS.
    Last December, NASA awarded two commercial resupply 
services contracts to develop vehicles needed to deliver 
supplies and experiments to the ISS. The benefits from NASA's 
human spaceflights programs are ultimately demonstrated in the 
inspiration of the next generation of Americans, which was 
reflected recently in the delighted faces of students who 
participated in the uplink phone call between President Obama 
and the combined Shuttle and Station crews last month.
    Finally, the fiscal year 2010 request supports NASA's 
Education Program, to continue developing a future aerospace, 
technical, and scientific workforce, improving the 
technological competitiveness of our Nation's universities, and 
attracting and retaining students in science, technology, 
engineering, and mathematics disciplines.

                           PREPARED STATEMENT

    This request also funds the NASA cross-agency support 
programs, which provide critical mission support activities, 
necessary to assure the efficient and effective operation and 
administration of the Agency and its Centers.
    Madam Chair, thank you again for your support, and that of 
this committee, I would be pleased to respond to any questions 
you may have.
    [The statement follows:]

              Prepared Statement of Christopher J. Scolese

    Chairwoman Mikulski and members of the subcommittee, thank you for 
the opportunity to appear today to discuss the President's fiscal year 
2010 budget request for NASA. The President's fiscal year 2010 budget 
request for NASA is $18.686 billion. The fiscal year 2010 request 
represents an increase of $903.6 million above the amount provided for 
NASA in the fiscal year 2009 Omnibus Appropriations Act (Public Law 
110-8). The fiscal year 2010 budget does a number of things: it 
supports the administration's commitment to deploy a global climate 
change research and monitoring system; it funds a strong program of 
space exploration involving humans and robots with the goal of 
returning Americans to the moon and exploring other destinations; and 
it supports the safe flight of the Space Shuttle to complete assembly 
of the International Space Station by the Space Shuttle's planned 
retirement.

Highlights of the Fiscal Year 2010 Budget Overview
    With the fiscal year 2010 budget request, NASA advances global 
climate change research and monitoring. The NASA investment in Earth 
science research satellites, airborne sensors, computer models and 
analysis has revolutionized scientific knowledge and predictions of 
climate change and its effects. Using the National Research Council's 
recommended priorities for space-based Earth science research as its 
guide, NASA will develop new space-based research sensors in support of 
the administration's goal to deploy a global climate research and 
monitoring system. NASA will work to deploy these new sensors 
expeditiously while coordinating with other Federal agencies to ensure 
continuity of measurements that have long-term research and 
applications benefits.
    The fiscal year 2010 NASA request funds a robust program of space 
exploration involving humans and robots. NASA's astronauts and robotic 
spacecraft have been exploring our solar system and the universe for 
more than 50 years. The Agency will create a new chapter of this legacy 
as it works to return Americans to the Moon by 2020. NASA also will 
send a broad suite of robotic missions to destinations throughout the 
solar system and develop a bold new set of astronomical observatories 
to probe the mysteries of the universe, increasing investment in 
research, data analysis, and technology development in support of these 
goals.
    With the fiscal year 2010 request, NASA will complete the 
International Space Station (ISS) and advance the development of new 
space transportation systems and the unique scientific research that 
can be conducted onboard the ISS. The fiscal year 2010 budget request 
funds for the safe flight of the Space Shuttle to complete the ISS, 
incorporates an additional flight to deliver the Alpha Magnetic 
Spectrometer (AMS) to the ISS, and then retires the Shuttle. NASA is 
committed to completing these nine remaining scheduled Shuttle flights, 
including the current mission underway to service the Hubble Space 
Telescope, which we believe can be accomplished by the end of 2010. 
Funds freed from the Shuttle's retirement will enable the Agency to 
support development of systems to deliver people and cargo to the ISS 
and the Moon and explore other destinations. As part of this effort, 
NASA will stimulate private-sector development and demonstration of 
vehicles that may support the Agency's human crew and cargo 
requirements for ISS. In addition, the Agency will continue to utilize 
the ISS, the permanently crewed facility orbiting Earth that enables 
the Agency to develop, test, and validate critical space exploration 
technologies and processes, and to conduct microgravity research. NASA 
also will continue to coordinate with international partners to make 
this platform available for other government entities, commercial 
industry, and academic institutions to conduct research.
    At the request of the Director of the Office of Science and 
Technology Policy, NASA is initiating an independent review of planned 
U.S. human space flight activities, with the goal of ensuring that the 
Nation is on a vigorous and sustainable path to achieving its boldest 
aspirations in space. This review will be conducted by a blue-ribbon 
panel of outside experts chaired by Norman R. Augustine. The panel will 
present its results in time to support an administration decision on 
the way forward by August 2009. This Review of U.S. Human Space Flight 
Plans will examine ongoing and planned NASA human space flight 
development activities, as well as potential alternatives, and present 
options for advancing a safe, innovative, affordable, and sustainable 
human space flight program in the years following completion of the 
current Space Shuttle manifest and retirement. The independent review 
panel will seek input from Congress, the White House, the public, 
industry, and international partners. In addition, the review will 
examine the appropriate amount of R&D and complementary robotic 
activities needed to make human space flight activities most productive 
and affordable over the long term, as well as appropriate opportunities 
for international collaboration. It will also evaluate what 
capabilities would be enabled by each of the potential architectures 
considered. And it will evaluate options for extending International 
Space Station operations beyond 2016. We will keep the Congress 
informed, as appropriate, with the progress of the review.
    It is important to note that the President has submitted a fiscal 
year 2010 budget request for NASA Exploration Systems of $3.963 
billion, an increase of $457.6 million above the fiscal year 2009 
Omnibus Appropriations level. During the review, the NASA workforce 
will continue to focus on the safe flight and operation of the Space 
Shuttle and ISS, and continue to work on all current exploration 
projects, including Ares I, Orion, and Commercial Crew and Cargo 
efforts.
    The President's fiscal year 2010 budget request includes $507 
million for Aeronautics Research, renewing NASA's commitment to 
cutting-edge, fundamental research in traditional and emerging 
disciplines to help transform the Nation's air transportation system 
and to support future aircraft. NASA research will increase airspace 
capacity and mobility, enhance aviation safety, and improve aircraft 
performance while reducing noise, emissions, and fuel consumption. The 
Integrated Systems Research Program, a new program beginning in fiscal 
year 2010, will conduct research at an integrated system-level on 
promising concepts and technologies and explore, assess, and 
demonstrate the benefits in a relevant environment.
    Finally, consistent with administration priorities, NASA is 
developing plans to stimulate innovation and increase investments in 
technologies for the future while ensuring that nearer-term Agency 
commitments are met.

NASA Initial Fiscal Year 2009 Operating Plan and Recovery Act Funding
    Before I highlight key accomplishments and plans for activities 
across the Agency, I would like to summarize NASA's initial fiscal year 
2009 Operating Plan, including Recovery Act funding, as recently 
submitted to the subcommittee. The initial fiscal year 2009 Operating 
Plan is $18,784.4 million, or $1,170.2 million above the President's 
fiscal year 2009 request, which reflects an increase of $168.2 million 
in the regular appropriation and $1,002.0 million in the Recovery Act. 
NASA is appreciative of the action by the Committees on Appropriations 
and Congress in providing regular appropriations for the Agency with 
full funding for Science, Aeronautics, Exploration, Space Shuttle, ISS, 
and Education. This total fiscal year 2009 appropriations level, with 
minor adjustments within the total, will enable NASA to meet critical 
priorities, in accordance with the direction from the Congress and the 
President. NASA also appreciates the efforts by the subcommittees to 
include funding for NASA in the Recovery Act. This funding will help 
NASA achieve programmatic goals in Science, Exploration and 
Aeronautics, and repair damage done to the NASA Johnson Space Center 
during Hurricane Ike, and support national recovery goals.
    NASA has allocated the $1,002.0 million in Recovery Act funds as 
follows:
  --Science, $400.0 Million
    --Earth Science, $325.0 Million
    --Astrophysics, $75.0 Million
  --Aeronautics, $150.0 Million
  --Exploration, $400.0 Million
    --Constellation Systems, $250.0 Million
    --Commercial Crew & Cargo, $150.0 Million
  --Cross Agency Support, $50.0 Million
  --Inspector General, $2.0 Million
    I would be happy to address the objectives to which NASA is 
applying the Recovery Act funds in detail.

Science
    NASA's Science Mission Directorate continues to expand humanity's 
understanding of our Earth, our Sun, the solar system and the universe 
with 57 science missions in operation and 31 more in development. The 
Science budget funds these missions as well as the research of over 
3,000 scientists and their students across the Nation. The President's 
fiscal year 2010 request for NASA includes $4,477.2 million for 
Science.
    The Science budget request includes $1,405.0 million for Earth 
Science in fiscal year 2010, and steadily increases Earth science 
funding in the outyears. NASA's 15 Earth Science missions in operation 
provide a large share of the global observations used for climate 
change research in the United States and elsewhere. This year, NASA's 
Earth Science satellites enabled research to understand how changes 
both in the tropics and in Arctic sea ice are changing ocean biology 
globally. NASA also recently conducted the first Ice Bridge aircraft 
campaign to demonstrate a new airborne laser capability to bridge the 
gap in time between ICESats 1 and 2. In fiscal year 2010, NASA plans to 
launch the Glory mission to map atmospheric aerosols and continue the 
long record of solar influences on climate, and the Aquarius mission to 
provide the first global measurements of sea surface salinity. NASA 
will complete development of the NPOESS Preparatory Project and 
continue development of the Global Precipitation Mission and the 
Landsat Data Continuity Mission (LDCM). The request fully funds 
development of a Thermal Infra-red Sensor (TIRS) at a total cost of 
approximately $150-175 million. A decision whether to fly TIRS on LDCM 
or another spacecraft will be made this summer; meanwhile, funding for 
TIRS is carried within the LDCM budget. The launch vehicle failure of 
the Orbiting Carbon Observatory (OCO) was a significant loss to the 
climate science communities, and NASA is assessing options to recover 
from that loss; we will inform the Congress of the results of these 
studies when they become available. NASA is continuing to work 
aggressively to implement the recommendations of the National Research 
Council Decadal Survey for Earth Science. The first two Decadal Survey 
missions, SMAP and ICESat-II, will continue formulation in fiscal year 
2010, and the next two, DESDynI and CLARREO, will be accelerated and 
transition to formulation. NASA also expects to issue its first 
Venture-class Announcement of Opportunity later this year, implementing 
another important decadal survey recommendation.
    The fiscal year 2010 Science budget request includes $1,346.2 
million for Planetary Science. NASA's Planetary Science missions 
continue to return images and data from the far reaches of the Solar 
System. This year, the Mars Phoenix Lander completed its mission, 
conducting the first chemical test providing evidence of water ice on 
another planet. MESSENGER returned stunning imagery of portions of the 
planet Mercury never before seen. The Cassini spacecraft continues to 
provide un-paralleled science of the Saturnian system; the spacecraft 
flew within 25km of Enceladus viewing the ejecting plumes and surface, 
and data from 19 fly-bys of Titan enabled creation of a radar map 
showing 3-D topography revealing 1,200-meter (4,000-foot) mountain 
tops, polar lakes, vast dunes, and thick flows from possible ice 
volcanoes. Development is continuing on the Juno mission to Jupiter for 
launch in 2011. NASA and ESA jointly announced they will work together 
on a Europa Jupiter System mission as the next outer planets flagship 
mission. The rovers Spirit and Opportunity continue to study the 
Martian surface and have exceeded their 5-year of successful 
operations. NASA is continuing development of the Mars Science 
Laboratory (MSL) for launch in 2011 and selected MAVEN, a Mars aeronomy 
mission, as the next Mars Scout mission for launch in 2013. NASA has 
integrated its lunar science research program with the Lunar Precursor 
Robotic Program into a single Lunar Quest Program under the Science 
Mission Directorate, which includes the LADEE mission, the U.S. nodes 
of the ILN, and a new virtual university research collaboration called 
the NASA Lunar Science Institute. The Moon Mineralogy Mapper (M3) was 
launched aboard Chandrayaan-1 and has begun making scientific 
observations of the Moon's composition. Development is continuing on 
the GRAIL mission to map the Moon's gravity field for launch in 2011. 
NASA has issued an Announcements of Opportunity for the next New 
Frontiers mission, and will do so for the next Discovery mission later 
this year.
    The fiscal year 2010 Science budget request includes $1,120.9 
million for Astrophysics. 2009 is the International Year of Astronomy, 
and NASA's Astrophysics program will deploy exciting new capabilities 
for studying the cosmic frontier. The Kepler mission, launched in 
March, is NASA's first mission dedicated to the search for Earth-like 
planets in our galaxy. ESA will launch the Herschel and Planck missions 
in April, carrying several NASA instruments, to study the far-infrared 
sky and the cosmic microwave background. The final Hubble Space 
Telescope serving mission aboard STS-125, currently in progress, is 
upgrading the observatory to its peak scientific performance. Late this 
calendar year, NASA plans to launch the Wide-field Infrared Survey 
Explorer (WISE) as part of its highly successful Explorer Program, 
following on the recent successes of the Fermi Gamma-ray Space 
Telescope (launched as GLAST in July 2008), which has provided the 
best-ever view of the gamma-ray sky revealing energetic sources in our 
solar system, our galaxy, and galaxies billions of light-years away. 
Development is continuing on the James Webb Space Telescope, which 
passed its Confirmation Review in 2008 and has an Agency commitment to 
launch in 2014. Development continues on the NuSTAR mission to study 
black holes for launch in 2011, along with a Soft X-ray Spectrometer to 
fly on Japan's Astro-H mission in 2013. Development continues on the 
airborne Stratospheric Observatory for Infrared Astronomy or SOFIA, 
which will conduct open door flight tests in 2009 and early science 
flights in 2010, with planned full operational capability in 2014. 
Conceptual design is continuing for ambitious future mission concepts 
to investigate the origins of planets, stars, and galaxies; to search 
for Earth-like planets around nearby stars; and to examine the nature 
of dark energy, dark matter, gravity waves, and black holes. These and 
other mission concepts are currently under consideration by the NRC's 
decadal survey for Astrophysics, or Astro 2010, which will be completed 
during 2010, and will provide recommendations to NASA on the science 
community's highest priority science questions and strategic missions 
for the next decade.
    The fiscal year 2010 Science budget request includes $605.0 million 
for Heiophysics. The fleet of NASA Heliophysics missions strategically 
placed throughout the solar system is providing researchers the first 
ever solar system-wide view of solar influences on the Earth and other 
planets, and the dynamic structures of space itself. This virtual 
``Great Observatory'' is in place and functioning for the next solar 
magnetic activity cycle, and has already detected the first signs of a 
new solar maximum anticipated for 2011-2012. Late this year or early 
next, the launch of Solar Dynamics Observatory will add to this fleet 
the capability to observe the solar atmosphere to a depth one-third of 
the Sun's radius to study the flow of plasmas that generate magnetic 
fields and the sudden changes that produce coronal mass ejections that 
we experience as space weather. Also this year, NASA plans to select 
two Small Explorer (SMEX) missions in response to an Announcement of 
Opportunity issued in 2008, which could be either Heliophysics or 
Astrophysics missions depending on the proposals selected. Development 
of the Radiation Belt Storm Probes mission to study the interactions of 
space weather events with Earth's magnetic field is continuing for 
launch in 2012. The Magnetosphere Multi-Scale mission to observe the 
processes of magnetic reconnection, energetic particle acceleration, 
and turbulence in Earth's magnetosphere will undergo a Confirmation 
Review this year for a planned launch in 2014. Finally, NASA is 
continuing early formulation work on the Solar Probe-Plus mission that 
will travel into, and sample, the near-Sun environment to probe the 
origins of the solar wind.

Aeronautics Research
    NASA's fiscal year 2010 budget provides $507 million for 
Aeronautics Research. Over the past year, the Aeronautics Research 
Mission Directorate has continued to pursue long-term, innovative, and 
cutting-edge research that develops revolutionary tools, concepts, and 
technologies to enable a safer, more flexible, environmentally 
friendly, and more efficient national air transportation system. NASA 
Aeronautics Research also plays a vital role in supporting NASA's space 
exploration activities.
    A primary goal across Aeronautics Research programs is to establish 
strong partnerships with industry, academia, and other government 
agencies in order to enable significant advancement in our Nation's 
aeronautical expertise. NASA has put many mechanisms in place to engage 
academia and industry, including industry working groups and technical 
interchange meetings at the program and project level, Space Act 
Agreements (SAAs) for cooperative partnerships, and the NASA Research 
Announcement (NRA) process that provides for full and open competition 
for the best and most promising research ideas. To date, 68 SAAs have 
been established with industry partners across all programs and 375 
NRAs have been awarded to academia, industry and non-profit 
organizations. NASA Aeronautics has continued to collaborate with the 
Joint Planning Development Office (JPDO), Federal Aviation 
Administration (FAA), U.S. Air Force, Army, and other government 
organizations.
    New for fiscal year 2010, $62.4 million has been provided for the 
Integrated Systems Research Program (ISRP) to conduct research at an 
integrated system-level on promising concepts and technologies and 
explore, assess, or demonstrate the benefits in a relevant environment. 
The research in this program will be coordinated with on-going, long-
term, foundational research within the three other research programs, 
and will be closely coordinated with other Federal Government agency 
efforts. The project within ISRP will be the Environmentally 
Responsible Aviation (ERA) Project, a ``green aircraft initiative,'' 
that will explore and assess new vehicle concepts and enabling 
technologies through system-level experimentation to simultaneously 
reduce fuel burn, noise, and emissions. The ERA project will transfer 
knowledge outward to the aeronautics community so that aircraft and 
propulsion system manufacturers can confidently transition these 
technologies into new products, as well as transfer knowledge inward to 
the Fundamental Aeronautics Program when the need for further 
development at a foundational level is identified.
    NASA's Airspace Systems Program (ASP) has partnered with the JPDO 
to help develop concepts, capabilities and technologies that will lead 
to significant enhancements in the capacity, efficiency and flexibility 
of the National Airspace System. For fiscal year 2010, ASP has been 
reorganized from the NextGen Airspace and NextGen Airportal projects 
into the NextGen Concepts and Technology Development project and the 
NextGen Systems Analysis, Integration and Evaluation project. The 
distinctions between airport operations, terminal-area operations and 
en-route operations were sometimes confusing, leading to time expended 
determining the line of demarcation between the responsibilities of the 
two projects. A more significant distinction is the development of air 
traffic management concepts and the technologies that enable air 
traffic management improvements and the evaluation of these concepts 
and technologies at a system level. The previously planned work on 
airspace concepts, technologies and systems will continue. This new 
project structure is better aligned to the nature of the work being 
performed. A notable accomplishment for ASP is the successful 
completion, by NASA researchers in collaboration with academia and the 
FAA, of a series of human-in-the-loop experiments that explored 
advanced concepts and technology for separation assurance, which 
ensures that aircraft maintain a safe distance from other aircraft, 
terrain, obstacles, and certain airspace not designated for routine air 
travel. The technology being developed by NASA and its partners is 
critical to relieving air-traffic controller workload, a primary 
constraint on airspace capacity that is expected to increase in coming 
years. In the future, this Program will continue to develop new 
technologies to solve important problems such as surface traffic 
planning and control, and initial algorithms for airport arrival and 
departure balancing as well as developing traffic flow management 
concepts for increased efficiencies at the regional and national levels 
for different planning intervals.
    NASA's Fundamental Aeronautics Program (FAP) conducts research in 
all aeronautics disciplines that enable the design of vehicles that fly 
through any atmosphere at any speed. For fiscal year 2010, all ARMD 
research into planetary entry, descent and landing (EDL) has been 
consolidated into the Hypersonics project in FAP. EDL is an integral 
part of many space missions and is not easily divided into distinct 
hypersonic and supersonic phases. This change will provide more focus 
to technical developments and will also yield technical management 
efficiencies. The FAP program has supported the testing of various new 
concepts that will help enable much improved capabilities for future 
vehicles. For example, wind-tunnel testing was conducted for several 
promising powered lift concepts. Powered lift concepts increase lifting 
force on an aircraft at slow speeds (e.g., at take-off and landing) 
without increasing drag under cruise conditions. Successful use of the 
concepts will enable short take-off and landings on runways less than 
3,000 feet, which will increase next-generation air transportation 
system capacity through the use of shorter fields and improved low-
speed maneuverability in airport terminal areas. Testing was also 
completed for a Smart Material Actuated Rotor Technology (SMART) 
helicopter rotor, which offers the potential for significant noise and 
vibration reduction in rotorcraft. Future work includes technologies 
and advanced tools to evaluate the trades between noise, emissions, and 
performance of future aircraft entering service in the 2012-2015 
timeframe. Additionally, with the transfer of technologies to be 
matured to system-level within ISRP, the Subsonic Fixed Wing (SFW) 
project is streamlining its research content. This is enabling new 
efficiencies across the foundational disciplines remaining in the 
project. The integrated system-level research in this program will be 
coordinated with on-going, long-term, foundational research within the 
three other research programs, and will focus specifically on maturing 
and integrating technologies in major vehicle systems and subsystems 
for accelerated transition to practical application.
    NASA's Aviation Safety Program (AvSP) continues to develop tools 
and technologies to improve on today's incredibly safe air 
transportation system, while ensuring that future technologies can be 
safely incorporated to the system. Examples of advances that support 
this development include NASA's ongoing and new research into aircraft 
icing. For example, with current knowledge we cannot extrapolate how 
ice forms on a straight wing such as found on a turbo-prop to how it 
will form on a swept wing, or a radically new aircraft configuration. 
The Aviation Safety Program is tackling this with a combination of 
computational models and experiments in NASA's Icing Research Tunnel. 
We are establishing that, in high and cold flight conditions, ice can 
form deeper in jet engines than previously understood. NASA is working 
collaboratively with the FAA, industry and international partners, such 
as the National Research Council of Canada, to conduct tunnel tests of 
the underlying physics, to fly our instrumented S-3 Viking into such 
engine icing conditions, and design upgrades to our Propulsion System 
Lab in which jet engines may be tested in detail. Additional future 
work in Aviation Safety includes addressing gaps in validation and 
verification of critical flight software, developing new data-analysis 
capabilities to mine aviation operational data for safety issues, 
examining the safety of new vehicle systems and structures, and 
tackling the biggest human factors issues in the NextGen flightdeck.
    NASA's Aeronautics Test Program (ATP) is focused on ensuring a 
healthy suite of facilities and platforms to meet the Nation's testing 
needs including the development of new test instrumentation and test 
technologies. As part of its continuous efforts to improve facility 
operational efficiencies, ATP initiated the National Force Measurement 
Technology Capability, to address the severe erosion of NASA's 
capability to utilize strain gage balances in wind tunnel testing. The 
National Partnership for Aeronautics Testing, a strategic partnership 
between NASA and the Department of Defense (DOD), recently commissioned 
a study of government-owned, mid-to-large supersonic facilities 
necessary to fulfill future air vehicle test requirements. The Program 
will continue to develop a long-term strategic approach that aligns the 
NASA and DOD facilities to meet future requirements with the right mix 
of facilities and appropriate investments in facility capabilities.

Exploration Systems
    Human space flight is important to America's political, economic, 
technological and scientific leadership. In the span of a few short 
years, NASA has already taken long strides in the formulation of 
strategies and programs to develop a robust program of space 
exploration. These critical steps will allow our Nation to build the 
next-generation space flight vehicles that will carry humans and 
deliver cargo to the ISS and the Moon, and on to other destinations in 
our solar system. The President's fiscal year 2010 budget request for 
Exploration Systems is $3,963.1 million, an increase of $457.6 million 
above the fiscal year 2009 appropriation and $225.4 million above the 
planned fiscal year 2010 level in last year's request. Based on the 
Recovery Act funds and the President's increased budget request for 
fiscal year 2010, the Exploration Systems budget plan includes about 
$630 million more in fiscal year 2009 and fiscal year 2010 than the 
previous plan. At this critical juncture, full funding at the 
President's requested level is essential for expediting development of 
new U.S. human space flight systems to support the International Space 
Station and explore the Moon and other destinations beyond low Earth 
orbit.
    The Constellation Program will apply additional Recovery Act funds 
to critical activities related to the successful completion of the 
Orion, Ares I and Ground Operations projects. The Commercial Crew and 
Cargo Program plans to use Recovery Act funds to stimulate efforts 
within the private sector in order to develop and demonstrate 
technologies that enable commercial human space flight capabilities--
efforts that are intended to foster entrepreneurial activity leading to 
job growth in engineering, analysis, design, and research, and to 
economic growth as capabilities for new markets are created.
    Following the Review of U.S. Human Space Flight activities, the 
administration will provide an updated request for Exploration 
activities, as necessary. In the meantime, NASA is proceeding as 
planned with current Exploration activities, including Ares I, Orion, 
Commercial Crew and Cargo efforts, and lunar systems.
    During the past year, NASA Exploration Systems continued to make 
significant progress in developing the next-generation U.S. human space 
flight vehicles and their associated ground and mission support 
systems. In the next several weeks, the first lunar robotic mission, 
the Lunar Reconnaissance Orbiter and the Lunar Crater Observation 
Sensing Satellite spacecraft, will be launched from the Cape Canaveral 
Air Force Station aboard an Atlas V, which will help NASA scout for 
potential lunar landing and outpost sites. Later this year, two major 
test flights for the Constellation Program will be conducted: Ares I-X 
is the first developmental test flight to support the design of the 
Ares I Crew Launch Vehicle; and the Pad Abort 1 (PA-1) is the first 
test of the Launch Abort System to be used on the Orion Crew 
Exploration Vehicle. NASA will continue to work with other nations and 
the commercial sector to coordinate planning, leverage investment, and 
identify opportunities for specific collaboration on Exploration 
activities.
    The Constellation Program continues to complete the formulation 
phase of its projects--in particular Ares I, Orion, and major ground 
facilities. Major development work is underway, contracts are in place; 
and we have a dedicated group of civil servants and contractors who are 
all working hard to accomplish the Constellation Program's objectives. 
So far, NASA engineers have conducted about 6,500 hours of wind tunnel 
testing on subscale models of the Ares I to simulate how the current 
vehicle design performs in flight. These wind tunnel tests, as well as 
the Ares I-X test flight, will lay the groundwork for maturing the Ares 
I final design prior to its Critical Design Review (CDR). When launched 
later this year from NASA's Kennedy Space Center in Florida, the Ares 
I-X will climb about 25 miles in a 2-minute powered test of the First 
Stage performance and the First Stage separation and parachute recovery 
system. Work on the Orion Project also continues to advance. Recently, 
NASA conducted testing of the water recovery process for the Orion 
capsule, and NASA also selected the material for Orion's heat shield. 
Later this year, Orion's PA-1 test will take place at White Sands 
Missile Range, New Mexico. PA-1 will demonstrate the Launch Abort 
System's ability to pull crew to safety should there be an emergency 
while the Orion and Ares I stack is still on the launch pad.
    In September 2008, Ares I completed a key milestone with its 
Preliminary Design Review (PDR). PDR is the final step of the initial 
design process, and thereby a crucial milestone during which the 
overall project verifies that the preliminary design can meet all 
requirements within acceptable risk limits and within cost and schedule 
constraints, and identifies technical and management challenges and 
addresses approaches for eliminating or mitigating them. This fall, the 
Orion is expected to have progressed to the point of completing PDR, 
and obtaining Agency approval to proceed to Critical Design Review 
(CDR). Current plans call for Ares I to progress to the point of 
obtaining Agency approval by early 2010 to proceed to CDR.
    As part of the Commercial Crew and Cargo Program and its associated 
Commercial Orbital Transportation Services (COTS) cargo projects, NASA 
is completing its promised $500 million investment to the two funded 
COTS partners, Space Exploration Technologies Corporation (SpaceX) of 
El Segundo, California, and Orbital Sciences Corporation (Orbital) of 
Dulles, Virginia. Recently, SpaceX successfully operated the full 
complement of the first stage engines of the Falcon 9, the SpaceX 
launch vehicle. Orbital continues to progress in achieving engineering 
milestones, and completed its PDR earlier this month. In addition, NASA 
has two non-funded COTS partners.
    The transition of NASA facilities, infrastructure, property, and 
personnel from the Space Shuttle Program to the Constellation Program 
continues to be a major activity. This joint effort between the Space 
Operations and Exploration Systems Mission Directorates includes the 
utilization and disposition of resources, including real and personal 
property; personnel; and processes in order to leverage existing 
Shuttle and Space Station assets for NASA's future Exploration 
activities.
    NASA's Advanced Capabilities programs include the Human Research 
Program (HRP) and the Exploration Technology Development Program 
(ETDP). These programs continue to reduce risks for human explorers of 
the Moon and beyond by conducting research and developing new 
technologies to aid future explorers. HRP focuses on the highest risks 
to crew health and performance during exploration missions while also 
developing and validating a suite of human health countermeasures to 
facilitate long-duration space travel. For example, NASA is conducting 
research to better understand the effect of space radiation on humans 
and to develop effective mitigation strategies. This year, HRP 
delivered a space radiation risk assessment tool, provided cockpit 
display design requirements for the Orion spacecraft, and provided 
design requirements for the new Constellation Space Suit System. HRP is 
also conducting research onboard the ISS with regard to: the cardiac 
structure and function of astronauts; radiation shielding technologies; 
and, the effect that certain pharmaceuticals may have on the prevention 
of bone loss during long-duration missions. ETDP will conduct a range 
of activities, including testing cryogenic hydrogen and methane 
propulsion systems for future missions; developing a small pressurized 
rover for transporting astronauts on the lunar surface; and 
demonstrating the capability to produce oxygen from lunar soil. ETDP 
also is conducting experiments on the Space Station to investigate the 
behavior of fluids and combustion in microgravity, and operating 
instruments to monitor atmospheric contaminants on the Space Station.

Space Operations
    The fiscal year 2010 budget request includes $6,175.6 million for 
Space Operations.
    It is an exciting time for NASA's Space Shuttle Program. At this 
moment, the astronauts of Shuttle Atlantis are in orbit on STS-125, the 
final mission to service the Hubble Space Telescope. We anticipate that 
the work they are doing, which includes upgrading the Hubble's 
instruments, should extend the observatory's operational life several 
years. The President's fiscal year 2010 budget funds the safe flight of 
the Space Shuttle to conduct its remaining missions, including the AMS 
flight and completing assembly of the ISS. NASA is committed to 
completing the eight remaining scheduled Shuttle flights, which we 
believe can be accomplished by the end of 2010. These Shuttle flights 
will leave the ISS in a configuration to support a broad portfolio of 
research and to receive and be maintained by commercial cargo services. 
The fiscal year 2010 budget request includes $3,157.1 million for the 
Space Shuttle Program.
    NASA and its Russian, European, Canadian, and Japanese 
International Space Station partners are working together to realize 
one of the most inspiring dreams of the last 50 years: the 
establishment of a station in Earth orbit for the conduct of various 
types of research. We are now approaching two significant milestones. 
In May, the ISS will host its first six-person crew. The recent 
delivery of the Station's final set of solar arrays and other equipment 
by the crew of STS-119 represents the final step toward this goal. In 
June, the STS-127 mission will deliver the third and final component of 
the Japanese Kibo laboratory--the Kibo Exposed Facility. The addition 
of the Exposed facility enables the Kibo laboratory, with the European 
Columbus module and the U.S. Destiny module, to complete the three 
major international science labs on ISS, setting the stage for 
utilization of ISS as a highly capable microgravity research facility. 
The President's fiscal year 2010 budget request includes $2,267.0 
million for the ISS.
    The ISS will represent both an unparalleled international 
cooperative effort and a U.S. National Laboratory in orbit. Scientists 
will be able to conduct biomedical and engineering research from a 
unique vantage point. Some of the work will increase our knowledge of 
the effects of long-duration human space flight, which is critical for 
the design and operation of future human space vehicles, including 
those being developed under the Constellation Program to return U.S. 
astronauts to the Moon and explore other destinations. Other research 
will not be focused on space exploration at all, but may have 
significant applications right here on Earth. Medical research, for 
example, may be applicable to the development of vaccines; NASA's 
research into salmonella aboard the Space Shuttle and ISS has already 
increased our knowledge in this area. In the key areas of energy and 
the environment, the ISS serves as a daily demonstration of ``green'' 
technologies and environmental management techniques. The ISS receives 
120kW of power from its solar arrays to operate the Station and run 
experiments. The ISS environmental system is designed to minimize the 
amount of mass that has to be launched from Earth to support the 
Station, so recycling is a must. STS-119 supplied ISS with a 
replacement Distillation Assembly for Station's water recycling system, 
which is key for supporting a full six-person crew for extended periods 
of time. Given the central role science and technology play in our 
society, it is important that the United States maintain a leadership 
role in these fields. The availability of a research laboratory in the 
microgravity environment of space will support this aim.
    Another benefit from Space Shuttle missions and ISS research is 
reflected in the programs' ability to inspire the next generation of 
Americans. This was reflected recently in the delighted faces of 
students who participated in the uplinked phone call between President 
Obama and the crews of the ISS and STS-119 on March 24. The ISS will 
support the President's goal of making math and science education a 
national priority by demonstrating what can be accomplished through 
science and engineering, and by inspiring both teachers and students.
    NASA is relying on U.S. industry to develop vehicles to deliver 
supplies and experiments to the ISS. In December 2008, the Agency 
awarded two Commercial Resupply Services (CRS) contracts for the 
provision of this critical capability. Cargo resupply is important for 
the continued viability of ISS. In addition, the vendors involved will 
gain valuable experience in the development and operation of vehicles 
that can (1) fly to the ISS orbit; (2) operate in close proximity to 
the ISS and other docked vehicles; (3) dock to ISS; and, (4) remain 
docked for extended periods of time.
    The fiscal year 2010 budget request includes $751.5 million for 
Space and Flight Support, which supports Space Communications and 
Navigation, Launch Services, Rocket Propulsion Testing, Crew Health and 
Safety, and the new Human Space Flight Operations programs.

Education
    The fiscal year 2010 budget request for Education totals $126.1 
million and furthers NASA's commitment to Science, Technology, 
Engineering, and Mathematics (STEM) education. NASA will continue its 
successes in developing a future aerospace workforce, improving the 
technological competitiveness of our Nation's universities, attracting 
and retaining students in STEM disciplines, and engaging the public in 
NASA's missions. NASA will accomplish these goals by offering 
competitive research grants to universities, providing targeted 
educational support to Minority Serving Institutions, and strengthening 
curricula at 2-year community colleges. NASA's plans to streamline and 
centralize internship and fellowship application processes will realize 
cost savings and facilitate student access to information while 
attracting a wider, more diverse participant base. The Agency is also 
seeking new opportunities for student involvement in current space and 
aeronautics research missions and flight projects, including those 
using high altitude balloons, sounding rocket payloads, airborne 
sensors, and space satellites. NASA will further these efforts through 
a new project, Innovation in STEM Education, which will allow the 
Agency to investigate and offer opportunities for student and faculty 
to participate in NASA-related research. In coming months, the Agency 
will complete award announcements for competitive grant programs in K-
12, global climate change, and informal education, and revise and issue 
new solicitations using fiscal year 2009 funds.
    NASA will further pursue a goal to attract and retain students in 
STEM disciplines in the upcoming fiscal year. Last year, the 
Interdisciplinary National Science Program Incorporating Research & 
Education (INSPIRE) program engaged over 200 high schools in STEM 
areas, and NASA Explorer Schools conducted instructional and enrichment 
activities that reached over 105,000 students. The March 2009 STS-119 
mission also provided a unique educational opportunity as two Mission 
Specialists who are science teachers, Joe Acaba and Richard Arnold, 
were part of the crew. NASA Education continues to provide internships, 
fellowships, and research opportunities to help students and educators 
gain hands-on experiences in a range of STEM-related areas. These 
opportunities provide students with the motivation, inspiration, and 
experience needed to serve the Nation's current and future workforce 
needs. In fiscal year 2008, the Agency provided more than 3,000 summer 
internships, reached 5,331 students through significant research 
experience or grants, and provided 139 grants to underrepresented and 
underserved institutions.
    NASA will also engage elementary and secondary school and informal 
education audiences by using Earth and deep space observations, the 
flight experience of Educator Astronaut Dorothy Metcalf-Lindenburger 
aboard STS-131, as well as future missions to the Moon and other 
destinations. New technologies such as social networks, Internet 
collaborations, a new virtual magnet school, and remote control of 
science instruments will expand and enhance these efforts. In fiscal 
year 2010, NASA also plans to provide an online professional 
development system for students training to become educators, in-
service teachers, and informal educators. Additionally, NASA will 
promote continuous public awareness of its mission and improvement to 
STEM literacy by partnering with informal education providers, which 
allows Agency partners to share the excitement of NASA missions with 
their visitors in meaningful ways.

Cross-Agency Support
    NASA Cross-Agency Support provides critical mission support 
activities that are necessary to ensure the efficient and effective 
operation and administration of the Agency, but cannot be directly 
aligned to a specific program or project requirement. These important 
functions align and sustain institutional and program capabilities to 
support NASA missions by leveraging resources to meet mission needs, 
establishing Agency-wide capabilities, and providing institutional 
checks and balances. Cross-Agency Support includes Center Management 
and Operations, Institutional Investments, and Agency Management and 
Operations. The fiscal year 2010 budget request includes $3,400.6 
million for Cross Agency Support.
    Center Management and Operations funds the critical ongoing 
management, operations, and maintenance of nine NASA Centers and major 
component facilities. NASA Centers continue to provide high-quality 
support and the technical talent for the execution of programs and 
projects. The fiscal year 2010 budget request includes $2.084 million 
for Center Management and Operations.
    Institutional Investments funds design and execution of non-
programmatic revitalization construction of facilities projects, 
demolition projects for closed facilities, and environmental compliance 
and restoration activities. The Construction of Facilities Program 
makes capital repairs and improvements to NASA's critical 
infrastructure to improve safety and security and improve NASA's 
operating efficiency by reducing utility usage. NASA continues to right 
size the infrastructure by demolishing facilities that are no longer 
needed. Emphasis has been placed on energy and water conservation. 
Currently, NASA has five buildings that are certified under the 
Leadership in Energy and Environmental Design (LEED) criteria, three 
additional buildings that are built and awaiting certification as LEED 
Silver facilities, and 13 buildings in various stages of design and 
construction as High Performance Buildings and are expected to be LEED-
certified when completed. The fiscal year 2010 budget request includes 
$355.4 million for Institutional Investments.
    NASA's fiscal year 2010 request includes $961.2 million for Agency 
Management and Operations, which funds the critical management and 
oversight of Agency missions, programs and functions, and performance 
of NASA-wide activities, including five programs: Agency Management, 
Safety and Mission Success, Agency Information Technology Services, 
Innovative Partnerships Program, and Strategic Capabilities Assets 
Program.
  --The fiscal year 2010 budget request provides $412.7 million for 
        Agency Management, which supports executive-based, Agency-level 
        functional and administrative management requirements. Agency 
        Management provides for the operational costs of Headquarters 
        as an installation; institutional and management requirements 
        for multiple Agency functions; assessment and evaluation of 
        NASA program and mission performance; strategic planning; and 
        independent technical assessments of Agency programs.
  --The fiscal year 2010 budget request provides $183.9 million for 
        Safety and Mission Success activities required to continue 
        strengthening the workforce, training, and strengthening the 
        fundamental and robust cross-checks applied on the execution of 
        NASA's mission, and to improve the likelihood for safety and 
        mission success for NASA's programs, projects, and operations. 
        The engineering, safety and mission assurance, health and 
        medical independent oversight, and technical authority 
        components are essential to NASA's success and were established 
        or modified in direct response to many of the key Challenger 
        and Columbia accident board recommendations for reducing the 
        likelihood for future accidents. Included under Safety and 
        Mission Success is the Software Independent Verification and 
        Validation program.
  --The fiscal year 2010 budget request for Agency Information 
        Technology Services is $150.4 million, which encompasses cross-
        cutting services and initiatives in IT management, 
        applications, and infrastructure necessary to enable the NASA 
        Mission and improve security, integration and efficiency of 
        Agency operations. NASA plans significant emphasis on continued 
        implementation of five major Agency-wide procurements to 
        achieve the following: (1) consolidation of IT networks leading 
        to improved network management, (2) consolidation of desktop/
        laptop computer services and mobile devices to improve end-user 
        services, (3) data center consolidation to provide more cost-
        effective services, (4) Agency public web site management to 
        improve access to NASA data and information by the public, and 
        (5) Agency business systems development and maintenance to 
        provide more efficient and effective business systems. NASA 
        will also continue to improve security incident detection, 
        response, and management through the Security Operations 
        Center.
  --The request for the Innovative Partnerships Program (IPP) is $184.8 
        million. IPP works with all four Mission Directorates to 
        provide innovations meeting NASA's technology needs, and 
        transfers NASA technology for broad Spinoff applications that 
        improve quality of life and contribute to economic growth. 
        Included in the IPP portfolio are: NASA's SBIR/STTR Programs 
        seeking out innovative high-technology small businesses; a new 
        Innovative Technology Project seeking high-impact revolutionary 
        research and technology projects; a Seed Fund to address 
        technology needs through cost-shared, joint-development 
        partnerships; use of commercial flight services by the FAST 
        program to demonstrate new technologies; Innovation Ambassadors 
        to exchange ideas; and the Centennial Challenges prize program 
        for the citizen inventor. IPP seeks partnerships through 
        offices at all 10 NASA Centers.
  --Finally, NASA is requesting $29.4 million in fiscal year 2010 for 
        the Strategic Capabilities Assets Program (SCAP). This program 
        funds the costs required to sustain key Agency test 
        capabilities and assets, such as an array of flight simulators, 
        thermal vacuum chambers, and arc jets, to ensure mission 
        success. SCAP ensures that assets and capabilities deemed vital 
        to NASA's current and future success are sustained in order to 
        serve Agency and national needs. All assets and capabilities 
        identified for sustainment either have validated mission 
        requirements or have been identified as potentially required 
        for future missions.

Conclusion
    The President's fiscal year 2010 budget request for NASA supports 
the administration's commitment to deploy a global climate change 
research and monitoring system, funds a robust program of space 
exploration involving humans and robots with a goal to return Americans 
to the Moon by 2020 and explore other destinations, and funds the safe 
flight of the Shuttle to complete assembly of the ISS through its 
retirement, planned for the end of 2010. The fiscal year 2010 budget 
request funds continued use of the ISS to enable the Agency to develop, 
test, and validate critical exploration technologies and processes and, 
in coordination with our international partners, to make the ISS 
available support other government entities, commercial industry and 
academic institutions to conduct unique research in the microgravity 
environment of space. It will also stimulate private sector development 
and demonstration of vehicles that may support NASA's cargo and crew 
requirements. And it renews NASA's commitment to aeronautics research 
to address fundamental aeronautics, aviation safety, air traffic 
management, and mitigating the impact of aviation on the environment. 
NASA's diverse portfolio of science, technology, engineering and 
mathematics (STEM) educational activities is also aligned with the 
administration's goal of improving American innovation and global 
competitiveness. NASA looks forward to working with the subcommittee on 
implementation of the detailed fiscal year 2010 budget request.
    Madam Chair, thank you for your support and that of this 
subcommittee. I would be pleased to respond to any questions you or the 
other members of the subcommittee may have.

                           HUMAN SPACEFLIGHT

    Senator Mikulski. Thank you, Mr. Scolese. My areas of 
questioning will be in three categories, which of course, the 
Spaceflight and the reliability of our space transportation 
system for the remaining eight missions, space--the scientific 
endeavors that are supported in the President's budget which is 
really a robust commitment to science; and also, the 
acquisition issues.
    Let me go to the Spaceflight issue. The administration is 
committed to flying the Space Shuttle 8 more times to finish 
the Space Station. The budget assumes that this can be done by 
2010. The Shuttle program is a $3 billion a year program, so 
here is my question. One, can you envision a scenario where you 
would keep flying the Shuttle past 2010, and second, if you 
have to, if you can't complete the 8 missions, where will the 
money come from if the Shuttle flights have to be extended?
    Mr. Scolese. Yes, as I mentioned earlier----
    Senator Mikulski. In other words, do you have an ending 
date where you blow a whistle and the racks come down, and it's 
goodbye to the Shuttle?
    Mr. Scolese. No, we don't have an ending date. We are 
committed to flying the manifest, which is the remaining eight 
flights, we look at that regularly, almost weekly, to look at 
what our logistics chain is, and what's available and what the 
current situation is.
    As of today, we believe that we can complete those missions 
by the end of September 2010. Clearly, if we run into any 
serious difficulties, that we have to slip, and we would have 
to go beyond the September date.
    We don't foresee those at this stage of the game. We have 
margin in the date to September 2010. However, if we did have 
to slip, if it was a significant slip, months or more, we will 
have to find additional resources to cover that slip. And we 
would either have to come in and ask for an increase in the 
budget if we knew early enough about it, or we would have to go 
off and take resources from other parts of NASA.
    Senator Mikulski. But the administration is counting on 
these 8 flights to be done by 2010.
    Mr. Scolese. Yes.
    Senator Mikulski. And there is no contingency plan beyond 
that, except, ``If we get to it, we'll deal with it?''
    Mr. Scolese. Well, as I was saying, based on what we see we 
believe--that we can make that date. We have not working 
towards a date, I need to be careful about that--but our 
planning indicates that 2010 is a very achievable date.

                                 SOYUZ

    Senator Mikulski. Right, well let me move ahead, then.
    Let's go to the Soyuz, which is our only way that, if our 
astronauts get into difficulty, we can return them safely.
    There's been much in the press about the Soyuz, number one, 
its ongoing reliability, and also what they're charging us to 
do--to be this standby vehicle, which we're absolutely 
dependent upon. Could you tell us, number one, what is in the 
budget to--how many--what are we, essentially, what is our--
what is it that we're requesting of the Russians, how many 
Soyuz flight guarantees and, is the money in the budget to do 
that, and do you believe that those--that money is reasonable, 
or does it require some diplomatic negotiation?
    Mr. Scolese. Well, today we believe the money is 
reasonable. As you pointed out, we've been relying on the Soyuz 
for crew rescue since the initiation of the Space Station. So, 
it's always been a part of the program for that aspect of it. 
And, of course, following the Columbia tragedy, we were relying 
on the Soyuz to take our crew up to the Station and back.
    In the time between Shuttle retirement and the availability 
of Orion to take crew up and back, we will be relying on the 
Soyuz. We do not buy Soyuz, so to speak, we buy seats. We buy 
the training, the flight up, the flight back, and all of the 
logistics associated with a long-duration mission, and that's 
how we negotiate with the Russians. We're in the process of 
negotiating with them for the duration of that gap. And, to 
date, as we're saying, we're still negotiating, it's about $47 
million a seat, today. And the press has reported, but we're 
still negotiating, about $51 million for the future.
    Senator Mikulski. Well, my time has expired, I think that 
it goes through those. I do have workforce questions, and then 
science and acquisition, but let me turn to my colleagues and 
we'll come back for another round.

                           NASA'S SPEND PLAN

    Senator Shelby. Thank you, Madam Chair.
    The Congress explicitly provided $400 million to the 
exploration program in 2009 economic stimulus bill to close the 
gap between the Shuttle and constellation programs, as I 
understand it.
    It's my understanding that NASA's spend plan included the 
redirection of $150 million for new initiatives related to 
commercial, crew, and cargo. Based on what little detail we've 
learned from NASA, it appears these funds are for entirely new 
activities that have not even been formally presented or 
reviewed by the Congress. What's going on, here? What other 
options were examined for Ares and Orion with the $150 million, 
prior to it being proposed for commercial studies, as I 
understand it. Tell us what's going on, here?
    Mr. Scolese. Certainly. Of the $400 million that was 
appropriated, $250 million is being used to accelerate and 
improve the situation for Ares and Orion, by procuring long-
lead materials that we needed----
    Senator Shelby. Why do you need to use it all?
    Mr. Scolese. Well, I'll get to that. And certainly more 
would allow us to do more. We did look at the overall system 
when we came up with the plan, and we invested $150 million in 
commercial crew.
    It's broken into two fundamental categories--$70 million is 
something that will broadly support not only commercial 
activities, but all activities associated with the Space 
Station.
    One example of those is the human rating requirements. 
Human rating--we do these missions so infrequently that we need 
to go off and catalogue those so that anybody that wants to 
come to the Space Station will clearly understand what it is 
that we need to do. Anybody that wants to fly a NASA astronaut 
will understand how we want to fly.
    And then $80 million is available through competition, but 
first, we're going to go off and issue a broad area 
announcement to see if there is interest in providing 
commercial crew capabilities, and then we will--and only then--
will we obligate those funds.

                       SECTION 505 OF THE OMNIBUS

    Senator Shelby. It's my understanding that section 505 of 
the omnibus clearly prohibits funding for new activities. Did 
Congress approve what you're doing, here, for the redirection 
of the funds?
    Mr. Scolese. Well, we submit it as part of our operating 
plan, so----
    Senator Shelby. But you hadn't had an approval of it, had 
you? By the Congress.
    Mr. Scolese. Not at this time.
    Senator Shelby. Don't you think you need--if section 505 of 
the omnibus prohibits funding for new activities, did you 
consider that?
    Mr. Scolese. Well, I think we had authority to go off and 
work commercial activities, and that's what we're trying to do 
here, and we submitted it as part of the operating plan. I'd 
have to go back and look at the details----
    Senator Shelby. Will you check that for the record?
    Mr. Scolese. I will check that for the record, sir. Yes, 
sir.
    [The information follows:]

                Fiscal Year 2009 Recovery Act Spend Plan

    Section 505, Title V, Division B of the fiscal year 2009 Omnibus 
Appropriations Act (Public Law 111-8), states that ``None of the funds 
provided under this Act, or provided under previous appropriations Acts 
. . . shall be available for obligation or expenditure through the 
reprogramming of funds that creates or initiates a new program, project 
or activity.''
    Since NASA's initial Operating Plan defined the activities that 
would be undertaken by the Agency in response to the American Recovery 
and Reinvestment Act of 2009 (Public Law 111-5), the Operating Plan 
does not represent a re-programming from a previous baseline. The 
Recovery Act funds did not identify specific activities, so the initial 
Operating Plan represents the proposed baseline for these funds. While 
some of the specific activities may be new or identified uniquely for 
the first time, they are all supporting NASA's existing authorized and 
appropriated programs and projects.

                                 ARES-V

    Senator Shelby. Because some of the people on our staff are 
concerned about this.
    Ares-V delay--NASA has repeatedly stated that the 
constellation programs will continue as usual while the human 
space flight review is underway. While this may be true for 
Ares I and Orion, other facets of constellation--it's my 
understanding they're being held back. The heavy-lift vehicle, 
Ares-V, has been specifically delayed, pending an altered 
request due to the human spaceflight study, it's my 
understanding.
    If constellation is moving forward, then why is Ares-V, the 
heavy-lift rocket, that is essential to landing a man on the 
Moon, being delayed? This is unusual business. What's going on, 
here?
    Mr. Scolese. Well, you're absolutely right--Ares-V is 
absolutely critical if we're going to get humans back to the 
Moon, and outside of low Earth orbit, plus for other 
activities. We are not stopping work on Ares-V. There is 
continued work----
    Senator Shelby. You're still committed to Ares-V, aren't 
you?
    Mr. Scolese. I'm sorry.
    Senator Shelby. NASA's committed to Ares-V.
    Mr. Scolese. Oh, absolutely. We have to have that type of a 
vehicle, Ares-V, in order to get out of low-Earth orbit. And, 
in fact, work being done on Ares I is directly applicable to 
Ares-V, the solid rocket motor, the J2X engine in the upper 
stage, plus we have, you know, individuals at our space flight 
centers, also continuing to work on Ares-V.
    Clearly there could be implications as a result of the 
review that's going on this summer, but as the President's 
budget said, they want to return humans to the Moon, and 
there's only one way to do that, with the heavy-lift launch 
vehicle, and Ares-V is the one that's on the books today.
    Senator Shelby. How much of the $30 million for Ares-V in 
the 2009 bill will you spend? Will you spend that this year?
    Mr. Scolese. I expect that we will, but I'd like to get 
back to you for the record.
    [The information follows:]

                                 Ares-V

    The fiscal year 2009 Operating Plan contains $30 million for the 
Ares-V. That money is expected to be fully expended in 2010.

    Senator Shelby. You going to get back in the next 10 days 
or so?
    Mr. Scolese. Yes, sir.
    Senator Shelby. Does the action by NASA at that point, 
dealing with Ares-V delay indicate there's already a pre-
determined outcome, as it relates to Ares-V?
    Mr. Scolese. No. I mean, as I said earlier, the only way 
we're going to get out of low-Earth orbit is with a vehicle, 
and a substantial vehicle, and Ares-V is the one that----
    Senator Shelby. You've got to have it, hadn't you?
    Mr. Scolese. You have to have that type of a vehicle, yes 
sir.
    Senator Shelby. Okay.
    Thank you, Madam Chair.
    Senator Mikulski. Senator Voinovich.

                             COST OVERRUNS

    Senator Voinovich. Thank you, Madam Chair.
    I'd like to first commend the Agency for a decision that 
they made a couple of years ago, and that was in regard to the 
Plumbrook facility. I was quite impressed with the fact that 
when I talked with Mr. Griffin about that facility, he was not 
knowledgeable about its potential or its condition, and the 
Agency had--along with Lockheed Martin--decided they were going 
to do something else in terms of testing the CEV.
    And I was impressed with the fact that he came out, and 
they looked at it, and NASA is investing, I think, some $54 
million into that, which will do the testing for a lot of the 
things that NASA's doing, and also put it in the position where 
they can take in some commercial work. I think that kind of 
work on your part is very important.
    I'm also concerned about the fact that Senator Shelby said, 
some of these overruns. And what does NASA do about these? 
What's does NASA do about these in terms of contractors, do you 
hit them over the head, trying to get them to perform? Is there 
any provision that says that if they have these overruns and 
don't make good on what they say they're going to do that they 
won't get further business from NASA?
    Mr. Scolese. Overruns--we work those very carefully, and 
yes, there are penalties for overruns, but we also have to 
understand what the reasons for them are. Sometimes it's due to 
underestimates in the beginning that we, indeed, plan for. And 
sometimes it's due to the fact that we change requirements. As 
you know, NASA is a research and development agency, we do 
things, typically, for the first time. And that requires 
learning as we're going along, so if we adjust the requirements 
it is not an overrun by the contractor, it is us adjusting the 
requirements, and adjusting the contract.
    Senator Voinovich. How often is that the case?
    Mr. Scolese. A fair amount. It happens relatively 
frequently. In fact, we tend to be the mission integrator, so, 
that will happen.
    But, the budget that you want to look at is the NASA 
budget--how much do we say, it's going to cost to do a 
particular mission. And then we work with our contractors, when 
a contractor does not perform there are penalties. There are 
severe penalties, including terminating the activity. We 
clearly report on contractor performance, so that future work 
is judged by past performance.
    But, we have to look first to see if we're changing 
requirements or if they're not performing.
    Senator Voinovich. You're confident that you're doing what 
anyone else would do in terms of these contractors?
    Mr. Scolese. Yes, I am.

                        U.S.-RUSSIA PARTNERSHIP

    Senator Voinovich. Okay.
    Recently I was in Brussels and heard Sergiev Levrov, the 
Russian Foreign Minister give a speech, and I was quite 
concerned about the tone of this speech. And I just wonder, in 
your negotiations with the Russians, in terms of the use of the 
Soyuz, have you seen any difference in attitude on their part, 
in terms of them being above-board, objective negotiators, or 
has this--I don't know--paranoia set in with their scientific 
agencies that you're working with?
    Mr. Scolese. No, we haven't seen it. Russia has been a very 
good partner with us on the Space Station, and in our space 
activities, and they continue to be a very reliable partner. 
So, we have not seen that.
    Senator Voinovich. In other words, you're dealing on a 
professional basis, with scientists, and the foreign policy 
thing hasn't entered into those negotiations? You feel that 
they're being fair and above-board?
    Mr. Scolese. Yes, I mean, we're linked very tightly on this 
Space Station. They can't survive without us, and we can't 
survive without them. And we work very closely together, and 
it's been a good and productive relationship over the last 
several years.

                       TEN HEALTHY CENTER CONCEPT

    Senator Voinovich. This undertaking of looking at the 
future of NASA, I think it would be very important for you to 
share with the folks that are doing this that, many of us are 
very happy with the 10 healthy center concept. And you know 
darn well there are people out there that are holding their 
breath, and hyperventilating, what are they going to get and 
what are they going to do? And I think the sooner that that's 
made clear to everyone, just what the deal is going to be, I 
think all of us will be feeling a whole lot better about 
things.
    So, if you could share that with--if you have any input 
from your organization, that was a--something that we really, 
all of us supported, you did a good job of assigning missions 
to the various agencies, and we'd like to know that that's 
still part of the program.
    Mr. Scolese. I certainly will. As you know, it's the people 
that make this all work, and we have some of the best people in 
the world, if not the best people in the world, in developing 
our spaceflight systems--human robotic and aeronautics. And we 
have some great capabilities in all of our centers, and we 
should utilize those to the fullest, and I'll make that known.
    Senator Voinovich. Thank you.

                   SHUTTLE WORKFORCE TRANSITION PLAN

    Senator Mikulski. Senator Voinovich raised some really 
important issues around workforce assurance, and also the 
acquisition and cost overrun issue.
    Let me come back to the workforce issues--one, with the 
retirement of the Shuttle. As you know, it is a source of great 
concern in the communities, particularly in Florida and in 
Texas. We're talking about thousands of people who've really 
served the Nation with fidelity and reliability, I mean, they 
really kept the Shuttle going. And the Shuttle's had 
challenges, including the return to flight after the 
Challenger.
    Could you tell us where NASA is in the workforce planning 
for this transition, and number two, is NASA, or the 
administration also in consultation with our colleagues and 
also the Governors of those respective States--it's a big deal.
    Mr. Scolese. Yes, and you're absolutely right--the people 
that have built and maintained this Shuttle have done an 
incredible job and are truly dedicated. We see it every day. We 
see it with the flight that's going on today. We're going to 
rely on them until the last Shuttle returns to Earth.
    Senator Mikulski. And they have to stay?
    Mr. Scolese. And they have to stay.
    Senator Mikulski. You know, so we're going to go ahead. I 
mean, I'm going to the edge of my chair, I'm going to sound 
like Bill Nelson, launching.
    Mr. Scolese. I think we probably very much agree on this. 
They are doing an incredible job, and we are doing a number of 
things to retain and retrain--where that's needed--the 
workforce. We need them, as I said, to continue to fly the 
Shuttle safely, and we're relying on that.
    So, in some cases we're doing retention bonuses, we're 
encouraging people to stay on that may want to retire or leave 
for other reasons.
    Also, we are looking at people engaged in work on Orion and 
Ares or other elements of Constellation, so they can look, 
today, and know they're working on the Shuttle, and know that 
they're already working on the next-generation system, so that 
they know they will have a job when they are done.
    For those people that may not be, available or may not be 
able to continue with the program, we're looking at other 
activities, other avenues for them, it may be at other centers, 
it may be retraining. That's what we can do within NASA.
    Outside of NASA, we're working with our contractors. We 
don't have as much insight into that, but they're trying to do 
the same thing there, as well, we're working with them to 
provide retention bonuses, to encourage them to offer people 
opportunities to work, not only on the Shuttle, but on the 
next-generation system, that they may be operating, whether 
it's Orion, or Ares, or a component of that.
    So, we're working, across the board to retain the workforce 
and retrain the workforce and allow for a smooth transition for 
those that may have to leave the Shuttle program at the end.

                               RETENTION

    Senator Mikulski. I feel very strongly about this, and 
again, knowing first of all, the fact is that we need them now. 
And we need them to stay. And if I were in the room with Peter 
Orzag, working on this, and the President's science advisor, 
looking at the future of NASA, I'd say, ``You know, everybody 
dumped buckets of money into the banks because they said we 
need their talent,'' well, they had no place to go. But here, 
we have these wonderful people who have a job that they're 
doing, and a job that we need them to do.
    So we're going to ask for quarterly reports from NASA on 
how this transition is going on. And I gather--because it will 
be a phase-down, but also for the retention now. And do you 
think that there are sufficient resources in your 
appropriations request to retain the workforce that we have 
during these last flights, taking us into the end of the fiscal 
year 2011, and to really properly retain them as we also are 
looking at those who wish to retire, and those who wish to be 
retrained, and those who wish to be redeployed within NASA.
    So, those are your, kind of, three tools, isn't it? 
Retirement, retraining, and redeployment?
    Mr. Scolese. Yes. And we do believe we have the resources, 
as I mentioned, retention bonuses and other activities to do 
that, but we're working specifically to make sure that we have 
people that can cover any issue that may come up with the 
Shuttle and its associated systems. So we are taking a very 
active look at making sure that we retain those--that dedicated 
workforce.

                                SCIENCE

    Senator Mikulski. Right. And, as you know, now with 19 
years, the Hubble servicing is coming to an end, and we have 
300 people who have really served the Nation well in Hubble, 
and we also want that same attention to detail with retention, 
and also looking at what are the other projects at Goddard.
    So, we would like to be in touch with the NASA 
Administrator on these issues.
    Let me go to science. And let's go to the President's 
desire, we believe, to have a green science initiative, I 
believe, is the way of talking about it.
    We are so proud, here, in this subcommittee, that we fund 
80 percent of all climate change science. We are the green 
committee. Senator Boxer and I have had talks about this. 
NASA's portion is $1.2 billion, including science that comes 
from Earth-observing spacecraft, and then there is NOAA that 
also does very important work on climate research--$325 
million.
    So, $2 billion is spent by the Government on climate change 
science, but $1.5 billion comes from this subcommittee.
    Let me go to what NASA's job is, and I would like, if you 
could, outline an inventory of the NASA projects in the budget 
request that will contribute to climate change science?
    Mr. Scolese. Certainly. As you know, we have a number of 
on-orbit satellites that are, today, contributing to our 
understanding of climate change, they're supporting not just 
NASA researchers, but researchers throughout the world.
    They're also supporting the operational agencies, as you 
mentioned, NOAA, USGS, other Department of the Interior 
organizations--Forestry, Agriculture. In addition, we have 
several missions in development, I could list some of them--the 
global precipitation mission is one, the Landsat data 
continuity mission is another. We have the decadal missions 
that are coming up, and we're very aggressively working to meet 
those.
    In addition, we have relationship with NOAA that is very 
productive, where we've been producing the polar orbiting 
environmental satellites. We launched the last one, NOAA and 
Prime in January, and it's working well on orbit, it's been 
turned over to NOAA. We have a GOES-O launch scheduled for 
later in June, that is coming up. We have the NPOESS 
preparatory project, which is we are working in collaboration 
with, not only NOAA, but also the Department of Defense, on the 
next-generation weather satellites.
    And while the Department of Defense is developing the Prime 
satellite, we were developing the preparatory project, which 
was intended to test out the capabilities, but now has become 
critical to the operational weather and climate communities, 
and we hope to launch that in the next year or so.

                         PRACTICAL APPLICATIONS

    Senator Mikulski. Well, first of all, that's impressive. 
That is really impressive. I think what the committee would 
appreciate, and also the Congress would appreciate, as it looks 
at climate change legislation, for us to have an inventory of 
these very important climate projects. We're also going to ask 
for the same inventory from NOAA.
    But what we want is not only a list of the projects, Mr. 
Scolese, but what is the information that we're going to get 
that will be useful to policymakers to really come up with 
really sound legislation to deal with the global climate 
crisis.
    As you know, there's been incredible debate over the last 
couple of years about science, junk science, and everybody's 
got their arguments about the climate change situation. We 
believe science should speak for itself, and that the facts of 
science should speak for itself.
    But, what the American people will want to know is, say, 
okay, we're going to spend $1.5 billion on science, and we've 
been spending it over time, and it's been enormously 
impressive. We would not know today about the global climate 
crisis if it were not for NASA. And then the very important 
work of NOAA, and our National Science Foundation.
    As we've met with environmental ministers from around the 
world, the size and scope of the NASA endeavor has enabled them 
to also do their science. What would be useful to us in the 
debate is to know what we can continue to contribute for our 
colleagues, so that decisions, recommendations, policy 
initiatives and policy flashing lights would come from our 
science. So, could we have that from you? Because the people 
really need to have that in plain English.
    We can hear GOES, NPOESS, they all have those names, et 
cetera, and I think it's often not seen. But we're ready to do 
legislation on the global climate crisis.
    Which then takes me to something else. After--presuming we 
do have legislation--do you see that it is our science that 
will also be able to provide ongoing monitoring to see whether 
we truly are making a difference? Will there need to be new 
things, or will what we're doing now be able to carry us, say, 
for the next 5 or 7 years?
    Mr. Scolese. Well, I think what we're doing now will 
probably carry us for the next 5 to 7 years, the answer to your 
question is will we be able to do monitoring? Absolutely. We're 
doing that today in various areas. For instance, in ozone 
monitoring, we use satellites to measure the ozone, and have 
seen, you know, an improvement in the reconstitution of the 
ozone layer.
    So, yes, our satellites can go off and provide a lot of 
that information, and will continue to do so. And I expect, as 
the decadal survey missions indicated, that we will need some 
new capabilities, as we gain new understanding and want to look 
at different effects, be they, solar effects or Earth effects, 
or, other climatological effects that we need to deal with.
    So, yes, our satellites can, and will, continue to do that, 
and as you know, our data systems are out there providing that 
data to researchers, as I said, around the world. So, as I 
said, we're getting an objective look at the data, as well, to 
inform the decisions of the policymakers.
    [The information follows:]

                         Global Climate Change

    Provide an inventory of climate projects. Identify the types of 
information from them that would be useful to policy makers, with any 
``flashing lights'' that would come from science results. Assess the 
sufficiency of monitoring activities over the next 5-7 years.
    See Attached.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Mikulski. Well, I think it's impressive. I'm really 
proud of NASA and what they've done in this. And they have been 
truly a tremendous voice to--not only scientists--but for those 
who have stewardships about their individual nations' futures. 
And NASA is really loved and appreciated because of what it 
does do, along with NOAA and the National Science Foundation.
    This, though, takes me then to other science, which is in 
addition to our Earth science, planetary science, astrophysics 
and heliophysics. Is there concern at NASA that, with our 
emphasis on green science, and also on dealing with the global 
climate crisis, that other scientific projects will be crowded 
out?
    You know, to keep the shuttle going, there was a lot of 
rearrangement of the money, and science suffered over the 
years. The President has made a significant investment in this 
year's budget, and we really appreciate this, because it's then 
not left up to the Congress to restore science, which it has 
been in the last decade.
    Mr. Scolese. We believe we have a balanced program and, of 
course, as you know probably better than most, there's always 
many more missions that people want to do, many more 
investigations.
    Senator Mikulski. Every science wants their own rocket 
ship.
    Mr. Scolese. But we believe we have a balanced program, and 
we'll be looking at that, and have it informed by the decadal 
surveys that are coming up, to establish those priorities and 
determine what we can do. I think you'll see heliophysics is 
going up, astrophysics is staying about the same, and planetary 
is about the same. So Earth science and heliophysics have a 
little bit better, and the others are kind of balancing out to 
historical percentages.

                        NASA EDUCATIONAL EFFORTS

    Senator Mikulski. Which then takes me to education. What is 
in the President's request for the NASA educational efforts?
    Mr. Scolese. I was going to say $125 million and David 
tells me it's $126 million. So, we have $126 million in that 
budget. It covers everything from, support for formal 
education, K-12, universities, grants for graduate students and 
undergraduates, as well as informal education, in terms of, 
support to museums and other activities along those lines. And 
we can get you the specifics.
    Senator Mikulski. Well, I understand that it is $126 
million, that there's been a reduction of $43 million. Do you 
know why, and what will go by the wayside with that $43 million 
cut, or would you like to go back and talk to your team?
    Mr. Scolese. I think I need to go back and talk to my team 
about that.
    [The information follows:]

                         NASA Education Program

    The fiscal year 2010 budget request for NASA's Education Program is 
$126.1 million, up from $116.0 million in the fiscal year 2009 request. 
As part of NASA's fiscal year 2010 budget request, the Agency preserved 
high-priority investments in Higher Education STEM (science, 
technology, engineering, mathematics) Education, K-12 STEM Education, 
and Informal STEM Education.
    Higher Education STEM Education includes STEM Opportunities, 
Minority University Research and Education Program (MUREP), Space 
Grant, and Experimental Program to Stimulate Competitive Research 
(EPSCoR). These projects will build, sustain, and provide a skilled, 
knowledgeable, diverse, and high performing workforce to meet the 
current and emerging needs of NASA and the Nation.
    K-12 STEM Education includes three main areas. STEM Student 
Opportunities engage and help retain students in STEM disciplines 
through flight opportunities, hands on research and engineering 
experiences, and increased knowledge of NASA science and technology 
content. STEM Teacher Development uses NASA's content and resources to 
provide pre-service and classroom teachers with learning experiences to 
build STEM skills and better motivate students to pursue STEM careers.
    Informal STEM Education supports NASA Center efforts involving 
scouting groups, community based organizations, and other informal 
education providers who use NASA content to engage their audiences in 
STEM experiences. NASA also supports the Nation's museums, science 
centers and planetariums in developing innovative educational 
experiences that help the American public understand NASA's exploration 
mission.
    A summary of NASA's fiscal year 2010 request for the Education 
Program follows:

                                           FISCAL 2010 BUDGET REQUEST
                                              [Dollars in Millions]
----------------------------------------------------------------------------------------------------------------
                                       Fiscal     Fiscal
                                     year 2008  year 2009    Fiscal     Fiscal     Fiscal     Fiscal     Fiscal
                                       actual    enacted   year 2010  year 2011  year 2012  year 2013  year 2014
----------------------------------------------------------------------------------------------------------------
Fiscal Year 2010 President's             146.8      169.2      126.1      123.8      123.8      123.8      125.5
 Request...........................
                                    ----------------------------------------------------------------------------
Higher Ed. STEM Education..........       92.0      107.7       80.6       80.6       80.6       80.7       80.7
K-12 STEM Education................       41.3       47.5       43.3       41.0       41.0       41.0       42.7
Informal STEM Education............       13.5       14.0        2.1        2.1        2.1        2.1  .........
Fiscal Year 2009 President's Budget      146.8      115.6      126.1      123.8      123.8      123.8  .........
 Request...........................
                                    ----------------------------------------------------------------------------
Education..........................      146.8      115.8      126.1      123.8      123.8      123.8  .........
Total Change From Fiscal Year 2009   .........       53.6  .........  .........  .........  .........  .........
 Request...........................
----------------------------------------------------------------------------------------------------------------

    Compared with NASA's fiscal year 2009 budget request, the fiscal 
year 2010 budget request includes increases for:
  --Higher Ed. STEM Education (+$14.202 million)
  --K-12 STEM Education (+$4.365 million)
  --Informal STEM Education (+$0.113 million)
    NASA's fiscal year 2010 budget request does not include 
continuation of fiscal year 2009 Congressional augmentations for:
  --Global Climate Change Education (fiscal year 2009 +$10 million)
  --K-12 Competitive Educational Grant Program (fiscal year 2009 +$16 
        million)
  --Science Museums and Planetarium Grants (fiscal year 2009 +$7 
        million)
  --NASA Visitors Centers (fiscal year 2009 +$7 million)
  --Space Grant (fiscal year 2009 +$12.268 million)
  --EPSCoR (fiscal year 2009 + $11.72 million)
    NASA will be able to address the intended outcomes of these 
initiatives, as well as NASA's stated education goals, through programs 
for which the Agency is requesting fiscal year 2010 funding.

    Senator Mikulski. Let me say why I'm raising this. I'm a 
big supporter, as you know, of the National Academy of 
Sciences, and this is why we so like the decadal studies, that 
we're guided by--in our endeavors and what we should be 
exploring and doing through the National Academy of Sciences, 
then it's not out of politics or State interest and so on, that 
we're really working for the Nation.
    And, in the ``Rising Above the Gathering Storm'', another 
Augustine-led effort was, we talked about how could America 
maintain its competitive edge, how could we continue 
innovation? And they talked about a triad of increased money 
for research, really a focus on education, K-12, to make sure--
even earlier--that our young people focused on so-called STEM 
disciplines, science, technology, engineering, and mathematics, 
and that we have an innovation-friendly government, patent 
reform, tax policy.
    Education, here we're doing all this fantastic research, we 
have a President that's making major investments in education, 
and through his own charisma, and that of the First Family, are 
creating, I think, a renewed interest in education. Their own 
girls, the way they feel about the rest of America. How can we 
use now, the power of NASA, while we're doing the research 
part, and our job of being innovative-finally, to be part of 
education?
    I feel that education at NASA has not been as sharply 
focused, and perhaps not as wise in its use of dollars, when 
we've got not only a great story to tell about education, but a 
great way to motivate our young people to be interested in 
that. I want to hear from the astronauts because of their 
courage, the spectacular thing they've done, but I want people 
to think, ``Wow, there's a telescope, that I use the pictures 
in my classroom, and there's an astronaut that maybe I'm going 
to be, or maybe I'm going to work at Houston and work that's 
going to happen on the space station, to find a cure for breast 
cancer,'' which is challenging one of our most beloved 
colleagues here.
    So, you see where I am? I'm into motivation, I'm into 
inspiration, using this story. So, where--what do you see about 
this?
    Mr. Scolese. Well, I agree, clearly, the program, as I 
mentioned it, it tries to encompass all those things in various 
forms, with our teacher training programs that we do. We try 
and bring teachers down to launches, so that they can see 
what's actually going on, along with going out and providing 
forums where teachers can come in for the summers, for 
instance, and participate at NASA Centers, to learn about what 
we do and how we do it. That's sort of on the formal training 
program of the teachers.
    We have the grants students in minority universities, as 
well as in other universities, to encourage undergraduate and 
graduate work. As you mentioned about, the informal education, 
you know, encouraging museums in getting NASA content and 
activities out, so that the broader public can see them.
    And of course, directly, as our people go out there and 
talk to students, astronauts, scientists, engineers are out 
there talking at schools as well, and we encourage that as part 
of what we do as an agency, because we do realize the strong 
motivation that people see when they get to meet somebody that 
flew in space or somebody that works at NASA and does some 
interesting stuff.
    I, myself, even had an opportunity to talk to a bunch of 
seventh grade students just a little bit ago----
    Senator Mikulski. Harder than testifying before Congress?
    Mr. Scolese. Yeah, they ask some interesting questions. But 
the good thing, and this is going to be kind of funny, is that 
the NASA portion of it, which I did, was rated against 
everybody else, and we beat out the mortician and the fireman. 
So, we ended up doing pretty good in the view.
    But, actually is something that when people can get out 
there and see the looks on the students when they see what we 
can do, is really great.
    So, I think we're doing all of those things, and we'll get 
you a better detailed list.
    [The information follows:]

                         NASA Education Program

    The President's fiscal year 2010 budget request for NASA's 
Education Program is $126.1 million, up from $116 million in the fiscal 
year 2009 request. The Office of Education administers national 
education efforts that draw on content from across the Agency. It also 
disseminates education content and activities developed by the Mission 
Directorates, Centers and education partners.
    The NASA Education Program addresses three outcomes:
  --to strengthen NASA's and the Nation's workforce;
  --to attract and retain students in STEM disciplines; and
  --to engage Americans in NASA's mission.
    As part of the fiscal year 2010 budget request--Education projects 
have been reorganized into three programs to better meet the needs of 
targeted audiences:
  --Higher Education STEM Education;
  --K-12 STEM Education; and,
  --Informal STEM Education.
    NASA's Higher Education STEM Education budget supports the targeted 
development of individuals who are prepared for employment in 
disciplines needed to achieve NASA's mission and strategic goals. 
Graduates of these projects have had in-depth and hands-on experience 
with research and engineering that support NASA's scientific and 
exploration missions. Experiences include NASA/industry internships, 
scholarships, competitions, and engineering design work. These 
students, drawn from national audiences, are interested in, prepared 
for, and able to contribute immediately to the NASA/aerospace 
workforce.
    The Office of Education budget builds academic infrastructures and 
supports NASA-grounded research that builds the scientific and 
engineering competitiveness of the Nation. These investments also build 
the future STEM workforce by providing future workers the opportunity 
to contribute to research of interest to NASA. Target audiences in 
research capability-building include community colleges and Minority 
Serving Institutions (MSI's). This type of efforts is funded through 
both the HE and the MUREP budgets.
    K-12 STEM Education activities are based on NASA missions and 
stimulate excitement in students. Educator training and professional 
development programs improve teacher proficiency and confidence in 
teaching NASA and STEM content. Education technologies that foster 
educator training and student engagement opportunities are developed 
through the K12eED Program, but the tools and infrastructures serve all 
NASA Education programs.
    NASA Informal STEM Education programs build STEM-interest in the 
general public by providing NASA exhibits, workshops, and special 
activities at museums, science centers, planetariums, and the 
activities of community organizations and clubs.

    Senator Mikulski. Well, I think that's very interesting. 
What I would like to ask, is that you make available, the Dr. 
Joyce Winterton, Assistant Administrator for Education, to meet 
with our staff so that we really have an idea of the 
comprehensive scope that you are doing, and how we can be 
supportive of that in, again, looking at the National Academy, 
``Rising Above'' the Gathering Storm. And when they looked at 
the education of students, they looked at exactly what you 
said, teacher training, and how we can help with that. And 
then, hands-on kinds of things for young people to be able to 
either see or witness, and so on the inspiration part of NASA.
    And number three, what is it about the development of 
curriculum and so on that you can help? One of the things that 
really so touched me about what NASA did--and I'll just tell 
this little story.
    Dr. Weiler, as you know, Mr. Space, science, and Goddard, 
et cetera, used part of his education budget to work with the 
National Federation of the Blind in Baltimore. And working with 
the National Federation of the Blind in Baltimore and the 
National Air and Space Museum--the space part of the 
Smithsonian--they developed a textbook for blind children on 
astronomy. And it's called ``Touch the Invisible Sky.''
    Now I have seen the textbook, and the Federation is 
headquartered in Baltimore, and what that has meant to boys and 
girls, and what it's meant to parents, where their children can 
learn science, and actually touch the Hubble, and also think 
about careers in science, where particularly those things in 
the digital world that they could participate. This is--this is 
stunning, and it will--it impacts thousands of lives. So, we 
appreciate that.
    Mr. Scolese. Thank you.

                          ACQUISITION PROCESS

    Senator Mikulski. I'm going to have one other set of 
questions related to acquisition, and then--what time--what 
time do we link up with Atlantis? Twelve twenty-nine? I'm 
afraid to let everybody go, it's my Catholic school education, 
that if you go, you won't come back.
    And, here's Bill Nelson, Bill we've got a few minutes, 
here. We're actually not going to be early, but we're just 
asking questions about cost difference.
    Do you want to explain to Senator Nelson where we are while 
I finish?
    Senator Voinovich raised the question about the acquisition 
process. Do you think we need a Commission on this? Do you 
think with acquisition cost overruns and schedule upages, we 
need a national Commission, where an effort like the Pentagon 
has just completed with their acquisition?
    Mr. Scolese. I'm not sure we need a national Commission on 
it. I can tell you what we are doing. The Government 
Accountability Office, of course, has been reviewing NASA, and 
we recognized the issues that are associated with acquisition 
and acquisition reform. One of our biggest is the early cost 
estimates for our missions. There tends to be a lot of 
exuberance and enthusiasm for the missions, and as a result, we 
tend to say we can do more for less than we can really do it.
    So, we're working very hard to fix that very early portion 
of it. And that's a combination of working with our colleagues 
in the external community, in the science community, as well as 
working internally to develop better cost estimates, and we're 
doing that. With the National Academy, we're sitting down so 
that they can develop better cost estimates, we can work with 
them so that we can develop them. We can develop cost estimates 
that can be compared against each other, as opposed to having 
one estimator do it one way, one group do it another way, we 
can get them all on common footings, so that we can look at 
them in terms of a common base, to understand which is really 
more expensive or more risky than the other.
    In addition, we've revised our acquisition strategy. We now 
have essentially three meetings that we do before we go off 
with a procurement. One to look at what it is that we really 
want to accomplish and do we have the resources to accomplish 
it, both within NASA and in the industry as a whole. Is it 
available to us? Because often times we find out that we start 
something before we have the people or the resources available 
to support it. And then we develop the best way to go off and 
procure that, whether it be a fixed-price activity, and in-
house activity, where it's built within NASA, or whether we go 
out of house to contractors.
    In addition, we're looking at how we monitor our 
performance, so that we can catch problems early, rather than 
finding them out late in the game when they're very expensive. 
So we're having monthly reporting, so that we can go off and 
look at all of those activities. And of course, we're working 
with industry and academia to go off and address those from 
their perspective as well.
    So, that's what NASA is doing, and we're working with our 
colleagues in other agencies, most closely with NOAA, of 
course, because we buy some of their satellites.

                         HUBBLE SPACE TELESCOPE

    Senator Mikulski. Well, thank you, again. I want to just 
thank you again for your service. I'm not going to recess the 
committee. What I'm going to do is ask you some questions about 
the Hubble.
    Mr. Scolese. Okay.
    Senator Mikulski. Then I'm going to, essentially, as we get 
ready to link up with Atlantis, talk about the biographies of 
the astronauts, and I'm going to ask our colleague--we're happy 
to be joined by our colleague, Senator-astronaut Bill Nelson, 
to, perhaps while we're waiting to hook up, you might talk 
about what it feels like to be an astronaut. Everybody sees it, 
they see it weightless, et cetera, but you've actually known, 
in our conversations, it can be pretty dangerous. And so, by 
that time, we'll be ready to hook up with them, and we would 
also invite you to engage in the conversation with them.
    So, we're getting ready now and lining up to connect to our 
astronauts, on the Atlantis mission.
    You've watched Hubble, and I am so proud of Hubble. You 
know, it's gone where no telescope has gone before. It's taken 
us to pictures of galaxies, and the great information of the 
Hubble has gone out to people in school--the scientists and 
school children around the world, whether it was in south 
Baltimore or South Africa. And, what I would like, if you could 
share with us, from the science viewpoint, what you think have 
been the major accomplishments of the Hubble mission?
    Mr. Scolese. Probably the most significant accomplishment, 
as I look around, is the inspiration it's given to people to go 
off and pursue science, engineering, math, technology careers. 
You look at every textbook and you see a Hubble image, whether 
it's, of some planetary nebula or some nebula someplace, or 
just the Hubble Space Telescope with an astronaut floating next 
to it. It just has an incredible encouragement to people, to go 
off and do those things, because it does represent an icon.
    When Hubble was first launched, you remember, more than 
anybody else, the difficulties that we had when it was first 
launched, and the perseverance----
    Senator Mikulski. You mean when it went up and it wouldn't 
work?
    Mr. Scolese. When it went up and it wouldn't work. I didn't 
want to say it quite that way. It was the techno-turkey of the 
time, yet it was resurrected.
    Senator Mikulski. That was my phrase.
    Mr. Scolese. Yes. It's been resurrected and I think people 
have seen that and recognized that with hard work and 
perseverance, you can overcome almost anything. And watching 
our crews, just this week and in previous weeks, we tend to get 
most of our attention with Hubble missions, because they are so 
dynamic, they are so interesting.
    We can practice and practice and practice, yet at some 
point in a mission, you always know that something's going to 
come up that wasn't quite the way you practiced it. And I'm 
sure Mike Massimino how he had to use some elbow grease to 
remove a handrail.
    So, I think that's probably our biggest contribution, 
because I see it when I talk to children and I see it when I 
talk to people who are now graduates from college, that, you 
know, looking at the Hubble. In my generation it was going to 
the moon. I think in this generation it's been, you know, what 
the Hubble Space Telescope can do.
    And then, of course, I can't do the justice that an Ed 
Weiler could do to how it's revolutionized our understanding of 
the universe. But it clearly has done that. It's rewritten 
every textbook that's been out there in astronomy and 
cosmology, and to some extent, in physics as well.
    Senator Mikulski. Well, I understand that the Hubble has 
led to 7,000 scientific papers, and that the information on 
Hubble, even that which continues to be analyzed, could fill 
two Libraries of Congress, and has taken us to the discovery of 
new galaxies, and also the whole issues of black holes and dark 
energy, things that will help us understand the universe, and 
in understanding the universe, understand physics, quantum 
physics, tremendous scientific expansion----
    Mr. Scolese. All those.
    Senator Mikulski [continuing]. That then enable us, also, 
to go to far more practical implications. Isn't that correct?
    Mr. Scolese. Absolutely. I'm surprised it's only 7,000, 
considering all the things that it's done.
    Senator Mikulski. The other thing that was required, in 
addition to the astronauts, was these tools. When one goes into 
space to do this work, because what the Hubble did on this 
mission, was five space walks, and that's what we're going to 
talk with them about, five space walks that took hours. It's 
just not like suiting up and walking out and--did you do space 
walk or did you stay inside?
    I think I'd stay inside, too. Could you imagine trying to 
find a little space suit in, you know, in 14 petite? Well, they 
did it for Sally and some of the others.
    But anyway, could you tell us about the technology that was 
developed to be able to refurbish the Hubble?
    Mr. Scolese. Just an incredible number of tools. For every 
mission, one has to think about, taking a screwdriver with a 
ski glove on, and a pressure suit, where you're in a balloon 
trying to move in order to do this work. So, it's not at all 
like putting a suit on or just having a glove on, it's 
pressurized, and you're fighting that each and every time you 
move. And the astronauts can describe it a heck of a lot better 
than I can describe it. But that's the limitation that one has 
to work with.
    And then think about the fact that you can't see 
everything. You've got this hood over your head. So, you have 
to develop tools that will allow the crews to be able to work 
with those limitations, limitations in viewing, limitations in 
their ability to grasp things. So every mission, you have to 
come up with a new set of tools, a new set of guides to allow 
them to see where they want to go. And this mission was no 
different, to go off and do that.
    Then you have to remember you have to take the power with 
you. It doesn't come along, you can't plug it into the wall 
like our Black and Decker, these are largely battery-operated. 
So while they're floating around in space, they have to have 
these tools. When they remove a screw, they have to capture it, 
otherwise it's going to go floating around in space. Because on 
this mission, and on other missions, we repaired things that 
weren't designed to be repaired in space. If you design it to 
be repaired in space, you'll have big fasteners that you can 
grasp with a gloved hand and everything will stay in place.
    We were removing hundreds, 150, 160-some screws, little 
screws, that if they got into the wrong place----
    Senator Mikulski. Talk about having a screw loose.
    Mr. Scolese [continuing]. Yes--they could damage the 
telescope or damage the orbiter or damage the suit that the 
astronauts were in.
    So, in addition to being able to remove the screw, we had 
to make sure that that screw didn't float away and go someplace 
we didn't want it to go. So, we had components that allowed us 
to capture those screws.
    And then, as we mentioned, think about pulling a circuit 
card out of your computer, if you've ever had to go off and do 
that, put in a board for graphics if you wanted to do gaming or 
something along those lines. And think of how small that is. We 
had the astronauts retrieve that.
    Needless to say, they couldn't use their gloved hand, so we 
had to develop a tool that would allow them to go in there, 
grasp it, pull it out, and then put a new box in.
    So, there's an incredible amount of effort with the 
engineers on the ground developing these tools and 
understanding what's going on, working with the astronauts to 
refine those tools so that they can use them effectively. And 
then, while the mission is going on, adjusting when things 
change.

                    SPACE SHUTTLE CREW INTRODUCTION

    Senator Mikulski. And it's the big deal.
    What I'd like to do now is--first of all, that was an 
excellent description--I'd like to talk about these astronauts 
and who they are, as we get ready to connect to them, a few 
words about, really, what they did, just as you've described 
it. And while we're waiting, in the 4 minutes for the hookup, 
as you said, this is not a Swiss watch factory, to connect to 
them.
    Well, first of all, there were seven astronauts, and of the 
seven, three had been on previous Hubble experiences. One is 
Scott Altman, he's the commander of the mission. He flew the 
Shuttle during its capture and release of Hubble. He was also 
the commander of the last Hubble servicing mission, in March 
2002, when we installed that Hubble advanced camera that made 
the mission worthwhile.
    The other is John Grunsfeld, who's considered like one of 
the fathers or godfathers or grandfathers of the Hubble. He led 
the space walking team, and he's conducted three space walks, 
in addition to the five others he did on previous serving 
missions. He's done two previous Hubble missions, in December 
1999 and March 2002, which was so important, again, to reboot, 
reinvigorate Hubble.
    And then there's Mike Massimino, who will be leading the 
conversation today. Now he's conducted two space walks, and 
guess what? He's the first astronaut to Twitter from space. Oh 
boy, engaging thousands of people and he also was the one who 
persevered during Sunday's nail-biting, hold your breath, oh my 
gosh, Sunday space walk. And I've never been so glad ever to 
hear someone say, ``Disposable bag, please,'' which said that 
he had accomplished it. He had to deal with a stuck bolt, a 
tool battery that died, but he kept on going. Mike flew on the 
last Hubble servicing mission in March 2002, again, when we did 
that advanced camera.
    Now, we've had three other Hubble astronauts on their first 
shuttle mission. Megan McArthur, one of the women on the trip, 
operated the shuttle's robotic arm during the capture and 
release of the rejuvenated Hubble. She became an astronaut in 
2000. She has an unusual background. Dr. McArthur has a Ph.D. 
in oceanography and worked at the Script's Oceanographic 
Institute, so, from inner space to outer space.
    We have Drew Feustel, who conducted three space walks, and 
on the third space walk--that was Saturday--he and Grunsfeld 
installed that new spectrograph that looks deeply into the 
early universe how profound. He became an astronaut in 2000, he 
began his education at a community college, he worked as an 
auto mechanic, and now he's a mechanic in space. He then went 
on to an undergraduate degree and a masters in Earth science 
and geophysics from Purdue, and a Ph.D., specializing in 
seismology, from Queens University in Canada. These are 
incredible backgrounds.
    Then there's Greg Johnson, the pilot of the mission. He 
orchestrated the photographic and video documentation of the 
mission. He became an astronaut in 1998. He's a Navy captain, 
he landed on 500 carriers, and we're going to count on him to 
land safely and smartly tomorrow, at around 10 o'clock eastern 
standard time.
    And last, but not at all least, Michael Good, who conducted 
two space walks, including Sunday's, which lasted more than 8 
hours. It is the sixth longest NASA space walk in history. He 
comes as Air Force colonel and a test pilot.
    We're about 2 minutes away, and as you can see, this is 
really an incredible amount of talent, and also, talent and 
dedication and courage and diligence. So, that's who we'll be 
talking to in space, the very first hearing from space. And as 
we get ready for our uplink, I'd like to turn to our astronaut-
Senator, Bill Nelson.
    And Senator, if you could share, maybe, your thoughts on 
this occasion, of the rejuvenation of Hubble, and your own 
experiences in space?
    Senator Nelson. Madam Chairwoman, this is----
    Senator Mikulski. And this is the way we ought to be at the 
table, I might add, authorizers and appropriators, not only 
celebrating, but really working together for the good of the 
country.

                        THE ASTRONAUT EXPERIENCE

    Senator Nelson. And thank you for this opportunity, Madam 
Chairwoman. This is an incredible example of the interlinking 
of humans and machines, to accomplish great things. As you were 
reading the biographies of these astronauts, they are 
exceptionally qualified people, they are, all of them, 
overachievers, and yet, they are just the visible example of a 
space team that is, every one of them, overachievers.
    A lot of that team is in your State, at the Goddard Space 
Flight Center, and this particular mission is symbolic of the 
expertise at Goddard, that putting together all of those with 
the team that gets them up there, that creates the vehicle to 
get them there, and then to do the work once in orbit.
    Now, in this case, these astronauts have not had a minute 
to spare, every minute is scheduled. As a matter of fact, 
usually it's very typical of crews that they have to fight for 
time to get to the window to gaze back at this incredible 
creation that we call our home, the planet. In our particular 
case, I had to cheat on my sleep to find time, just to go and 
float in front of the window, and see our home.
    One of the greatest examples of this teamwork, came out of 
tragedy, Madam Chairwoman, and that was Apollo 13.
    Senator Mikulski. Right.
    Senator Nelson. We thought that that was going to be three 
dead men on the way when that explosion occurred on the way to 
the moon, and yet that incredible team, on the ground, working 
with the astronauts in real-time, who's lives were on the line, 
we brought them back and brought them back safely.
    And so, what these new lens, these new computers, these new 
instruments on Hubble are going to do for us, is help us gaze 
out even further, to sample cosmic rays and understand in 
greater detail, what is this infinite place called the 
universe, and how do we relate to it. And that's why I'm so 
excited for the success of this mission.
    Thank you, Madam Chairwoman.

                    SPACE SHUTTLE ATLANTIS TESTIMONY

    Senator Mikulski. Well, that was really eloquent, and it 
shows how--to be an astronaut, you have to be daring, you have 
to be courageous, you have to be agile.
    So, anyway, that was a great job, and now we'll just wait 
to hear from Houston, a familiar sound to you.
    Now remember, we're going to be able to see the astronauts, 
but they can't see us. This is going to be for them, an audio 
link.
    Mr. Ventry. Atlantis, this is Houston, are you ready for 
the event?
    Astronaut. We are now ready for the event. Voice check.
    Mr. Ventry. Atlantis, this is Don Ventry at the U.S. 
Senate, how do you hear me?
    Astronaut. Space Shuttle Atlantis has you loud and clear, 
sir.
    Mr. Ventry. Atlantis, please stand by for Senator Barbara 
Mikulski.
    Senator Mikulski. Hello to all of our astronauts on Space 
Shuttle Atlantis. You are taking part in something quite 
historical, not only have you given the Hubble a new life, but 
you're going to give the Senate a new lease on life. You are 
the very first astronauts to testify from space, at an official 
hearing.
    I'm joined by my colleague, Senator Bill Nelson, a brother 
astronaut to you. I'm going to lead off the conversation by 
first of all, thank you for this stunning and successful 
mission. As you closed the hatch on the Hubble, you have now 
opened a new door to a new era of scientific discovery.
    Hubble is the people's telescope, and it wanted to have 
another chance to be able to educate a new generation of 
scientists and school children. What you've done to refocus and 
recharge the Hubble Space Telescope is appreciated. We 
appreciate the daring and the difficult and the dangerous 
things that you've done to install the cameras, the computers, 
the batteries, and the gyroscopes.
    Hubble is the greatest scientific instrument since 
Galileo's telescope, but you are some of the greatest 
astronauts that we could get hooked up with.
    We want to hear from you about what those experiences are 
like, but before I do, Bill, Senator Nelson, did you want to 
say something to your brother astronauts in space?
    Senator Nelson. Hey guys, I wish I were up there with you.
    Senator Mikulski. So, Mike Massimino, are you the one 
that's going to lead it off?
    So, okay, well that works, we see you very clearly. I feel 
like--if only the Hubble is going to work as good as this link.
    So tell us, what was it like to be up there? What was the 
greatest nail-biting thing that you had? What were those space 
walks like? What's it been like up there?
    Mr. Massimino. Well, Senator, I'd just say, first of all, 
we're very honored to be able to appear before the committee 
today. It's an honor for us, it's also an honor to be part of 
this mission. Many people worked very hard on it, including all 
the folks at Goddard, and of course, your efforts, Senator, 
keeping Hubble alive, are much appreciated. We're a beneficiary 
of that vision that you share with all. Hubble is a part of the 
spirit of exploration that I think is an American dream we all 
share. So, thank you so much.

                         HUBBLE REPAIR MISSION

    Senator Mikulski. Well, tell us, what was the most--for all 
of you to jump in--what were some of the most thrilling moments 
of the mission, what were some of the most nail-biting? We sure 
liked that disposable bag comment, because we knew you had been 
able to fix that whole computer situation. Mike?
    From what I see, we're getting a lot of enthusiasm.
    Mr. Massimino [continuing]. Ground trying to help us. When 
I wasn't able to get the bolt to turn for the handle, to take 
the handle off, to continue with the repair of the instrument, 
the space telescope imaging spectrograph, and we had practiced 
this so many times as a crew, to do this repair, and never 
expected--we try to think of every problem we could come up 
with, and we were prepared, I thought, for everything, but we 
never expected that particular bolt to give us trouble. And 
when it did, and when we started getting the suggestions from 
the ground, I really thought that we were in trouble. I 
couldn't see how we were going to be able to continue the 
repair at that point.
    But, the folks at the Goddard Space Flight Center did a 
great job, along with the folks at the Johnson Space Center, 
and people from around the country, I'm sure, were all 
involved, trying to figure out how we could do this. And we 
didn't have much time because we were running late into this 
space walk, but they figured out a way for us to fix it, we got 
the tools we needed, and we were able to get access to the 
board by breaking off the handle in a way that we would never 
have imagined to do it. When we launched, we never thought we'd 
have to do that, but we did it.
    And for me, that was a feat, that we could continue----
    Senator Mikulski. Well, listen, Space Shuttle Atlantis, 
we're having a hard time hearing you.
    Mr. Massimino [continuing]. Nail-biters out there, to be 
sure.
    Mr. Johnson. Senator Mikulski, this is Greg Johnson, the 
pilot. It, too, is an honor to testify before your 
subcommittee. I can tell you, from the flight deck, Scooter and 
I and Megan were watching, and every single EVA, to me, was a 
nail-biter. I was trying to photo document them, some of it 
with IMAX, and the two points that really come to mind are 
Bueno closing the door when the arm started to slip, as he 
pushed as hard as he could.
    And then Mike Massimino going to get contingency tools, in 
areas that he hadn't really gone to before, and then breaking 
that bolt. You should have seen the action out the back window, 
it was--I'm sure it was better up close, but from the pilot's 
perspective, I was on the edge of my seat the--all five EVAs, 
actually.
    Senator Mikulski. Dr. McArthur, did you want to say 
anything?
    Mr. Johnson. And I guess I'll let Megan comment, and then 
if you have any more questions for----
    Dr. McArthur. Yes, ma'am.
    Hello, Senator Mikulski, and Senator Nelson, and all of the 
Senators on the committee. It's great to be chatting with you 
today about our experiences. I think you've heard a lot about 
how the EVAs were pretty much all nail-biters, and that's 
certainly true. Those guys did great work out there though, and 
we're real proud of them.
    Operating the arm, that was my primary task during the 
flight, and it actually went very nominally, very much as 
expected and as we had trained, it's pretty incredible to me to 
be thinking about this amazing stuff that we're doing, moving 
this giant telescope around in space with a robotic arm, and 
have it be nominal. So, I just take away that sense of wonder 
at doing the incredible and having it be nominal, that's sort 
of the big impression that it has made on me.

                         HUBBLE'S CONTRIBUTIONS

    Senator Mikulski. Well, guys--first of all, thank you. It's 
really exciting to hear you. And we really, again, want to 
salute your daring and your bravery and your courage.
    And this takes me to a question about all of your work, 
personally. You know, you've been training for this now for 
several years. You've had the support of devoted families and 
we've had delayed takeoffs, setbacks, challenges in space. My 
question to you is, when you've literally put your lives on the 
line for this scientific endeavor. Could you tell me why you 
wanted to service the Hubble, and why, knowing at times, the 
uncertainty of the risk involved here, that you were willing to 
risk your lives to fix an aging telescope who seemed like its 
best days were behind it?
    Astronaut. Senator, it's really wonderful to appear before 
your committee and all the Senators there today. I really 
appreciate you taking the time to hear us.
    You know, Hubble really has struck a fundamental chord in 
the human hearts around the world. It would be hard to find a 
K-12 school room anywhere in the United States of America that 
doesn't have a Hubble picture up on the wall.
    From a science perspective, as you opened the hearing, it's 
probably the most significant scientific instrument of all 
time, in terms of its productivity. And astronomers try and 
answer, using Hubble, fundamental questions that we've had, 
since the beginning of human history. Where do we come from? 
Where are we going, what's the history of the universe, what is 
the stuff that we're made of, how was it made, what's the 
universe made of? All these very, deep philosophical questions 
that everybody has a curiosity about.
    That's what Hubble and the other science, basic science 
that we do in this great country is all about. And Hubble is at 
the pointy end of that. And so, from a perspective of risk, we 
all take risks every day, driving up 295 to Baltimore, there's 
a certain risk there every morning in the commute. And we don't 
think about those risks, we think about the risks when, the 
stakes are a little bit higher, as they are for our space 
program. But when you look at the importance of what we do, 
things like Hubble, the International Space Station, our 
exploration program, our climate observing, observing the 
Earth, the dynamic Earth, all of these things are so very 
important to our country and to the world, that the risks are 
definitely worth it.
    Astronaut. And I would just add, quickly, that we're not 
leaving an aging telescope, we're leaving a newly refurbished 
telescope, with new instruments, instruments that have been 
repaired, a telescope that is now at the apex of its 
capabilities, and will be for a long time to come.
    Senator Mikulski. Bill, did you have a question?
    Senator Nelson. Hey guys, I just want you to know that you 
have made the spring in the step of every American a little bit 
bouncier by what you all have accomplished. And, what you said 
about us understanding this universe that we are a part of, and 
where did we come from, is now going to be better understood by 
the success of your mission. So, congratulations to all of the 
team.
    Senator Mikulski. I, too, want to conclude this 
conversation, by again thanking you for your dedication, your 
sense of duty, and you really--when we talk about the Hubble 
and giving it, essentially, a new life and a new way of going 
and seeing the universe, you've touched our hearts, and you've 
also made history.
    We want to wish you a very safe landing, and we look 
forward, Senator Nelson and I, to welcoming you at the Capitol, 
where we can give you a great big Hubble hug, and welcome you 
back home.
    This concludes our part of the conversation.
    Mr. Massimino. Thank you very much, we've enjoyed it.
    Mr. Ventry. Atlantis, this is Houston ACR. That concludes 
the event, thanks.
    Mr. Massimino. Thank you, Senator Mikulski.
    Senator Mikulski. Wow, wasn't that a hearing?
    And, Senator Nelson, we were glad you were here.
    Senators may submit additional questions for this 
subcommittee. We're going to request NASA's responses within 30 
days.

                          SUBCOMMITTEE RECESS

    This subcommittee will now stand in recess until Thursday, 
June 4, at 9:30 a.m., when we'll take testimony from the 
Director of the FBI.
    Before I put down the gavel, wasn't that just wonderful? I 
mean, don't you all feel that that was pretty exciting?
    So, thank you, again, Administrator Scolese, and thank you 
for your job, thank you for your service, and let's go where no 
Senate's gone before, and get this job done.
    [Whereupon, at 12:50 p.m., Thursday, May 21, the 
subcommittee was recessed, to reconvene at 9:30 a.m., Thursday, 
June 4.]

 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2010

                              ----------                              


                         THURSDAY, JUNE 4, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:31 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senators Mikulski, Lautenberg, and Shelby.

                         DEPARTMENT OF JUSTICE

                    Federal Bureau of Investigation

STATEMENT OF HON. ROBERT S. MUELLER III, DIRECTOR

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Good morning, everybody. Today the 
Commerce, Justice, and Science Subcommittee will hear from FBI 
Director Mueller on the FBI's budget priorities for fiscal year 
2010. We welcome the Director of the FBI, who is no stranger to 
this subcommittee, having now been the Director for 8 years.
    This hearing will not only ascertain the appropriations 
needs of the FBI, but I also thought it would be a good time to 
take stock of where we are, not to in any way step on the toes 
of the Intel or Judiciary Committee. But the FBI is a wonderful 
and unique agency. It has iconic status in the minds of the 
American people. The American people count on the FBI to 
protect them from those people that have predatory intent 
against them, whether it's in streets and neighborhoods, 
whether it's when they go to get a mortgage, whether their 
children are on the Internet, or whether their a terrorist who 
would like to take down the United States of America.
    We're going to do something unique today. We're going to 
have a public hearing on the appropriations and then we will 
also have a classified hearing. For those not familiar with 
what the Congress did after 9/11, when we had to see how we 
would deal with the threat of terrorism, the question was would 
we create a new agency, kind of an MI-5, or would we do an 
agency within an agency?
    We created within the FBI a very robust effort on fighting 
terrorism. Many of the things to be discussed regarding what 
tools the FBI needs to meet that national mandate must occur in 
a classified setting. So for the first time CJS will hold a 
classified hearing, and we will look forward to hearing what 
the FBI does.
    I have been concerned for some time. Because that work is 
unseen, as it must, and so it's not often understood by 
policymakers and those who formulate the budget. So today we 
will be in an appropriate classified, secure forum where we can 
get to know more rigorously what the FBI's doing and then what 
we need to do. As part of the national mandate we gave to them, 
what is the national mandate we need to give to ourselves to 
make sure the FBI has any and all appropriate resources?
    We're pleased that the President today is abroad making as 
many friends as we can, but we also know that there are many 
people who, as I said, have this predatory intent.
    Today and at this particular part of the hearing, we want 
the FBI to know how proud we are in how they fight to protect 
Americans. They dismantle organized crimes and drug cartels. 
They combat drug violence. They solve kidnapping and extortion 
cases. They rescue the vulnerable from illicit traffickers. 
They protect children against pornography on the Internet and 
they investigate and prosecute corrupt public officials. We 
want to make sure the American people fully appreciate them and 
we want to make sure that they're fully appropriated.
    As I said, the FBI was given a new mission after 9/11. 
There are essentially what we call four decision units--a 
wonderful way of talking about it when we talk about the FBI. 
I'm just going to review them briefly, go over the President's 
budget, and then want to turn to Senator Shelby, who I know has 
also a defense hearing.
    There are four decision units, meaning how the FBI is 
organized for budgetary purposes. There is the intelligence 
unit, which is requesting $1.64 billion. This is $150 million 
over the President's fiscal 2009 request. This Intelligence 
Directorate includes field agents, virtual translation center, 
language analysis, and foreign terrorist tracking service.
    We also have a counterterrorism and counterintelligence 
unit. That is a $3.4 billion request, 9 percent over fiscal 
2009. Counterterrorism means detecting and defeating terrorist 
operations before they occur--it's a pretty big job, and that's 
what we'll talk about--making sure that weapons of mass 
destruction are not built or detonated or imported to the 
United States. They're dealing now with the new threat of cyber 
computer intrusion, which goes to the President's cyber 
security initiative, and the foreign counterintelligence 
program and the critical response.
    That which the American people are most familiar with is 
the criminal enterprise and Federal crime decision unit. This 
is a $2.8 billion request, $130 million above the fiscal 2009 
appropriated level. The criminal enterprise deals with cyber 
crime, organized crime, trafficking, children's pornography, 
and of course the public corruption cases.
    Then there is the criminal justice services unit, which is 
$427 million, $8 million over last year's $418 million. The 
criminal justice services unit includes crime information on 
stolen property, the national computerized fingerprint check 
system, which local governments rely on so much, the FBI 
forensic laboratory, and many others.
    We know that the FBI has new initiatives on the home front 
that we have asked them to take up. Senator Shelby has been a 
real leader on this in the Banking Committee. Senator, I'd like 
to commend you for that, on mortgage fraud. This subcommittee 
was one of the first to blow the whistle, if you will, to our 
colleagues or, shall we say, sound the horn on alert, that 
there was fraud as part of this economic meltdown, as thousands 
and thousands of Americans lost their homes. It was one thing 
to lose your home because you had lost your job; it was another 
thing to lose your home because of fraud.
    So the FBI is asking for 50 new agents and 61 new forensic 
accountants, for a total of 225 agents, 42 fiscal analysts, and 
61 forensic accountants to investigate complex financial 
investigations. We look forward to seeing if that is adequate 
enough.
    We also know that we continue our very strong efforts in 
the area of child pornography and how that then ties in with 
the other aspect in our bill, with the missing persons unit.
    The FBI also has responsibility for investigating Federal 
civil rights law, which means hate crimes, human trafficking, 
and access to Federal clinics. We have agents working on this 
and we need to continue work on it. I was appalled when Dr. 
Tiller was assassinated in a church on Sunday. I believe it is 
a hate crime. I'm glad that the person who assassinated him has 
been arrested. I look forward to a speedy trial and I look 
forward to those who use violent words to promote violent 
actions taking responsibility for it. But we're glad that the 
FBI is on the job for investigating hate crimes.
    There are many other issues that we want to go over, but we 
want to hear more from Director Mueller than from ourselves. 
I'd like to turn to Senator Shelby for his statement. Senator, 
I would like to also yield to you for a first round of 
questions because we've got defense today. Well, we've got two 
defense hearings, one in the defense and then another kind of 
defense. So why don't I turn it over to you, and use such time 
as you want and ask any questions you want.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you. Thank you, Madam Chairman. I 
will put--with your permission, I'll put my questions in the 
record if I could.
    But, Mr. Director, thank you again for appearing before the 
committee, but also thank you for the job you're doing as the 
leader of the Federal Bureau of Investigation.
    I want to begin by also thanking the men and women of the 
FBI who worked to protect this Nation. We're indebted to them 
for the sacrifices they make to protect our country.
    The FBI's role has changed dramatically, Mr. Director, as 
you know because you've been in the leadership there since 9/
11. The mission now includes fighting terrorism, foreign 
intelligence operations, cyber crime, public corruption, white 
collar crime, and violent crime. Since 9/11 the FBI has shifted 
approximately 2,000 agents from the Criminal Division to 
address the expanding counterterrorism role for a good reason.
    The FBI's request for fiscal 2010 is $7.9 billion and, 
while this is a $560 million increase over the 2009 funding 
level, many vital areas within the FBI remain underfunded, Mr. 
Director, as you know and we've discussed. With the shift of 
thousands of agents from the FBI's criminal mission to 
counterterrorism, a significant burden has been placed on our 
State and our local law enforcement agencies.
    Mr. Director, while I'm grateful for the Bureau's efforts 
on thwarting terrorism--we all are--a 2 percent increase to the 
Criminal Division's budget is hardly a significant improvement 
in the investigative assets that you can provide as the head of 
the FBI to assist State and local partners to fight crime in 
our communities. We know that's a challenge on money and 
otherwise.
    Because the Federal investigative assets are spread so 
thin, the concerns raised in the May 2007 inspector general 
report entitled ``Coordination of Investigations by the 
Department of Justice Violent Crime Task Forces'' are 
troubling. The report states that some DOJ components have 
nationwide policies that require coordination of task force 
operations. The ATF, the DEA, and the Marshall Service entered 
into memorandums of understanding that require their task 
forces to coordinate their operations. Yet the FBI to date to 
my knowledge has no policy of coordination.
    To quote an FBI task force manager in the report, ``The FBI 
only participates in joint investigations as the overall head 
agency and, because the FBI is the lead agency, the FBI special 
agents share information in accordance with FBI policy.'' I 
understand that, too, to a point.
    Although this report was released in May 2007, 2 years ago, 
the situation does not appear to some participants to have 
improved. I continue to receive numerous complaints from 
various law enforcement agencies about the FBI's unwillingness 
to share information or encourage their State and local 
partners not to share with other Federal partners. I think this 
needs to be addressed and I think this is something you could 
do.
    A lack of cooperation and refusal to share information 
helped lead to the worst terror attack in U.S. history. As the 
leader of the top law enforcement agency in the world, I hope 
you will take the initiative and at least address this problem 
the best you can.
    Finally, the Terrorist Explosives Device Analytical Center, 
TEDAC, at Quantico, which we've talked about yesterday in my 
office, provides forensic analysis to the IEDs recovered in 
Iraq and Afghanistan. The need to exploit these devices, as 
you're well aware of, in a timely fashion for the military is 
critical to the safety of our soldiers, and it could be 
critical to our own citizens. This past Tuesday I met with 
Lieutenant General Metz, the Director of the Joint Improvised 
Explosives Device Defeat Organization. He showed me a picture 
of an FBI warehouse filled with boxes of evidence, stacked to 
the ceiling waiting to be processed. You can see it here.
    It is clear that the current TEDAC at Quantico--and you've 
acknowledged this--is undersized, overwhelmed, and lagging. 
According to the Department of Defense, approximately 80 
percent of the material submitted to TEDAC remains unprocessed 
and sits in warehouses. Most of the material sent in 2008 and 
2009 has not even received basic inprocessing and photography. 
At the FBI's rate of processing evidence, the Department of 
Defense indicates that it will take 20 years or more to clear 
the backlog. 20 years, that's too much, as you and I both 
discussed.
    I believe that it's conceivable that somewhere within the 
warehouse of evidence, in one of those boxes, there might be a 
trace element of a fingerprint that could identify a terrorist 
bomb maker. By identifying that terrorist, he could be put out 
of commission and the lives of our warfighters and perhaps our 
citizens could be saved.
    In the past 4 years the committee has provided, as we 
talked yesterday, the FBI with approximately $86 million toward 
construction of a larger and more state of the art TEDAC. I 
hope that we can keep addressing this and build that facility, 
and I know you've indicated support for it.
    Madam Chairman, I have a number of questions I'd like to 
submit for the record. I don't want to eat the time up. I do 
have a defense meeting I have to go to on Appropriations. But I 
will like to join you and the Director and others at your 
closed hearing later.
    Senator Mikulski. Thank you very much, Senator Shelby.
    Director Mueller, the floor is yours.

                     STATEMENT OF ROBERT S. MUELLER

    Mr. Mueller. Allow me to start by saying good morning, 
Madam Chairwoman, Ranking Member Shelby. It's an honor again to 
be here with you.
    As you know, the FBI has undergone and, as you indicated, 
both Senators, we've undergone unprecedented transformation in 
recent years, combining better intelligence capabilities with a 
longstanding commitment to protect the American people from 
criminal threats. In so doing, we remain mindful that our 
mission is not just to safeguard American lives, but also to 
safeguard American liberties.
    I want to thank the chairwoman and ranking member and other 
members of the committee for continuing support over the years, 
ensuring that the FBI has the adequate tools and resources to 
meet these threats from global to regional to local, or be 
those threats from a criminal, a terrorist, or a spy.
    I would also like to thank members of your staff--Gabrielle 
Batkin, Erin Corcoran, Eric Chapman, Art Cameron, Goodloe 
Sutton--for their efforts in this regard and working with us on 
these budgets over the years.
    The FBI's fiscal year 2010 budget request represents an 
outline of the resources needed for the FBI to succeed in its 
mission to keep America safe, while recognizing our 
responsibility to be good stewards of public funds. While my 
written statement and our budget request goes into greater 
detail, I do want to highlight a few specific areas, including 
cyber, economic crime, surveillance, and the FBI's 
infrastructure.
    Certainly the threats currently present in the national 
security arena continue to be a grave concern. Terrorism 
remains our top priority and we cannot become complacent. We 
must continue to guard our country's most sensitive secrets 
from hostile intelligence services. In addition to other 
measures, our budget request includes essential surveillance 
resources to combat these threats.
    Our Nation's cyber infrastructure is also vulnerable to 
compromise or disruption, be it from a terrorist, a spy, or an 
international criminal enterprise. We must continue working to 
stay ahead of those using new and innovative methods to attack 
our networks, and our request does include resources to that 
end.
    As each of you pointed out, these are by no means our only 
priorities. Economic crime, especially mortgage fraud and 
corporate fraud, presents a serious threat to our Nation. We 
are currently investigating more than 2,400 mortgage fraud 
matters, more than double the number from 2 years ago. We are 
investigating more than 580 corporate fraud cases and more than 
1,300 securities fraud cases. We must continue our efforts in 
this area as it grows in magnitude and in scope.
    Historically, the Bureau handled emerging criminal threats 
by transferring personnel within its Criminal Branch to meet 
the new threat. In response to the September 11 attacks, the 
FBI permanently moved approximately 2,000 of our criminal 
agents to our National Security Branch, as has been pointed 
out. This transfer has substantially improved our 
counterterrorism and intelligence programs and we have no 
intention of retreating from preventing another terrorist 
attack on American soil.
    But, it has also reduced our ability to surge resources 
within our Criminal Branch to meet existing and emerging 
threats. I do wish to work with you to restore that balance to 
the extent possible, and in doing so the Bureau must still 
maintain its commitment to other key areas.
    Public corruption continues to be our top criminal 
priority. The FBI has 2,500 pending public corruption 
investigations. In the last 2 years alone, we have convicted 
nearly 1,700 Federal, State, and local officials, and we must 
continue to hold accountable those who abuse the public trust.
    Violent crime is also a substantial, serious concern. The 
citizens of many communities continue to be plagued by gang 
violence and gun crime. Since 2001, our gang cases have doubled 
and the spread of international gangs has increased. The FBI 
continues to combat this threat through more than 200 safe 
streets, gang, violent crime, and major theft task forces 
across the country. I must say as an aside to the comments made 
by Senator Shelby, I do believe that these task forces have a 
reputation of cooperating fully with our Federal and our State 
and local partners. Particularly since September 11, 2001, our 
relationships with Federal, State, and local partners have 
improved substantially around the country, although of course 
there will always be anecdotal evidence from this individual or 
that individual that it is not all it should be.
    So too must we continue to work with our State and local 
counterparts to combat crimes against children, the most 
vulnerable members of our communities.
    Finally, I want to update you on key changes we have made 
within the FBI's infrastructure to more effectively meet 
today's challenges. We know that the FBI's best and strongest 
asset is our people. So we have paid attention to recruiting, 
training, and maintaining a work force with skills necessary to 
meet the challenges of today's mission. Our hiring goals 
include special agents, intelligence analysts, IT specialists, 
linguists, professional staff. This year we have received more 
than 450,000 applications and have already extended over 5,500 
job offers.
    We are also focusing on other portions of our 
infrastructure from information technology to training. 
SENTINEL, our new case management tool, is being developed and 
deployed on time and within budget. The FBI Academy at Quantico 
continues to train not only new special agents and intelligence 
analysts, but also hundreds of State, local, and international 
law enforcement partners each year, forging essential and 
lasting partnerships in a world where crime and national 
security threats are increasingly global.
    In closing, I would again like to thank the committee for 
your support to the men and women of the FBI and I look forward 
to working with the committee on these and other challenges 
facing our country.

                           PREPARED STATEMENT

    Madam Chairwoman, other members of the committee, I 
appreciate the opportunity to be here today and look forward to 
answering your questions. Thank you, Madam Chairwoman.
    [The statement follows:]

              Prepared Statement of Robert S. Mueller, III

    Good morning, Madam Chairwoman Mikulski, Ranking Member Shelby, and 
Members of the Subcommittee. I appreciate the opportunity to appear 
before you today to discuss the President's fiscal year 2010 budget for 
the Federal Bureau of Investigation (FBI). I would also like to thank 
you for your continued oversight of the Bureau and for your efforts to 
ensure our success as we pursue the shared goal of making America 
safer.
    As you are aware, the FBI celebrated its 100th Anniversary this 
past July. When the FBI was created in 1908, we had 34 investigators 
and a budget of about $6 million. Now, the budget request before you 
today includes over 30,000 employees and over $7 billion. Among the 
factors in this increased budget is the substantial growth in the FBI's 
mission over the past 100 years. We have gone from investigating 
gangsters and spies to terrorists and cyber intrusions. After the 
attacks of September 11, 2001, the FBI's priorities shifted 
dramatically as we charted a new course, with national security at the 
forefront of our mission. The intervening 8 years have seen significant 
changes at the FBI, and we have made remarkable progress. Today, the 
FBI is a stronger organization, combining greater capabilities with a 
longstanding commitment to the security of the United States, while at 
the same time upholding the Constitution and the rule of law and 
protecting civil liberties.

                          2010 BUDGET REQUEST

    The fiscal year 2010 budget for the FBI totals 32,883 positions and 
$7.9 billion, including program increases of 1,389 new positions (407 
Special Agents, 321 Intelligence Analysts, and 661 Professional Staff) 
and $581.1 million. These resources are critical for the FBI to perform 
its national security, criminal law enforcement, and criminal justice 
services missions. Most importantly, the additional funding requested 
will continue to build upon our on-going efforts to integrate and 
fortify our intelligence and law enforcement activities.
    Last year, at the urging of Congress and other oversight entities, 
the FBI altered its budget strategy to identify key end-state 
capabilities based on current and anticipated future national security 
and criminal investigative threats. This capabilities-based approach to 
planning ensures that the FBI possesses the capabilities and capacities 
necessary to address these threats. The FBI's 2010 budget strategy 
builds upon both current knowledge of threats and crime problems and a 
forward look to how terrorists, foreign agents and spies, and criminal 
adversaries are likely to adapt tactics and operations in a constantly 
evolving and changing world. This forward look helps inform and 
determine the critical operational and organizational capabilities the 
FBI must acquire to remain vital and effective in meeting future 
threats and crime problems.
    The FBI is continuing to refine the definition of end-state 
capabilities, including appropriate ``metrics,'' as requested by the 
Appropriations Committees.
    The FBI continues to align its budget with the Strategy Management 
System (SMS) to ensure new resources are tied to our strategic vision 
and goals. Through the SMS, the FBI has struck an appropriate balance 
between its national security and criminal missions, and between short-
term tactical efforts and longer-term strategic initiatives. The 2010 
budget builds upon the initiatives delineated in last year's budget and 
will focus on five critical topics.
    I will highlight some key FBI topics below.

                              INTELLIGENCE

    Over the past few years, the FBI has taken several steps to 
transform its intelligence program. Most recently, the FBI has been 
working to examine how we could accelerate this transformation and 
identify areas where we should focus our efforts. We established a 
Strategic Execution Team (SET), comprised of both headquarters and 
field personnel, to help us assess our intelligence program, evaluate 
best practices, decide what works and what doesn't work, and then 
standardize operations across the Bureau.
    With the guidance of the SET, we restructured our Field 
Intelligence Groups (FIGs), so they can better coordinate with each 
other, with street agents, and with analysts and agents at FBI 
headquarters. Drawing from the best practices that were identified, we 
have developed a single model under which all FIGs will function to 
increase collaboration between intelligence and operations, and to 
provide accountability for intelligence gathering, analysis, use, and 
production. The model can be adjusted to the size and complexity of 
small, medium, and large field offices.
    This consistent process better allows us to share intelligence with 
our partners in more than 18,000 law enforcement agencies around the 
country. We also collaborate closely with our international 
counterparts. And as the world continues to shrink and threats continue 
to migrate across borders, it is more important than ever for the FBI 
to be able to develop and disseminate information that will assist our 
partners.
    We have already implemented these recommendations in 24 of our 
field offices, and anticipate full rollout to the remaining field 
offices by December.
    I cannot emphasize enough that targeted intelligence-gathering 
takes time, and requires patience, precision, and dedication. It also 
requires a unity of effort both here at home and with our partners 
overseas. Intelligence enables us to see the unseen and to discover new 
threats on the horizon. Yet even the best intelligence will not provide 
complete certainty, given the nature and number of threats we face.
    The fiscal year 2010 budget includes 480 positions (41 Special 
Agents, 279 Intelligence Analysts, and 160 Professional Staff) and 
$70.0 million to bolster the FBI's intelligence program. These 
resources will, over time, enable the field offices and headquarters to 
better leverage investigative and analytic capabilities to develop and 
maintain a common understanding of the threat issues they currently 
face. Moreover, these requested resources will allow us to better 
identify emerging threats, asses those threats, and act against them.

                                 CYBER

    Protecting the United States against cyber-based attacks and high-
technology crimes is one of the FBI's highest priorities. In 2002, we 
created the Cyber Division to handle all cybersecurity crimes. Today, 
our highly trained cyber agents and analysts investigate computer 
fraud, child exploitation, theft of intellectual property, and 
worldwide computer intrusions.
    The threat of cyber-related foreign intelligence operations to the 
United States is rapidly expanding. The number of actors with the 
ability to utilize computers for illegal, harmful, and possibly 
devastating purposes continues to rise. Cyber intrusions presenting a 
national security threat have compromised computers on U.S. Government, 
private sector, and allied networks. The FBI is in a unique position to 
counter cyber threats as the only agency with the statutory authority, 
expertise, and ability to combine counterterrorism, 
counterintelligence, and criminal resources to neutralize, mitigate, 
disrupt, and investigate illegal computer-supported operations 
domestically. The FBI's intelligence and law enforcement role supports 
response to cyber events at U.S. government agencies, U.S. military 
installations, and the private sector. Because of this, the FBI has 
partnered with other Intelligence Community and Law Enforcement 
partners with complementary missions to establish the National Cyber 
Investigative Joint Task Force (NCIJTF). The task force is a 
collaborative environment and was designed to identify, mitigate, 
disrupt, and investigate cyber threats. Within the operation of the 
NCIJTF, the FBI serves in a leadership, management, and operational 
role. In this capacity, the FBI is not the sole owner of operational 
activities, allowing operations to be conducted under the leadership of 
other member agency's authorities. The FBI's fiscal year 2010 budget 
includes 260 positions (107 Special Agents, 42 Intelligence Analysts, 
and 111 Professional Staff) and $61.2 million to ensure the FBI has the 
technological infrastructure to conduct investigations and to turn 
seized network information into actionable intelligence products that 
can be used across the Intelligence Community to allow the government 
to move from a reactive to a proactive cyber attack response.

                                CRIMINAL

    As you know, the current financial crisis has taken its toll on the 
U.S. financial markets and the American Public. A portion of this 
crisis is due to fraud and faulty accounting practices. The FBI has led 
and taken part in these types of investigations before. If you will 
recall, the FBI investigated the Savings and Loan (S&L) Crisis of the 
1980s, which crippled our economy, and also led the Enron 
investigation. Many of the lessons learned and best practices from our 
work during the past decade will clearly help us navigate the expansive 
crime problem currently taxing law enforcement and regulatory 
authorities.
    The FBI currently has approximately 250 Agents addressing the 
crisis that could result in over $1 trillion in losses, including 
losses due to fraud and other criminal activities. Last year alone, 
financial institutions wrote off over $500 billion due to losses 
associated with the sub-prime mortgage industry. With the passage of 
recent legislation that includes billions of dollars
    being infused into the U.S. economy, including the Housing and 
Economic Recovery Act (HERA), the Emergency Economic Stabilization Act 
of 2008, the Troubled Asset Relief Program (TARP), and other asset 
relief programs, we anticipate an increase in fraud. In addition to the 
agents that are currently on board, the FBI's 2010 budget includes 143 
new positions (50 Special Agents and 93 Professional Staff) and $25.5 
million to assist the FBI in combating mortgage and corporate fraud.
    We also face significant challenges with regard to violent gangs, a 
nationwide plague that is no longer relegated to our largest cities. 
Since 2001, our violent gang caseload has more than doubled, and in 
fiscal year 2008 alone increased by 273 percent. These cases resulted 
in over 7,792 arrests, 2,839 convictions, 716 disruptions of violent 
gang activity, and 59 dismantlements of neighborhood gangs in fiscal 
year 2008.
    As discussed in the 2009 National Gang Threat Assessment, produced 
by our National Gang Intelligence Center and the National Drug 
Intelligence Center, gangs are increasingly migrating from urban to 
suburban and rural areas and are responsible for a growing percentage 
of crime and violence in many communities. In addition, much of the 
gang-related criminal activity involves drug trafficking. We routinely 
work with our State and local partners to combat this pervasive threat, 
including over 140 Safe Streets Violent Gang Task Forces across the 
country dedicated to identifying, prioritizing, and targeting violent 
gangs. Task forces are extremely important in making the best use of 
available resources, and are used as a force multiplier to increase 
productivity and avoid duplication.

                               TECHNOLOGY

    Although the FBI's information technology systems have presented 
some of our greatest challenges, they have also resulted in some of our 
most significant improvements in the past 8 years. The FBI has made 
substantial progress in upgrading its information technology 
capabilities to help us confront current threats and mission needs. 
Technology is the cornerstone to fulfilling the FBI mission as well as 
creating efficiencies for both FBI personnel and our Intelligence and 
Law Enforcement Community partners. Leveraging technology will allow 
the FBI to provide forensic, analytical, and operational technology 
capabilities to FBI investigators and analysts, law enforcement 
officers, and the Intelligence Community. Without enhanced resources to 
invest in applied research, development, knowledge building, testing, 
and evaluation, the FBI will not be able to take advantage of emerging 
technologies or adapt to a constantly changing and evolving threat and 
operational environment.
    Although I have hired a new Chief Information Officer, Chad 
Fulgham, our priorities have not wavered. As you are aware, the FBI has 
dedicated significant effort towards SENTINEL, a case management system 
that will revolutionize the way the FBI does business. SENTINEL will be 
a fully automated, web-based case management system designed to support 
both our law enforcement and intelligence mission. The system, when 
completed, will help the FBI manage information beyond the case focus 
of existing systems, and will provide enhanced information sharing, 
search, and analysis capabilities. SENTINEL will also facilitate 
information sharing with members of the law enforcement and 
intelligence communities. Phase I of SENTINEL was deployed Bureau-wide 
in June 2007. Phase II is being developed in increments, with the first 
segment to be delivered this April and continuing throughout the 
summer. The remaining phases will deliver additional capability through 
the end of development, in summer 2010.
    The FBI is one of the few agencies that operate on three enclaves--
unclassified, Secret, and Top Secret. We are continuing to deploy UNet, 
our unclassified Internet-connected system, to field offices 
nationwide. When complete, we anticipate approximately 39,000 UNet 
workstations will have been deployed to all FBI locations. We are also 
continuing the rollout of Blackberries to all agents, analysts and 
other critical professional support employees. This has provided these 
individuals with the ability to conduct their daily operational duties 
in the field without being chained to a desk. Their blackberry provides 
them with access to critical Sensitive but Unclassified applications 
they would normally access at their desks, such as email, Internet, the 
National Crime Information Center (NCIC), the Department of Motor 
Vehicles, etc. We are also continuing the technical refreshment of our 
Secret workstations, where most FBI employees conduct their day-to-day 
business. In addition, we continue to deploy SCION, our Top Secret 
network, to headquarters and field offices around the country. 
Strengthening these information technology programs allow us to 
communicate with our law enforcement and intelligence community 
partners in real-time.
    We are also in the midst of developing the Next Generation 
Identification (NGI) system. NGI will expand the FBI's Integrated 
Automated Fingerprint Identification System beyond fingerprints to 
advanced biometrics. It will also produce faster returns of 
information, enabling law enforcement and counterterrorism officials to 
make tactical decisions in the field. Criminals ranging from identity 
thieves to document forgers to terrorists are taking advantage of 
modern technology to shield their identities and activities. This trend 
will only accelerate. Our new system will improve fingerprint 
identification capabilities, and as it becomes cost-effective, 
additional biometric data from criminals and terrorists. It will give 
us--and all our law enforcement and intelligence partners--faster 
capabilities that are more accurate and complete.
    We are also building a Biometrics Technology Center, a joint 
facility with the Department of Defense's (DOD) Biometrics Fusion 
Center, which will serve as the center for biometric research and 
development. This facility will advance centralized biometric storage, 
analysis, and sharing with State and local law enforcement, DOD, and 
others. The FBI is currently working with the DOD in theater in Iraq 
and Afghanistan to collect and search biometrics information. This 
effort has shown the critical role emerging biometric technology has 
played in the war on terror. Information collected in Iraq and 
Afghanistan is transmitted via mobile biometric devices to global 
databases at the FBI Criminal Justice Information Services Division 
main facility, which houses the largest centralized collection of 
biometric information in the world. This biometric information is 
searched and matching results are relayed to units back in the field to 
assist in their operations and investigations. The fiscal year 2010 
budget includes $97.6 million in our construction account to move the 
construction phase of this project forward.
    The FBI must also keep pace with evolving technology. Currently, 
all wireless carriers in the United States are upgrading their networks 
to third Generation wireless technology. This upgrade will radically 
transform voice, internet, email, short message service, multimedia 
services and any future services from circuit-switched data to packet 
transferred data. The FBI, along with the rest of the Intelligence 
Community, has created a Joint Wireless Implementation
    Plan, which will allow us to provide the field with advanced tools 
and technologies as well as provide adequate training on the use of 
duly authorized wireless intercept and tracking tools. The fiscal year 
2010 budget includes $20.5 million to assist us in keeping abreast of 
this cutting edge technology and the ability to counter the technology 
posed by our adversaries.

                             INFRASTRUCTURE

    Critical to the success of the FBI's mission are safe and 
appropriate work environments. Since September 11, the FBI's workforce 
has grown substantially. While the FBI has made considerable effort to 
hire quality personnel, provide the necessary training, and properly 
equip these new personnel, much of the FBI's infrastructure has not 
kept pace. For example, the FBI continues to work to provide secure 
work environments for handling classified information and computers and 
other technology. In particular, there are two construction projects 
that are critical to the FBI's mission which are included in the fiscal 
year 2010 request.
    The FBI Academy, in Quantico, VA was built in 1972, and has not 
undergone major renovation or upgrade since, aside from the addition of 
a dorm in 1988. The Academy is home to new Agents for the first 21 
weeks of their FBI career; is the setting for new Intelligence Analyst 
training; houses the National Academy, which is a professional course 
for United States and international law enforcement officers to raise 
law enforcement standards, knowledge and cooperation worldwide; is the 
venue for the FBI's Leadership Development Institute, which provides 
leadership development education to FBI employees; and is the locale 
for various other FBI training opportunities. The Academy is 
continuously operating at maximum capacity, which leaves little 
opportunity for both scheduled and unscheduled renovation--a necessity 
due to the age of the Academy. The fiscal year 2010 budget includes $10 
million for an Architectural and Engineering (A&E) study, which will 
help us determine the full scope of renovations/construction necessary.
    In addition, we are in dire need of a Central Records Complex 
(CRC), which will consolidate and digitize FBI records now dispersed 
among 265 FBI locations worldwide. The CRC will enable us to 
efficiently locate and access all of our records quickly, thus allowing 
us to more effectively process name checks, as well as provide critical 
case and administrative data that can be used for intelligence and 
investigative purposes. The fiscal year 2010 budget includes $9 million 
to prepare these records to be universally-searchable, accessible, and 
useful intelligence and investigative tools prior to relocation to the 
CRC.

                               CONCLUSION

    Chairwoman Mikulski, I would like to conclude by thanking you and 
this Committee for your service and your support. Many of the 
accomplishments we have realized during the past 8 years are in part 
due to your efforts and support through annual and supplemental 
appropriations. Unlike the FBI of 1908, today's FBI is much more than a 
law enforcement organization. The American public expects us to be a 
national security organization, driven by intelligence and dedicated to 
protecting our country from all threats to our freedom. For 100 years, 
the men and women of the FBI have dedicated themselves to safeguarding 
justice, to upholding the rule of law, and to defending freedom. As we 
look back on the past 100 years, we renew our pledge to serve our 
country and to protect our fellow citizens with fidelity, bravery, and 
integrity for the next 100 years, and beyond.
    From addressing the growing financial crisis to mitigating cyber 
attacks and, most importantly, to protecting the American people from 
terrorist attack, you and the Committee have supported our efforts. On 
behalf of the men and women of the FBI, I look forward to working with 
you in the years to come as we continue to develop the capabilities we 
need to defeat the threats of the future.

    Senator Mikulski. Mr. Director, we also want to note that 
Senator Lautenberg, one of our real active members, has joined 
us. Senator, I'm going to ask questions for a few minutes and 
then turn it over for comments and your questions as well.
    Senator Lautenberg. Thank you very much, Madam Chairman. 
It's been a privilege to work with you as chairman over lots of 
years. Senator Mikulski is someone who knows how to hit the 
ball, hit it far and deep. We always----
    Senator Mikulski. Better than the Orioles.
    Senator Lautenberg. We always like being with her at 
committee hearings and other places.
    Mr. Mueller----
    Senator Mikulski. Senator, I haven't asked my questions, so 
I'm going to lead off with my questions.
    Senator Lautenberg. Okay. I'm sorry, I misunderstood.
    Senator Mikulski. I was just welcoming you. Let me get 
right to my questions and then we can get to other members as 
they come. First, I'm going to ask a question that is mundane 
and yet significant. This goes to another job we have in this 
CJS Subcommittee, which is making sure that the census is done 
on time. The census needs to be done on time and it's had 
significant technological failure and will need to be more 
manpower intensive.
    Is the FBI ready? With all of the security clearances or 
background checks that it's working on, will the FBI have 
sufficient ability to process the significant thousands of 
numbers of people that we have to hire to take the census? 
Remember, we're going to have people in every community saying: 
I'm from the government; I'd like to ask you some questions. 
Which means they'll be exposed to vulnerable populations, and 
we need to make sure they have had rigorous background checks.
    Also, have you worked with the Census Bureau to make sure 
we'll be able to work at the State and local level to make sure 
that there will not be people imitating the census people? I 
think that's actually also a question for Secretary Locke.
    You know, I worry about the FBI in so many ways, about 
having the resources. But really, with the new administration, 
you're working doubletime on doing background checks. While 
we're going to talk about mortgage fraud and fighting 
terrorists and stopping trafficking of human beings, we've got 
the FBI doing all these background checks.
    So let me start with the census and ask, will you be able 
to meet the needs, because it will require a surge capacity?
    Mr. Mueller. Let me start, Madam Chairwoman, if I may, by 
saying that in the budget we've requested resources for agents 
and others to enhance our capability to do background checks 
generally, because it comes out of our other programs, and at a 
time like this, with a new administration, we take a great deal 
of resources and put them on the background checks. So our 
budget request for 2010 does include resources there.
    Turning to the census, we began working with the Census 
Bureau----
    Senator Mikulski. You say that in order to vet the 
administration's new people you do have the resources to do the 
background checks?
    Mr. Mueller. We do it now, but we take it--again, we 
prioritize, but I think you will find that the administration 
is quite satisfied with the pace of our background checks on 
the nominees that they've proposed. But it does take resources 
from other----
    Senator Mikulski. But it's a strain on the FBI to do this?
    Mr. Mueller. It is a strain on particular offices. That is 
why we have specifically asked for additional resources down 
the road in 2010 to address the background checks. The current 
nominees, we have effectively, efficiently, and in a timely 
manner provided the backgrounds necessary to move forward and 
place persons in positions in this administration.
    Let me move if I could to the issue of the census. In 
response to your letter of April 30, we have a response here 
today, we provided a copy to your staff, that addresses those 
questions in more detail. In brief, I can tell you that since 
2007 we have been working with the Census Bureau on this 
particular issue. We anticipate that there will be something 
like 4.5 million names that we will have to run through records 
checks, and we are working with the Census Bureau in a number 
of ways to assure that this could be done efficiently.
    First, we have established communications lines with the 
Census Bureau so that we can talk and exchange information 
quickly. We have had some difficulties with the quality of the 
fingerprint submissions to date and we are working with the 
Census Bureau to make certain that we improve and increase the 
fingerprint submissions. We are increasing our capabilities at 
IAFIS, our fingerprint facility out in West Virginia, and we 
are also anticipating peak processing periods where we will 
have to put on additional persons to respond to requests that 
will come in in some volume at particular points in time in the 
growth of the work force for the taking of the census.
    So with that in place, I think we, with the Census Bureau 
are satisfying the need to make certain that we are responsive 
to their needs.
    The other issue that you raise and have raised before, and 
that is individuals masquerading as census takers. We intend to 
be alert to that, to work with our field offices to very 
swiftly respond to any indications of that type of fraud, and 
move quickly to investigate, turn it over to the prosecutors, 
so that those individuals who would undertake that activity 
would be prosecuted.
    Senator Mikulski. Well, I think that's fantastic. I don't 
want to dwell on this, but I want the record to show, number 
one, the Census Bureau will hire 1.5 million workers. This is 
while we're also screening for Cabinet-level positions and 
other security clearances. So we're asking the FBI to do a lot. 
I know this is not the kind of question that, oh, everybody 
comes and wants to be on CNN, but it's really significant. And 
the FBI only has so many people.
    So we thank you for your response to this. We're going to 
take your letter that is a formal answer to the question and 
with unanimous consent include it in the record. As we move on, 
I believe you and Secretary Locke really are ready to do this. 
So thank you.
    [The information follows:]
                                U.S. Department of Justice,
                                      Washington, DC, June 3, 2009.
Hon. Barbara A. Mikulski,
Chairwoman, Subcommittee on Commerce, Justice, Science and Related 
        Agencies, U.S. Senate, Washington, DC.
    Dear Madam Chairwoman: I am writing in response to your letter 
dated April 30 concerning the FBI's ability to conduct fingerprint 
searches and name-based background checks on temporary employees to be 
hired in support of the 2010 Census. You requested specific information 
regarding steps the FBI is taking to guarantee that the 2010 Census 
will not be delayed due to these necessary background checks; how the 
increase in workload will affect the FBI's background check system and 
the associated human resources; and if there will be any additional 
costs incurred in order to conduct these checks in a timely manner.
    The U.S. Census Bureau currently estimates that 4.6 million names 
will be forwarded to the FBI for background checks and 1.4 million 
fingerprint cards will be electronically submitted to search against 
the FBI's Integrated Automated Fingerprint Identification System 
(IAFIS). Recognizing the significant challenge of this undertaking, the 
FBI's Criminal Justice Information Services (CJIS) Division and the 
U.S. Census Bureau have been working together since 2007 to ensure that 
the background check process does not adversely affect the conduct of 
the 2010 Census.
    These preparations include the following:
  --Submission of Names and Fingerprints by the U.S. Census Bureau.--An 
        efficient and effective process for the submission of names and 
        fingerprints by the U.S. Census Bureau is essential. The CJIS 
        Division recently enhanced its telecommunications 
        infrastructure that connects to the U.S. Census Bureau in 
        Bowie, Maryland, in order to support the volume of information 
        expected to be submitted. A second telecommunications line will 
        be temporarily installed in Bowie as a backup to ensure there 
        is no interruption in service. In addition, the CJIS Division 
        recently traveled to the U.S. Census Bureau's National 
        Processing Center in Jeffersonville, Indiana, to observe the 
        fingerprint scanning process, participate in mock training 
        sessions for employees involved in the background check 
        process, and provide feedback regarding those activities.
  --Improving the Quality of U.S. Census Bureau Fingerprint 
        Submissions.--The CJIS Division is working closely with the 
        U.S. Census Bureau to improve the quality of its fingerprint 
        submissions. Historically, rejection rates for all fingerprint 
        submissions have been relatively low, with the fiscal year 2008 
        rate less than 5 percent. To date, submission rejection rates 
        for the 2010 Census average over 40 percent, with peaks above 
        60 percent. Substandard submissions create a number of 
        problems, including the need to resubmit the fingerprint 
        information, utilization of an inordinate amount of system and 
        human resources to resolve borderline submissions, and an 
        increase in the potential for missed identifications of 
        applicants who should be disqualified. In the past, there have 
        also been instances where high rejection rates of U.S. Census 
        Bureau search requests have resulted in degradation in the 
        required 2-hour response time for criminal justice submissions.
      During the on-site visit to the U.S. Census Bureau's National 
        Processing Center, CJIS Division representatives suggested that 
        the U.S. Census Bureau activate the image quality functions on 
        all scanners to reduce the frequency of inferior quality images 
        being submitted to the IAFIS. This built-in functionality 
        alerts U.S. Census Bureau personnel of potential fingerprint 
        sequence errors and insufficient image quality, thus providing 
        the opportunity for corrective action prior to electronically 
        transmitting images to the IAFIS. Such a change in procedure 
        would preserve U.S. Census Bureau and CJIS Division personnel 
        resources, as well as allow the U.S. Census Bureau to avoid 
        additional user fees from the resubmission of fingerprint 
        images.
  --Upgrading Components of the IAFIS.--The CJIS Division is currently 
        upgrading many components of the IAFIS. These upgrades, while 
        primarily directed at the future growth of fingerprint 
        submissions and expansion to include other biometric-related 
        submissions, will also benefit the 2010 Census. These benefits 
        will include larger storage capacity and a faster, more 
        reliable network for all CJIS systems.
      The increased workload from the 2010 Census will, for the most 
        part, not adversely affect the FBI's regular background check 
        system. The name-based background checks and fingerprint checks 
        submitted in support of the 2010 Census can be accommodated by 
        the current IAFIS in all but the peak processing period.
  --Peak Processing Periods.--As previously noted, the U.S. Census 
        Bureau projects that nearly 4.6 million name-based search 
        requests will be forwarded to the FBI. Subsequent to the name-
        based checks, 1.4 million fingerprint cards will be 
        electronically submitted for a search against the IAFIS 
        database. Although fingerprint submissions will occur from 
        December 2008 through 2011, there will be an extremely elevated 
        submission rate during April 28-30, 2010. During this 3-day 
        time period, the U.S. Census Bureau expects to submit 
        approximately 485,000 fingerprint background checks to the CJIS 
        Division. This is in addition to the FBI's current daily 
        average fingerprint workload of 175,000 submissions. The U.S. 
        Census Bureau workload estimate does not reflect the projected 
        30 percent rejection rate due to fingerprint submissions of 
        insufficient quality. If the suggestions for improvement in 
        fingerprint quality discussed above are not successful, the 
        U.S. Census Bureau submission numbers could grow to over 
        600,000 for this 3-day period.
  --Mitigating Actions Planned.--The FBI will take several steps to 
        ensure timely processing of the U.S. Census Bureau submissions 
        during the peak period without adversely affecting submissions 
        from other agencies. The CJIS Division plans to temporarily 
        redirect staff during the peak processing period and will 
        provide overtime compensation and other incentives, as 
        necessary, to ensure the availability of adequate staff. In 
        addition, the CJIS Division has coordinated with other agencies 
        to adjust the processing of their submissions to accommodate 
        the anticipated fingerprint submissions from the U.S. Census 
        Bureau. Specifically, CJIS plans to queue nonurgent 
        transactions from other agencies during April 28-May 2, 2010. 
        All users of IAFIS have been notified, through the CJIS 
        Advisory Policy Board and the Compact Council, that during 
        April 28-May 2, 2010, various types of noncriminal justice 
        transactions will be held in queue for processing until May 3, 
        2010. In addition, processing for some criminal transactions 
        considered to be nonurgent in nature will be limited during 
        this time period. There will be no degradation in service to 
        the criminal justice community as a result of these actions.
    In response to your inquiry regarding additional costs to the FBI 
to support the 2010 Census, the CJIS Division is currently upgrading 
many components of the IAFIS. These upgrades will provide larger 
storage capacity and a faster, more reliable network. The CJIS Division 
estimates the costs of these upgrades to be approximately $70 million 
and, while primarily directed at the future growth of fingerprint 
submissions and expansion to include other biometric-related 
submissions, these upgrades will also benefit the 2010 Census. This 
cost will be offset by approximately $34 million in fees to be paid by 
the U.S. Census Bureau, for a net cost to the FBI of approximately $36 
million.
    The FBI appreciates your interest regarding the potential risks 
posed as temporary U.S. Census Bureau employees visit the homes of the 
general public and will take all steps necessary to support the 
processing of background checks for the 2010 Census. To this end, it is 
crucial that the U.S. Census Bureau commits to capturing fingerprints 
of sufficient quality to assist the FBI in identifying perpetrators of 
criminal acts and terrorist-related crimes.
    I hope this information will be of assistance to you.
            Sincerely Yours,
                                    Robert S. Mueller, III,
                                                          Director.

    Senator Mikulski. This then takes me to the issue of 
sufficient agents. In your testimony you said that after 9/11, 
2,000 of your criminal agents were moved to the National 
Security Branch, and they did a spectacular job. However, ``It 
reduced our ability,'' you say, ``to surge resources within our 
Criminal Branch and meet existing and emerging threats.'' What 
we want to do is begin to help the FBI balance the multiple 
demands on it. We want you to be vigorous and stand sentry over 
these international predatory and even domestic threats. But we 
really want the FBI to continue to be the FBI that we know and 
love and count on, which is domestically.
    In the President's budget you're given more resources. You 
have 450,000 applicants, that's a pretty amazing number. Do you 
have enough money to hire enough agents to do what you need, 
not only in the National Security Branch, but again to in some 
ways recapitalize our criminal enterprise area of the FBI?
    Mr. Mueller. We always have to prioritize. We did before 
September 11, depending on the surge of crime in the country 
before September 11. Our budgets in the last couple of years 
and this one seek additional resources, agents, principally in 
the cyber arena, as well as in mortgage fraud. We have received 
additional agents in those areas in years past. We could always 
use more agents. We have probably more than 530, I think, 
agents working mortgage fraud, corporate fraud, securities 
fraud at this juncture. Back in the savings and loan crisis, 
again in the early 1990s, we had almost 1,000.
    Now, we have become, I believe, more effective in 
addressing white collar criminal cases by understanding that we 
need to move quickly and to bring them to fruition more quickly 
than we have in the past, and using computers and databases and 
intelligence capabilities to focus on and prioritize those 
cases. But nonetheless, we could always use more resources 
there.
    Again, one thing that should not be lost, though, is that 
it's not just agents; it's the infrastructure for the agents.
    Senator Mikulski. Right.
    Mr. Mueller. We can--I will say, over a period of time 
Congress has allocated to us agents, but what you need with 
those agents is the supporting infrastructure, the intelligence 
analysts, the professional staff, the training. So it's not 
just a focus on agents itself, but on the support that the 
agents need. In our budget request, we have focused on 
expanding the academy. We have funds in here for security 
training and career paths. We have funds in here for 
intelligence, and it's not just intelligence for the national 
security mission, but also for the criminal mission.
    So it's not just the agents we need, but it's also the 
infrastructure to support the additional agents on the criminal 
side.
    Senator Mikulski. Well, thank you. I'm going to follow up 
on a second round, but I'd like to turn to Senator Lautenberg.
    Senator Lautenberg. Thank you, Madam Chairman. The comments 
I made earlier I assume stand in the record, about the guidance 
and the leadership of the chairman.
    Mr. Mueller, we have great respect for you. You have 
treated the position, that it gains I think more honor for a 
very distinguished group of people who we count on so dearly.
    With 9/11, we learned that we have to be on guard 
constantly and, I might say, deeply with threats that come to 
our country. I was just in Turkey and the prime minister there 
decreed that one of the organizations that we have on the 
terrorist list, one of the countries, that he sees no problems 
with it. I found it really disturbing because when you look at 
the forces that we put together to fight against terrorism, it 
numbers in the hundreds of thousands of people. I think the 
chairman made reference to that.
    So I thank you and the people who serve with you for your 
diligence and hard work and commitment to duty.
    I want to commend the FBI for the recent sting operation 
that resulted in the arrests of four men plotting to bomb 
synagogues in New York City. As you're aware, Federal law 
actually allows individuals on the terror watch list to 
purchase a gun or even explosives, unless they have some other 
disqualifying factor such as being a felon. In response to a 
letter that I sent you in 2005, the Department of Justice 
recommended giving the attorney General the power to deny guns 
and explosives to terror suspects. Yet we still have the 
condition that existed then.
    Isn't it time to close the terror gap in our laws?
    Mr. Mueller. Denying a weapon to somebody who's not 
convicted of an offense or subject to a psychiatric disability 
and the like is an issue that has been debated over the years. 
I would have to defer to the Department of Justice in terms of 
the current position on to what extent the identification of an 
individual as being associated or affiliated in some way with 
terrorism should bar that individual from obtaining a weapon.
    We are notified when there appears to be a purchase by 
somebody who is affiliated with a terrorist group. But that is 
different than barring that individual from the outset from 
purchasing a weapon. But again, I have to defer to the 
Department of Justice in terms of the policy position that it 
is going to take on that issue.
    Senator Lautenberg. You know, I've been a long-time 
supporter of closing the gun show loophole, which permits 
unlicensed dealers to operate without any responsibilities 
about the person they are considering selling a gun to. They 
don't have to ask a question about name, no identifying, 
address, any background. We came awfully close some years ago 
in closing that loophole. Every time we see a situation develop 
where someone gets a gun, often illegally, and goes ahead and 
kills somebody because they're angry or otherwise--and lots of 
times these things are purchased, as was in Columbine, by 
someone underage and without any qualifications.
    How do you feel about the gun show loophole?
    Mr. Mueller. Again, I'm going to defer to the Department of 
Justice. It's a policy issue that is made generally by the 
administration and by the Department of Justice.
    Senator Lautenberg. Let me ask you then, do you think that 
we would be safer if there was regulatory jurisdiction on 
unlicensed dealers?
    Mr. Mueller. I believe there are arguments on both sides of 
that. From the parochial law enforcement perspective, fewer 
guns is better, from the perspective of law enforcement. On the 
other hand, this is a country which has so many guns at this 
point. You can't compare it to a European country that has had 
centuries--not centuries, because you haven't had guns hundreds 
of years, but certainly decades of stringent gun enforcement.
    So you can argue both sides of that, and again I defer it 
to the Department of Justice.
    Senator Lautenberg. I don't want you to do that. I don't 
want you to argue both sides. You're a man of honesty and good 
judgment. So we'll pass it.
    Madam Chairman, may I have just a few minutes more, please?
    Senator Mikulski. Go right ahead.
    Senator Lautenberg. Thank you.
    The FBI, as you know, identified the stretch between Port 
Newark and Liberty International as the most dangerous 2 miles 
in America. That was for a terrorist attack. An attack on this 
2-mile area could cause untold suffering, death, injury, but 
crippling also the economy by disrupting major portions of the 
country's rail lines, oil infrastructure. We'd shut down the 
air traffic system, communications, all of these things.
    Now, how will the FBI use these resources? I for one think 
that there's no question but that we have to respond to your 
request for a budget that gives you more--a better facility and 
more people. How will the FBI use the resources in that request 
to protect, further protect this 2 miles?
    Mr. Mueller. The resources we're requesting, whether it be 
a WMD response or cyber security, we have requests in for 
enhanced surveillance and we've got requests in for enhancing 
as I may have mentioned, our intelligence program, and national 
security investigations across the country.
    But the understanding of the vulnerabilities of that 2-mile 
stretch has been longstanding. Not only us; by DHS too. There 
are a number of pieces that have been put in place already to 
protect it, amongst them the Joint Terrorism Task Force in 
Newark, which works closely not only with State and local 
counterparts in Newark and northern New Jersey and New Jersey 
as a whole, but also with New York.
    On that Joint Terrorism Task Force are airport liaison 
agents that operate Newark International Airport. We have 
maritime liaison agents that are looking at the maritime 
vulnerabilities. We have an area maritime security committee 
for the Port of New York and New Jersey that is a separate 
entity addressed specifically to those issues. We also have 
coordination with the rails, the railroad companies, and on the 
national railroad system.
    Senator Lautenberg. Not meaning to interrupt, but what 
will--will the additional funds being requested help us be more 
effective in our terrorist act prevention role?
    Mr. Mueller. It will, in two specific ways. One, in terms 
of additional resources, special agents, professional staff and 
others, to conduct investigations or follow leads when we get 
counterterrorism leads; the other area, providing additional 
resources to build up our intelligence capability with special 
agents, with intelligence analysts, and with professional 
staff, that will increase our ability to gather insight into 
potential threats, including potential threats to this strip in 
northern New Jersey.
    Senator Lautenberg. The gun show loophole, as I described, 
allows just about anybody to walk in and buy a gun, including 
an assault weapon. Yet criminal background checks can be 
completed in a matter of minutes. Shouldn't we require criminal 
background checks for all gun purchases at all gun shows?
    Mr. Mueller. Again, I think I incorporate my answer before. 
You can argue both ways, but this is an issue that is a policy 
issue that's left really to the Department of Justice. Whatever 
policy arguments are made by the Department of Justice I will 
be supportive of.
    Senator Lautenberg. Mr. Mueller, you're too good for 
passing that ball. I don't want to put you in a spot here, but 
your opinions--and I don't know how guarded you have to be when 
throwing out an opinion.
    Mr. Mueller. I can tell you, as I said before, from the 
perspective of law enforcement, fewer guns and the ability to 
track guns enhances our capabilities.
    Senator Lautenberg. Madam Chairman, you know very well that 
I wrote the law to prohibit spousal abusers from getting 
Federal gun permits. When I fought the legislation through, it 
was 1996 and they said: Ah, you don't need it, and so forth. 
And I did it in a way that it had to come up for a vote. 
Reluctantly on the part of many here, the bill was passed into 
law.
    We have since 1986, since I wrote that law, we've had over 
150,000 household bullies denied gun permits, and having to 
fight the fight with that was a terrible----
    Senator Mikulski. How many?
    Senator Lautenberg. 150,000. 150,000 of these household 
bullies have been denied gun permits.
    Senator Mikulski. First of all, that's a great term, 
``household bully.'' But 150,000 people probably meant you 
either saved a spouse, a child, or a law enforcement officer 
coming to their rescue.
    Senator Lautenberg. That's the case, and the first 
conviction came from a fellow who was a U.S. attorney in 
Denver, Colorado, whom I knew, and he called me up. He was so 
cheerful. He said: Frank, I've got great news; we just 
convicted one of these guys, a spousal abuser, and he got a 
3\1/2\ year term for having acquired a gun, and had been only 
with a misdemeanor conviction only. Felons can't get them.
    Anyway--and I'll close, Madam Chairman. The FBI's Newark 
Division covers all New Jersey counties except for three that 
are covered by Philadelphia. The split hinders, I am told, New 
Jersey's ability to have a unified strategy for combating 
crime, including gangs and gun violence, is at odds with the 
U.S. attorney's office and the ATF, both of which cover the 
whole State.
    Would you commit to working with our office and the New 
Jersey Attorney General's Office to take a look at this issue 
and see if we can improve the operation by having it more 
carefully managed by the New Jersey headquarters?
    Mr. Mueller. I understand there have been ongoing 
discussions with Ann Milgram, who's a very good State's 
attorney, on that particular issue, as well as the issues 
relating to the Philadelphia area. It's Camden we're talking 
about, and Philadelphia. I believe we're working through those 
issues. They are complicated in some sense because, what I have 
come to find, that criminals don't really care about the 
borders. Criminals in Camden and Philadelphia don't really care 
that Camden may be in New Jersey and Philadelphia is in 
Pennsylvania. Gangs can operate very swiftly across borders. 
You see it here in this area with the District of Columbia and 
Maryland or the District of Columbia and Virginia, and they 
don't care about these borders.
    For us to be effective, one of the things we can bring to 
law enforcement is the oversight of bringing the intelligence 
together from two separate entities, two States, in an area 
where criminals don't care about the different States. In order 
to be effective in reducing and investigating and locking up 
gang members, for instance, you need that overview.
    That's one of the issues that we're discussing with the 
Attorney General of New Jersey and we do want to work through 
it and come up with a resolution, because I do understand from 
her perspective the desire to take care of her State and the 
responsibility she has working with the New Jersey State Police 
and the like. So there are some conflicting issues there that 
we're working through.
    Senator Lautenberg. Thank you, Madam Chairman.
    Senator Mikulski. Thank you.
    If you intend to leave and join us for the classified 
hearing, we're going to be finished with this part in about 15 
minutes and we'll resume. We're going to move up the classified 
hearing. So we'll move that up to quarter of 11 o'clock, and 
that way the Director will be able to expedite our conversation 
and also leave you to be on your way to fight crime and 
predators and for truth, justice, and the American way.
    But in the meantime, a couple of more questions. I really 
value your comments in which you said that, yes, we need more 
special agents, but we need more intelligence analysts, more 
professional staff, and we need the resources to properly train 
them. I'd like to talk about training and technology and the 
situation at Quantico, which is kind of like the Naval Academy 
at Annapolis or West Point. You are the FBI Academy.
    Let's go to technology. Really the major tool of the trade 
today to do so much about what you're asked to do is new uses 
of technology. We had a rough time with SENTINEL, where we had 
to start all over again. Could you brief the committee, number 
one, on the fact that you've hired a new CIO, and also where we 
are on SENTINEL? As you know, we did have to start again, at 
considerable cost to the budget. So are we on time, on line, 
and ready to do the job?
    Mr. Mueller. Yes, ma'am. The failure was on what was called 
the Virtual Case File system early in this decade, where it had 
been put together early on without understanding our needs and 
ultimately did not satisfy our needs and at bottom would not 
work. The SENTINEL project that's been ongoing for 2, 2\1/2\ 
years now is on target to finish in I think 2010 and is within 
budget.
    There have been adjustments that have been made along the 
way because we've done it in phases, the understanding being 
that I wanted to make absolutely certain that the first phase 
worked and that we laid the groundwork for the second phase and 
then the third and the fourth phase. We're finishing up the 
second phase now and, as I say, we've done I believe a good job 
of developing this, shifting internally to the program to take 
advantage of lessons that we've learned from phase one so that 
we can make improvements in phases two, three, and four.
    I will tell you that our work with the contractor, Lockheed 
Martin, has worked well. I meet with the CEO of Lockheed Martin 
every 6 months to make certain that both of us know that it's 
on track and that any issues or glitches will be addressed by 
both of us. It has been a very worthwhile relationship.
    So I am comfortable and confident that we are on the right 
track.
    Senator Mikulski. When will SENTINEL be done? I mean, when 
will you have completed it?
    Mr. Mueller. I believe the last date is--it's the summer of 
2010. I will tell you, just so that you know, we are going 
through right now one of the more challenging phases, and that 
is, without getting into the specifics, but moving databases, 
making certain that the security is adequate and the like. So 
our expectation is that it will be done by summer of next year, 
2010. But we are going through some of the toughest periods.
    Senator Mikulski. Well, as you say in your written 
testimony that you submitted: ``The FBI is one of the few 
agencies that operates in three enclaves in terms of the net: 
unclassified, Secret, and Top Secret.'' Which also means the 
case management files have to operate at those three enclave 
levels. Am I correct in that?
    Mr. Mueller. You're correct. Right now SENTINEL will go 
generally at the second level, which is the Secret level. We're 
putting in place plans to expand it to the other levels.
    Senator Mikulski. Now I want to go to the next one, which I 
found really surprising here. It said you are now going on 
something called the UNet, which is your unclassified Internet 
connect system, and you're now giving every agent a BlackBerry. 
Is that correct? I thought----
    Mr. Mueller. I think we have something like----
    Senator Mikulski. Do you mean every agent doesn't have what 
everybody else has?
    Mr. Mueller. No, everybody--all persons, whether it be 
agents or analysts, who profitably can use the BlackBerry in 
the course of their work have a BlackBerry. I think it's over 
20,000 at this juncture BlackBerries throughout the Bureau. And 
we have additional capabilities that we're including, in other 
words access to CGIS databases that will make the BlackBerry 
not only indispensable as it is to communications, whether it 
be email and otherwise, but also to data that the agent can use 
in the course of their day to day activities.
    Senator Mikulski. It says things like the National Crime 
Info Center, DMVAs around the country----
    Mr. Mueller. Yes.
    Senator Mikulski. Things that when they're in the process 
of doing it they need to be able to access unclassified 
databases, would help them do their job, etcetera. Is that 
correct?
    Mr. Mueller. That is correct. One needs to keep in mind, 
however, security.
    Senator Mikulski. Yes.
    Mr. Mueller. When we're developing these new communication 
tools, everybody wants, including myself--and I tend to be 
impatient--the new communications tools. But we have to do it 
understanding that we need to put into place the requisite 
security to assure that if a particular BlackBerry becomes 
infected with malware or otherwise it does not give persons 
access to the system as a whole. Consequently, as we have built 
these various systems we have given the appropriate attention, 
I believe, to the appropriate security to assure that they are 
safe from intrusions.
    Senator Mikulski. Well, that's excellent. But I want to go 
through the lessons learned from the debacle that took us to 
SENTINEL. I believe there are a lot of lessons that you've just 
even articulated, Mr. Director. But you're about to embark upon 
several new initiatives. You're developing the Next Generation 
Identification System that will expand the FBI's Integrated 
Automated Fingerprint ID System. You're building a new 
Biometrics Tech Center. Biometrics is supposed to be one of the 
latest and greatest in terms of identifying people.
    Also, the private sector is developing new wireless 
technology, in which you need to be able to help us to deal 
with cyber intrusions, cyber attacks, et cetera.
    So here is my question. Not only are you in the human 
development, but you're in the technology development. Human 
development is the special agents, the intelligence analysts, 
the professional staff. But this tech development we've got to 
get right the first time and do it--because we only can do this 
once now. We're really running severe deficits. We cannot ever 
go back if we screw up.
    What steps are being taken--and we don't have to detail it 
in each area; maybe you want to submit a more formal 
statement--so that we do not end up in other techno 
boondoggles, quite frankly? It's a blunt term. I don't mean it 
to be a stinging term, but we've got to protect the American 
people by making sure the FBI has the right tools, and that's 
technology. That's as important to you now as carrying a gun; 
am I correct?
    Mr. Mueller. Yes.
    Senator Mikulski. You can always get a new gun, but you 
can't go back and redo technology.
    Mr. Mueller. Yes. Well, the Virtual Case File, let me just 
start there, with trilogy. It was part of a trilogy system to 
upgrade our capabilities. The other prongs of that or the other 
legs of that stool work exceptionally well and we have had a 
history, although occasionally overlooked, of developing 
databases and having them work effectively and efficiently. 
Fingerprints is one of them. DNA is another one.
    Over the years the FBI has been on the cutting edge of 
developing technology for use in law enforcement, and I believe 
we continue to do so, and that history will be extended with 
the new Biometric Technology Center, with the upgrading of our 
fingerprint capabilities. My full expectation is that they will 
be as successful as they have been in the past.
    The SENTINEL and several other packages that we have 
developed to handle our sources, to handle our intelligence 
requirements, are coming on line this year and the next and I 
believe will be not only successful, but will be models for 
others.
    That's internally. If you look externally at our expertise, 
our ability to investigate cyber intrusions and the like, I 
believe we are ahead of just about every other agency in the 
world in terms of our capabilities, our experience, our 
expertise, and having the tools to utilize those skills to 
identify--well, investigate, identify, and then attribute cyber 
attacks. So whether it be internally to our information 
technology or externally to address some of the technology 
developments, I believe we are on course to be successful.
    Senator Mikulski. Well, thank you. The actual policy and 
people issues we're going to talk about in the next classified 
hearing, because I think they're quite sensitive.
    First of all, we want to work with you on that because it 
is a major public investment to accomplish a pretty significant 
public good.
    I also want to note the issue that is part of the training 
for our FBI personnel. We want to support the effort to 
modernize Quantico. I'd like the record to show, as is in the 
statement of the FBI Director, that the Quantico, Virginia, the 
famous FBI Academy, was built in 1972. It has not undergone any 
renovations since we added a new dorm in 1988. So this is the 
FBI, the Federal Bureau of Investigation. We haven't done 
anything substantial in 37 years in terms of the physical 
facilities--the last thing we did was 20 years ago and it was a 
dorm that was wired for the pre-.com world.
    We can't bring talented, smart people that you're 
recruiting with all kinds of backgrounds and bring them into a 
dated facility. I want you to know, Mr. Director, as well as 
the people who serve at the FBI and those who are coming to the 
FBI, that we're on your side on this one.
    We understand in the budget request you ask for $10 million 
to take a look at what is needed, so that we can upgrade the 
facilities with not only buildings with bricks and mortar, but 
modems and clicks, so that we can really do the kind of 
training necessary, because, as you said, it's one thing to 
bring in the people, but we've got to get them ready for the 
job, which means new threats, new challenges. But we need new 
facilities to do it.
    So I'm going to pledge to you right now. We will support 
you in your people. We're going to support you in your 
technology, and we're going to support you in making sure that 
we truly have a 21st century FBI Academy.
    So there are other things I'm going to talk about. We're 
going to take a temporary recess. I also am going to reiterate 
what Senator Shelby said about the joint task forces at the 
State and local level. Those in Maryland are operating 
superbly. I'd like to compliment the Baltimore Field Office on 
this. I'd like to compliment the U.S. attorney, Rob Rosenstein, 
who has also coordinated some of this in our work with the 
District U.S. attorney. But my local law enforcement, from the 
police commissioners to the sheriffs and so on, just think 
these task forces are an amazing tool to get value and leverage 
the law enforcement effort. As you said, particularly in the 
capital region, whether it's Montgomery County or Prince 
George's County or going over to Northern Virginia, it's some 
pretty rough stuff going on. There seems to be like a 
brotherhood of the Beltway, if you will, that comes out of 
these joint task forces. We just want to reiterate, we want to 
support that effort while we're working on these other issues.
    Before I recess us to take us to the classified hearing, is 
there anything you would like to add? Is there anything you 
didn't have a chance to say? Some questions or answers you've 
thought of that you'd like to share?
    Mr. Mueller. No. One thing I believe I'd like to respond 
briefly to, what Senator Shelby said about TEDAC. TEDAC is an 
important facility for IEDs. As he points out, we have had to 
prioritize and we are looking forward to further discussions in 
terms of funding to expand our capabilities in that regard. So 
we appreciate the input and the support.
    Senator Mikulski. Thank you very much, and the record will 
so show that.

                     ADDITIONAL COMMITTEE QUESTIONS

    Now, if there are no further questions this morning, 
Senators may submit additional questions for the subcommittee's 
official record. We request the FBI's response within 30 days.
    Mr. Mueller. Thank you. Thank you, Madam Chairwoman.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

               Questions Submitted by Senator Mark Pryor

    Question. Can you talk about the specific activities you plan to 
carry out with the additional funding? Will you increase FBI field 
office involvement in these sorts of investigations? Hire additional 
agents and accountants?
    Answer. The $25.5 million in requested funding for mortgage fraud 
would enable the FBI to increase its available field investigative 
assets by 50 Special Agents and 61 Forensic Accountants. These 
additional resources would increase the FBI's ability to address 
mortgage fraud and sub-prime related corporate fraud through increased 
investigations and higher quality evidence production. This funding 
would provide the FBI with the resources necessary to expand its 
document management systems, allowing the FBI to expedite document 
analysis and add more robust analysis capabilities. Given the central 
role of document analysis in white collar crime investigations, the FBI 
anticipates that these enhancements would contribute significantly to 
the FBI's efforts to address mortgage fraud and sub-prime related 
corporate fraud. Finally, this funding would allow the FBI to address 
the non-personnel aspects of our current task forces and working 
groups, and to add new ones as appropriate. Given the advantages of the 
close working relationships the FBI has established with State, local, 
and other Federal law enforcement and regulatory partners, the FBI 
considers these task forces and working groups to be significant, and 
highly cost effective, force multipliers.
    Question. How does your budget increase coordination between the 
FBI and other agencies involved in the southwest border initiatives?
    Answer. The FBI coordinates with other agencies involved in 
Southwest Border initiatives in numerous ways to ensure that efforts 
are synergistic, leading to better results than any one agency could 
achieve alone. For example, all FBI field offices, including those 
responsible for the States along the Southwest Border, include squads 
specifically responsible for criminal enterprise, violent crime, and 
public corruption investigations. These squads work closely with their 
counterparts in the Bureau of Alcohol, Tobacco, Firearms and Explosives 
(ATF), Drug Enforcement Administration (DEA), U.S. Immigration and 
Customs Enforcement (ICE), and other relevant agencies to coordinate 
the many activities in which they have complementary roles. In 
addition, several task forces and working groups focus on particular 
aspects of the problems arising along our Southwest Border. These 
groups include the following:
  --El Paso Intelligence Center (EPIC).--EPIC, which is led by the DEA 
        and includes the participation of numerous Federal, State, and 
        local agencies including the FBI, ATF, and ICE, was initiated 
        to collect and disseminate information concerning drug, alien, 
        and weapon smuggling. The FBI relies on the capabilities 
        afforded by EPIC's multi-agency environment, coordinating its 
        drug investigations closely with EPIC to ensure de-confliction 
        and the efficient use of Organized Crime Drug Enforcement Task 
        Force (OCDETF) resources.
  --OCDETF.--OCDETF serves an important coordinating role in this 
        region. In addition to the activities discussed above, an 
        OCDETF Strike Force comprised of twelve FBI agents, nine DEA 
        agents, two ICE agents, and one Texas Ranger was created in El 
        Paso, Texas, and works closely with DEA's Resident Office in 
        Cd. Juarez, Mexico, to gather intelligence and, when possible, 
        assist in operations. Among other things, this Strike Force's 
        investigations target Mexican Consolidated Priority 
        Organizational Targets (CPOTs), who are responsible for a large 
        amount of violence around the border. Another OCDETF Strike 
        Force, operating in the FBI's San Diego Division since January 
        2007, has also targeted Mexican CPOTs, identifying a number of 
        Arellano-Felix Mexican Drug Trafficking Organization (MDTO) 
        kidnapping/homicide cells working within southern California. 
        The San Diego Strike Force works closely with that Division's 
        Violent Crime/Major Offender Squad to relay intelligence 
        gleaned during drug enterprise investigations that involve 
        violent crime issues. This Strike Force also regularly reports 
        on corruption within the Mexican government.
  --High Intensity Drug Trafficking Area (HIDTA) Program.--The FBI's El 
        Paso Office participates in the regional HIDTA program, in 
        which executive managers of numerous Federal, State, and local 
        law enforcement agencies participate in monthly meetings to 
        discuss the border violence and to look for trends and possible 
        crossover into the United States.
  --Southwest Intelligence Group (SWIG).--The SWIG serves as the 
        central repository and distribution point for FBI intelligence 
        on both criminal and national security issues for this region. 
        The SWIG is currently moving from FBI Headquarters (FBIHQ) to 
        EPIC, where it will be co-located with ATF, DEA, and ICE 
        personnel.
  --Resolution Six, Mexico (R-6).--The purpose of R-6 is to enhance the 
        inter-agency coordination of drug and gang investigations 
        conducted in Mexico, with R-6 personnel working in coordination 
        with the Mexican military and law enforcement authorities to 
        gather intelligence in pursuit of the MDTOs and individuals 
        responsible for lawlessness along the Southwest Border. R-6 
        priorities include confidential human source development, 
        supporting domestic cases appropriate for U.S. prosecution, 
        cultivating liaison contacts within Mexico, and supporting 
        bilateral criminal enterprise initiatives. The R-6 program is 
        supervised by personnel located in numerous critical cities, 
        including Mexico City, Cd. Juarez, Tijuana, Hermosillo, and 
        Guadalajara.
    --Some R-6 personnel are co-located with the DEA to facilitate the 
            coordination of drug investigations and participation in 
            the R-6/DEA Electronic Intelligence Collection Initiative. 
            The goal of this initiative is to identify and collect 
            intelligence on drug cartel structures in order to disrupt 
            and dismantle these criminal enterprises. This initiative 
            will be worked with Mexico's Secretaria de Seguridad 
            Publica (SSP); once reliable and significant intelligence 
            is obtained, the SSP will present the findings to Mexican 
            federal prosecutors and initiate formal investigations.
    --R-6 personnel also coordinate intelligence sharing and operations 
            with ATF and United States Marshals Service (USMS) 
            personnel stationed in Mexico in support of domestic FBI 
            drug and organized crime investigations. R-6 and the USMS 
            are initiating a Mexican Fugitive Intelligence Vetted Unit 
            to locate fugitives that are members of, or protected by, 
            drug cartels. The Mexican Intelligence Service will attempt 
            to locate the fugitives using cellular tracking and other 
            technologies and, once a fugitive is located, Mexican-
            vetted units will execute operations to apprehend the 
            fugitive.
  --Violent Gang Safe Streets Task Forces (VGSSTFs).--A number of FBI 
        VGSSTFs are working closely with Federal, State, and local law 
        enforcement agencies to address violent street and prison gangs 
        operating along the Southwest Border. Over the past several 
        years, gangs such as the Mexican Mafia, the Almighty Latin 
        Kings, and the Hermanos de Pistoleros Latinos have been linked 
        to the smuggling and distribution of drugs for MDTOs. With 
        their alliances to MDTOs, these gangs have committed murders 
        and other violence in an effort to control territory along the 
        Southwest Border.
  --Border Corruption Task Forces.--The FBI participates in six border 
        corruption task forces along the Southwest Border. Among these 
        is the National Border Corruption Task Force, which is a 
        partnership between the FBI and U.S. Customs and Border 
        Protection-Internal Affairs (CBP-IA) to be based at FBIHQ. The 
        FBI and CBP-IA intend to coordinate their investigative efforts 
        and resources and to conduct joint corruption training for 
        field agents and managers.
    Question. I think coordination of efforts not only at the Federal 
level but also between Federal agencies and State and local agencies is 
critically important in combating drug and gang violence. What funding 
and resources are directly invested in the FBI's 56 field offices? How 
closely do these field offices work with and share information with 
State and local law enforcement officers?
    Answer. The FBI maintains drug, gang, and violent crime squads 
along the Southwest Border that work closely with State and local 
police agencies, as well as with the ATF, DEA, and ICE. For example, in 
calendar year 2008, the FBI's offices in San Diego, Albuquerque, 
Phoenix, El Paso, Houston, Dallas, Los Angeles, and San Antonio 
participated in investigations of approximately 400 OCDETF and Criminal 
Enterprise cases with a nexus to Mexican drug trafficking and 
approximately 300 OCDETF and Criminal Enterprise cases with a nexus to 
violent gangs. These investigations resulted in approximately 2,621 
arrests, 1,036 indictments, and 620 convictions in fiscal year 2008.
    The FBI currently funds and manages approximately 150 VGSSTFs to 
address violent street and prison gangs operating along the border, 
with funding comprised primarily of asset forfeiture funds and OCDETF 
funds, along with some direct FBI funding. The VGSSTFs are staffed by 
over 650 FBI agents and over 1,000 task force officers, which include 
both State and local police officers.
    Question. What metrics are you using to ensure that funding spent 
on counter-drug and counter-gang activities successful?
    Answer. The FBI measures the success of its counter-drug and 
counter-gang activities by tracking the statistics representing the 
following activities, all of which are tracked by FBI division, region, 
and nationally.
  --Pending criminal enterprise and drug-related money laundering 
        cases.
  --Drug trafficking operations, violent street gangs, outlaw 
        motorcycle gangs, and prison gangs disrupted or dismantled as a 
        result of the FBI's investigative efforts.
  --Seizures of illicit drugs and illicit drug funds.
  --Arrests, indictments, convictions, and sentences.
  --Asset forfeitures.
    As described in the fiscal year 2010 Congressional Justification, 
during fiscal year 2010, the FBI anticipates disrupting 30 drug-
trafficking organizations with links to Consolidated Priority 
Organization Targets (CPOT) and dismantling 15 drug trafficking 
organizations with links to CPOTs. In addition, the FBI anticipates 
dismantling 99 gangs and other criminal enterprises.
    Question. Are there any specific initiatives focused on the issue 
of U.S. gang members participating in illicit activities coordinated by 
Mexican drug cartels?
    Answer. Yes. The SWIG has dedicated 11 Intelligence Analysts to 
conduct strategic analysis of the Southwest Border. Among other 
missions, these analysts are reviewing the connections between the 
Mexican drug cartels and their use of United States gang members for 
narcotics distribution and enforcement within the United States. In 
addition, there are 24 VGSSTFs in the eight FBI Divisions on the 
Southwest Border (Albuquerque, Dallas, El Paso, Houston, Los Angeles, 
Phoenix, San Antonio, and San Diego). These task forces target the 
``worst of the worst,'' regardless of their status astrans-national, 
national, regional or local/neighborhood-based gangs.
    Question. Does this proposed budget have all the resources you need 
to carry out your cyber security duties?
    Answer. The FBI will continue to work with the Congress, the Office 
of Management and Budget, and others in the Department of Justice to 
identify the funding needed to address the administration's priorities.
    Question. What measurable goals do you plan to achieve with the 
funding provided under this budget?
    Answer. The funds referenced in the question relate to the 
Comprehensive National Cybersecurity Initiative (CNCI), supporting the 
investigative, intelligence, and technological requirements to combat 
cyber attacks. These resources will increase the FBI's ability to 
respond to counterterrorism, counterintelligence, and criminal computer 
intrusions, with particular emphasis on intrusions with a 
counterintelligence nexus. These resources will ensure that the FBI has 
the technological infrastructure to conduct these investigations and to 
turn seized network information into actionable intelligence products 
that can be used across the United States Intelligence Community to 
allow the government to move from a reactive to a proactive posture 
with respect to cyber attacks.
    The cyber threat to the Unites States and its allies is 
increasingly sophisticated, effective, dangerous, and broad in scope. 
Cyber-based attacks and intrusions directed at networks and networked 
systems continue to increase, resulting in substantial economic losses. 
The United States has suffered substantial loss of critical 
intelligence as a result of cyber exploitation, much of which may be by 
State sponsors. This is demonstrated concretely by foreign intrusions 
spanning U.S. government, academia, military, industrial, financial, 
and other domains, causing incalculable damage. Information related to 
U.S. government sensitive research, including military contractor 
research, has been compromised. Simply put, the Internet has provided 
foreign intelligence services with routine and immediate access inside 
otherwise well-guarded facilities and the ability to quickly exfiltrate 
massive quantities of data that otherwise (if in paper format) would 
require a well-coordinated fleet of tractor trailers and tankers to 
remove from our country.
    To meet the demands posed by cyber threats, the FBI must develop 
significant new assets and capabilities and transition its efforts from 
reactive investigations to the proactive mitigation of threats before 
they cause harm. To accomplish these objectives, the FBI must expand in 
the following areas: investigatory capabilities, cyber intelligence 
collection, science and technology tools to enhance investigatory and 
intelligence collection capabilities, and FBI information technology 
information assurance. In order for the FBI to expand its investigatory 
and intelligence gathering capabilities, the FBI's ability to intercept 
data, develop technical tools, and conduct data analysis of networks 
and seized hardware must expand as well.
    The National Cyber Investigative Joint Task Force (NCIJTF), which 
serves as a multi-agency national focal point for coordinating, 
integrating, and sharing pertinent information related to cyber threat 
investigations, forecasts a 50 percent increase in the number of cyber-
related electronic surveillance operations, a 30 percent increase in 
cyber-related undercover operations, and a 10 percent increase in the 
number of confidential human source operations, all of which will 
increase the burden on existing resources.
    Question. How does the Cyber Program coordinate and work with other 
cyber security initiatives such as the National Cyber Investigative 
Joint Task Force in which the FBI participates?
    Answer. The NCIJTF is an alliance of peers that includes 
representation from across the U.S. Government intelligence and law 
enforcement communities. The NCIJTF's member agencies have 
complementary missions to protect national cyber interests, operating 
through the NCIJTF in a collaborative environment that assists, but 
does not direct, the operational and investigative activities of 
participating agencies. The FBI participates in the NCIJTF, which 
seeks, through the joint investigative and operational efforts of its 
members, to proactively develop predictive intelligence and mitigate 
the cyber threat through the active use of that intelligence. As the 
NCIJTF's executive agent, the FBI has aligned critical investigative 
efforts to avoid and prevent duplications of effort, redundant legal 
process, and operational confusion. The FBI has also placed experienced 
personnel in liaison positions working on the cyber security 
initiatives sponsored by other agencies to facilitate the growth and 
efficacy of the NCIJTF. For example, the FBI's Cyber Division has 
assigned an experienced Senior Executive Service official as a detailee 
to the National Counterintelligence Executive, supporting the 
development of the National Cyber Counterintelligence Plan called for 
under the CNCI.
                                 ______
                                 

              Question Submitted by Senator Sam Brownback

    Question. I understand the demand on FBI aviation has increased 
substantially in recent years. I also understand the FBI may be forced 
to rely on older or substandard equipment to fulfill these missions and 
meet the increased demand for surveillance capabilities. Can you 
describe the demands being made of FBI aviation, especially for aerial 
surveillance missions? Do you have enough aircraft to meet the 
increased demands?
    Answer. The FBI's aviation program provides safe and effective 
support for all facets of FBI investigative activities and law 
enforcement operations. Aircraft surveillance has become an 
indispensable intelligence collection and investigative technique, and 
serves as a force multiplier to the ground surveillance teams. Aircraft 
surveillance allows ground personnel to remain further away from the 
surveillance target, ensuring greater personnel safety and reducing or 
eliminating the risk of compromise.
    On average, the FBI fulfills between 10,000 and 15,000 requests for 
surveillance each year. However, lower priority aviation surveillance 
requests go unaddressed because of the lack of aircraft, excessive 
aircraft down-time due to required maintenance or mechanical problems, 
lack of crew, or weather challenges. The growth in the number of 
surveillance requests for Foreign Intelligence Surveillance Act (FISA), 
Physical Surveillance (FISUR), and other national security priorities 
has not only increased the number of requests that cannot be filled, 
but has also reduced the availability of hours for criminal matters. 
Prior to September 11, 2001, criminal matters accounted for 
approximately 79 percent of total aviation surveillance hours; criminal 
matters now account for only 30 percent of the total aviation hours 
flown.
    In 2005, the aviation program consisted of 104 surveillance 
aircraft regularly conducting surveillance missions--90 single engine 
and 14 twin/multi-engine aircraft. An audit of these aircraft found 
that the average age for both single and twin/multi-engine aircraft 
exceeded 25 years. Frequent inspections, overhauls, and parts 
replacement dramatically increase the maintenance costs and down-time 
of older aircraft. Eventually, it is more expensive to maintain the 
aircraft than to purchase a new one, particularly if it is necessary to 
update an old airframe with the avionics required to communicate with 
FAA towers, other aircraft, and ground surveillance teams. The FBI has 
been able to replace 23 of the single engine aircraft (with an 
additional 47 on order). The new aircraft are equipped with technology 
that allows the FBI to conduct surveillance at night, which is when 
most targets operate, as well as during reduced visibility conditions.
    In contrast, the FBI has been forced to remove without replacement 
seven multi-engine aircraft from its inventory because of maintenance 
costs and overall age. The last two remaining ``King Air'' aircraft in 
inventory are multi-engine planes that are capable of imaging and 
identifying a moving target from above 10,000 feet, which is imperative 
for reducing the risk of exposure, and can fly for over five 
consecutive hours. Unfortunately, the FBI will have to remove these two 
airframes from operation beginning September 30, 2009 because of their 
age.

                         CONCLUSION OF HEARINGS

    Senator Mikulski. The subcommittee will temporarily recess 
and reconvene in the Capitol Visitor Center Room 217 to take 
classified testimony from the FBI Director. We are going to 
reconvene at 10:50 a.m., and we'll see you there.
    The subcommittee stands in recess.
    [Whereupon, at 10:30 a.m., Thursday, June 4, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2010

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Commerce, Justice, Science, and Related 
Agencies for inclusion in the record. The submitted materials 
relate to the fiscal year 2010 budget request for programs 
within the subcommittee's jurisdiction.]

      Prepared Statement of the American Museum of Natural History

Overview
    Recognizing its potential to support NASA in its goals to pioneer 
the future in space exploration, scientific discovery, and aeronautics 
research; to develop a balanced overall program of science, 
exploration, and aeronautics; and to establish new and innovative 
programs to enhance understanding of our Earth, other planets, 
asteroids, and comets in our solar system, as well as the search for 
life around other stars, the American Museum of Natural History (AMNH) 
seeks $3.5 million to contribute its unique science, education, and 
technological capacity to helping the Agency to meet these goals.
About the American Museum of Natural History
    The American Museum of Natural History (AMNH) is one of the 
Nation's preeminent institutions for scientific research and public 
education. Since its founding in 1869, the Museum has pursued its joint 
mission of science and public education. It is renowned for its 
exhibitions and collections of more than 32 million natural specimens 
and cultural artifacts. With some 4 million annual on-site visitors--
approximately half of them children--it is one of the largest and most 
diverse museums in the country. Museum scientists conduct 
groundbreaking research in fields ranging from all branches of zoology, 
comparative genomics, and informatics to Earth science, biodiversity 
conservation, and astrophysics. Their work forms the basis for all the 
Museum's activities that seek to explain complex issues and help people 
to understand the events and processes that created and continue to 
shape the Earth, life and civilization on this planet, and the universe 
beyond.

Common Goals and Accomplishments of AMNH and NASA
    For many years, NASA and AMNH have shared a joint commitment to 
cutting-edge research and the integration of that research into unique 
educational tools and resources. Over the years, the Museum has 
successfully pursued a number of competitive opportunities, has 
cultivated rich relationships with NASA divisions such as the Science 
Mission Directorate's Heliophysics division and the Informal Education 
program, and has worked with the Agency to develop innovative 
technologies and resources that reach audiences of millions in New 
York, across the country, and around the world.
    The Museum's educational mission is fueled by and reflects cutting-
edge science, including the work of our scientists in collaboration 
with NASA centers and researchers.
    In keeping with that mission, the Museum has built a set of 
singular national resources that bring cutting-edge science and 
integrated NASA content to total audiences of more than 16 million in 
New York City, across the country, and around the world. One such 
resource, Science Bulletins--immersive multimedia science encounters, 
presenting science news and discoveries in various, flexible formats--
is already on view in 41 locations across the country (including eight 
NASA visitor centers), with more being added. In the New York area 
alone, the Museum reaches nearly four million annual visitors, 
including more than 450,000 children in school groups and more than 
6,000 teachers, with millions visiting online.
    In fiscal year 2010, AMNH seeks to build on these successes by 
scaling up to reach even larger audiences with a program to communicate 
current science content--about NASA science and missions in 
particular--to diverse national audiences. The program encompasses:
Presenting Current Science in Public Spaces: Science Bulletins
    Science Bulletins (SB) is a nationally distributed, multimedia 
science exhibition program targeted to informal learning settings. It 
presents cutting-edge research and discoveries in visually compelling 
feature documentaries and updates in flexible, large-screen, high-
definition video and interactive kiosk versions, as well as in a free 
online version adapted for classroom use. We propose the following 
activities:
  --Scaling Up Science Bulletins Dissemination.--In addition to AMNH, 
        Science Bulletins is currently on view at 41 subscribing venues 
        across the country (including eight NASA visitor centers), with 
        annual audiences of more than 13 million. AMNH will continue 
        its aggressive dissemination efforts to expand to additional 
        sites and increase market penetration.
  --R&D and Program Delivery.--AMNH will develop new visualization 
        methods to advance the communication of current science, and 
        will utilize them in developing and distributing the Science 
        Bulletins program. We will: release approximately 26 bi-weekly 
        updates, create six new feature documentaries, and increase 
        website visits in the Bulletins focused on the earth, space, 
        and biosphere. Science Bulletins DVDs will also be distributed 
        in New York City schools.
  --Science Bulletins on the Web.--AMNH will continue to promote the 
        Science Bulletins website as a rich resource for formal 
        education and educators, providing materials online to 
        facilitate classroom use.

Visualizing and Disseminating Current Science Data
    Visualization of real, large scale datasets into digital 
planetarium shows marks one of the Museum's signature achievements in 
the new era of digital dome technologies. AMNH proposes to draw on its 
unique expertise and capacity in visualizing astrophysics data from 
NASA and other sources to create a new digital space show that will 
engage children, families, and general audiences worldwide.
    The Museum has very successfully leveraged past NASA investments 
with funds from other government and private sources, and will support 
the present project with funds from nonFederal as well as Federal 
sources. The Museum looks forward to continuing to contribute its 
unique resources and capacity to helping the Agency meet its goals.
                                 ______
                                 

      Prepared Statement of the American Museum of Natural History

Overview
    Recognizing its potential to support NOAA in its goals to 
understand and predict changes in the Earth's environment; to conserve 
and manage coastal and marine resources; and to protect, restore, and 
manage the use of coastal and ocean resources to meet our Nation's 
economic, social, and environmental needs, the American Museum of 
Natural History (AMNH) seeks $2 million to advance a partnership with 
the agency to promote the environmental education, outreach, and 
research so pivotal to the health of our Nation and our planet.

Common Goals of NOAA and AMNH
    The National Oceanic and Atmospheric Administration (NOAA) is 
committed to understanding and predicting changes in the Earth's 
environment and to conserving and managing coastal and marine resources 
to meet the Nation's needs. NOAA's Education Plan outlines a broad 
vision for reaching various audiences to build awareness and knowledge 
of issues related to the world's atmosphere, climate, oceans, and 
coastal ecosystems. Addressing the needs of teachers, students, and 
policy makers as well as the general public, the agency's goals include 
enhancing environmental literacy and knowledge, application of NOAA 
science, and development of a capable and diverse workforce for 
environmental science.
    The AMNH, one of the Nation's preeminent research and education 
institutions, shares NOAA's commitment to these environmental goals and 
to the scientific research and public education that support them. 
Since its founding in 1869, the American Museum has pursued its mission 
of scientific investigation and public education. Its renowned 
exhibitions and collections serve as a field guide to the entire planet 
and present a panorama of the world's cultures. Museum collections of 
some 32 million specimens and cultural artifacts provide an 
irreplaceable record of life. More than 200 Museum scientists conduct 
groundbreaking research in fields as diverse as systematic and 
conservation biology, astrophysics, and Earth and biodiversity 
sciences. The work of scientific staff fuels exhibitions and 
educational programming that reach annually an on-site audience of 
nearly four million visitors--nearly half of them children.
    The Museum's Center for Biodiversity and Conservation, founded in 
1993, is dedicated to enhancing the use of scientific data to mitigate 
threats to global biodiversity, and to integrating this information 
into the conservation process and disseminating it widely. It conducts 
conservation-related field projects around the world, trains 
scientists, organizes scientific symposia, presents public programs, 
and produces publications geared toward scientists, policy makers, and 
the lay public.
    The goal of all Museum resources and programming is to communicate 
to a broad public of varying ages and backgrounds about basic 
scientific concepts, scientific research, and new discoveries. The 
Museum's exhibition halls and the collections that give them life are 
perhaps the most visible way the Museum fulfills this educational 
mission. The Museum's renovated Hall of Ocean Life, for example, is a 
major focal point for public education on marine science issues. 
Drawing on the Museum's world-renowned expertise in Ichthyology as well 
as other areas of Vertebrate as well as Invertebrate Zoology, the Hall 
is pivotal in educating visitors about the oceans' key role in 
sustaining life on our planet. This Hall, together with the Halls of 
Biodiversity, Planet Earth, and the Universe, provide visitors with a 
seamless educational journey from the universe's beginnings to the 
formation and processes of Earth to the extraordinary diversity of life 
on our planet.

Environmental Literacy Initiative
    In fiscal year 2004, as a result of Congressional leadership, the 
Museum entered into a partnership with NOAA that launched a multi-year 
marine science and education initiative. Support for this initiative, 
which encompassed a broad range of education and research activities 
closely aligned with NOAA goals and purposes, was continued in fiscal 
year 2005, recommended in the fiscal year 2007 Senate report, continued 
in fiscal year 2009, and further leveraged by Museum scientists who 
successfully secured competitive NOAA education and research funding.
    Building upon this strong foundation, and in concert with the 
strategic priorities of NOAA and the Museum, we seek $2.5 million in 
fiscal year 2010 to join with NOAA in education, outreach, and research 
activities that promote environmental literacy and knowledge. With the 
requested funds, the Museum will develop and deliver education programs 
and resources that leverage its environmental research programs and 
extend its recent major exhibitions on water and climate change. These 
activities will include presenting current marine- and climate-related 
issues and news in the Museum's nationally distributed Science 
Bulletins program; developing advanced visualization tools and 
techniques for presenting environmental data to the public in varied 
formats; developing on-site and online professional development 
offerings, exchanges, and resources for teachers, children, families, 
and students; presenting programs for the general public; and carrying 
out research that advances conservation of marine ecosystems systems.
                                 ______
                                 

        Prepared Statement of The American Physiological Society

    The American Physiological Society (APS) thanks the subcommittee 
for its sustained commitment to the National Science Foundation (NSF). 
Scientific research is critical to the future of our Nation because of 
the important role it plays in technological innovation and economic 
development. Congress recognized the potential of the NSF through 
passage of the America COMPETES Act of 2007, which authorized a 
doubling of the agency's budget over several years. However, the NSF 
budget failed to grow at the authorized levels and has fallen behind by 
more than $1 billion in fiscal year 2009. We are grateful that Congress 
remedied this in the American Recovery and Reinvestment Act of 2009 
(ARRA), which will provide the NSF with an additional $3 billion over 
the next 2 years. This additional funding will allow the NSF to 
significantly expand its efforts to fund cutting edge research and 
support the scientific enterprise. Investment in research at the NSF 
will not only create jobs and drive economic growth, but will allow us 
to better understand the diversity of life on earth, and how the 
changing environment affects all living things. The APS recommends that 
Congress fully fund the fiscal year 2010 NSF budget request of $7 
billion. This funding combined with the additional funds provided under 
the ARRA will enable NSF to continue to expand our Nation's research 
capacity and achieve the goals envisioned in the America COMPETES Act.
    The APS is a professional society dedicated to fostering research 
and education as well as the dissemination of scientific knowledge 
concerning how the organs and systems of the body work. The Society was 
founded in 1887 and now has nearly 10,000 members who do research and 
teach at public and private research institutions across the country, 
including colleges, universities, medical and veterinary schools. Many 
of our members conduct physiology research that is supported by funds 
allocated through the NSF, and in this testimony, the APS offers its 
recommendations for the fiscal year 2010 budget.
    The basic science initiatives funded by the NSF are driven by the 
most fundamental principles of scientific inquiry. The NSF provides 
support for approximately 20 percent of federally funded basic science 
and is the major source of support for non-medical biology research, 
including integrative, comparative, and evolutionary biology, as well 
as interdisciplinary biological research. It has been shown time and 
again that the knowledge gained through basic biological research is 
the foundation for more applied studies that lead to improvements in 
the lives of humans, animals and ecosystems.
    The majority of the funding NSF provides is awarded through 
competitive, merit-based peer review, which ensures that the best 
possible projects are supported. NSF has an excellent record of 
accomplishment in terms of funding research endeavors that have 
produced results with far-reaching potential. Listed below are just a 
few of NSF's most recent advances in biological research.\1\
---------------------------------------------------------------------------
    \1\ Research examples from http://www.nsf.gov, accessed March 18, 
2009.
---------------------------------------------------------------------------
  --Researchers using a genetically engineered strain of lab mice were 
        able to show that mutations in a single genetic pathway 
        underlie a number of common birth defects that affect heart, 
        brain and jaw development.
  --A multi-disciplinary team of investigators using imaging techniques 
        to visualize how food moves through the human digestive track 
        is learning how the gut is able to efficiently move food 
        through the intestines in a way that maximizes nutrient 
        absorption.
  --Obesity researchers using powerful DNA sequencing technologies have 
        found that bacterial populations present in the human gut are 
        different in lean and obese twin pairs.
  --Researchers studying Hantavirus, the virus that caused an outbreak 
        of severe respiratory disease in the Southwestern United States 
        in 1993, found that older, larger mice are primarily 
        responsible for spreading the disease in the deer mouse 
        population. Understanding how the virus is spread in carrier 
        species is crucial to controlling the future spread of the 
        disease to humans.
    In addition to funding innovative research in labs around the 
country, the NSF also fosters the next generation of scientists through 
education programs. The APS is proud to have partnered with NSF in this 
program to provide training opportunities and career development 
activities to enhance the participation of underrepresented minorities 
in science. The APS was recognized for these efforts in 2003 with a 
Presidential Award for Excellence in Science, Mathematics and 
Engineering Mentoring (PAESMEM), funding for which was provided by NSF 
and was reinvested in our education programs. We believe that NSF is 
uniquely suited to administer science education programs of the highest 
quality, and we recommend that Congress continue to provide federal 
funds for science education through the NSF.
    The America COMPETES Act and the ARRA demonstrate the strong 
support of Congress for the NSF because of its highly-regarded research 
and education programs. The APS thanks Congress for these votes of 
confidence in the NSF and joins both the Federation of American 
Societies for Experimental Biology and the Coalition for National 
Science Funding to recommend that the agency be funded at the 
Administration's requested level of $7 billion in fiscal year 2010.
                                 ______
                                 

 Prepared Statement of the American Society of Agronomy, Crop Science 
          Society of America, Soil Science Society of America

    Dear Chairwoman Mikulski, Ranking Member Shelby and Members of the 
Subcommittee: The American Society of Agronomy, Crop Science Society of 
America, Soil Science Society of America (ASA-CSSA-SSSA) are pleased to 
submit the following funding recommendations for fiscal year 2010. ASA-
CSSA-SSSA thank Congress for the significant funding ($3 billion) for 
NSF in Public Law 111-5, the American Recovery and Reinvestment Act of 
2009. ASA-CSSA-SSSA understand the challenges the Senate Commerce, 
Justice, Science, and Related Agencies Appropriations Subcommittee 
faces with the tight science budget for fiscal year 2010. We also 
recognize that the Commerce, Justice, and Science Appropriations bill 
has many valuable and necessary components, and we applaud the efforts 
of the subcommittee to fund critical research through the National 
Science Foundation (NSF). ASA-CSSA-SSSA recommend the Subcommittee 
increase fiscal year 2010 funding for NSF by 7.85 percent 
($509,496,400) over fiscal year 2009 enacted, bringing total funding to 
$7.015 billion, the budget allocated to NSF in the President's fiscal 
year 2010 Budget Request. This strong level of funding will enable NSF 
to continue to fund worthy projects that promote transformational and 
multidisciplinary research, provide needed scientific infrastructure, 
and contribute to preparing a globally engaged science, technology, 
engineering, and mathematics workforce.
    With more than 25,000 members and practicing professionals, ASA-
CSSA-SSSA are the largest life science professional societies in the 
United States dedicated to the agronomic, crop and soil sciences. ASA-
CSSA-SSSA play a major role in promoting progress in these sciences 
through the publication of quality journals and books, convening 
meetings and workshops, developing educational, training, and public 
information programs, providing scientific advice to inform public 
policy, and promoting ethical conduct among practitioners of agronomy 
and crop and soil sciences.

Biological Sciences Directorate
            Molecular and Cellular Biosciences (MCB)
    The Molecular and Cellular Biosciences division of NSF Biology 
directorate provides funding for critical research that contributes to 
the fundamental understanding of life processes at the molecular, 
subcellular, and cellular levels. Programs such as the Microbial 
Observatories and Microbial Interactions and Processes program increase 
the understanding of microbial distribution in a variety of 
ecosystems--the first step in evaluating microbial impact on ecosystem 
function. Furthermore, while we agree that considerable advances 
investigating interactions between microbial communities and plants 
have been made, critical gaps do remain requiring additional study to 
understand the complex, dynamic relationships existing between plant 
and microbial communities.
            Biological Infrastructure (DBI)
    The emergence of a bioeconomy requires greater reliance on plants 
and crops, further expanding their use into the energy sector. To meet 
the increased demands and develop more robust crops, additional 
fundamental understanding regarding the basic biology of these crops is 
needed. The Plant Genome Research Program (PGRP) accomplishes these 
objectives by supporting key NSF projects. The Developing Country 
Collaborations in Plant Genome Research program links U.S. researchers 
with partners from developing countries to solve problems of mutual 
interest in agriculture and energy and the environment. Additionally, 
in collaboration with the U.S. Department of Energy and the U.S. 
Department of Agriculture, the Plant Genome Research Program has 
financed the Maize Genome Sequencing Project--a sequencing project for 
one of the most important crops grown globally. Finally, the 
International Rice Genome Sequencing Project published in 2005 the 
finished DNA blueprint for rice, a crop fundamental to populations 
worldwide. To continue the discovery of new innovative ways to enhance 
crop production for a growing population, sustained funding is needed 
for similar projects.

Geological Sciences Directorate
            Atmospheric Sciences (ATM)
    Changes in terrestrial systems will have great impact on 
biogeochemical cycling rates. The Atmospheric Sciences division funds 
critical programs, such as Atmospheric Chemistry, that increase 
understanding of biogeochemical cycles. Soils and plants make up one of 
the largest sinks and sources for several environmentally important 
elements.
            Earth Sciences (EAR)
    The Earth Sciences division supports research emphasizing improved 
understanding of the structure, composition, and evolution of the 
Earth, the life it supports, and the processes that govern the 
formation behavior of the Earth's materials. EAR supports theoretical 
research, including the biological and geosciences, the hydrologic 
sciences, and the study of natural hazards. An important program funded 
within this division is the Critical Zone Observatories which focuses 
on watershed scale studies that advance understanding of the 
integration and coupling of Earth surface processes as mediated by the 
presence and flux of fresh water.

Engineering Directorate
            Chemical, Bioengineering, Environmental and Transport 
                    Systems (CBET)
    The Environmental Engineering and Sustainability program and its 
Energy for Sustainability sub-program supports fundamental research and 
education in energy production, conversion, and storage and is focused 
on energy sources that are environmentally friendly and renewable. Most 
world energy needs are currently met through the combustion of fossil 
fuels. With projected increases in global energy needs, more 
sustainable methods for energy production will need to be developed, 
and production of greenhouse gases will need to be reduced.

Directorate for Education and Human Resources
            Division of Graduate Education
    ASA-CSSA-SSSA are dedicated to the enhancement of education, and 
concerned about recent declines in enrollment for many sciences. To 
remain competitive, scientific fields need to find new, innovative ways 
to reach students. The programs offered in the Education and Human 
Resource Directorate accomplish this goal. The Graduate Teaching 
Fellows in K-12 Education program offers graduate students interested 
in teaching an opportunity to get into the classroom and teach 
utilizing new innovative methods. Graduate students are the next crop 
of scientists. Therefore opportunities for study must be increased with 
the ever-increasing demands of science. Global problems rely on 
scientific discovery for their amelioration; it is critical that the 
United States continue to be a leader in graduate education. ASA-CSSA-
SSSA recommend strong support for the Integrative Graduate Education 
and Research Traineeships (IGERT) program. Because education is the key 
for our future competitiveness, it is essential that sustainable, long-
term support for these and other educational programs be made.
            Division of Undergraduate Education
    Advanced Technological Education (ATE) program focuses on the 
education of technicians for the high-technology fields that drive our 
nation's economy. We support continued, strong funding for this 
program. The program involves partnerships between academic 
institutions and employers to promote improvement in the education of 
science and engineering technicians at the undergraduate and secondary 
school levels.

NSF-Wide Programs
            Dynamics of Water Processes in the Environment
    One of our greatest environmental challenges is to ensure an 
adequate supply and quality of water for human use while maintaining 
the integrity of natural ecosystems. The economic vitality of the 
Nation relies on fresh water for agriculture, energy, manufacturing, 
and other industries. Understanding water dynamics is essential to 
understanding climate and environmental change. At multiple scales of 
time and space, water connects physical, geochemical, biological, and 
ecological processes. Water also links and integrates natural systems 
with human social systems. ASA-CSSA-SSSA support the multi-
disciplinary, multi-scale research program, Dynamics of Water Processes 
in the Environment.
            Climate Change Science Program
    The Climate Change Science Program, initiated in 2002, provides the 
Nation and the world with the science-based knowledge to predict 
change, manage risk, and take advantage of opportunities resulting from 
climate change and climate variability. Biological systems are critical 
to mitigating the impacts and effects of climate change. Additional 
research is needed to examine potential crop systems, plant traits, 
wetland properties, and other ecosystem adaptations to help manage 
climate change. The basic sciences of agro-ecosystems, plant 
improvement, soils, and riparian and wetland ecology need support as 
well.
    As you lead the Congress in deliberation on funding levels for the 
National Science Foundation, please consider American Society of 
Agronomy, Crop Science Society of America, Soil Science Society of 
America as supportive resources. We hope you will call on our 
membership and scientific expertise whenever the need arises.
    Thank you for your thoughtful consideration of our requests. For 
additional information or to learn more about the American Society of 
Agronomy, Crop Science Society of America and Soil Science Society of 
America (ASA-CSSA-SSSA), please visit www.agronomy.org, www.crops.org 
or www.soils.org or contact ASA-CSSA-SSSA Director of Science Policy 
Karl Glasener (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="83e8e4efe2f0e6ede6f1c3e2e4f1ecedeceefaadecf1e4">[email&#160;protected]</a>, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="93f8f4fff2e0f6fdf6e1d3f0e1fce3e0bdfce1f4">[email&#160;protected]</a>, or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6d060a010c1e0803081f2d1e0204011e43021f0a">[email&#160;protected]</a>).
                                 ______
                                 

      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2010 appropriation for the 
National Science Foundation (NSF). The ASM is the largest single life 
science organization in the world with more than 43,000 members. The 
ASM mission is to enhance the science of microbiology, to gain a better 
understanding of life processes, and to promote the application of this 
knowledge for improved health and environmental well-being.
    The ASM strongly supports the administration's stated fiscal year 
2010 budget proposal for NSF of $7 billion, an 8 percent increase over 
the fiscal year 2009 appropriation.
    The administration's proposed NSF budget is a critical step toward 
maintaining the nation's global leadership in science and technology. 
Investments in high quality research revitalize economic growth, and 
strong funding for NSF directly boosts innovative basic research across 
the United States. Many priority areas specifically identified in the 
America COMPETES Act of 2007 intersect the broad mission of NSF to 
maintain the vitality of the U.S. academic science and engineering 
enterprise to include enabling university-industry partnerships, 
encouraging interdisciplinary research, and improving funding rates for 
new investigators to strengthen the nation's workforce in science and 
engineering. More than 80 percent of NSF's annual budget is awarded to 
academic researchers, and as a result supports approximately 20 percent 
of all federally funded basic research conducted at U.S. colleges and 
universities.
    We commend Congress for the substantial and much needed NSF funding 
included in the American Recovery and Reinvestment Act of 2009 and the 
Omnibus Appropriations Act of 2009. The need remains, however, for a 
steady and reliable increase of fiscal year appropriations to offset 
the detrimental cuts and loss to inflation in past NSF budgets. 
Sustained NSF funding wields considerable impact on our national 
research endeavor. Each year, NSF supports research by nearly 200,000 
individuals across all fields of science and engineering, at over 1,900 
institutions in all 50 States. NSF currently receives about 45,500 
requests annually for its competitive, peer-reviewed grants, selecting 
roughly 11,500 to receive funding for new multi-year projects. It also 
expends over $400 million each year in professional and service 
contracts, further infusing resources into America's private science 
and technology sectors.
    The NSF promotes innovation across many disciplines, generating 
21st century technological advances to preserve human health and our 
environment. NSF funding keeps the Nation at the leading edge of 
discovery and ensures a skilled technical workforce in the future. The 
NSF's wide-ranging funding portfolio is the foundation for much of the 
nation's enviable success in the biological and physical sciences.
Support for the Directorate for Biological Sciences
    The ASM is concerned with past low funding levels for NSF's 
Directorate for Biological Sciences (BIO.) Although ASM does not have 
details of the administration's budget request for NSF, we recommend an 
fiscal year 2010 funding level of at least $675 million for the BIO 
directorate, a 10 percent increase over the fiscal year 2008 level. In 
fiscal yeaar 2008, the overall funding rate for BIO grants was only 16 
percent, which failed to capture the many meritorious research 
opportunities that NSF could have funded with a larger budget. Funding 
rates for BIO research grants have been consistently lower than those 
for NSF as a whole, and the gap between BIO and agency-wide funding 
rates has grown in recent years.
    The NSF provides about two-thirds of Federal support for U.S. 
academic basic research in non-medical biological sciences, a major 
source of funding for research, infrastructure, and education in these 
crucial disciplines. Research supported by the NSF through BIO programs 
is critical for understanding issues of national importance, such as 
sustaining the environment, improving agriculture, or maintaining 
public health and well being. NSF funding is particularly important to 
understand how living organisms, from microbes to humans, function and 
interact with non-living systems. It is also important because the 
physical, mathematical, engineering, and computational sciences 
increasingly use living systems to raise questions and find solutions 
in their respective fields.
    Life sciences are in transition. Traditional disciplines are giving 
rise to multi-disciplinary and interdisciplinary programs, creating new 
research areas that then become new disciplines in their own right. 
Science is constantly changing and NSF is adept at responding to this 
constant transformation, supporting work at the intersection between 
the life and physical sciences. In February, 2009 the NSF directorates 
for biological sciences and geosciences announced a new NSF funding 
emphasis on interdisciplinary research that bridges both areas, to meet 
the challenges of the earth's changing physical and chemical 
environments. BIO supports other scientific disciplines through its own 
funding priorities and through collaborative programs, such as those in 
environmental genomics, biogeochemistry, and biochemical engineering. 
BIO also advances Federal interagency priorities, such as research on 
climate change, and NSF-wide programs, such as Dynamics of Water 
Processes in the Environment, which studies freshwater systems to 
provide solid scientific bases for decision-making about water 
resources.
    Growth in BIO appropriations is essential for progress in the life 
sciences and other allied disciplines, and to sustain the ongoing 
innovation flowing from NSF-supported projects across the United 
States. Last year, academic researchers at the University of Minnesota 
showed that bacteria (Geobactersulfurreducens) can be harnessed to form 
batteries and biosensors; previous and ongoing studies have shown that 
these and other bacteria that produce electrical currents can be used 
to create microbial fuel cells that that wastewater organic compounds 
while producing useful electricity. Other researchers are leveraging 
the fact that each ecosystem contains a particular suite of microbes, 
inventorying the microbial DNA profiles unique to each type of 
ecosystem with the ultimate goal of using microbes as early warning 
systems of a variety of ecological threats.
    It is imperative that NSF has sufficient resources to increase 
competitive awards and research grants that ensure scientists and 
engineers remain involved and generate basic research discoveries. The 
ASM strongly supports increasing BIO funding made available to the 
thousands of post doctorates, senior researchers, graduate students and 
teachers who contribute immeasurably to our collective scientific 
knowledge through BIO programs. Growth in the BIO budget should be 
commensurate with growth in the total NSF budget. ASM, therefore, 
recommends an increase in the BIO budget consistent with that of 
overall NSF increases for Research and Related Activities in fiscal 
year 2010.
Support for the National Ecological Observatory Network (NEON)
    The ASM strongly supports the continued BIO-funded effort to expand 
the National Ecological Observatory Network (NEON), and the integration 
of microbial biology into the NEON framework. Such integration promises 
a new and much needed level of understanding of the intricate 
interactions between microbes, ecosystems and climate change. The 
network utilizes state-of-the-art communications between 
instrumentation sites located across the continent, to collect data on 
ecological systems. It creates a unique virtual laboratory to study and 
predict the cause-and-effects between environmental change and 
biological processes. Although ecological forecasting is critically 
important in our changing world, the ASM urges Congress to ensure that 
funding for BIO is expanded sufficiently to support core programs and 
NEON-related initiatives.

Support for Geosciences, Engineering, Mathematical and Physical 
        Sciences
    The ASM supports increased fiscal year 2010 funding for research 
activities at the Geosciences Directorate (GEO), the Engineering 
Directorate (ENG), and the Mathematical and Physical Sciences 
Directorate (MPS).
    Within the Geosciences Directorate, the Division of Earth Sciences 
(EAR) supports research that examines the relationship between living 
systems and the earth's changing physical environment. The Geobiology 
and Low-Temperature Geochemistry Program provide an example of the 
mutually beneficial relationship between biological sciences and 
geosciences. Among other areas, this program studies interactions 
between microbes and economically important resources, and interactions 
among microbes, minerals and groundwater. The program also facilitates 
cross-disciplinary efforts to harness new bioanalytical tools like 
those used in molecular biology. Another EAR-funded effort, the 
Continental Dynamics Program, supports work like the recent discovery 
of microbial contaminants in a 35-million-year-old crater crumbling 
beneath Chesapeake Bay, a potential threat to regional water supplies. 
The ASM supports $178 million in funding for Earth Sciences, 14 percent 
above the fiscal year 2008 level, with an emphasis toward increased 
support for the biological geosciences and ocean sciences funding.
    Of particular interest to ASM, research funded by the Engineering 
Directorate's Chemical, Bioengineering, Environmental and Transport 
Systems Division (CBET) regularly uses microbial systems to examine 
problems involved in the processing and manufacture of economically 
important products, as well as the efficient utilization of chemical 
resources and renewable bioresources, , and the development of novel 
ways to produce drinking water and wastewater effluents to reduce 
public exposure to pathogens. Much of this work depends on 
bioinformatics originating from genomic and proteomic studies. 
Bioengineering is another cross-cutting research area of impressive 
scope, evidenced by recent development of nanoscopic plastic spheres, a 
type of artificial cell, designed to stimulate human immune cells to 
kill cancer cells. Not only does CBET-funded research contribute 
significantly to our knowledge base, it also helps develop the 
workforce for major U.S. industries like petroleum, pharmaceuticals, 
microelectronics, and medical devices. The ASM supports funding the 
CBET at $173 million, the proposed fiscal year 2009 level. Priority 
applications for the life sciences within CBET include programs with 
great potential to enhance human health: tissue engineering, 
biophotonics, nano-biosystems, and biotechnology, which could lead to 
improved biosensors, biomaterials, and controlled drug release.
    Researchers funded by the Mathematical and Physical Sciences 
Directorate frequently collaborate with other scientific disciplines; 
this cooperation is important for continued progress in physics fields, 
such as studies at molecular and cellular levels. The NSF contributes 
67 percent of Federal support for academic basic research in the 
mathematical sciences and 42 percent in the physical sciences. MPS 
supports interdisciplinary research that greatly benefits both the 
physical sciences and the life sciences, by creating state-of-the-art 
tools and techniques that assist in advancing biological research and 
other disciplines. For example, MPS is a partner in the NSF-wide 
initiative, Dynamics of Water Processes in the Environment. The scope 
of MPS activity is enormous, from computational tools for cyberscience 
to understanding how microscopic processes transform the living world.

Workforce Development and Training
    Support for science and engineering education is an essential part 
of NSF's mission. NSF-funded research is thoroughly integrated with 
formalized education strategies embedded into each NSF program, 
designed to ensure there will always be a skilled workforce to support 
future scientific, engineering and technological fields, as well as a 
robust community of educators to train and inspire coming generations. 
NSF is the second largest Federal supporter of academic research, and 
Congressional appropriations directly strengthen education in science, 
technology, engineering, and mathematics. Disappointing funding trends 
in the sciences can be seen clearly in U.S. academic institutions. As 
alternate career paths, non reliant on government funding, are seen as 
more desirable, the number of U.S. students pursing careers in the 
sciences has declined. Foreign student enrollment however has increased 
and the fear is as these students leave the United States their 
departure will create a brain and talent drain, significantly reducing 
the Nation's ability to compete on a global scale. It is critical that 
Congress understand the need to invest adequately for students to 
recognize that science and engineering represent worthwhile career 
paths.

Conclusion
    Since 1950, it has been the NSF's primary responsibility to 
energize the nation's academic science and engineering enterprise. In 
meeting this mission, NSF has been a powerful motive force in U.S. 
innovation, facilitating research at the frontiers of scientific 
exploration. Consistent and reliable funding support for the NSF is 
necessary to maintain and improve U.S. scientific and economic 
competitiveness on a global scale. Funding essential programs as 
outlined above will remain an urgent priority in the coming years, and 
establishing a base level of $7 billion for fiscal year 2010 will begin 
to recoup serious losses from past budget cuts. Increasing 
appropriations for the NSF should ensure that all areas of science are 
at least adequately funded and that basic science research is 
encouraged and supported. The ASM appreciates the opportunity to 
provide written testimony and would be pleased to assist the 
subcommittee as it considers the fiscal year 2010 appropriation for the 
National Science Foundation.
                                 ______
                                 

        Prepared Statement of the Geological Society of America

Summary
    The Geological Society of America urges Congress to appropriate at 
least $7.0 billion for the National Science Foundation (NSF) in fiscal 
year 2010, an increase of approximately $500 million or 8 percent 
compared to the enacted level in the Omnibus Appropriations Act for 
Fiscal Year 2009. This funding level would uphold the President's 
fiscal year 2010 budget request of $7.0 billion for the National 
Science Foundation. However, it is below the authorized funding level 
of $8.1 billion under the America COMPETES Act (Public Law 110-69).
    The Geological Society of America supports strong and growing 
investments in earth science research at the National Science 
Foundation and other Federal agencies. Substantial increases in Federal 
funding for earth science research are needed to ensure the health, 
vitality, and security of society and for stewardship of Earth. These 
investments in earth science research are necessary to address such 
issues as energy resources, water resources, climate change, and 
natural hazards. Earth science research forms the basis for training 
and educating the next generation of earth science professionals.
    The Geological Society of America, founded in 1888, is a scientific 
society with over 22,000 members from academia, government, and 
industry in all 50 States and more than 90 countries. Through its 
meetings, publications, and programs, GSA enhances the professional 
growth of its members and promotes the geosciences in the service of 
humankind. GSA encourages cooperative research among earth, life, 
planetary, and social scientists, fosters public dialogue on geoscience 
issues, and supports all levels of earth science education.

Rationale
    Science and technology are engines of economic prosperity, 
environmental quality, and national security. Federal investment in 
research pays substantial dividends. According to a recent report by 
the National Academies, ``. . . the economic value of investing in 
science and technology has been thoroughly investigated. Published 
estimates of return on investment (ROI) for publicly funded R&D range 
from 20 to 67 percent '' (Rising Above the Gathering Storm, 2007).
    The earth sciences are critical components of the overall science 
and technology enterprise. Substantial increases in Federal funding for 
earth science research are needed to ensure the health, vitality, and 
security of society and for Earth stewardship. Earth science research 
provides knowledge and data essential for developing policies, 
legislation, and regulations regarding land, mineral, and water 
resources at all levels of government. Growing investments in earth 
science research are required to stimulate innovations that fuel the 
economy, provide security, and enhance the quality of life.

Broader Impacts of Earth Science Research and Education
    It is critically important to significantly increase NSF's 
investments in earth science research and education to meet challenges 
posed by human interactions with Earth's natural system in order to 
help sustain these natural systems and the economy. Additional NSF 
investments in earth science research are necessary to address such 
issues as natural hazards, energy, water resources, and climate change.
  --Natural hazards, such as earthquakes, tsunamis, volcanic eruptions, 
        floods, droughts, and hurricanes, remain a major cause of 
        fatalities and economic losses worldwide. An improved 
        scientific understanding of geologic hazards will reduce future 
        losses through better forecasts of their occurrence and 
        magnitude.
  --Energy and mineral resources are critical to the functioning of 
        society and to national security and have positive impacts on 
        local, national, and international economies and quality of 
        life. These resources are often costly and difficult to find, 
        and new generations of geoscientists need the tools and 
        expertise to discover them. In addition, management of their 
        extraction, use, and residue disposal requires a scientific 
        approach that will maximize the derived benefits and minimize 
        the negative effects. Improved scientific understanding of 
        these resources will allow for their better management and 
        utilization while at the same time considering economic and 
        environmental issues. This is particularly significant because 
        shifting resource demands often reframe our knowledge as new 
        research . . . enabling technologies become available.
  --The availability and quality of surface water and groundwater are 
        vital to the well being of both society and ecosystems. Greater 
        scientific understanding of these critical resources--and 
        communication of new insights by geoscientists in formats 
        useful to decision makers--is necessary to ensure adequate and 
        safe water resources for the future.
  --Forecasting the outcomes of human interactions with Earth's natural 
        systems, including climate change, is limited by an incomplete 
        understanding of geologic and environmental processes. Improved 
        understanding of these processes in Earth's history can 
        increase confidence in the ability to predict future States and 
        enhance the prospects for mitigating or reversing adverse 
        impacts to the planet and its inhabitants.
  --Research in earth science is also fundamental to training and 
        educating the next generation of earth science professionals.
    Increased NSF investments in earth science education at all levels 
are needed because knowledge of the earth sciences is essential to 
science literacy and to meeting the environmental and resource 
challenges of the twenty-first century.
    Earth science research and education should be a component of 
broader initiatives to increase overall public investments in science 
and technology. For example, earth science research should be included 
in a recommendation by the National Academies to ``increase the Federal 
investment in long-term basic research by 10 percent each year over the 
next 7 years . . .'' (Rising Above the Gathering Storm, 2007). 
Likewise, implementation of the America COMPETES Act, which authorizes 
a doubling of the budgets of key science agencies in 7 years, should 
encompass earth science research and education.
Extraordinary Scientific Opportunities in the Earth Sciences
    Extraordinary scientific opportunities in the solid earth sciences 
have been summarized by the National Academies and other organizations, 
including the following reports:
  --Basic Research Opportunities in the Earth Sciences (National 
        Research Council, 2001)
  --The Geological Record of Biosphere Dynamics (National Research 
        Council, 2005)
  --Hydrology of a Dynamic Earth (Consortium of Universities for the 
        Advancement of Hydrologic Science, 2007)
  --Future Research Directions in Paleontology (Paleontological Society 
        and Society for Vertebrate Paleontology, 2007)
  --Seismological Grand Challenges in Understanding Earth's Dynamic 
        Systems (Incorporated Research Institutions for Seismology, 
        2009)
    While the NSF's Earth Sciences Division regularly receives a large 
number of exciting research proposals that are highly rated for both 
their scientific merit and their broader impacts, only a small 
percentage of these have been funded in recent years due to budget 
constraints. Modest additional investments in this research can have 
significant positive impacts. For example, Interferometric Synthetic 
Aperture Radar (InSAR) studies may improve our ability to forecast 
earthquakes and volcanic eruptions. Underinvestment in the earth 
sciences may result in lost opportunities and lost lives.
    EarthScope is producing transformative science while being 
developed on time and on budget. The transition of EarthScope expenses 
from NSF's Major Research Equipment and Facilities Construction (MREFC) 
account to the Research and Related Activities (R&RA) account is 
occurring at a time when the NSF budget has been nearly stagnant in 
real dollars. When the project was being developed, it was widely 
expected that the NSF budget would experience robust growth as 
indicated by the NSF Authorization Act of 2002, the American 
Competitiveness Initiative, and the America COMPETES Act.
    As a result of budgetary developments beyond its control, members 
of the earth science community are concerned that new expenses for 
EarthScope operations and maintenance may have significant negative 
impacts on other time-sensitive opportunities in the earth sciences. 
The success rate for new proposals in the Earth Sciences Division is 
already too low and new expenses for EarthScope operations and 
maintenance expenses may drive the success rate even lower.

Conclusion
    President Obama has not submitted a detailed fiscal year 2010 
budget request for the National Science Foundation and therefore we are 
unable to comment on the specifics of his budget proposal at this time. 
The fiscal year 2010 budget request comes at a critical juncture in the 
history of the National Science Foundation. The America COMPETES Act 
set the stage to double the NSF budget in 7 years. Despite overwhelming 
bipartisan support for the America COMPETES Act, funding for NSF fell 
short of the doubling path in the regular appropriations cycles for 
fiscal years 2007, 2008, and 2009. NSF received $3 billion in economic 
stimulus funds under the American Recovery and Reinvestment Act. This 
one-time injection of funding is very helpful, but NSF needs sustained 
annual funding increases in order to achieve the objectives of the 
legislation.
    The Geological Society of America is grateful to the Senate 
Appropriations Subcommittee on Commerce, Science, Justice, and Related 
Activities for its past leadership in increasing the budget for the 
National Science Foundation and other science agencies. We are also 
grateful to the subcommittee for its leadership in providing $3.0 
billion in stimulus funds for NSF under the American Recovery and 
Reinvestment Act of 2009. Thank you for your thoughtful consideration 
of our request. For additional information or to learn more about the 
Geological Society of America, please visit www.geosociety.org or 
contact Dr. Craig Schiffries at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="224151414a4b4444504b47516245474d514d414b47565b0c4d50450c">[email&#160;protected]</a>
                                 ______
                                 

    Prepared Statement of the Federation of American Societies for 
                          Experimental Biology

    On behalf of the Federation of American Societies for Experimental 
Biology (FASEB), I respectfully request an fiscal year 2010 
appropriation for the National Science Foundation (NSF) of $7 billion. 
As you know, NSF is the only Federal research agency dedicated to 
supporting all of fundamental science and engineering, and is the 
principal source of Federal research support in fields such as 
mathematics, computer science and social science.
    As a Federation of 22 professional scientific societies, FASEB 
represents over 90,000 life scientists, making us the largest coalition 
of biomedical research associations in the nation. FASEB's mission is 
to advance health and welfare by promoting progress and education in 
biological and biomedical sciences, including the research funded by 
NSF, through service to its member societies and collaborative 
advocacy. FASEB enhances the ability of biomedical and life scientists 
to improve--through their research--the health, well-being and 
productivity of all people.

Improving Quality of Life and Fueling the Economy
    ``America's sustained economic prosperity is based on technological 
innovation made possible, in large part, by fundamental science and 
engineering research. Innovation and technology are the engines of the 
American economy, and advances in science and engineering provide the 
fuel.''--Arden Bement, Jr., Director, National Science Foundation \1\
---------------------------------------------------------------------------
    \1\ Testimony of Dr. Arden L. Bement, Jr., Director, National 
Science Foundation Before the Senate Commerce, Science, and 
Transportation Subcommittee on Technology, Innovation, and 
Competitiveness. March 29, 2006. http://commerce.senate.gov/pdf/
bement_032906.pdf. Accessed on November 26, 2008.
---------------------------------------------------------------------------
    With less than 5 percent of the Federal research and development 
budget, NSF funds 22 percent of all federally sponsored basic research 
at academic institutions. It is the principal source of Federal 
research support in many fields and provides necessary funding for 
unique, large-scale research facilities.\2\ NSF also plays a 
significant role in advancing medical research: forty-one Nobel Prizes 
have been awarded to NSF-funded scientists for contributions in 
physiology or medicine, including the groundbreaking work that lead to 
the development of magnetic resonance imaging (MRI).\3\ NSF's mission 
is not limited to advancing scientific research: the agency is also 
committed to achieving excellence in science, technology, engineering, 
and math education at all levels. NSF supports a wide variety of 
initiatives aimed at preparing science teachers, developing innovative 
curricula, and engaging students in the process of scientific 
discovery.
---------------------------------------------------------------------------
    \2\ National Science Foundation. http://www.nsf.gov/about/. 
Accessed November 26, 2008.
    \3\ National Science Foundation (2007). Nobel Prizes--The NSF 
Connection. http://www.nsf.gov/news/special_reports/nobelprizes/
med.jsp. Accessed November 26, 2008.
---------------------------------------------------------------------------
Advancing Discovery in Science and Engineering
    Each year, NSF funding results in grants to more than 200,000 
scientists, teachers, and student researchers for cutting-edge projects 
at thousands of institutions across the country. Following are just a 
few highlights of the innovative research and education projects 
supported by NSF.
  --Advancing Organ Transplant Technology.--Researchers discovered that 
        certain frogs produce an ``anti-freeze'' that prevents their 
        cells from being damaged by the chemical changes that occur 
        when they are frozen. As a result, these frogs can survive for 
        months in freezing weather even though their major organs have 
        come almost to a halt. Research in this area may lead to 
        technologies that enable human organs to be preserved longer, 
        resulting in improved transplantation success rates.
  --Biologically Inspired Nanocapsules.--Basic research on the origin, 
        structure, and function of naturally occurring nanocapsules is 
        providing scientists with the information necessary to engineer 
        these molecules for medically-relevant tasks. These tiny 
        capsules may be used to deliver drugs directly to cancer cells, 
        correct genetic mutations, or extract toxins from cells.
  --Engineering Safer Metals.--Materials scientists and engineers have 
        invented a super-strong and light weight metal foam that 
        significantly reduces the force of collisions by absorbing much 
        of the energy of the impact. At a fraction of the weight of 
        bulk steel, this foam has an array of life-saving safety 
        applications in the automobile, aerospace, and health care 
        industries.
  --Nurturing the Next Generation of Scientists--One of many NSF 
        programs to prepare future scientists, the Integrated Graduate 
        Education Research and Training (IGERT) program supports 125 
        doctoral degree programs that foster collaborative and 
        interdisciplinary training in emerging scientific domains. 
        IGERT trainees have produced important scientific and 
        technological breakthroughs, including a handheld imaging 
        device that can detect breast tumors and ``bio-transformable'' 
        materials that can be implanted into the body to deliver drugs 
        or open blood vessels.

Investing in the Future
    ``Keeping our competitive edge in the world economy requires 
policies that lay the ground work for continued leadership in 
innovation, exploration, and ingenuity''--Domestic Policy Council. 
American Competitiveness Initiative: Leading the World in Innovation, 
2006
    Since its creation in 1950, NSF support for research projects 
across the country has fueled innovation, energized the economy, and 
improved the quality of life for all Americans. NSF's strategic plan 
for the future \4\ will ensure that, even as the global science and 
engineering landscape changes, the United States remains at the 
forefront of the enterprise. In the years ahead, funding for NSF will 
allow the agency to enhance support for the instrumentation, 
facilities, and equipment that scientists need to advance discovery, 
promote transformational, interdisciplinary research projects, and 
foster innovative approaches to science education and training at all 
levels.
---------------------------------------------------------------------------
    \4\  National Science Foundation (2006). Investing in America's 
Future: Fiscal Year 2006-2011. http://www.nsf.gov/pubs/2006/nsf0648/
NSF_06_48.pdf, Accessed October 31, 2007.
---------------------------------------------------------------------------
    We are very grateful for the robust investments in NSF provided by 
the Omnibus Appropriations Act of 2009 and the American Recovery and 
Reinvestment Act (ARRA). We are also grateful for the commitment to NSF 
funding established by the America Creating Opportunities to 
Meaningfully Promote Excellence in Technology, Science, and Education 
(COMPETES) act.\5\ It is important that in fiscal year 2010 and future 
years, those investments are sustained and that commitment realized by 
steady and reliable growth for the NSF. For this reason, FASEB supports 
an fiscal year 2010 appropriation for the National Science Foundation 
(NSF) of $7 billion.
---------------------------------------------------------------------------
    \5\ H.R. 2272. America Creating Opportunities to Meaningfully 
Promote Excellence in Technology, Science, and Education (COMPETES). 
August 2007.
---------------------------------------------------------------------------
                                 ______
                                 

      Prepared Statement of the Institute of Makers of Explosives

    Dear Madam Chairman: On behalf of the Institute of Makers of 
Explosives (IME), I am submitting a statement for inclusion in the 
subcommittee's hearing record regarding the proposed fiscal year 2010 
budget for the Bureau of Alcohol, Tobacco, Firearms & Explosives (ATF) 
Arson and Explosives (A&E) program.

Interest of the IME
    The IME is the safety and security association of the commercial 
explosives industry. The production, distribution, storage and use of 
explosives are highly regulated. ATF is one of the agencies that play a 
primary role in assuring that explosives are identified, tracked, and 
stored only by authorized persons. The ability to manufacture, 
distribute and use these products safely and securely is critical to 
this industry. While we do not have access to the Administration's 
fiscal year 2010 budget request for ATF, we have the following comments 
about its impact on the commercial explosives industry.

Addressing Statutory Mandates
    The commerce of explosives is one of the Nation's most heavily 
regulated activities. As noted above, ATF plays a key role in this 
regulatory scheme through its implementation of Federal Explosives Law 
(FEL). The FEL requires ATF to ``protect interstate and foreign 
commerce,'' \1\ which commerce is the business of the commercial 
explosives industry. This mission seems to be tabled in the agency's 
quest to be a lead terrorist/criminal agency. While ATF claims to work 
with industry members to make regulation less burdensome, the needs of 
the legitimate explosives industry are secondary to the agency's 
criminal enforcement interests. By statute, ATF is supposed to ``take 
into consideration . . .the standards of safety and security recognized 
in the explosives industry'' when issuing rules and requirements.\2\ 
But, our recommendations are often overlooked, and attendant safety and 
security benefits are unrealized. With this perspective, we offer the 
following comments on ATF's budget and program performance.
---------------------------------------------------------------------------
    \1\ Public Law 91-452, Sec. 1101.
    \2\ 18 U.S.C. 842(j).
---------------------------------------------------------------------------
Adequacy of Budget Resources
    We understand the need of the Obama administration to review and 
modify as appropriate budget requests prepared by the last 
administration. This delay in the release of the bureau's budget 
justification hampers our ability to file detailed comments on the 
adequacy of the budget request for ATF's arson and explosives program. 
With one notable exception, the fiscal year 2009 appropriation for the 
A&E account appears to be that only necessary to sustain current 
services. We question whether a current services budget is sufficient 
for level of engagement and oversight expected of the bureau, not only 
of the private sector, but as has been documented in oversight 
hearings, the bureau's outreach to public sector explosives users.
    The one notable exception is the fiscal year 2009 set-aside of 
$200,000 for the bureau to begin addressing it pending regulatory 
backlog. This backlog remains a source of concern to the regulated 
community. We are grateful to Congress for your oversight of this issue 
and for taking steps to address the problem.

Industry Standards
    We take seriously the statutory obligation that ATF take into 
account industry's standards of safety when issuing rules and 
requirements. We have endeavored to fulfill this obligation through the 
development of industry best practices for safety and security, 
participation in relevant standard-setting organizations, and forums 
for training. We have offered ATF recommendations that we believe will 
enhance safety and security through participation in the rulemaking 
process, in the Bureau's research efforts, and in other standard 
setting activities. Our interface with ATF in these settings prompts 
the following comments.
  --Rulemakings.--ATF currently has five open rulemakings of interest 
        and concern to the explosives industry, one less than the same 
        number of outstanding dockets reported in our comments last 
        year. We are disappointed to report that the reduction in the 
        number of rulemakings is not due to the bureau finalizing a 
        rule. Rather, the reduction is due to the fact that the bureau 
        withdrew a rulemaking.\3\ This particular rulemaking was the 
        result of a petition filed by industry. The intent of the 
        rulemaking was to update and harmonize existing rules. Of the 
        remaining rulemaking dockets, the oldest was proposed in 2001. 
        Several are a result of the enactment of the 2002 Safe 
        Explosives Act (SEA). Two of these rulemakings were issued as 
        ``interim final rules,'' which allows rules to be enforced 
        without public input as to the effect of the rule on the 
        regulated community. Subsequently, IME raised a number 
        interpretative questions and concerns about these rules which 
        are critical to the continued commerce of commercial 
        explosives. Yet once again, ATF has delayed the projected date 
        for finalizing these IFRs until April 2009 and August 2009 
        respectively, and has delayed the projected dates for 
        finalizing every other open rulemaking of significance to IME 
        except one. The one, dealing with the delivery of explosives by 
        common or contract carriers, is projected to be finalized this 
        month.\4\
---------------------------------------------------------------------------
    \3\ RIN 1140-AA01, withdrawn May 7, 2008. The withdrawal was not 
announced at the time in the Federal Register. Rather, industry was 
informed of the bureau's action over 6 months later when its regulatory 
agenda was published in the Federal Register on November 24, 2008.
    \4\ RIN 1140-AA20.
---------------------------------------------------------------------------
    As noted above, Congress has directed the ATF to address these 
        long-standing rulemaking concerns. In the absence of rulemaking 
        that is capable of keeping up with new developments and 
        practices, industry must rely on interpretive guidance and 
        variances from rules to conduct business. While we appreciate 
        that bureau's accommodations, these stop-gap measures do not 
        afford the protections that rulemaking would provide the 
        regulated community, nor allow the oversight necessary to 
        ensure that all parties are being held to the same standard of 
        compliance. These regulatory tasks may be at odds with ATF's 
        vision as a law enforcement agency, but they are critical to 
        the lawful conduct of the commercial enterprises the bureau 
        controls.
  --Data.--ATF is continuing efforts to enhance data capabilities. 
        These efforts should be supported. We are only disappointed in 
        one aspect. We rely on ATF's data collection and analysis 
        capabilities. IME needs data about incidents and theft and 
        losses to perfect our safety and security recommendations and 
        practices. The latest full-year information we have about 
        explosive incidents is from 2006. Last November, we initiated a 
        specific information request for any record ATF may have about 
        thefts of explosives in transportation last November after 
        seeing data from the bureau alleging two incidents and failing 
        to verify these incidents from any other source. We are still 
        waiting for this information. We urge the Subcommittee to 
        ensure that ATF has the resources to gather and release this 
        information in a timelier manner.
  --IMESAFR.--IME prides itself in being the safety and security 
        advocates for the commercial explosives industry. The technical 
        expertise of our members is a resource we gladly share with 
        government agencies. In this regard, IME has spent years 
        developing and validating a credible alternative to strict 
        interpretation of quantity-distance tables used to determine 
        safe setback distances from explosives in collaboration the 
        Department of Defense Explosives Safety Board and Canadian and 
        U.S. regulatory agencies, including ATF. The result is a 
        windows-based computer model for assessing the risk from a 
        variety of commercial explosives activities called IMESAFR.\5\ 
        Not only can IMESAFR determine the amount of risk presented, 
        but it can also determine what factors drive the overall risk 
        and what actions would lower risk, if necessary. The 
        probability of events for the activities were based on the last 
        20 years experience in the United States and Canada and can be 
        adjusted to account for different explosive sensitivities, 
        additional security threats, and other factors that increase or 
        decrease the base value. Following this effort, we expected 
        that ATF would be willing to recognize this powerful assessment 
        tool as an alternative for the regulated community to meet 
        quantity-distance limitations, which limitations are themselves 
        standards developed by the IME. However, this has not been the 
        case. ATF has not taken full advantage of opportunities to 
        partner with IME and accept this or any other risk-based 
        approach to explosives safety. ATF's reluctance to recognize 
        risk-based modeling is contrary to the norm practiced by all 
        other Federal agencies with regulatory responsibilities over 
        the explosives industry. We believe that the consistency of 
        risk analysis offered by IMESAFR is preferable to the 
        subjective approach ATF may use to address setback issues now.
---------------------------------------------------------------------------
    \5\ IMESAFR was built on the DDESB's software model, SAFER. The 
DDESB currently uses SAFER and table-of-distance methods to approve or 
disapprove Department of Defense explosives activities.
---------------------------------------------------------------------------
Performance Measure Improvements
    For a number of years, IME has expressed concern about the lack of 
appropriate performance measures for the commercial explosives 
industry. Currently, ATF has eight performance indicators that apply to 
its arson and explosives program, and of those, three apply to the 
commercial explosives industry.\6\ Two are statutory requirements to 
investigate explosives thefts and to inspect explosives licensees and 
permittees. The most beneficial indicator, at this time, is that 
reporting on the resolution of unsafe explosives conditions discovered 
by inspections. However, the regulated community has asked for other 
indicators such as the percent of explosives applications acted on 
within 90 days; the number of background checks that ATF has performed, 
within what average timeframe, and of those, how many individuals 
failed to receive clearance, and of those, how many appealed the 
Bureau's findings; the number of rulemakings outstanding and their 
priority; and turnover rates among agents and inspectors. Yet, ATF has 
not adopted any of these measures. Absent information of this type, it 
is unclear how Congress can effectively oversee ATF's handling of its 
responsibilities toward the regulated community or determine the 
adequacy of its budget request.
---------------------------------------------------------------------------
    \6\ ATF Strategic Plan--Fiscal Years 2004-2009.
---------------------------------------------------------------------------
    We are also concerned at the drop in the performance of the A&E 
program as measured by the Program Assessment Rating Tool (PART).\7\ 
During assessment year 2004, the A&E program was rated ``moderately 
effective.'' By 2008, the rating of the A&E program had fallen to 
``adequate.'' The program's scores fell in all categories:
---------------------------------------------------------------------------
    \7\ http://www.whitehouse.gov/omb/expectmore/detail/
10002202.2008.html. PART was developed to assess and improve program 
performance so that the Federal Government.

                              [In percent]
------------------------------------------------------------------------
                 Section                    Score--2004     Score--2008
------------------------------------------------------------------------
Program purpose & Design................             100              80
Strategic Planning......................              88              75
Program Management......................             100              43
Program Results/Accountability..........              67              40
------------------------------------------------------------------------

    To improve the performance of the program, ATF has stated that it 
would conduct independent program evaluations to determine whether the 
program is effective and achieving results. We would welcome an 
independent audit of the program, and believe that the timing for such 
an audit is ripe given the new administration's pledge of transparency 
and accountability.
Leadership
    The resolution of these issues may have to wait the appointment of 
a new director. The ATF has been without a director since August 2006. 
We hope that an appointment will soon be announced. The bureau has been 
too long without permanent leadership.
Conclusion
    The manufacture and distribution of explosives is accomplished with 
a remarkable degree of safety and security. We recognize the important 
role played by ATF in helping our industry achieve and maintain safe 
and secure workplaces. Industry and the public trust that ATF has the 
resources to fulfill its regulatory responsibilities. It is up to 
Congress and, in particular, this Subcommittee to ensure that ATF has 
the resources it needs. We strongly recommend full funding for ATF's 
explosives program.
                                 ______
                                 

            Prepared Statement of The Trust for Public Land

    Chairwoman Mikulski and Ranking Member Shelby, thank you for the 
opportunity to submit testimony in support of funding for the Coastal 
and Estuarine Land Protection Program (CELCP) administered by the 
National Oceanic and Atmospheric Administration (NOAA). My statement 
today urges you to provide funding through the CELCP program to the 
coastal and lake States and the territories at the level of $60 million 
in fiscal year 2010. This funding is necessary to protect the ecologic, 
recreation, historic and aesthetic values and the economic vitality of 
our coastal communities.
    The Trust for Public Land (TPL) is a national nonprofit land 
conservation organization that conserves land for people to enjoy as 
parks, community gardens, natural and scenic areas, historic sites, 
working landscapes, and other public assets. Since 1972, TPL has worked 
with willing landowners, community groups, and national, State, and 
local agencies to complete more than 4,000 land conservation projects 
that protect more than 2.5 million acres in 47 States and the 
territories. TPL has partnered with NOAA, private landowners, and State 
and local governments on over 50 CELCP-funded coastal land protection 
projects. Since 1988, TPL also has helped States and communities craft 
and pass over 463 ballot measures, generating almost $31 billion in new 
conservation-related funding. These conservation measures provide an 
important source of State and local matching funding for CELCP and 
other federal land protection programs.
    TPL and other non-governmental partners invest our energies, 
funding, and staff in the places where the threats to open spaces are 
most urgent. Not surprisingly, many of those public-private 
conservation partnerships have focused on our Nation's dwindling 
coastal open spaces. Even with the considerable focus on our most 
critical coastal ecosystems and shorelines, we continue to fall farther 
and farther behind in our efforts to help State and local government 
partners protect the coastal open spaces. In recent years, we have 
witnessed an unprecedented pace of resource-damaging development along 
our coastlines. The need for prompt conservation action in these 
sensitive and challenged areas is only increasing. The recent economic 
downturn may well provide a window of opportunity when public 
conservation agencies and partners can better compete and stretch 
limited acquisition dollars further, making this a wise time for 
strategic federal investment in coastal conservation.
    Coastal protection provides many public benefits including 
buffering from storms and floods, filtering pollution and maintaining 
water quality, providing waterfront and coastal access for public 
recreation, supporting fish and shellfish populations important to 
commercial and recreational fisheries, preserving coastal habitats for 
nesting and foraging birds, and securing habitat for native wildlife 
including threatened and endangered species. The CELCP program is the 
only Federal program dedicated exclusively to helping coastal 
communities protect their natural and recreational heritage. CELCP is 
essential federal funding, that allows State and local governments, and 
their private conservation partners, to respond effectively to coastal 
conservation needs. The recent NOAA eligibility requirement that each 
coastal State develop a Coastal and Estuarine Land Conservation Plan 
helps ensure that both federal and non-federal dollars are being 
smartly targeted and wisely spent.
    The spiraling development pressures upon our Nation's coastal zone 
are obvious and well documented. Since 1970, coastal areas have 
experienced steady increases in population. According to NOAA, coastal 
counties constitute only 17 percent of the Nation's land areas, but 
account for 53 percent of its populations--a population density five 
times greater than non-coastal counties. According to the U.S. 
Commission on Ocean Policy, ``more than $1 trillion, or one-tenth of 
the Nation's annual gross domestic product, is generated within the 
relatively narrow strip of land immediately adjacent to the coast that 
we call the nearshore zone. When the economies throughout coastal 
watershed counties are considered, the contribution swells to over $45 
trillion, fully half of the Nation's gross domestic product, accounting 
for some 60 million jobs.'' The health of our coasts is inextricably 
linked with the economic health of the Nation.
    In 2002, Congress stepped in to respond to that need and enhance 
the Federal role within the Federal-State coastal conservation 
partnership by creating the Coastal and Estuarine Land Conservation 
Program (CELCP) to protect ``those coastal and estuarine areas with 
significant conservation, recreation, ecological, historical, or 
aesthetic values, or that are threatened by conversion from their 
natural or recreational States to other uses.'' Authorized at $60 
million annually, funding for the program grew from an initial $15 
provided in fiscal year 2002, to a high of $50 million in 2004, before 
declining each subsequent year to a low of $8 million in fiscal year 
2008. Despite its uneven funding history, the CELCP program has built 
an impressive track record. To date, the over $200 million provided by 
Congress for the CECLP program has funded over 150 conservation 
projects in 26 of the Nation's coastal States and territories helping 
to protect approximately 35,000 acres. This Federal funding has been 
leveraged by at least an equal amount of State, local and private 
matching investments, demonstrating the broad support for the program, 
the importance of coastal protection, and the critical role of Federal 
funding to accelerate coastal protection. Inclusion of the Coastal and 
Estuarine Land Protection Act in the recently passed H.R. 146, the 
Omnibus Public Lands Management Act of 2009, formally codifies CELCP 
and recognizes the program's achievement and significance.
    In 2007, by directive from this subcommittee, NOAA instituted a 
competitive grants selection process for the CELCP program. The CELCP 
team at NOAA has done an impressive job of managing this transition and 
creating a thorough competitive grants process. In the last 3 years, 
NOAA, in partnership with the States, has identified over $230 million 
of vetted and ranked projects. While we support the competitive nature 
of the program, full funding at $60 million annually is needed to meet 
the demand of increasingly high-quality projects being developed by 
States with other partners and submitted to NOAA. We were pleased to 
see the program funding increased to $15 million in fiscal year 2009, 
reversing a 5-year funding decline. However, this will only fund the 
first eight or so of the 43 competitively ranked projects in fiscal 
year 2009, meeting a fraction of the total project need of $63 million.
    The CELCP program is the only Federal program dedicated exclusively 
to helping coastal communities protect their natural and recreational 
heritage. CELCP provides essential Federal funding that allows State 
and local governments, and their private conservation partners, to 
respond effectively to coastal conservation needs. Perhaps the best way 
to underscore the critical value of this program to the American people 
is to provide some examples of the projects seeking funding in fiscal 
year 2010:

Lapakahi Marine Life Conservation District (MLCD), Hawaii County, 
        Hawaii
    CELCP funding will protect the last privately held property 
fronting the Lapakahi MLCD on the North Kohala coast of the big island 
of Hawaii. This 17.05-acre tract includes 200 feet of shoreline and 
will connect a total of 1.75 miles of publicly held coastline and 
protect habitat for the threatened green sea turtle and the endangered 
Hawaiian monk seal. The requested $1.25 million from the Hawaii Legacy 
Land Conservation Fund Program will match CELCP funding in the amount 
of $1.25 million.

Magnolia Hill Conservation Project, Massachusetts
    The City of Gloucester, The Trust for Public Land, The Trustees of 
Reservations, and Essex County Greenbelt Association are working to 
protect the 109-acre Magnolia Hill property in the coastal area of 
Essex County, MA. This upland habitat overlooking Gloucester Harbor 
represents an intact Oak-Hemlock-White Pine forest and wooded swamp 
supporting the State-listed Blue spotted Salamander and State-
endangered Sweetbay Magnolia. The property drains into a 12-acre tidal 
coastal salt pond, Clark Pond, and connects 1,270 acres of contiguous 
protected coastal zone habitat. $3 million in CELCP funding will be 
matched by an equal amount of State, local and private funds.
Harsens Island Conservation Area, Lake St. Clair, Michigan
    The 547-acre Harsens Island Conservation Area lies at the heart of 
the St. Clair flats--the largest freshwater delta in the world. Located 
on both the Atlantic and Mississippi flyways, migratory waterfowl use 
of these coastal waters and wetlands has historically reached three 
million annually. Protection will enhance public access for recreation, 
eliminate the threat of development, and protect sensitive coastal 
habitat. $7 million in Michigan Natural Resources Trust Fund dollars 
will match a $3 million CELCP grant.

Houghton Falls Nature Preserve, Lake Superior, Bayview Township, 
        Wisconsin
    Seventy-seven acres on the Bayfield Peninsula with 2,230 feet of 
Lake Superior shoreline will be protected as a Bayfield town park. This 
rare boreal forest habitat contains numerous species of concern 
including the Gray Wolf, Northern Flying Squirrel, Woodland Jumping 
Mouse, and Water Shrew. The property is an important stopover for 
Neotropical migratory birds, and a fish nursery for Lake superior 
whitefish and other species. A $1.423 million CELCP grant will be 
equally matched with funding from the Wisconsin Knowles-Nelson 
Stewardship Fund.

Kiket Island Addition to Deception Pass State Park, Phase II, Skagit 
        County, WA
    A $3 million CELCP grant will purchase the final 40 acres of the 
Kiket Island project in northern Puget Sound to protect a total of 96 
acres of high quality coastal habitat and over two miles of shoreline 
threatened. Kiket Island is an intact, intertidal zone with all eight 
species of Puget Sound anadromous fish, including the endangered 
Chinook salmon and bull trout. The forested portion of Kiket Island 
provides excellent habitat for bird, including owls, and other native 
wildlife. A $3 million CELCP grant will be matched with $3.431 million 
from Washington State Parks.

Ayers Creek-Holly Grove Swamp, Worcester County, Maryland
    To be protected are 431 acres along Ayers Creek within the waters 
of Newport Bay and the larger Maryland Coastal Bays area. The property, 
including one-half mile of tidally influenced shoreline, will be added 
to the State's Ilia Fehrer Nature Reserve. The forested wetlands are 
important habitat for eleven State and/or federally listed species. $1 
million from Maryland Program Open Space and $250,00 from Worcester 
County Program Open Space Funds will match $1.25 million in CELCP 
funding.

Keewaydin Island, Rookery Bay National Estuarine Research Reserve, 
        Florida
    TPL is working in partnership with the State of Florida to protect 
five crucial acres of beach front within and adjoining the Rookery Bay 
National Estuarine Research Reserve (RBNERR). The RBNERR protects the 
largest and most pristine subtropical mangrove estuary in the world, 
with over 150 species of wading, nesting and migratory birds, and 
numerous threatened and endangered species including the Atlantic 
loggerhead sea turtle, gopher tortoise, least tern, piping plover, and 
West Indian manatee. $1.5 million from the Florida Forever Program will 
match a $1.5 million CELCP grant.

San Miguel Natural Reserve III, Puerto Rico
    Fiscal year 2010 CELCP funding will complete the final phase of 
this 601-acre coastal land protection effort at the San Miguel Natural 
Reserve on the northern coast of Puerto Rico. One of the last 
ecologically functional wetlands together with an undeveloped coastal 
shoreline, this area is home to forty-two critical species, including 
nesting grounds for the federally listed Leatherback sea turtle. A $3 
million CELCP grant, matched by a land value donation from the 
landowner, will protect the final 179 acres.
    These several examples are just a small representation of the 
breadth and depth of CELCP program needs for the coming year across our 
Nation's coastal geographies and communities. In closing, The Trust for 
Public Land urges you to provide full funding of the CELCP program at 
the authorized level of $60 million in fiscal year 2010 for this 
critically important program. This level of Federal commitment is 
necessary to meet the demonstrated program need and to position NOAA to 
be fully responsive to the many State and local governments and private 
partners working together to protect our coastal heritage. Thank you.

 
       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
American Museum of Natural History, Prepared Statements of.....203, 204
American Physiological Society, Prepared Statement of............   205
American Society for Microbiology, Prepared Statement of.........   209
American Society of Agronomy, Prepared Statement of..............   206

Brownback, Senator Sam, U.S. Senator From Kansas, Question 
  Submitted by...................................................   201

Crop Science Society of America, Prepared Statement of...........   206

Federation of American Societies for Experimental Biology, 
  Prepared Statement of..........................................   214

Geological Society of America, Prepared Statement of.............   211

Holder, Hon. Eric H., Jr., Attorney General, Department of 
  Justice........................................................    51
    Prepared Statement of........................................    56
    Statement of.................................................    54

Institute of Makers of Explosives, Prepared Statement of.........   215

Lautenberg, Senator Frank R., U.S. Senator From New Jersey, 
  Question Submitted by..........................................    86
Leahy, Senator Patrick J., U.S. Senator From Vermont, Questions 
  Submitted by...................................................    26
Locke, Hon. Gary F., Secretary, Secretary of Commerce, Department 
  of Commerce....................................................     1
    Statement of.................................................     6

Mikulski, Senator Barbara A., U.S. Senator From Maryland:
    Opening Statements of....................................1, 51, 105
    Questions Submitted by.......................................    23
    Statement of.................................................   175
Mueller, Hon. Robert S., III, Director, Federal Bureau of 
  Investigation, Department of Justice...........................   175
    Prepared Statement of........................................   181
    Statement of.................................................   179
Murray, Senator Patty, U.S. Senator From Washington, Questions 
  Submitted by...................................................    50

Nelson, Senator Ben, U.S. Senator From Nebraska, Questions 
  Submitted by...................................................    29

Pryor, Senator Mark, U.S. Senator From Arkansas, Questions 
  Submitted by...................................................   197

Reed, Senator Jack, U.S. Senator From Rhode Island, Questions 
  Submitted by...................................................    28

Scolese, Christopher J., Acting Administrator, National 
  Aeronautics and Space Administration...........................   105
    Prepared Statement of........................................   115
    Statement of.................................................   113
Shelby, Senator Richard C., U.S. Senator From Alabama:
    Questions Submitted by.......................................30, 87
    Prepared Statement of........................................   110
    Statements of.......................................3, 53, 108, 177
Soil Science Society of America, Prepared Statement of...........   206

The Trust for Public Land, Prepared Statement of.................   218

Voinovich, Senator George V., U.S. Senator From Ohio:
    Prepared Statement of........................................   112
    Questions Submitted by.......................................    47
    Statement of.................................................   111

 
                             SUBJECT INDEX

                              ----------                              

                         DEPARTMENT OF COMMERCE

                         Secretary of Commerce

                                                                   Page

Accomplishing the Census.........................................    13
Additional Committee Questions...................................    23
Basic Fisheries Science..........................................    22
Broadband Technology Opportunity Program.........................    17
Business Incubators..............................................    17
Census:
    Changes to Decennial Census in Fiscal Year 2009..............    41
    Management Challenges........................................11, 12
    Partnerships.................................................    14
Commerce Employees...............................................    11
Development of Sustainable Seafood...............................    16
Digital to Analog Converter Box Coupon Program...................    18
EDA:
    Peer Reviewed Evaluation Process.............................    47
    Trade Adjustment Assistance..................................    28
Economic Assistance to Fisheries.................................    19
Electronic Log Books on the Gulf Shrimp Fleet....................    30
FBI Background Checks............................................    13
Funding for the Denali Commission................................    21
ITA:
    Expanding U.S. Exporting.....................................    45
    Promoting U.S. Exports.......................................    49
    US&FCS.......................................................    26
International Trade..............................................    16
Larvae Sample Analysis...........................................    32
NIST.............................................................    38
NOAA.............................................................30, 50
    Satellites...................................................    15
NTIA:
    BTOP/Targeting Rural Areas...................................26, 29
    Competing for BTOP funds.....................................    28
    ICANN........................................................    46
Ocean Acidification..............................................    23
Recruiting for Temporary Census Jobs.............................    20
Refocusing on Department of Commerce Mission.....................    10
Satellites.......................................................    15
Sustainable Management of Fisheries..............................    22
USPTO............................................................    23
    STOP! Initiative.............................................    47

                         DEPARTMENT OF JUSTICE

                            Attorney General

Additional Committee Questions...................................    82
Agent Certifications.............................................   101
Arms Trafficking Across the Southwest Border.....................    65
ATF Canine Training..............................................    88
Assistance to State and Local Partners...........................    72
Border Czar......................................................    92
Confirmation of Dawn Johnsen.....................................    82
Coordination Between DOJ and DHS.................................    77
COPS:
    Funding......................................................    86
    Program......................................................    70
Computer Digital Forensics.......................................    99
DEA Title 21 Authority...........................................    95
Determinations to Transfer Detainees.............................    63
Disposition of Detainees.........................................    62
DOJ Legal Authority..............................................    90
Drug Intelligence Information....................................    76
Expiring Provisions of the Adam Walsh Act........................    90
Explosives:
    Grenade Tracing Resources in Mexico..........................    88
    Trafficking in Mexico........................................    87
FBI:
    Criminal Investigative Abilities.............................    97
    Forensics....................................................    97
Federal and State Partnerships Targeting Foreclosure Scams and 
  Loan Modification Fraud........................................    59
Funding for Closure of Guantanamo Bay............................    85
GAO Study........................................................    93
Grantmaking to State and Local Governments.......................    78
Gun Violence.....................................................    68
IG Report on the Terrorist Watch List............................    79
Implementing the President's Executive Orders to Close Guantanamo    58
Influenza........................................................    90
Intellectual Property............................................    94
    Enforcement..................................................    84
Interrogation Techniques.........................................    75
Investigation of Interrogations..................................    66
Juvenile Justice Programs........................................    73
Law Enforcement Wireless Communications..........................    95
Methamphetamine..................................................   100
NAS Study........................................................   102
NIBIN:
    Ballistics...................................................    91
    Project Gunrunner, and Ballistics Imaging....................    77
National Security: Counter-Terrorism Efforts Since 9/11..........    57
New FOIA Guidelines and Resources................................    85
Office of:
    Legal Counsel--OPR Report and Johnsen Nomination.............    86
    Professional Responsibility Inquiry..........................    66
Patriot Act Reauthorization Unanswered Letter Asking for 
  Proposals......................................................    86
Peer to Peer Child Pornography Groups............................    98
Prosecutor Discretion............................................    68
Racial Profiling.................................................    69
Review of Detainee Cases.........................................    60
Second Chance:
    Act..........................................................    93
    Duplication..................................................    94
Southwest Border:
    Initiative...................................................    71
    Violence.....................................................    57
State Secrets Doctrine...........................................    81
Student Loan Repayment Program...................................   102
Supplemental Funding--Guantanamo Bay.............................    89
Training of Prosecutors..........................................   102
Treatment of Terrorism Suspects..................................    67
Unified Financial Management System..............................    59
Violent Crime/Support of Local Law Enforcement...................    83

                    Federal Bureau of Investigation

Additional Committee Questions...................................   197
Criminal.........................................................   183
Cyber............................................................   182
Infrastructure...................................................   184
Intelligence.....................................................   182
Technology.......................................................   183
2010 Budget Request..............................................   181

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

Acquisition Process..............................................   165
Ares-V.........................................................127, 128
Cost Overruns....................................................   128
Fiscal Year 2009 Recovery Act Spend Plan.........................   127
Global Climate Change............................................   134
Hubble:
    Contributions................................................   172
    Repair Mission...............................................   171
    Space Telescope..............................................   166
Human Spaceflight................................................   125
NASA:
    Education Program..........................................161, 163
    Educational Efforts..........................................   161
    Spend Plan...................................................   126
Practical Applications...........................................   133
Retention........................................................   131
Science..........................................................   132
Section 505 of the Omnibus.......................................   127
Shuttle Workforce Transition Plan................................   130
Soyuz............................................................   125
Space Shuttle:
    Atlantis Testimony...........................................   170
    Crew Introduction............................................   168
Ten Healthy Center Concept.......................................   130
The Astronaut Experience.........................................   170
U.S.-Russia Partnership..........................................   129

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
